<html>
<title> - ISSUES AFFECTING FAMILIES OF SOLDIERS, SAILORS, AIRMEN, AND MARINES</title>
<body><pre>[Senate Hearing 108-670]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-670
 
  ISSUES AFFECTING FAMILIES OF SOLDIERS, SAILORS, AIRMEN, AND MARINES

=======================================================================

                                HEARINGS

                               before the

                       SUBCOMMITTEE ON PERSONNEL

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          UNITED STATES SENATE

                       JUNE 2 AND OCTOBER 7, 2003

                                  AND

                             JOINT HEARINGS

                               before the

                       SUBCOMMITTEE ON PERSONNEL

                                 of the

                      COMMITTEE ON ARMED SERVICES

                                  AND

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 of the

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS
                          UNITED STATES SENATE

                     JUNE 24 AND DECEMBER 11, 2003

                               __________

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
966-602PDF                 WASHINGTON DC:  2005
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

                       Subcommittee on Personnel

                   SAXBY CHAMBLISS, Georgia, Chairman

SUSAN M. COLLINS, Maine              E. BENJAMIN NELSON, Nebraska
ELIZABETH DOLE, North Carolina       EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                                 ______

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN WARNER, Virginia                HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                   Marguerite Sallee, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
  Issues Affecting Families of Soldiers, Sailors, Airmen, and Marines
                              june 2, 2003

                                                                   Page

Isaacs, Peter F., Deputy Director, Community and Family Support 
  Center, USA....................................................     5
Purcell, Rear Adm. (Sel.) Marc L., USN, Assistant Commander for 
  Personnel Readiness and Community Support, Navy Personnel 
  Command........................................................    10
Yanello, Col. Gerald L., USMC, Deputy Director, Personnel and 
  Family Readiness Division, Headquarters, United States Marine 
  Corps..........................................................    19
Murray, Barbara, Chief, Force Sustainment Division, Headquarters, 
  United States Air Force........................................    23
Heifferon, Linda, Director, Directorate for Community Activity 
  and Services, Fort Stewart, Georgia............................    37
Kelly, Dr. John, Program Manager for Community Support, Navy 
  Region Southeast, Naval Air Station Jacksonville, Florida......    42
Lukens, Ann, Director, Family Support Center, Moody Air Force 
  Base, Georgia..................................................    45
Payne, Kate, Spouse of Cpt. Matt Payne, USA......................    55
Palomo, Chrystie, Spouse of Sgt. Philip Palomo, USA..............    58
Edmondson, Krischele, Spouse of MM1 (SS) Richard Edmondson, USN..    61
Bush, Marian, Spouse of Capt. Jason Bush, USAF...................    61
Matthews, Semantha, Spouse of Tsgt. Lawrence Matthews, USAF......    61

  Issues Affecting Families of Soldiers, Sailors, Airmen, and Marines
                             june 24, 2003

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............    74
Dodd, Hon. Christopher, U.S. Senator from Connecticut............    76
Molino, Hon. John M., Deputy Under Secretary of Defense for 
  Military Community and Family Policy...........................    81
Tafoya, Dr. Joseph, Director, Department of Defense Education 
  Activity.......................................................    89
Scott, Col. James L., II, ARNG, Director, Individual and Family 
  Support, Office of the Assistant Secretary of Defense for 
  Reserve Affairs................................................    91
Petrilli, Michael J., Associate Deputy Under Secretary for 
  Innovation and Improvement, Department of Education............    95
MacDermid, Shelley M., Ph.D., Co-Director, Military Family 
  Research Institute, Purdue University..........................   110
Raezer, Joyce Wessel, Director, Government Relations, National 
  Military Family Association....................................   114
Lucas, M.A., Director, Army Child and Youth Services, U.S. Army 
  Community and Family Support Center............................   133

                                 (iii)
         Issues Relating to the Education of Military Children
                            october 7, 2003

Deegan, Dr. John F., Superintendent, Bellevue Public School 
  District and CEO of Military Impacted Schools Association......   153
Thomas, Otto J., Director of Educational Opportunities, Office of 
  the Under Secretary of Defense for Personnel and Readiness.....   157
Simon, Senior Master Sergeant Thomas, USAF; Accompanied by Mrs. 
  Michele Simon..................................................   165
Bruno, Marie.....................................................   166
Lemasters, Navy Petty Officer Maria..............................   166
Bruce, Marion....................................................   166
Murphy, Sheila...................................................   168

   Issues Affecting Families of Reserve and National Guard Soldiers, 
                      Sailors, Airmen, and Marines
                           december 11, 2003

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............   187
Winkler, John P., Ph.D., Deputy Assistant Secretary of Defense 
  for Reserve Affairs (Manpower and Personnel)...................   190
Scott, Col. James L., II, ARNG Director, Individual and Family 
  Policy, Office of the Assistant Secretary of Defense for 
  Reserve Affairs................................................   191
Hollingsworth, Bob, Executive Director, National Committee for 
  Employer Support of the Guard and Reserve......................   197
Ward, Major Terry, Tennessee National Guard......................   211
Lindsay, Denise, 1st and 181st Battalion Family Readiness Group 
  Representative.................................................   215
Hardin, Major Scott, United States Army Reserve..................   216
Schroyer, Lt. Larry, Chattanooga Police Department...............   217


  ISSUES AFFECTING FAMILIES OF SOLDIERS, SAILORS, AIRMEN, AND MARINES

                              ----------                              


                          MONDAY, JUNE 2, 2003

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                             Warner Robins Air Force Base, Georgia.
    The subcommittee met, pursuant to notice, at 1:00 p.m., in 
Building 1500, the Museum of Aviation at Warner Robins Air 
Force Base, Senator Saxby Chambliss (chairman of the 
subcommittee) presiding.
    Committee member present: Senator Chambliss.
    Majority staff member present: Richard F. Walsh, counsel.
    Minority staff member present: Gerald J. Leeling; minority 
counsel.
    Committee members' assistants present: Clyde A. Taylor IV, 
assistant to Senator Chambliss.

     OPENING STATEMENT OF SENATOR SAXBY CHAMBLISS, CHAIRMAN

    Senator Chambliss. Good afternoon. The subcommittee will 
come to order. The Subcommittee on Personnel meets today to 
receive testimony on issues affecting families of soldiers, 
sailors, airmen, and marines.
    As we are getting started here and before I get into my 
opening statement, I want to, first of all, acknowledge a few 
folks that are here and make a couple of comments about where 
the idea for this came from and what we hope to achieve over 
the next several weeks with respect to a couple of hearings, 
two of which are being held today. One will be held in 
Nebraska, another one will be held back in Washington, DC, and 
possibly even some others after that.
    We are just coming off a very difficult conflict in Iraq 
where our military personnel have performed just amazing feats. 
All of us as Americans, particularly those of us who are 
closely connected with our service personnel, could not be 
prouder of our men and women who serve in uniform and the job 
that they did liberating the people of Iraq. But just as 
important as the men and women who serve in the Armed Forces, 
are the spouses and the family members of those men and women.
    It is critically important that we make sure that we make 
life as easy as possible for our spouses and our children 
because the last thing that we want a family member doing while 
they are serving on active duty is being concerned about what 
is going on back home. We want them to be able to take comfort 
in the fact that, first of all, their spouses are well prepared 
to take care of all the family business and that they have the 
appropriate professional help at each of our military 
installations to make sure that happens and that they get 
whatever assistance they need.
    Second, that the children of those military personnel 
continue to have the opportunity for a quality education, both 
while the spouse is at home as well as while they are deployed, 
and that those children are adapting to Mom or Dad being gone 
at frequent intervals and being placed in harm's way and that 
they, again, are receiving whatever appropriate professional 
needs and services that they might need while their moms and 
their dads are gone.
    I would note that my colleague, and I will refer to it in 
my formal remarks, Senator Lamar Alexander who chairs the 
Subcommittee on Children and Families of the Health, Education, 
Labor, and Pensions Committee, is holding a hearing similar to 
this today. We talked about the idea of doing this several 
weeks ago, and it was unusual that both of us have shared this 
same concern, and the concern on my part was raised once again 
when I visited the spouses of a number of our deployed 
personnel at Hunter Army Airfield over in the Savannah area. He 
had done the same thing at Fort Campbell, Kentucky, which is on 
the Tennessee-Kentucky border, and that is where he is holding 
his hearing today.
    Interestingly enough, there is one other individual who 
shares the same concerns that we do who has been very vocal 
about that. That is First Lady Laura Bush. At the First Lady's 
luncheon a couple of weeks ago she made specific mention of our 
children of military personnel and making sure that, or we want 
to make sure, in her words, that we are doing what is necessary 
to provide the quality education that these children need and 
also to provide them with whatever professional services are 
needed while their parents are deployed, particularly at this 
very difficult time in the life of those families.
    I want to borrow something from her comments that were made 
at that luncheon that day where she quoted a sixth grade 
student. Her name is Kiara. She is a sixth grade student at 
Belle Chasse Academy in Louisiana. Kiara wrote a poem. She is 
the daughter of a military father. This is what she said. Her 
poem was titled ``I Serve Too,'' and it reads as follows:

          ``I'm a military child, I stay strong when my dad 
        goes away. If there's a war and my dad is detached, I 
        will help him fight back. With my braveness and courage 
        I can stay strong, my family's support helps me carry 
        on.
          ``Whenever we move, I start over again, I have to go 
        to a new school, and make new friends. Even though 
        people think I'm a military brat, I just don't quite 
        see it like that.
          ``My daddy helps defend our country, so we can live 
        in peace and harmony. So all the military children help 
        their mothers and fathers because we serve too, we're 
        their sons and daughters.''

    I think that sums up the feeling of a lot of us who over 
the years have become close to these kids and have seen these 
children attend schools on base, off base, having, in some 
instances, critical problems that have to be dealt with in a 
little bit different way from what some of our other children 
have to deal with. I know we have some folks here today who 
know a lot more about it than I do, and I really do look 
forward to hearing from them.
    It is essential that the subcommittee take advantage of 
every opportunity to visit military communities and receive 
firsthand the views of those whose professional and personal 
lives so directly involve the well-being of the men and women 
of the Armed Forces and their families. No State is blessed 
with more outstanding representatives from the Armed Forces 
than Georgia, and it is fitting that the subcommittee's first 
field hearing of the 108th Congress be conducted here in Warner 
Robins.
    I want to thank the Director of the Museum of Aviation here 
at Robins Air Force Base, Paul Hibbits, and all of his staff 
for hosting this event, and to General Wetekam and his team 
here at Robins Air Force Base for their support. These folks 
have been great friends of mine over the years, they do a 
terrific job, and I am just very pleased that a lot of folks 
from around our State are having an opportunity to visit this 
museum today. I hope you will take the time to look around 
because it truly is a great institution and a real jewel of our 
military assets here in our State.
    Before we get started I would like to note for the record 
my appreciation of the strong advocacy of Senator Ben Nelson of 
Nebraska, the ranking member of the Personnel Subcommittee, on 
behalf of the men and women of the Armed Forces. The Committee 
on Armed Services has a strong tradition of bipartisanship, and 
that tradition could not be stronger in the Personnel 
Subcommittee.
    Senator Nelson could not attend today, but he is 
represented by Gary Leeling, his staff member from the Armed 
Services Committee, and we thank Gary for being here. Thank 
you, Gary. Senator Nelson has a prepared statement that I will 
include in the record.
    [The prepared statement of Senator Ben Nelson follows:]

                Prepared Statement by Senator Ben Nelson

    Thank you, Senator Chambliss.
    I am delighted that you called this hearing to explore issues that 
are important to the families of our military personnel.
    We ask alot of our military families. I think it is entirely 
appropriate that you conduct this hearing here in Georgia to hear from 
officials responsible for family support and from family members 
themselves about family life in the military.
    The young men and women serving in our Armed Forces are prepared to 
lay down their lives in service to our Nation. We must ensure that 
their families are well taken care of--that they receive quality 
medical care, their children receive a quality education, and that 
their spouses and children have a quality of life that is at least 
comparable to what they would experience in the civilian world.
    I want to thank our witnesses for appearing here today. I am most 
anxious to hear their concerns and learn what we can do to make their 
lives better.

    Senator Chambliss. I would also like to thank Senator Lamar 
Alexander of Tennessee who is a member of the Senate Committee 
on Health, Education, Labor, and Pensions and chairs its 
Subcommittee on Children and Families.
    Today, Senator Alexander is presiding at a subcommittee 
hearing at Fort Campbell, Kentucky, focusing on military 
families. Later this month we intend to hold a joint hearing of 
our two subcommittees. We plan to work closely together to 
identify areas in which we can cooperate in improving the 
quality of life for military families and share lessons with 
civilian communities about matters involving family support, 
education of dependent children, spousal employment, and 
improved housing and healthcare.
    Military families have been placed under tremendous stress 
in recent years. Even before September 11, 2001 and the global 
war on terrorism, the high tempo of operations for a 
significantly smaller military was a source of great concern 
for the personnel of our All-Volunteer Force. Since September 
11, our active duty, Reserve, and National Guard personnel have 
performed superbly throughout Operations Noble Eagle, Enduring 
Freedom, and Iraqi Freedom, and have responded magnificently to 
the President's call to be ready for all contingencies. 
However, the sacrifices by military personnel and their 
families, the separations endured and the problems that must be 
addressed have only increased.
    My expectation today is that we will gain insight into 
initiatives taken by the Services in the formulation of 
policies at the headquarters level, and also in the 
implementation of those policies at Fort Stewart, at Moody Air 
Force Base, and Naval Submarine Base Kings Bay in providing 
support for individual members and their families.
    I would note that the first question I raised was, since we 
are here at Robins Air Force Base, which has a special place in 
my heart, why do we not have testimony from folks from Robins, 
but I understand that the Services chose the people to come 
testify. We have great experts, we have experts here at Robins, 
too, who could also shed a lot of light on this.
    We have three panels of witnesses who will testify this 
afternoon. First, we will hear from Peter Isaacs, Deputy 
Director for the Army's Community and Family Support Center; 
Rear Admiral Select Marc Purcell, United States Navy, Assistant 
Commander for Personal Readiness and Community Support; Colonel 
Gerald Yanello, United States Marine Corps, Deputy Director of 
the Personnel and Family Readiness Division; and Ms. Barbara 
Murray, Chief of the Force Sustainment Division, United States 
Air Force.
    Our second panel will consist of key family support 
managers from Fort Stewart, Moody Air Force Base, and from the 
Navy's Southeast Region, which includes Naval Submarine Base, 
Kings Bay. They will be followed by a third panel composed of 
spouses of active duty military personnel stationed at each of 
those installations.
    I welcome the members of our first panel. Your written 
testimony will be entered into the record, and in just a minute 
I am going to ask that you proceed.
    First of all, I hope all of you saw me take my Blackberry 
out because if I do not take it out of this holster it will be 
dinging all afternoon. If you would please make sure that your 
Blackberries, cell phones are turned off so that we are not 
interrupted during the course of this hearing.
    There are a couple of other folks that I would like to 
recognize. I mentioned Gary Leeling from the Democratic side of 
the Armed Services staff. I also have my staff on the Personnel 
Subcommittee, Dick Walsh, who is here. A couple of my local 
staff members, Greg Wright from my Atlanta office, my State 
director, Bill Stembridge who a lot of you here from the Robins 
area knows who is from my Macon office. We have Jared Downs 
from Senator Miller's office. Jared, thank you very much for 
being here. Senator Miller and I have an extremely close 
working relationship, and I promise you I will share the 
information taken today with Senator Miller. I also have Clyde 
Taylor from my Washington, DC, staff who handles my legislative 
matters in the Armed Services area.
    With that, I would like to turn to our first panel. Mr. 
Isaacs, you are on our left and we will start with you, and, 
Admiral Purcell, we will move down with you immediately 
following any comments in the form of an opening statement by 
Mr. Isaacs.
    Again, thank you all very much for being here. We look 
forward to hearing from you.

 STATEMENT OF PETER F. ISAACS, DEPUTY DIRECTOR, COMMUNITY AND 
                   FAMILY SUPPORT CENTER, USA

    Mr. Isaacs. Senator Chambliss, it is my pleasure to appear 
before you today at this field hearing to discuss the Army's 
commitment to soldiers and their families and the programs 
designed to support them. I have submitted my statement for the 
record which details these initiatives and I have just a few 
brief comments.
    I want to emphasize our senior leadership's philosophy that 
dictates that soldiers are the centerpiece of our formation. 
Our soldiers and their families deserve the same quality of 
life as the citizens that they are sworn to defend, period, 
non-negotiable.
    In that regard we recognize the unique pressures placed on 
military families. The Army continues to demonstrate that we 
can rapidly deploy forces whenever and wherever they are needed 
in the world. A key component of that success is our Family 
Readiness Program which assures that soldiers and their 
families are well cared for so that the soldier can stay 
focused on the mission.
    Experience has taught us that planning for reunion is as 
important as preparing for deployment. Our Army Community 
Services Programs provide programs to smooth that often 
difficult transition from the deployment to the reentry into 
family life.
    While attending to the issues surrounding deployment, we 
can't ignore the day-to-day challenges of raising and educating 
soldiers' children. Army child care remains a model for the 
Nation. Programs provide child care options designed to reduce 
the conflict between a soldier's parental responsibilities and 
their on-the-job mission requirements.
    We have recently established school liaison services to 
mobilize and use community resources to reduce the impact of 
the mobile military lifestyle on military children and youth; 
to implement the predictable support services to assist with 
relocation, life transitions, and academic success.
    These programs provide parents, children, schools, 
commanders, and communities access to a wide range of resources 
that facilitate school transition.
    To address these concerns we listen to our soldiers, their 
spouses, and commanders as we develop policies, programs, and 
support systems. Our greatest challenge is to continue to meet 
our standards for delivering programs within available 
resources. With your continued support, we will fully embrace, 
resource, and support the programs that meet the needs of these 
spectacular and special families.
    Thank you, Mr. Chairman. I will be happy to address any 
questions you may have.
    [The prepared statement of Mr. Isaacs follows:]

                 Prepared Statement by Peter F. Isaacs

    Senator Chambliss, it is a pleasure to appear before you today at 
this field hearing to discuss our families and children.
    The Chief of Staff of the Army in a recent address to Arlington 
Ladies 30th Anniversary Luncheon said and I would like to quote: ``We 
are proud beyond measure of each of our Army families and their gifts 
and sacrifices are unique, but never more so than during a war. Through 
the strength and devotion of Army families, soldiers can focus on the 
tough missions that we give them. We ask a lot of our families--
families who soldier along with their soldiers. They are always the 
most generous people I know. They constantly reinforce the truth of the 
proposition soldiering is an affair of the heart a quotation also 
attributed to General Creighton Abrams. So it is, so it will always be 
an affair of the heart.''
    Over the past several months, the leadership of the U.S. Army 
Community and Family Support Center (USACFSC) has visited numerous 
installations in the United States and overseas. On each visit the 
leadership paid particular attention to family readiness. We held 
discussions with garrison staffs, senior leaders, and spouses regarding 
organization and effectiveness of Army Community Service (ACS) centers, 
Family Assistance Centers (FACs), and Child and Youth Services (CYS) 
facilities. Principal observations were:

        <bullet> Family members are phenomenally strong, but many are 
        concerned about Operation Enduring Freedom, Operation Iraqi 
        Freedom, and other contingency operations and how long their 
        spouses will be gone.
        <bullet> The spouses agree they are better prepared now than 
        they were for Operation Desert Shield/Desert Storm (OP DS/DS) 
        because the Army supported and strengthened Family Readiness 
        Groups (FRGs), ACS programs, CYS programs, and incorporated 
        lessons learned from previous deployments including OP DS/DS.

                            FAMILY READINESS

    The Army places a high value on both military and personal 
preparedness and is committed to providing a full range of essential 
support and services to soldiers and their families throughout the 
entire spectrum of operations: pre-deployment, deployment, and 
redeployment. This commitment is implemented by caring leaders at all 
levels of command, from the first-line supervisor to the senior 
military and civilian leadership of the Army.
    Both Active and Reserve component soldiers and their families 
attend classes and briefings and receive written instructional 
materials through ACS and Reserve Component (RC) Family Program 
Coordinators. Ensuring family readiness is a command responsibility. 
The ACS and RC Family Readiness Coordinators provide commanders with 
The Army Leaders' Desk Reference for Soldier/Family Readiness. It 
contains battalion readiness plans, guidance for conducting battalion 
level pre-deployment briefings and for operating successful FRGs. 
Additionally, rear detachment commanders (those that remain behind to 
process necessary paperwork) maintain regular contact with the 
commander at the mission location, coordinate with American Red Cross 
regarding emergency information, and provide vital information to the 
FRG. As such, they are important elements of the entire family 
readiness support system. Establishing lines of communication between 
families, deployed soldiers and units through rear detachment 
commanders, family readiness groups and family assistance centers is 
crucial to reducing anxiety and sustaining soldier and family morale. 
Through technology (internet, e newsletters, video teleconferencing, 
phone cards) soldiers are able to stay in touch with their families. A 
FAC is a building or location that becomes a central hub where 
professional staff coordinate services and resources a family will need 
during a deployment such as ACS, ID card processing, medical 
registration and insurance, legal assistance, emergency financial 
assistance and crisis intervention. Community support and outreach are 
essential during deployments. In some cases, the community in which the 
installation is located considers the soldiers to be ``their own'' and 
is as concerned about them as those remaining on the installation. ACS 
personnel support mobilization and deployment efforts by participating 
in the Soldier Readiness Processing Centers, talking with soldiers, 
reviewing Family Care Plans, and identifying any family concerns that 
may keep soldiers from focusing on their missions. Pre-deployment 
briefings, FRG instruction, and Rear Detachment Commander training are 
conducted. They also assist Guard and Reserve units to prepare for 
deployment.
    The Army National Guard (ARNG) has capabilities to operate 400 
FACs. They've activated 387 so far with at least one at every State 
Area Readiness Command (STARC) Headquarters for the State National 
Guard. Typical services provided by ARNG FACs include information and 
referral services relative to the local community and follow-up 
services. The Army doctrine that governs mobilization does not require 
the U.S. Army Reserve to have FACs. Instead, they receive support 
through the ARNG FACs. However, the Regional Support Commands conduct 
pre-deployment briefings for family members prior to units deploying. 
Briefing materials are mailed to those families who cannot attend the 
briefings. U.S. Army Reserve Command Family Program staff make monthly 
telephonic follow-up with all family members of Individual Ready 
Reserve soldiers, and the Rear Detachment operations cell makes monthly 
calls to all families in the unit. USAR Rear Detachment Operations is a 
new concept implemented since the beginning of current deployments. In 
addition to the active FACs and those established for the NG, the 
Surgeon General established three operational FACs at Walter Reed Army 
Medical Center, Landstuhl and Brooke Army Medical Center to support 
families of the injured.
    Eleven FACs were activated at Forts Benning, Bliss, Bragg, 
Campbell, Carson, Hood, Lewis, Riley, and Stewart; and Vicenza, Italy; 
and Wiesbaden, Germany. The FACs provide a full range of family support 
program services and emergency assistance.
    The ACS has fielded a comprehensive set of resource materials for 
use to guide families, leaders, and staff through deployments. Known as 
``Operation Resources for Educating About Deployment and You'' 
(Operation READY), these resources include personal checklists for 
families and unit commanders to ensure that deployments and reunions 
are successful. This training program assists commanders in meeting 
family readiness objectives. Modules include: Army Leaders' Desk 
Reference for Soldier/Family Readiness, The Army Family Readiness 
Handbook, Pre-deployment and Ongoing Readiness, Homecoming and Reunion, 
Family Assistance Centers and Children's Workbooks and videos. 
Operation READY is available through ACS, RC Family Program staff and 
is on-line at Virtual ACS, www.goacs.org. The Operation READY materials 
have been revised based on lessons learned from recent deployments. The 
Leader's Guide and the Family Member Deployment Survival Guide were 
distributed in June 2002. The remaining modules were distributed in 
October and November 2002. Three modules have been translated into 
German, Spanish, and Korean. Those modules are Pre-Deployment, Post-
Deployment, and The Family Readiness Group Leaders' Basic Handbook. 
Feedback from Commanders, staff, and soldiers and their families 
indicates Operation READY has been invaluable in helping prepare for 
deployments.
    All Army component soldiers (Active and Reserves) who are single 
parents, and dual military couples with family members, are required to 
have a ``Family Care Plan.'' This is the means by which soldiers 
provide for the care of their family members when military duties 
prevent them from doing so. The Family Care Plan includes proof that 
guardians and escorts have been identified and thoroughly briefed on 
the responsibilities they will assume for the soldier as well as the 
procedures for accessing military and civilian facilities and services 
on behalf of the soldier's family members. This ensures family members 
will be well cared for while single parent and dual military couples 
are fulfilling their military obligations. While Family Care Plans are 
required for single parent and dual military couples with children, all 
married soldiers are encouraged to complete and maintain a Family Care 
Plan.
    The Army Family Liaison Office (AFLO) maintains a toll-free 
information line that is available within the Continental United States 
Monday thru Friday, during normal duty hours. The purpose of the toll 
free number is to provide a mechanism for family members to get answers 
to routine questions on all aspects of military family life, including 
family readiness and benefit eligibility. The toll free number is 
published monthly in newsletters from the Well-Being office and the 
AFLO, and is also available on the AFLO Web site at www.aflo.org.
    To accommodate the increased demand of Operation Iraqi Freedom, we 
expanded this to a 24-hour toll-free Family Assistance Hotline (FAH) on 
March 21, 2003. Primary function was to provide referrals and 
information to the families of deployed or activated soldiers. The FAH 
was intended for use by family members of soldiers on active duty as 
well as those in the Army National Guard and the Army Reserve called to 
active duty. It was a 'safety net' for those who had exhausted all 
other resources. After hearing a short, recorded message, callers were 
able to speak to hotline staff members with access to extensive 
reference materials. In addition to local and Army-level assistance via 
telephone, family members could find answers to many routine questions 
about family readiness, ACS, and deployment support resources online at 
the ACS Web site, www.goacs.org.
    The FAH operated 24/7 from March 21, 2003 to May 19, 2003. The 
mission has now returned to AFLO based on the level of demand. During 
its 8 weeks of operation, the FAH received over 8,000 telephone calls. 
Primary areas of caller concerns were locating a soldier, accuracy of 
media information, delays in mail, exact dates of deployments and 
returns, how to contact a soldier's unit, and casualty notification 
information. Family members of single soldiers connected neither 
through rear detachments nor family readiness groups made up the 
greatest number of callers.
    Equally as important as support provided to soldiers and their 
families during deployments is the post-deployment help they need to 
readjust after returning home from combat. In addition to its on-going 
reunion training, typically provided by ACS and chaplains, the Army 
recognizes the need for a proactive program to be up and running prior 
to soldiers redeploying from Operation Iraqi Freedom. In response to 
this requirement, the Army has implemented the Deployment Cycle Support 
(DCS) plan. DCS operations begin in theater/area of operations, 
continuing at home and/or Demobilization station, and through the 
sustainment phase at home station. DCS taps wide-ranging resources 
including medical, mental health, chaplain, schools, and family support 
staff. The Army's goal with DCS is to standardize the process of 
providing our forces with the proper psychological screening, 
debriefing, and most importantly, identify those ``at-risk'' personnel 
that may require immediate attention. Soldiers, Department of the Army 
civilians, and family members are provided information that will 
educate them on the need for individual reconstitution. The plan calls 
for returning soldiers and civilians to remain with their unit or 
organization through mandatory medical and mental health screening, as 
well as reunion training designed to ease soldiers' move back into 
family relationships. Unit leaders will use a new ``tip card'' to help 
screen soldiers for any personal problems. Family members will be 
offered reunion training. The Army will implement a toll free employee 
assistance program that includes telephonic information and referral 
assistance and up to six face-to-face counseling sessions. The toll 
free line, Army One Source, is anticipated to be available when the 
first soldiers return, in early June. This is particularly important 
for the Reserve component where units may be hundreds of miles away 
from an armory or support system. It allows significantly more privacy 
for those concerned that mental health assistance may negatively impact 
their careers.

                           CHILDREN AND YOUTH

    The ultimate aim of the Army child care system is to meet 80 
percent of the demand of the Objective Force in the outyears. Only 
through a well-resourced strategic mix of different child care delivery 
systems (on post centers, family child care homes, and local community 
partnerships) can the Army ensure its system remains ``a model for the 
Nation.''
    The Army currently has a DOD-assigned goal to meet 65 percent of 
the potential child care demand in the field. Fiscal year 2002 was a 
challenge in that the Army was only able to meet 61 percent of demand 
and, for fiscal year 2004, we anticipate a loss of capacity to serve 
another 2,800 (equating to meeting only 59 percent of demand).
    The Army Child Care Program is experiencing high turnover and staff 
shortages because current salary levels do not match other positions 
with common labor pools (e.g., local public schools, fast food and 
retail establishments, etc.). Workforce issues were a key factor in the 
decline of Army child spaces to 61 percent and are a major element in 
some Army child care centers losing their accreditation status this 
fiscal year.
    Army Child and Youth Services (CYS) fielded a CYS Mobilization and 
Contingency (MAC) Plan Workbook that gives installations support 
materials to develop and monitor their CYS MAC Plans. The workbook 
includes briefings, procedural guidance, planning references, on-line 
resources, and ``lessons learned'' from Operation Desert Storm, Bosnia, 
and other contingencies. The detailed checklists and worksheets allow 
the installation staff to customize their CYS mission support. One 
chapter of the workbook specifically addresses how to identify signs of 
stress in children and provides coping strategies for dealing with it.
    In addition to the MAC Plan, several ongoing CYS outreach efforts 
are aimed at geographically isolated Active component soldiers as well 
as Guard and Reserve members. A pilot Memorandum of Agreement with the 
General Services Administration (GSA) permits active duty patrons in 
Minnesota, New York, Georgia, and Washington to apply for subsidized 
child care in accredited GSA centers. Walter Reed Army Medical Center 
in the National Capital Region established a pilot program to support 
monthly weekend drill for a Reserve unit--with the concept, once 
validated, capable of being expanded to additional sites. Finally, 
cooperative programs between Army CYS and the Boys & Girls Clubs of 
Miami, Florida; Killeen, Texas; Tacoma, Washington; Silver Spring, 
Maryland; and Dale City, Virginia, have opened opportunities for 
military youth not living on installations to be served in the local 
community. We are encouraged by these successes and continue to seek 
further partnerships.
    The value of this CYS focus on preparing to meet the challenges of 
extraordinary contingency conditions, to include actual wartime 
deployments, is being validated in practice. Indeed, the Army addresses 
the needs of soldiers and their families by offering extended hours at 
many of its facilities. The CYS makes arrangements for on-site child 
care sessions where CYS takes the program to a site rather than parents 
bringing children to a specific location like a child development 
center. In the family child care program, providers agree to provide 
care during evenings, weekends, and rotating shifts and round-the-clock 
care for up to 60 days in long-term care homes.
    To this point in fiscal year 2003, through its different 
initiatives, CYS impacted nearly 10,000 families with more than 20,000 
children by delivering 231,400 child care hours beyond ``normal'' 
operations. Soldiers requiring this extra child care are not asked to 
pay more for it. The additional costs are being covered by supplemental 
funds received from the Department of Defense.
    The impact of these Child and Youth Services initiatives on Fort 
Stewart/Hunter Army Air Field has been: 11 on-site sessions; 844 
children served; and 22,243 child care hours. Please note that the high 
figure for child care hours reported by Stewart/Hunter reflects the 
large number of long term care [overnight] hours provided in family 
child care homes.
    Communicating via email with parents who are deployed is an 
essential factor in maintaining well-being in the lives of our children 
and youth. Youth computer labs located in Army CYS programs provide 
controlled access for youth to use internet to stay in contact with 
deployed parents. Because technology continually changes, the need to 
replace computer labs on a 3-year replacement schedule that keeps pace 
with the industry standard is becoming more evident if we are to 
attract and keep young people involved in our programs. The Youth 
Computer Labs are the primary implementation strategy to meet the 
statutory requirement for the Youth Sponsorship Program, which also 
supports youth education transition initiatives.

                      SCHOOLS/EDUCATION TRANSITION
 
   Significant progress has been made since the initial Army Education 
Summit held July 2000. The School Liaison Services (SLS) mission was 
established to mobilize and use community resources to reduce the 
impact of the mobile military lifestyle on military children and youth; 
implement predictable support services to assist children and youth 
with relocation, life transitions, and achieve academic success; and 
provide access for parents, children/youth, schools, commanders, and 
communities to a wide range of resources that facilitate school 
transition. The SLS provides the following baseline services: School 
Transition Support Service, Partnerships In Education (PIE) 
Initiatives, Installation/School Communications, Home School Linkage/
Support, and Post-Secondary Preparation Opportunities.
    A School Liaison Officer serves as the ``point person'' for 
facilitating the delivery of quality school transition and education 
support services and assisting parents to ease the impact of the 
military lifestyle on the academic success of military children and 
youth. The Army has funded 117 School Liaison Officers at the both the 
installation and Installation Management Agency (IMA) Regional level to 
support commanders, parents, and youth with school transition issues 
that were highlighted in the groundbreaking Secondary Education 
Transition Study (SETS) Report.
    As a result of The Army Education Summit 2002, School Transition 
Specialist positions have been established at the IMA Regions and at 
Army headquarters. The School Transition Specialists work with local 
school superintendents to build on the successes, share promising 
practices, establish a system to provide feedback to superintendents, 
and to continue to build on the success of the SETS Memorandum of 
Agreement (MOA).
    The Army CYS supports youth education transition initiatives 
through coordinating the Youth Education Action (YEA) Working Group and 
monitoring the SETS MOA. As of May 16, 2003, the SETS MOA had 123 
signatories representing 127 school districts. Signed by school 
superintendents, it addresses reciprocity of specific youth education 
procedures (e.g., the timely transfer of records, improved access to 
extracurricular activities, grading standards) that affect military 
youth as their parents move them from one school system to another 
throughout a military career. Army CYS will undertake another 
coordination project to set up a July 2003 meeting of the National SETS 
Steering Committee (NSSC). The NSSC is being formed to enhance 
communications among superintendents and promote expansion of the SETS 
MOA process in school systems supporting military installations. We 
expect superintendents will use it to strengthen reciprocal practices.

                      MWR SUPPORT AT HOME STATION

    Recreation programs support mobilization and deployment in multiple 
ways. Installations use recreation and physical fitness facilities as 
mobilization staging areas. For example, Fort Hood, Fort Campbell, Fort 
Riley, and others processed deploying personnel and equipment in their 
gymnasiums and recreation centers. Program managers adjust operating 
hours to meet increased demand and community support requirements. 
Normal recreation programs such as those at Fort Stewart provide non-
deploying units and family members with opportunities to participate in 
both self-directed and organized activities designed to increase social 
interaction and individual resiliency. Individual installations offer 
special programs to meet local demand. We furnished 49 Small Unit 
Recreation Kits to Reserve and National Guard units activated for force 
protection at remote stateside posts.

                               CONCLUSION

    Today, our Nation is supported by the best trained, best equipped, 
and most technologically sophisticated Army in the history of the 
world. These volunteer warriors, who sacrifice so much to serve their 
country, are unequivocally sustained by loyal, dedicated families who, 
themselves, sacrifice much in fulfilling their vital role in the lives 
of soldiers. Never has this dedication been more evident than in the 
global challenges the United States faces now. Our soldiers and their 
families are the Nation's best. They deserve the best we can give them. 
Every day, Army MWR and ACS fulfill this sacred obligation with 
programs and services delivered around the world, wherever soldiers and 
their families might be. While duty to country calls them in an 
uncertain world, America's promise to them must be one of gratitude 
demonstrated by opportunities for a quality of life comparable with 
that afforded to the citizens they pledge to defend. Army MWR and ACS 
answers that call. We know our success would not be possible without 
your committed and steadfast support. Thank you.

    Senator Chambliss. Thank you, sir.
    Admiral Purcell.

 STATEMENT OF REAR ADM. (SEL.) MARC L. PURCELL, USN, ASSISTANT 
 COMMANDER FOR PERSONNEL READINESS AND COMMUNITY SUPPORT, NAVY 
                       PERSONNEL COMMAND

    Admiral Purcell. Thank you, Senator. I would also like to 
say I appreciate the opportunity to be here today to discuss 
the Navy's personnel programs that are directed to families and 
sailors. I have submitted a written statement for the record, 
and if I may I would like to share a few highlights with you 
before taking your questions.
    We feel frequent deployments are an integral part of life 
in the Navy. Not just during war, but even during normal 
operations, and with over one-third to one-half of all naval 
personnel deployed at any one time, our first mission has 
always been to support those deployed personnel.
    Right behind that is the priority placed on supporting our 
families and our personnel ashore. We deliver the support at 
sea and shore through both Fleet and Family Support Centers and 
Morale, Welfare and Recreation programs. Our 65 full-service 
Fleet and Family Support Centers had over 3.7 million client 
contacts in 2002 and are on track to exceed that figure 
substantially in fiscal year 2003.
    Our Fleet and Family Support Centers offer a large variety 
of programs to support Navy families, but I would like to focus 
my comments primarily on some key deployment readiness 
programs.
    During Operation Iraqi Freedom, Navy Fleet and Family 
Support Centers conducted 1,600 pre-deployment, mid-deployment, 
and Reserve mobilization briefings for over 35,000 sailors and 
their families.
    In March 2003, a significant effort was focused on helping 
families, schools, and community groups deal with the stress 
and impact of combat operations and the continuous news 
coverage of the war. Fleet and Family Support Centers conducted 
a record 158 training sessions for over 950 teachers and 
counselors and over 4,000 students. Attendance at the Fleet and 
Family stress management classes quadrupled. Requests for 
individual counseling for families and children also increased.
    In the war's post-deployment period, family centers are 
also focusing on preparing sailors and family members for 
homecoming by providing professional guidance on reestablishing 
relationships and readjusting family roles.
    Training teams are offering special programs on stress and 
anger, combat stress, and identifying post-traumatic stress 
symptoms and treatment resources. Packages of materials and 
resources for reservists, including resources and links to the 
nearest Family Support Center in their local community are also 
being provided.
    Full service support for all Reserves regardless of service 
continues for up to 120 days after their release from active 
duty.
    On the home front, preceding the return of deployed 
sailors, family centers are also offering similar briefings to 
spouses and families through family support groups. These 
include discussions on dealing with post-traumatic stress. 
Family centers are also helping ombudsmen or family groups 
prepare for homecoming activities and are scheduling wellness 
days and resource fairs to represent local support agencies in 
regional communities.
    The Morale, Welfare, and Recreation program also continues 
to work aggressively to serve both our sailors and their 
families at shore and afloat. Navy child development and youth 
programs have continued to expand to meet the needs of Navy 
families in providing quality child care for over 45,000 
children. This year we also implemented a pilot program to 
provide child care services around the clock for families in 
Norfolk and Pearl Harbor regions to help meet the needs of 
night shift workers.
    Last year, we implemented new teen summer camp 
scholarships, outdoor adventure camps, and teen employment 
opportunities, and these programs are providing positive 
recreational outlets for Navy teens and creating positive 
feedback from our families.
    We have also improved our E-mail connectivity in many of 
our youth centers making it easier for teens to communicate 
with their parents when deployed.
    Mr. Chairman, as you see, the Navy is fully committed to 
supporting the health and welfare of our families. I would like 
to thank you and your committee, obviously, for the personal 
commitment and ongoing support that we receive for these 
valuable programs.
    I look forward to answering any of your questions, sir.
    [The prepared statement of Admiral Purcell follows:]

       Prepared Statement by Rear Adm. (Select) Marc Purcell, USN

                            OPENING REMARKS

    Mr. Chairman and subcommittee members, thank you for this 
opportunity to update you on the Navy's efforts to support our sailors 
and their families. Our two primary means for delivering this support 
are our Fleet and Family Support Centers (FFSCs) and our Morale, 
Welfare, and Recreation (MWR) programs. The mission of these two 
programs is to ensure that both our sailors and their families receive 
whatever support is necessary to maintain the Navy as an effective 
fighting force.
    Frequent deployments are integral to life in the Navy. Over half of 
all naval personnel are assigned to ships, overseas bases, or Special 
Forces units. While our primary mission has always been to support 
those deployed personnel, we also believe our sailors will only 
maintain their readiness if they are secure in the knowledge that their 
families are continually receiving the support they need before, 
during, and after deployment.
    In order to meet this challenge, we have focused our efforts in the 
following broad areas:

                   FLEET AND FAMILY SUPPORT PROGRAMS

    Fleet and Family Support Centers are located at all major Navy 
installations and deliver services at 65 full-service sites worldwide. 
Many centers also operate satellite or part-time offices at other work 
and housing sites to provide better access to sailors and family 
members.
    FFSCs had 3.7 million client-service contacts in fiscal year 2002 
representing a 15-percent increase over fiscal year 2001. These 
included information inquiries, counseling, advocacy contacts, and 
class participants. FFSCs experienced a 196-percent increase in 
deployment and mobilization services in the first 6 months of the 
current fiscal year.
    Beginning in fiscal year 2003, all Navy FFSCs receive a formal 
inspection assessment of performance and quality standards in each of 
their basic service programs. This rigorous review process ensures 
quality and standardization of programs and services Navy-wide.
    FFSCs offer three categories of basic services:

        <bullet> Deployment and Readiness Programs
        <bullet> Crisis Response Programs
        <bullet> Career Support and Retention Programs
Deployment and Readiness Programs
    These programs directly support deployment and mission readiness by 
preparing service and family members to anticipate and understand the 
demands associated with the Navy lifestyle and operating tempo. These 
programs include:

        <bullet> Relocation Assistance Program (RAP) offers pre-move 
        planning and post-arrival settling-in services for permanent 
        change of duty station moves. Sailors and family members are 
        provided workshops, briefs, and relocation counseling on an 
        individual basis.
        <bullet> Life Skills Education Program offers general 
        educational programs on such issues as stress management, 
        couples communication, relationship skills, and parenting 
        skills.
        <bullet> Information and Referral Program provides assistance 
        in identifying available resources within a local military or 
        civilian community. These include information, such as 
        educational resources and community social services, that may 
        be useful to service members and family that have moved to a 
        new location.
        <bullet> Repatriation Program is the Navy program for assisting 
        and tracking Navy family members who have been evacuated from 
        overseas areas. FFSCs ensure families are provided a 
        personalized point of contact for information regarding 
        entitlements and benefits. FFSCs also coordinate any assistance 
        offered by other agencies. This year, FFSCs have assisted 
        families evacuated from ``hot spots'' in Indonesia, the Ivory 
        Coast, Bahrain and other Middle Eastern countries.
        <bullet> Ombudsman Program coordinates the training of 
        ombudsman volunteers who provide a vital link between the 
        commanding officer and family members in the command. Ombudsmen 
        are married to a member of the command and provide information 
        directly to and from the commanding officer to command families 
        regarding local command and Navy policies, military and 
        community social service assistance, deployment schedules and 
        assistance to spouses when the service member is deployed. All 
        Navy commands, including shore activities, have an ombudsman 
        assigned. FFSCs provide ongoing support to ombudsmen in areas 
        such as coordination of training for new ombudsmen, 
        establishment of ombudsman support groups, provision of 
        information and referral resources when individual family 
        problems are presented to the obudsman, and maintenance of area 
        obudsman rosters.
        <bullet> Deployment and Mobilization Support Program provides 
        services in pre- and mid-deployment. This year the program was 
        particularly busy supporting the mobilization for Operation 
        Iraqi Freedom. Navy FFSCs conducted 1,600 sessions of 
        deployment and mobilization briefings and related activities 
        for a total of 35,000 customers from January through March of 
        this year. Homeport briefings included programs for children as 
        well as sailors and spouses, and often included the fiances and 
        parents of single sailors. Special attention was focused on 
        coping with the suddenness of many deployments and the 
        significant increase in reservists' departures. Ombudsmen 
        training and support group services began increasing 
        simultaneously with this pre-deployment period.

    FFSC staff provided consultation and briefings for Command Family 
Support Groups, and organized local support groups when command groups 
were not available. In March, additional efforts were focused on 
families with school-aged children as the stress and impact of 
Operation Iraqi Freedom and its news coverage affected students and 
schools. Requests for teacher/counselor and student briefings reached 
an all-time high with 158 sessions conducted for 947 teachers and 
counselors, and 3,996 students. Attendance at stress management classes 
quadrupled from 628 in February 2003 to 2,602 in March 2003 and 
requests for counseling services more than tripled from 240 to 849 
sessions during the same period.
    FFSCs have been providing deployment support services for the past 
23 years. The Navy has shared lessons learned, counseling information, 
training materials and procedures with the other Services as requested. 
Informational material developed by family centers in Hampton Roads for 
the training school administration personnel was distributed throughout 
the Department of Defense.
    In post-deployment, the challenge is to prepare commands, sailors 
and family members for return and reunion, which involves both 
reestablishing relationships and readjusting family roles. This became 
a larger than normal challenge as three Battle Groups returned home 
nearly simultaneously. FFSC staff at the primary homeports of Everett, 
San Diego and Yokosuka, Japan formed Return and Reunion Teams, 
augmented by trained staff from other FFSCs, to ensure proper coverage 
of all the ships in each of the first three returning Battle Groups. 
Funding was made available from the FFSCs and Regional Commands to fund 
these first teams.
    For all returning Navy units, special programming is being provided 
on stress and anger management and on combat stress. For Command 
Leadership, we also provided tailored training in identifying post-
traumatic stress symptoms and treatment resources.
    Packages of materials and resources for reservists including 
resources and links to the nearest military Family Support Center in 
their local community are also being provided. Reservists of all 
Services are eligible for full use of Navy FFSC resources, at no cost, 
for up to 120 days after release from active duty.
    At the same time, FFSCs are offering similar ``reunion'' briefs for 
families and support groups at home, with discussion on normal stress 
reactions and resources (such as medical) to contact about post-
traumatic stress. FFSCs are assisting family groups and ombudsmen with 
preparations for homecoming activities by providing homecoming planning 
assistance for ombudsmen, updating their local homecoming guides, and 
scheduling family wellness days or resource fairs with representatives 
from local and regional support agencies.
    FFSCs are also providing expedited or priority appointments to 
returning service members and their families to ensure prompt 
assistance if problems develop. A new pocket guide on stress management 
for sailors entitled ``Thriving on Stress'' has also been distributed.
    In addition, the new required Navy Training on Suicide Prevention 
is now available through our FFSCs. This training was a joint project 
between Naval Education and Training Command (NETC) and the Chief of 
Navy Personnel's Suicide Prevention Program. It provides sailors with 
response strategies to reduce suicide risk among both shipmates and 
family members. The Navy suicide rate is currently about 50 percent 
below the civilian rate when matched to Navy demographics, and within 
the Navy is now down 22 percent overall since 1998. This new Navy 
suicide prevention video was awarded a production industry standards 
award (Bronze Telly), achieved by only 12-14 percent of the 10,000 
annual video industry entries.
Crisis Response Programs
    The second major category of basic services offered at Navy Fleet 
and Family Support Centers is Crisis Response. Crisis Response programs 
provide professional and paraprofessional assistance to sailors, family 
members, and commands in response to both personal and community 
emergencies. Program services run the gamut from assistance resources 
for personal and positive life-changing events like those offered in 
the New Parent Support Program, to services offered in the midst of 
tragedy such as those provided during casualty and disaster response, 
family violence counseling, or in the aftermath of a sexual assault. 
The following services are included in Navy's FFSC Crisis Response 
Programs:

        <bullet> Casualty and Disaster Response. These emergency 
        response services most commonly include provision of critical 
        incident stress debriefing to commands and the Navy community 
        in response to small-scale events, such as suicides within the 
        command, or larger events, such as natural disasters.
        <bullet> Crisis Intervention. These services include providing 
        emergency assessment and, in most cases, referral for sailors/
        family members, such as those who present a danger to 
        themselves or others.
        <bullet> New Parent Support (NPS) program is a military 
        community-based child abuse prevention program funded by DOD 
        through the Family Advocacy Program. While all the services 
        have an NPS program, specific implementation varies. Navy NPS 
        is available to any family in the military community with 
        infants under the age of 4 months, regardless of branch of 
        service. It is a voluntary service available to all expectant/
        new mothers and fathers, not just first-time parents.
          This program aims to reduce the risk of child abuse and 
        neglect by enhancing parenting skills and positive parent/child 
        interactions, promoting healthy childhood development, and 
        increasing access to prenatal and general healthcare.
          NPS provides two levels of service. All families receive 
        systematic screening and assessment. NPS Standard provides 
        links with community resources, as well as educational programs 
        on childbirth, growth, development and newborn parenting. The 
        second level of service, NPS Plus, is available to those 
        parents screened as most in need. This level includes home 
        visiting services by a nurse or social worker and may continue 
        for up to 5 years with parental agreement. The Navy NPS program 
        provided assistance to 16,600 new parents in fiscal year 2002.
        <bullet> The Family Advocacy Program (FAP) is a DOD-mandated 
        and funded program responsible for prevention, identification, 
        reporting, intervention, and follow-up in cases of alleged 
        child and spouse abuse.
          Since 1997, there have been two levels of response to alleged 
        incidents of child or spouse abuse. Incidents assessed to be of 
        low risk or low severity, as determined by licensed and 
        credentialed FAP case managers are diverted from the FAP 
        process to the Families In Need of Services (FINS), through 
        which families are offered voluntary services. Once referrals 
        for those families wanting support services are made, FAP 
        involvement ends. Command involvement in FINS incidents is 
        minimal. The Defense Task Force on Domestic Violence endorsed 
        adoption service-wide of a process similar to Navy FINS.
          Incidents assessed by a FAP case manager to be of moderate or 
        higher severity, or of moderate or higher risk (with or without 
        a known history of abuse) are managed by FAP. Command 
        involvement is required, and the recommended interventions for 
        service member offenders will be enforced by the command. 
        Incidents are professionally assessed on an individualized 
        basis. FAP monitoring may continue for up to 1 year for 
        substantiated incidents, and the command may discharge a member 
        for treatment failure or repeated abuse.
          FFSCs/FAP centers provide a range of prevention and education 
        services for general military audiences, including child/spouse 
        abuse awareness briefs to commands, families and community 
        organizations. Classes and groups are also offered on parenting 
        skills, anger management, couples communication, and stress 
        management.

    In addition to offering these prevention services, the Department 
of Navy's Family Advocacy Program leads the way in victim advocacy. The 
Navy and the Marine Corps are the only Services to provide fleet-wide 
domestic violence victim advocacy services. The Navy provides 31 paid 
victim advocates at 21 locations. Advocates provide safety assessment, 
safety planning, and a range of support services including assistance 
in securing civilian restraining orders or Military Protective Orders, 
accompanying victims to medical/legal appointments, securing shelter 
services, and more.
    Navy Family Advocacy Program initiatives include:

        <bullet> Training Initiatives:

                <bullet> Domestic Violence Video and Training 
                Materials, in partnership with Naval Education Training 
                Command, for mandatory fiscal year 2004 GMT.
                <bullet> Web-based, interactive domestic violence 
                training for command leadership will begin in fiscal 
                year 2004.

        <bullet> Sexual Assault Victim Intervention (SAVI) program is 
        also among the FFSCs' crisis response programs. Navy's SAVI 
        program is unique and was established in 1993. The goal is to 
        provide a Navy-wide comprehensive, standardized, victim-
        sensitive system to prevent and respond to sexual assault. 
        Program components include awareness and prevention education, 
        and victim advocacy and intervention. Awareness and prevention 
        education classes include: preventing sexual assault; 
        minimizing the risk of becoming a victim; responding to sexual 
        assault incidents; and measures commands can take to ensure a 
        safe environment for service members and their families. In 
        addition, a new SAVI video is being released this month.
          The victim advocacy and intervention component includes a 
        highly responsive, volunteer victim advocate support system to 
        provide immediate emotional support to sexual assault victims, 
        even when deployed aboard afloat commands. SAVI coordinators 
        also insure the availability of professional intervention 
        services for victims, if desired, and act as a go-between for 
        the victim with the legal system. Victim advocacy within the 
        SAVI program complements and enhances the Victim and Witness 
        Assistance Program already in place, and also provides a 
        mechanism outside the chain of command to insure appropriate 
        response to alleged sexual assault.
        <bullet> Professional counseling services are also included 
        among the FFSCs' crisis response programs. The provision of 
        these services in military family and community support centers 
        is unique to the Department of Navy. The Navy has provided 
        these services since the establishment of FFSCs 23 years ago. 
        Professional counseling services are available for all active 
        duty, family members, activated reservists and their families, 
        and to retirees and their families on a space available basis.
          Mental health professionals, independently licensed to meet 
        civilian standards, provide these counseling services. Either 
        command or self-referrals are accepted. Brief (less than eight 
        sessions), problem-focused counseling is provided to 
        individuals, couples, families and groups. Services include 
        assessment and counseling for commonly occurring life 
        problems--e.g., marital, parenting, school or occupational 
        problems. Individuals who are assessed or suspected to have a 
        more significant, psychiatric diagnosis are referred for 
        further assessment and intervention. Active duty members are 
        referred to a medical treatment facility and family members are 
        referred to the TRICARE network.
          These professional counseling services are free and afford 
        sailors and their families a great degree of privacy, as FFSC 
        counseling information is not incorporated into the 
        individual's medical record and rarely rises to the level of a 
        command's ``need to know''. In fiscal year 2002, FFSC 
        professional counseling services saved military families an 
        estimated $1.5 million in TRICARE co-pays or $7 million in out-
        of-pocket expenses.

Career Support and Retention Programs
    Career Support and Retention Programs comprise the third and final 
category of basic services offered at Navy Fleet and Family Support 
Centers. These programs are integral to increased service member 
retention and the planning of successful military and civilian careers 
for sailors and family members. This category includes the following 
programs:

        <bullet> Transition Assistance Management Program (TAMP) 
        prepares separating and retiring individuals to enter the 
        civilian sector and pursue goals whether they are employment, 
        education, or retirement.
        <bullet> Personal Financial Management Program (PFMP) provides 
        services to assist sailors and families to plan and manage 
        their finances and financial future through education and 
        training.
        <bullet> Spouse Employment Assistance Program (SEAP). In 2001, 
        the Navy Personnel Research Science and Technology (NPRST) 
        Study, rated SEAP the highest-ranking program in ``exceeding 
        client expectations.'' Ninety percent of spouses agreed that 
        SEAP:

                <bullet> Improved their job search skills,
                <bullet> Increased their opportunity for employment, 
                and
                <bullet> Positively impacted their family's financial 
                well being.

    However, lack of employment portability remains a dissatisfier for 
many spouses. The Navy is addressing this through partnerships with 
corporations like Adecco (the world's largest placement agency) and the 
Virtual Business Owners Program. As of March 2003, 937 Navy spouses 
have registered with the Adecco Career Accelerator Program, with a hire 
rate almost matching Adecco's nation-wide rate of 34 percent.

                    MWR PROGRAM SUPPORT FOR FAMILIES

    Besides caring for the emotional, financial, and psychological 
needs of Navy families, we also provide a wide variety of MWR programs 
that directly support the leisure and childcare needs of families. Some 
of our MWR programs include the following.

                       CHILD DEVELOPMENT PROGRAMS

    The Navy's child development programs are among the most highly 
ranked and valued programs for our service members with children. 
Without these programs, many parents would not be able to balance the 
demands of work and family, particularly during times of deployment. 
These services are designed to ensure military children receive high 
quality developmental care at an affordable cost.
    We use three delivery methods. Navy Child Development Centers 
provide high quality care in a facility-based setting. Our child 
development homes provide the same high quality care in a home-based 
environment, particularly appropriate for very young children and for 
those who need flexibility because of scheduling or work related 
demands. The Navy's School-Age Care (SAC) Program provides before and 
after school care with activities that complement rather than duplicate 
the school day. The Navy SAC programs are affiliated with the Boys and 
Girls Club of America and offer programs focusing on five cores areas: 
Character and Leadership Development, Education and Career Development, 
Health and Life Skills, the Arts, and Sports, Fitness, and Recreation. 
SAC programs actively provide services and special events that foster 
family involvement.
    These three programs are the foundation of our support for families 
and are essential to our strategy of ensuring quality, affordable care 
to as many children as possible.
    Navy childcare, as part of the military child care system, has been 
frequently recognized as a model for quality childcare. Our child 
development programs are accredited by the National Association for the 
Education of Young Children (NAEYC). This credentialing is consistent 
with the requirements of the Military Child Care Act and provides 
assurance to military families that their children are receiving top 
quality care that equals or exceeds the highest national standards.
    In fiscal year 2002, Navy met 69 percent of the potential demand 
for childcare as defined in DOD standards, which was our highest 
percentage to date. By the end of fiscal year 2003, we will reach the 
73 percent level. The Navy continues to work toward meeting the child 
care goals established by DOD to meet 80 percent of potential need. 
However, the funding outlook for fiscal year 2004 and beyond will make 
this challenging as the Navy has many competing operational demands for 
resources. We are exploring a variety of methods to enable us to 
maintain the program within the resources available to us. These 
include expanding Child Development Homes both on and off-base, 
partnering with local, State, and government programs, and improving 
our ability to manage waiting lists more effectively.
    In support of contingency operations, we have developed a pilot 
project now underway in the Norfolk and Pearl Harbor regions to provide 
increased childcare availability to meet the extended hour care needs 
of shift workers and families of deployed sailors. Our Child 
Development Home Program team has offered increased subsidies to home 
care providers in these regions to provide expanded hours of in-home 
care. In addition, we are also adding overnight care services in each 
region accommodating 12 to 18 children whose parents work night shifts. 
The response from sailors and their families has been very positive. 
The child development homes have been operating at very high capacity 
levels since February 2003. The overnight facility in Pearl Harbor has 
just opened and the one in Norfolk will open in a few months but demand 
is also very high for those centers. Although this approach will not be 
sustainable in all areas, we believe it will be very useful in large 
fleet concentration centers where there are large numbers of deployed 
personnel and shift workers.
    Childcare services are one of the centerpieces to the Navy's 
commitment to take care of our sailors and their families, particularly 
during times of long separation.

                             YOUTH PROGRAMS

    One of the many worries our deploying sailors and their families 
face is ensuring that their teens have healthy outlets for their 
energies and opportunities to grow. In helping families meet this need, 
MWR has found a great opportunity for some creative programming ideas 
to reach out to these teens.
    We continue to operate an extensive summer camp program, presently 
serving over 30,000 youth per year. We have expanded many of these 
basic summer camp programs to include Youth Outdoor Adventure Camps as 
well. These camps provide more adventure oriented recreation 
opportunities (e.g., rock climbing, surfing, kayaking) that meet the 
interest levels of today's teens and increase the availability of camp 
spaces. In fiscal year 2004 we plan to build on the popularity of Youth 
Outdoor Adventure Camps and expand them to include parents and family 
members. Our pilot Family Outdoor Adventure Camp project in fiscal year 
2004 will combine teen and adult outdoor recreation experiences into a 
single program for a few days as a means of building family unity.
    To ease separation anxiety for youth with deployed family members, 
the Navy used a portion of the supplemental funding provided by 
Congress last year to implement a Teen Scholarship Camp Program and a 
Teen Employment Program. These efforts have generated a lot of 
excitement and have a significant positive impact on many Navy teens. 
The summer scholarship program includes specialty camps, which 
emphasize extreme sports and life-skill development. A few examples 
include camps on Outdoor Leadership, Space Flight, Snowboarding, 
Sailing, Drama, and Photography. We awarded 122 all expense paid 
scholarships in fiscal year 2002 and project a 10-percent increase in 
participants this year. As you might expect, feedback from parents and 
teens was extremely positive.
    MWR also focused in its own small way on the lack of teen 
employment opportunities that has been raised by teens and Navy Youth 
professionals attending Navy sponsored Teen Summits. A Teen Employment 
Program was piloted successfully in fiscal year 2002 to provide teens 
an opportunity to develop job and life skills that will be beneficial 
through their career. The aim of the program was not just to provide a 
job but rather to use the job as an opportunity to teach these teens 
the key skills they need to succeed in the working world. For most, it 
was their first such exposure. We have expanded this program by 45 
percent in fiscal year 2003 to increase the number of employment 
opportunities for Navy teens. The results are most gratifying.
    Our Navy youth are just as interested as our sailors in using e-
mail to stay connected with their parents while they are deployed. Navy 
Youth ``Operation Connect'' has been set up to connect children with 
deployed/separated family members through Internet and digital 
photography Navy-wide. About 70 percent of our activities will be 
operating this service by the end of fiscal year 2003.
Saluting Sailors and Families
    Sailors and their families make significant sacrifices. MWR wanted 
to do something a little extra to show our appreciation. Saluting 
sailors and their families is a series of central and regional contests 
that offers sailors and their families chances to win MWR sponsored 
``trips of a lifetime''. Notable family events in fiscal year 2002 
included a ``Sand and Slopes'' vacation where winners enjoyed a few 
days in a mountain setting and then were taken to a tropical beach 
resort for some relaxation in the sun. We hosted a group of winning 
Navy families in Orlando for a ``Family Safari''. A group of sailors 
and their families enjoyed a ``Monumental July 4th'' holiday in 
Washington, DC. Others were treated to a special New Year's Eve 
celebration in New York City. We have received excellent publicity from 
within the Navy and in the community at large from this program. The 
program has provided another positive incentive for promoting the Navy, 
as an employer of choice and letting families know their sacrifices are 
appreciated.

                          OTHER SPECIAL EVENTS

        <bullet> To support families during homecoming events, Navy MWR 
        has provided homecoming grants to ships and submarines 
        returning from Operation Iraqi Freedom. These grants were used 
        for welcome home celebrations that were designed to create a 
        stress-free environment for the families by providing food, 
        childcare, and other services on the day of arrival.
        <bullet> MWR distributed phone cards during the holiday season 
        to every sailor to help them stay connected with home. Several 
        organizations partnered with MWR to make this program 
        successful. VFW and its corporate partners (Hallmark, Wal-Mart 
        Good Works, and FedEx) provided the Navy with a gift of 200,000 
        60-minute prepaid telephone cards, which were distributed to 
        overseas and deploying commands. Running parallel with the VFW 
        initiative, Navy MWR, through a commercial sponsorship 
        agreement with AT&T, secured 235,000 15-minute ``Homeland'' 
        (CONUS) prepaid calling cards. These cards were distributed to 
        all stateside active duty personnel and all reservists recalled 
        to active duty.
        <bullet> The Navy MWR Movie Program initiated a ``Sneak 
        Preview'' program with showings of 26 first-run movies to over 
        330,000 sailors and their families in Navy theaters up to a 
        week before commercial release. Many of the local MWR programs 
        included free concession packages for patrons.
        <bullet> The Navy MWR entertainment program has also been very 
        active this year, bringing big name entertainers to deployed 
        personnel and those assigned to overseas bases as well as 
        families at home. While much of our focus has obviously been on 
        satisfying requests from afloat units, we also supported 
        numerous stateside events for families, including a summer 
        concert series in the Norfolk, VA, Southern California, Great 
        Lakes, IL, and Groton, CT areas.

                        NAVY FAMILY TEAM SUMMIT

    Navy MWR hosted a summit of over 200 individuals from every segment 
of the Navy including spouses, active duty personnel, family members, 
Navy leaders, and single sailors. The objective was to engage this 
broad spectrum of naval personnel in identifying opportunities and 
empowering families to tell us how we could work with them to better 
support the Navy mission. Our focus was on identifying and developing 
realistic achievable pilot projects, which addressed their needs. They 
identified the need for expanded child care hours to assist in mission 
related circumstances and provided suggestions for refining teen 
programs to provide greater teen empowerment in programming.
    In fiscal year 2003 we have been implementing the five most 
promising program initiatives from the Family Team Summit. These 
initiatives include improving the affordability of child care; 
providing extended hour child care for shift workers; improving the 
quality, accessibility, and timeliness of information about the Navy 
for families; seeking standard in-state tuition policies nationwide for 
military members and their families; and establishing a series of 
training sessions for families at key points in a sailor's career. All 
these innovations are either being finalized or already have been 
initiated. We will continue to maintain dialogue with sailors and their 
families by conducting another summit in July 2004. These summits have 
proven to be an effective way to include sailors and families in the 
improvement and development of Quality of Life Programs.

           CREATING A WELCOMING MWR ENVIRONMENT FOR FAMILIES

    Over the past several years with the support of Navy leadership and 
Congress, MWR has made substantial strides in training staff, creating, 
and outfitting facilities so that we create programs where the families 
of our deployed sailors feel comfortable. There is an often overlooked 
but very important sense of security for our families to know that 
there are high quality and familiar services available to them on base. 
These range over the entire spectrum of MWR services from name brand 
food outlets, to outstanding and well-equipped fitness centers. They 
include 10 new youth centers that we have completed in recent years and 
MWR employees who are now extensively trained to provide world-class 
customer service. Our sailors and families are not just customers. They 
own MWR and we want them to feel that way.

                                SUMMARY

    Navy Fleet and Family Support and MWR programs remain focused on 
being a significant contributor to our guiding principal: ``Mission 
First--Sailors Always''. We thank you for the continued strong support 
of Congress in our partnership to ensure sailors and their families 
enjoy the benefit of wholesome and quality lifestyles as they lead the 
fight in our war against terrorism.

    Senator Chambliss. Thank you, Admiral.
    Colonel Yanello.

  STATEMENT OF COL. GERALD L. YANELLO, USMC, DEPUTY DIRECTOR, 
 PERSONNEL AND FAMILY READINESS DIVISION, HEADQUARTERS, UNITED 
                      STATES MARINE CORPS

    Colonel Yanello. Good afternoon, Senator. It is a distinct 
honor to appear before you today to talk about the Marine Corps 
services and programs for families. I have submitted written 
testimony with specific examples of support, but I would like 
to highlight a few points specific to family support during 
deployments.
    The Marine Corps is an expeditionary force by design, so it 
is a built-in part of our ethos to take care of marines and 
their families during deployments. Commanders are armed with 
the tools they need to ensure family readiness at all times, 
whether it be through detailed deployment guides they use for 
pre-deployment and on-deployment, and post-deployment 
briefings, or their ability to alter child care services during 
deployments as needed. Marine Corps bases from which the 
largest number of troops deploy are Camp Lejeune in North 
Carolina and Camp Pendleton in California. The Marine Corps 
base in Albany here in your great State is a logistics base and 
largely responsible for preparing troops to deploy. Out of the 
approximately 625 active duty marines assigned to the base in 
Albany, only a handful, approximately 15 to 20, were deployed 
in support of Operation Iraqi Freedom. Five of them were from 
Marine Corps community services in support of exchange and MWR 
activities in country.
    Overall, over 76,000 marines deployed in support of 
Operation Enduring Freedom and Operation Iraqi Freedom. 
Approximately 2,000 active duty marines and approximately 900 
reservists list Georgia as their home State.
    No deployment is without challenges in the family support 
area and we try to learn from them. One of the biggest 
challenges during Operation Iraqi Freedom was the so-called 
``CNN effect'' and the immediate need for information. We rose 
to the occasion by establishing 24-hour family and community 
service call centers to provide information to families of 
friends and deployed marines.
    Taking care of marines and their families is a critical 
point of pride for the Marine Corps. As I said before, it is 
part of our ethos. Our continuum of care begins with the yellow 
footprints at the start of recruit training and continues 
throughout the life of a marine.
    Marines are marines for life. There are no ex-marines. 
There are only former marines. The legendary hallmarks of 
``Once a marine always a marine'' and ``Semper Fi'' prove our 
long-term commitment and provide convincing testimony for 
marines that they are forever changed and a part of a society 
that is sustained through self-perpetuation and a shared 
culture. Taking care of the families of marines during 
deployments is a vital part of that culture. Regardless whether 
we are providing pre-deployment briefings, providing assistance 
on family care programs, or adjusting child care services to 
meet the needs of the families with deployed marines, the 
Marine Corps takes great pride in taking care of the marines 
and their families every day.
    Sir, that completes my comments, and I am open to your 
questions.
    [The prepared statement of Colonel Yanello follows:]

           Prepared Statement by Col. Gerald L. Yanello, USMC

    Chairman Chambliss, Senator Nelson, and members of the 
subcommittee: it is a distinct pleasure to have this opportunity to 
appear before you today to discuss the services that the Marine Corps 
provides to families of deployed marines. Taking care of our own is one 
of the Marine Corps' abiding principles and you can be confident that 
those responsible for ``taking care of marines and their families''--at 
home or away--are not confused as to their mission or the importance of 
what they do--this is integral to the Marine culture.
    As an expeditionary force, we are accustomed to providing extended 
support. Approximately 76,150 marines were deployed in support of 
Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF), of 
this number 2,098 active duty and 893 reservists were from Georgia. 
While we are the youngest, most junior, and least married of the four 
military services, the Marine Corps has approximately the same number 
of family members as active duty personnel. The Marine Corps possesses 
a strong community support backbone that is well established at our 
major bases and stations to support these family members. We serve the 
needs of marines and families at home and away through an 
organizational construct that combines MWR, exchanges, family services, 
and voluntary education under a single leadership structure called 
Marine Corps Community Services (MCCS). MCCS is a combined arms 
community support organization that offers a diverse and expansive 
capability from which to draw personal and family readiness support. 
The single leadership structure of MCCS allows the commander to cut 
across previous program stovepipes. Removing the barrier and burden of 
stovepipes has allowed our commanders greater flexibility and 
encouraged development of true community-based interventions, programs 
or services. Installation commanders continuously gauge community 
service levels from which informed decisions are made to respond to 
changing needs. MCCS is easily adaptable to serve the mobility 
requirements of an expeditionary force.
    Marine Corps Family Team Building within MCCS is the headquarters 
element that provides plans, policy, and resources for the programs 
executed on installations.

                    SUPPORTING MARINE CORPS FAMILIES

    The challenges of the military lifestyle such as relocation, 
transition, and deployments are soothed by the comforts and familiarity 
of hometown, USA support. Our MWR activities provide that reminder of 
home and family, and wholesome fun. This is particularly important 
during periods of deployment when so much is uncertain and separation 
causes anxiety for the marine's family members. During deployments, 
marine families bear the burden of waiting but also the added 
responsibility of keeping the family together and functioning as 
normally as possible. This is a big job, but help is available.
    At each of our bases or stations, the Key Volunteer Network (KVN) 
Program serves as the official communication link between the deployed 
command and the families. Additionally, the Lifestyle Insights, 
Networking, Knowledge and Skills (LINKS) Program is offered to new 
marine spouses to acquaint them with the military lifestyle and the 
Marine Corps, including the challenges brought about by frequent 
deployments. We are hearing great things from our deployed commanding 
officers as units begin to arrive home from OIF regarding the necessity 
of this family readiness support while they were away and as part of 
their homecoming. Other support that is offered to families of deployed 
marines includes assisting in developing proactive, prevention oriented 
plans such as family care plans, powers of attorney, family financial 
planning, and enrollment in the Dependent Eligibility and Enrollment 
Reporting System (DEERS). The Family Readiness Officer and the support 
structure within the Marine Corps Family Team Building team play a key 
role in this area. Additional services are provided to those who need 
assistance coping with separation or desire specialized support such as 
spiritual guidance, coping and social skills, or just a caring 
listener.
    We are very proud to be the Department of Defense (DOD) pilot for 
implementation of an employee assistance program, which became 
available to the total Marine Corps force by February 1 and has been 
very helpful for families over the last few months. MCCS One Source is 
a 24/7, 365 day per year information and referral service designed to 
reach both active duty and Reserve families wherever they may be 
located. It can be accessed anytime via toll free numbers, email or the 
Internet. By offering round-the-clock information and referral 
services, we greatly expanded the support services previously offered 
aboard installations to marines and their family members, and 
particularly for Reserve families who are often located away from bases 
and installations. MCCS One Source support areas include parenting and 
child care, education services, financial information and advice, 
legal, elder care, health and wellness, crisis support, and relocation. 
We're excited about the reality of extended support capabilities and 
how this contributes to the well being of marines and their families.
All Information All the Time. . .
    One of the lessons that became quite apparent in the early days of 
OIF was the need for immediate information as a result of the so-called 
``CNN effect.'' With a 24-hour news cycle complete with embedded 
reporters, an immediate need for information became the expected norm. 
We realized that it was no longer sufficient just to provide updates to 
the ``traditional'' dependents such as the spouse through the 1-800 
numbers or the Key Volunteer Network as we had in the past. The 
already-established East and West Coast 1-800 family assistance 
hotlines at Camp Lejeune and Camp Pendleton were expanded and operated 
24/7 to provide information and referral services related to deployed 
marines. In April, Headquarters Marine Corps established the OIF Family 
Information Line to provide one phone number to concerned family 
members and the general public with the East and West Coast hotlines 
and weblinks to the Marine Corps and the MCCS Web site for the latest 
news about deployed marines. By mid-April, the east and west coast 
hotlines were receiving an average of 150-300 calls per day from 
spouses, parents, other relatives, and friends of deployed marines. In 
addition to these hotlines, special deployment support links were built 
on Marine Corps web sites, many deployed units had their own toll free 
numbers that the commander could update from the field with information 
for the families back at home, and Single Marine Programs at each 
installation were provided with templates on how best to keep the 
parents of single marines updated.
The Children. . .
    One of the family members that can be overlooked during deployments 
is the child. The Marine Corps' Children, Youth, and Teen program 
provides installations with overall guidance in providing childcare and 
during deployments, helps them to meet the needs of spouses with 
expanded hours of care and other programs designed for children. In 
addition to the child care needs during a deployment, there are 1.5 
million school-aged children of active duty, Reserve and National Guard 
families attending schools not affiliated with the Department of 
Defense. Skilled educators, counselors and mental health workers 
associated with the public schools attended by military children 
generally do not have an awareness of the lifestyle, issues or 
challenges of the military child. To be optimally effective, they must 
be trained in military child issues and appropriate interventions. The 
Marine Corps was pleased that the Department partnered with the 
Department of Education's Safe and Drug Free Schools so that the 
Services could work with the National Child Traumatic Stress Network 
(sponsored by UCLA, Duke University and the Department of Health and 
Human Services) to develop information booklets such as: An Educator's 
Guide to the Military Child During Deployment; An Educator's Guide to 
the Military Child During Post Deployment; and Challenges of Family 
Reunion.
    Another family program that can be especially helpful during times 
of deployment is the New Parent Support Program (NPSP). The NPSP is a 
prevention program to enhance family readiness through education and 
support of families with children from newborn to 6 years of age. 
Parenting skill classes, home visits, support groups and referrals for 
additional services are provided. Classes and home visits for a new 
parent who is alone as a result of a deployment can be very reassuring. 
In fiscal year 2002, 19,000 parents attended NPSP classes, 11,000 
families received home visitations.
    The Marine Corps received $700,000 in supplemental funding for 
children and youth initiatives in support of OEF and associated 
contingency operations. As of May 1, we have distributed approximately 
$470,000 of those funds for respite care, extended child care hours, 
child care during deployment briefs, and deployment training materials 
geared for children. The Marine Corps is meeting DOD's intent for the 
supplemental funding and is aggressively pursuing further execution of 
the funds in support of marines and their families.
Community Support
    Local communities outside our installations' gates are 
significantly impacted by marine deployments. Beyond expected sales and 
revenue declines experienced by local businesses, marines and family 
members often immerse themselves in the local community by volunteering 
as coaches, scout leaders, fire fighters, etc. For this reason, local 
businesses or community service organizations feel very connected to 
the marines and their families and want to help. At Camp Lejeune where 
over half of the troops were deployed at one time, MCCS is working with 
the Chamber of Commerce and the local community on Project CARE which 
seeks to match military families with services in the local community. 
Project Enduring Families are partnerships between MCCS and the 
communities surrounding Twentynine Palms and Miramar that are working 
to help families maintain daily routines and stay connected to the 
community. Some other examples of MCCS activities during this current 
deployment include: provision of more varied and flexible child care 
options; respite care; special events for families; free postage and 
packing (up to 10 pounds) of gift items for deployed troops; and 
offering deployed spouses free tire repairs at the Exchange Service 
Station.

The Challenges of Providing Support
    Perhaps one of the most challenging times to provide support to 
families is after the death of a beloved marine. As we worked with 
families to help them handle a death as a result of OEF or OIF, we 
realized that current policy sometimes was outdated and inadequate. The 
Department of Defense worked quickly with Congress and the Services to 
address needed changes as we became aware of the additional support 
these grieving families needed. Certainly one of the challenges we have 
faced during OIF involved the ``CNN effect'' and balancing the public's 
need for instant information with the military casualty assistance 
process and the family's needs. Mr. Chairman, as you are well aware and 
have addressed in S. 783 with Senator Miller, the process of applying 
and funding posthumous citizenship requests from the families of fallen 
marines was another issue for families like that of Corporal Jose 
Garibay and Lance Corporal Jose Gutierrez. In the absence of statute or 
policy that allowed for automatic application, our casualty assistance 
calls officers were provided with the information to help families that 
wished to apply for posthumous citizenship and Dr. Chu worked with 
other Federal agencies involved in the citizenship process to waive the 
required fees. A third area of increased support as a result of the war 
supplemental was the ability to pay per diem to those families 
traveling to the bedside of a marine wounded in OEF or OIF. We 
appreciate the willingness of Congress and the Department of Defense to 
quickly address issues such as these that help us better serve marines 
and their families in times of need.

                           RETURN AND REUNION

    One of the most rewarding experiences program managers enjoy is the 
opportunity to work with marine families during homecoming preparations 
and celebrations. Deployments are a constant reality for marines, 
sailors, and their families and while homecomings are a time of love 
and joy, they can also present significant challenges for all, 
regardless of age, experience, or length of service. As marines return 
and reunite with their families, they require adequate preparation and 
support services to ease the transition from the battlefield to the 
home. As important as this transition is for the returning marine, it 
is equally important for the family members.
    In recognition of the importance of the transition home for both 
marines and their families, the Marine Corps developed a standardized 
return and reunion program developed in coordination with MCCS 
personnel, health professionals, and chaplains. The program consists of 
a mandatory warrior transition brief for the returning marine, a return 
and reunion guidebook for marines and family members, a caregiver 
brief, and briefs designed for spouses. The Commandant recently 
outlined the steps in this important program for all marines in ALMAR 
#032/03 and to commanders in White Letter #03-03. Return and reunion 
presentations for family members are being made abundantly available 
and marketed to family members (spouses, children, and significant 
others) aboard receiving installations and at appropriate Reserve 
locations as early as 30 days prior to the return of units. The 
information used by command leaders, family readiness officers, and 
Marine Corps Family Team Building staff organizes the topics according 
to perspective: single marines and their significant others, married 
marines and their spouses, marines with children, single parent 
marines, and reservists going back to civilian jobs. In addition to the 
travel-size copy of the guidebook provided to all marines prior to 
their departure from the theater of operations, guidebooks are 
available on-line to installation staff and family members at home. 
Guidebooks cover issues like: return as a process requiring time and 
effort, managing expectations and staying flexible, reunion as a single 
parent, reunion and marriage, children, and work. Tips for a successful 
homecoming are also included.
    Key Volunteer Networks are critical in passing the word regarding 
the availability and scheduling of return and reunion briefings for 
spouses, identification of supportive information and resources, and 
helping in making referrals for families for follow-on support as 
needed. The brief for caregivers, ``Caring for the Caregivers'', is 
available on-line for installation staff and command representatives to 
offer to Key Volunteers and spouses who have been particularly 
challenged in support of the units during the deployment. This is a 3-
hour facilitated discussion to decompress those who have remained 
strong to care for others in crisis.

                               CONCLUSION

    Mr. Chairman, taking care of marines and their families is a 
cultivated, point of pride of the Marine Corps; it is part of our 
ethos. Our continuum of care begins with the ``yellow footprints'' and 
continues throughout the life of a marine. Marines are marines for 
life. Legendary hallmarks of ``Once a marine . . . always a marine'' 
and ``Semper Fi'' prove our long-term commitment and provide convincing 
testimony from marines that they are forever changed and a part of a 
``society'' that is sustained through self-perpetuation and a shared 
culture. Taking care of the families of marines during deployments is a 
vital part of that culture. Family readiness leads to mission readiness 
and is just one way that the Corps and the Nation say thank you for the 
sacrifices these families make.
    We would like to thank this subcommittee and Congress as a whole 
for the unwavering support you provide to our men and women in uniform 
and their families. Marines and their families are worthy of your time 
and attention. They perform a great service for this Nation and deserve 
a quality of life that recognizes that commitment. Your ongoing support 
will make it possible for MCCS to continue to provide the type of 
programs and services for our marines and their families that make it 
easier for marines to serve our Nation in every corner of the world and 
for their families to continue to support them.
    Subject to your questions, Mr. Chairman, this concludes my remarks.

    Senator Chambliss. Thank you very much, Colonel.
    Ms. Murray.

STATEMENT OF BARBARA MURRAY, CHIEF, FORCE SUSTAINMENT DIVISION, 
             HEADQUARTERS, UNITED STATES AIR FORCE

    Ms. Murray. It is a pleasure to be here this afternoon. I 
would like to start by thanking you and the rest of Congress 
for all of the wonderful things you helped the military 
families with in the National Defense Authorization Act (NDAA) 
for Fiscal Year 2003. It has certainly made our job with family 
support a lot easier. We have seen a marked increase in 
commitment, the satisfaction level of our families, and in a 
host of other quality-of-life indicators as a result of what 
came from the NDAA for Fiscal Year 2003. My thanks on behalf of 
the Air Force and Air Force families for that. It was a 
tremendous support for all of us.
    Senator Chambliss. You guys are easy to work for.
    Ms. Murray. Thank you, sir. Sir, I have prepared testimony, 
as everyone does, for the record, but I would like to focus not 
on the activities of our family support programs so much as a 
change in philosophy in the Air Force and how we approach 
family support as a whole.
    We have historically focused on family centers and a list 
of programs and a list of activities for our families to 
support their needs and issues. One of the lessons that we 
learned in Operation Desert Storm from our families that came 
to us very loud and clear was it is not the formal activities 
we need as much, it is where we turn to for help. Where 
families go when they want something is to the informal 
network: to their friends, to their neighbors, and to their own 
family members.
    We realized at that point that we had been focused 
primarily on building the most stellar formal programs that we 
could, on ensuring that we had leadership support connected, 
but that in a lot of ways we had not done the kind of support 
that we needed to ensure that our informal networks had the 
capacity to care for each other. So we have changed the focus 
somewhat in the Air Force in terms of how we approach family 
support, and we are integrating all of our activities at the 
unit level with the hope that we can strengthen those informal 
spouse networks and provide the resources that they need so 
that they can manage and care for each other, and our 
leadership stands behind them in that care and support. So it 
is a bit of a different shift from what has been our historical 
focus on providing a litany of strong support programs.
    While those are still available, we are focused more 
intently on that informal network and helping the community 
build their capacity for shared social responsibility. We have 
seen some tremendous stories as a result of that.
    In conjunction with that we have entered into new 
partnerships in our communities. Three of them I would like to 
highlight. We have recently engaged with the national VFW, in a 
partnership that involves bringing the VFW members closer to 
what is going on in the local installations where they can come 
in as senior mentors for our young families, working with those 
families and working at the local level with local needs to 
help address our family and community issues.
    On a national level, they have now opened their National 
Children's Home, which is probably one of the best kept secrets 
I have come across lately. It is a 660-acre campus in Lansing, 
Michigan, that has served VFW children and single parents with 
children since the early 1920s. They have now opened that to 
our active duty members in the event that there is some kind of 
emergency family care need with deployed members and the family 
care plan breaks down through no fault of their own. We now 
have a very safe, warm, and loving environment that is well 
ingrained in the military community that we can offer those 
children while the deployment takes place.
    Another partnership that we have strengthened is that with 
our aid society. The Air Force Aid Society has stepped forward 
with tremendous resources and support for all of our military 
families, regardless of whether it was repatriating families 
that we had to bring out of theater, whether it was families 
here who were experiencing financial difficulties because of 
the deployment. Regardless of what the issue was the Air Force 
Aid folks were on the front line with us, shoulder to shoulder 
working our family support issues.
    Finally, the third partnership I would like to highlight is 
that with our schools. We had Family Support Center personnel 
go into our schools and form liaisons with all of our local 
schools, helping the administration and the teachers understand 
the unique requirements and the unique issues of our children. 
They have partnered together to help focus on what are the 
needs for our children in the education systems that will 
support our families, issues those children come back home from 
school every day.
    One of our heart-warming stories is we had a little guy, a 
third grader, and at school they had a mock-up deployment so 
the other children in the school could experience what the 
active duty member does as they move through a deployment 
process. Then all of those children collectively built what was 
called worry chains, where they all wrote their worries on 
links of chain and they united those links of chain into one 
chain for all of the students in that class. That little guy 
went home and shared that with his mother, and she was in tears 
as she called us to let us know the tremendous support and what 
that did for her child in terms of acknowledging where the 
father was and what they could do and how they could engage 
with the rest of the community in strengthening their father, 
their hero, and that is one of the tremendous success stories 
we received daily.
    I could go on for hours about all the wonderful things that 
are happening in our centers and in our community. I know you 
are going to hear testimony from some of our local Family 
Support Center staffs as well as from our spouses. This has 
been, in terms of the refocusing of how we approach family 
support in the Air Force, a tremendous success story for us, so 
I would enter that for my opening statements, and look forward 
to your questions, sir. Thank you.
    [The prepared statement of Ms. Murray follows:]

                  Prepared Statement by Barbara Murray

                              INTRODUCTION

    Senator Chambliss, it is a tremendous honor to appear before you to 
present our Air Force family programs that aid and support our 
dedicated men and women of the United States Air Force and their 
families. While we ask much of our military members, we also ask much 
of their families--especially as we deploy in increasing numbers.
    Today, we are facing one of our greatest challenges. How we adapt 
to the new steady state of accelerated operations and personnel tempo 
while ensuring the well being of our personnel and their families. 
Throughout the Air Force we have a number of programs designed to focus 
on the member and his/her family to enhance their overall quality of 
life and help them effectively confront the demands of this new AF 
operational imperative.
    One of the largest stressors on our airman and their families is 
deployment. To manage our deployment schedule, the Air Force developed 
the Air Expeditionary Force (AEF) concept which we have been refining 
and using since the late 1990s. While world events since September 11 
and, more recently, Operation Iraqi Freedom (OIF), have forced us to 
deploy more personnel, the AEF construct has proved its flexibility and 
usefulness. Prior to 11 September, the Air Force had approximately 
7,000 personnel deployed; following those events, the number jumped 
25,000; and then with OIF we jumped again to almost 55,000.
    As we continue to track tempo, we find that there has been a 
significant increase in tempo levels across the force when comparing 
levels from fiscal year 2001 to fiscal year 2002. For example, on 
average those who were away from home station were gone 38 days in 
fiscal year 2001 and 48 days in fiscal year 2002 (21 percent increase). 
Further, in fiscal year 2001 crews from only 6 of our 38 major weapon 
systems were away from home station above 25 percent of their available 
time. In fiscal year 2002, that number increased to 17. Throughout our 
recent operations, the Air Force has continued to proactively manage 
our force deployments and the durations for each and every airman. Even 
so, the toll on our families has been greater than we would like. But 
our families are resilient, and they have come through with shining 
colors. Much of our success in the area of member and family support is 
directly attributable to the significant support we have enjoyed from 
Congress, especially in the National Defense Authorization Act (NDAA) 
for Fiscal Year 2003 . The Quality of Life (QoL) Survey 2002 indicates 
our members' satisfaction with the Air Force has improved in large part 
based on the significant support from Congress.
    We thank Congress for approving another significant overall pay 
raise to include targeting for our military personnel in the NDAA for 
Fiscal Year 2003. In addition, you improved the Basic Allowance for 
Housing (BAH) rates effective 1 Jan 03, based on 7.5 percent out-of-
pocket for the National Median Housing Cost for each grade and 
dependency status, continuing toward our goal of eliminating out of 
pocket expenses. The National Defense Authorization Act for Fiscal Year 
2003 also authorizes increases in minimum caps on health profession 
special and incentive pays, increases to Reserve component prior 
service enlistment bonus amounts, and several additional travel and 
transportation entitlements that will continue our effort to reduce 
other out-of-pocket expenses for our military personnel. These critical 
compensation initiatives are keys to meeting our families' basic needs 
while improving the readiness of our force and contributes greatly to 
morale and retention.
    The NDAA for Fiscal Year 2003 also provides many TRICARE 
initiatives designed to improve the quality of service for our 
beneficiaries. The fiscal year 2003 NDAA extends TRICARE eligibility to 
Reserve dependents residing in remote locations without their Reserve 
sponsors. Additionally, eligibility for the TRICARE Dental Program is 
expanded to surviving dependents, providing much needed dental benefits 
to surviving family members. It also approves the use of Medicare 
providers as TRICARE providers, expanding provider availability to 
improve beneficiary access to care. How our airmen perceive their 
quality of life directly and fundamentally impacts our readiness 
capabilities. We place intense demands on our mission-focused Total 
Force, and it is imperative that we provide our airmen and their 
families with the quality of life they have earned and deserve. We are 
reviewing our manning and workload to realign resources across the Air 
Force to alleviate stress on our high demand assets. We seek to improve 
workplace environments; provide fair and competitive compensation and 
benefits; provide safe, affordable, and adequate housing; enhance 
community and family programs; improve educational opportunities; and 
provide quality health care, as these have a direct impact on our 
ability to recruit and retain our people and sustain a ready force. 
Again the QoL Survey supports this by showing our airmen and AF 
civilians believe by over 90 percent that the Air Force is a good place 
to work. The survey also reflects families being over 80 percent 
supportive of the AF way of life. We will not stop looking for ways to 
improve, however we are happy to report the efforts on behalf of our AF 
personnel have made significant impact on our airmen and their 
families.
    More specifically, as we look at deployment issues/concerns, we are 
pleased with the tremendous advancements we have made over the last 
decade in caring for our members and their families. As early as 1995, 
the Air Force placed Readiness NCOs in each of our Family Support 
Centers (FSC). Those NCOs are charged to take care of family issues 
during deployments, plane mishaps, and natural disasters. They have 
become one of our best success stories as they link leadership, 
members, families and community agencies maximizing resources to 
effectively handle the stresses of deployment and/or reunions. The 
Readiness NCO prepares, sustains and reunites members and families so 
they are able to meet today's mission requirements.
    FSC Readiness NCOs are tasked with providing individual and family 
counseling prior to the deployment, to include administration of a pre-
separation checklist of practical considerations. While this counseling 
is highly encouraged, the current AF Instruction does not make it 
mandatory for military personnel. Some installations require members to 
process through the FSC prior to deployment, but family counseling is 
not mandatory. Unit briefings are held at the discretion of commanders 
and are, in most cases, mandatory for the deploying military member. 
These briefings involve subject matter experts (including the FSC 
Readiness NCO) and cover family considerations, socio-political 
demographics at the deployment site, Chaplains' briefings, pay and 
entitlements, medical and legal concerns. Many FSC Readiness personnel 
occupy a formal position on the mobility processing line and, while 
this presence is an optional stop, most personnel stop to get support 
information for their families, pick up self-help booklets for children 
and spouses and register for free morale calls. At one Air Force 
Material Command installation, the FSC stop was combined with the 
Emergency Data (Form 93) stop. As members check their data, they can 
easily access FSC information as well. Air Force Reserve Command 
developed a standardized form to be filled out by the member at the 
deployment line. The purpose is to capture unique concerns just prior 
to the member's departure. The information cannot be captured at any 
other time and provides the member one last opportunity to share 
concerns about special family care needs (e.g. ``my son and spouse were 
in a car accident a few days ago. They are fine but I would feel better 
if someone would call them and check on them.'') It is the individual 
attention the Readiness NCO provides to the member and family that has 
truly made the difference for our families.
    Following the departure of the military member, the FSC and the 
Readiness NCO continue their engagement with the immediate family and, 
in many cases, the caregivers of a single airman's children or a single 
member's family of origin. Support is provided in the form of morale 
calls, video phone calls, Hearts Apart support activities, free email 
via GI Mail, individual adaptation consultations, referral and follow 
up and access to AF's community Web site, AFCrossroads. Many 
installations publish newsletters that describe community activities, 
classes, volunteer opportunities, deployment ``survival'' tips and 
``need to know'' information. Chaplains, FSCs, unit leaders, spouses 
and base agencies contribute to these newsletters or create base web 
pages for separated families. The VFW held a school supplies drive for 
the 1,300 Air Force families who were evacuated from Incirlik Air Base, 
Turkey, before the start of Operation Iraqi Freedom. Of those families, 
12 chose to go to Robins Air Force Base, 5 chose to go to Dobbins Air 
Reserve Base and 7 to Moody Air Force Base. They didn't have time to 
pack their personal items, said John Senk, the VFW adjutant general. 
This is one reason the organization collected the supplies. The VFW 
also provides free phone cards to deployed members and their families, 
and emergency relief funds to those who need it. The school supplies 
were sent to stateside Air Force family support centers and distributed 
to the families. Some of those supplies arrived in Georgia to support 
the families there in Safe Haven status from Turkey.
    The military member's return is often the toughest part of a 
deployment. The member has to reenter the family, the work place and 
get back to day-to-day obligations. The FSC and the Readiness NCO work 
hand-in-hand with the unit prior to the member's return. All helping 
agencies participate in the successful reintegration of the member and 
the family. It is a community interest to support our members and 
families reunite and return to a balance between work and family. The 
Chaplains are an integral part of reuniting the unit members with their 
families by providing reunion counseling/briefings at the deployed 
locations.
    Another tremendous success for the Air Force has been AFCrossroads, 
our official family and community Web site. The Web site offers 
information on each DOD installation, employment opportunities, 
information resource center, teens and youth forum, Eldercare, Family 
Separations and related Web site links to provide additional 
information to the AF family. Just to show how truly successful this 
Web site is, we recorded over 24 million hits for the month of April 
2003 alone! The virtual community that has developed as a result of 
this Web site is now extending back to our physical communities where 
spouses, armed with the information they have shared/received via 
AFCrossroads, are energizing all types of programs/services at their 
base that only further respond to installation family needs.
    Taking a more collaborative approach to community and family 
service delivery, we created the Community Action Information Board and 
Integrated Delivery System working groups at Air Staff, MAJCOM, and 
Installation levels. The Community Action Information Board brings 
together senior leaders to review and resolve individual, family and 
installation community issues that impact military readiness and 
quality of life. The Integrated Delivery System working group brings 
together all community and family agencies to ensure our military 
members and their families have access to the services and activities 
they need. Through robust research over the last decade, we know that 
communities that are the most equipped to respond positively to the 
unique demands of deployments are those communities where there is a 
shared competency among not just leadership and the formal agencies, 
but also among members of the informal networks. While we have 
historically focused our attention on strong leadership support and the 
excellences of formal agencies, we now know that the first place people 
seek help is from friends and family members by a resounding majority. 
With that documented preference, we have begun to focus our efforts 
much more heavily on strengthening the collective competency of our 
informal networks, building a shared sense of social responsibility, 
and ensuring that members of those informal networks have the resources 
to effectively respond to their own issues/needs. Nowhere have we seen 
the effects of that change more notably than in our suicides rates 
which have dropped dramatically over the last 7 years. Another 
resounding success in building community is a virtual community created 
via a spouse forum on AFCrossroads. Since its debut, we have seen a 
community of spouses form that exchanges encouragement, advice, and 
information with each other on a daily basis. With the onset of 
Operation Iraqi Freedom, the conversations turned to deployment needs 
and support. Subsequently we now see conversation addressing how to 
handle situations around reunions.
    Programs like child development and youth programs are absolutely 
critical to readiness and family well-being. Troops who know their 
family is being properly cared for are better able to focus on the 
mission and deliver top results. The Air Force sets the standard in 
providing affordable, quality child-care in child development centers, 
school age programs, and family child-care homes. Air Force childcare 
centers and all of its before- and after-school programs for children 
6-12 are 100 percent accredited. Over the last 2 years, the Air Force 
expanded its family child-care program so it can offer free emergency 
child-care for its members who have to work late, on the weekends, or 
who experience shift changes. This program also serves parents who are 
assigned to missile sites and need around-the-clock care. The most 
recent variation of this program, spurred by Operation Enduring 
Freedom, provides 16 hours of free child-care for members who are 
returning home after an extended TDY. Beyond these benefits, on-base 
programs are part of the non-pay benefit system providing savings over 
the cost members would pay to receive similar services off base.
    Across the Air Force, services squadron family member support 
flights actively support our deployed members and their families. For 
example, at Robins AFB, when Major General Wetekam, Warner Robins Air 
Logistics Center Commander, held two briefings for spouses of deployed 
members, on-site childcare was provided while he relayed vital 
deployment information. Functional experts from Family Member Programs, 
Family Support, the Chapel, Medical Group, Legal, the Housing Office, 
and the base school attended and shared the programs offered to assist 
families left behind.
    Our extended partnerships with Air Force Aid Society (AFAS) and the 
Veterans of Foreign Wars (VFW) have allowed us to even further extend 
our support to our airmen and their families. General Hap Arnold and 
his wife, Bea, started the AF Aid Society during World War II (1942) 
for the purpose of taking care of Army Air Corps members and their 
families. So we have a proud 61-year history of providing this support 
during all combat operations that have occurred since our founding. As 
the United States prepared to engage in the war with Iraq, while 
continuing to fight the war on terrorism and defending the homeland, 
General Mike McGinty re-emphasized to our Family Centers the commitment 
of AFAS to help our great AF troops (Active, Guard, and Reserve) and 
their families. Stating that they know what combat creates unique 
problems, concerns, stresses and worries, they committed the AFAS to 
help wherever and however they could. They repeatedly stepped in to 
respond to special cases and considered every request.

                                SUMMARY

    The global war on terrorism has imposed a new steady state of 
radically accelerated operations and personnel tempo as well as a 
demand for unprecedented speed, agility, and innovation in adapting to 
unconventional and unexpected threats. While our tools and technology 
are impressive, it is our airmen who will fight and win the Nation's 
wars. Moreover, while they do that, it is incumbent upon us to care for 
them and for their families. We will continue to rely on Congress as we 
seek to improve and innovate our support mechanisms to meet the 
challenges of our ``new steady state.'' Thank You.

    Senator Chambliss. Thank you very much, and I know that 
each of you have your own success stories because you work hard 
at this issue.
    One focus that we have had, particularly on the Senate side 
over the last several weeks as we have moved into Operation 
Iraqi Freedom, as well as moving into the authorization of the 
defense bill for 2004, has been trying to upgrade and equalize 
the benefits that our Guard and Reserve units have with that of 
our Active Forces, because we are calling on these folks more 
and more.
    I know that the programs that your Services created to 
support active duty families are impressive, but what about the 
community support for the Guard and Reserve? Many of these 
individuals live far from bases where Family Support Centers 
are located.
    I would like to ask each of you to take just a minute to 
talk about what your particular Service has done to open up the 
lines of communication with the spouses and children of 
deployed guardsmen and reservists and how much of this mission 
is supported by the Reserve components themselves and what kind 
of collaboration is needed between your office and the Reserve, 
Service Reserve chiefs.
    Mr. Isaacs.
    Mr. Isaacs. Sir, within the Army, as we deploy, we are very 
much depending on Reserve components. So we are very closely 
linked between the Active Force and Reserve components in all 
of these programs. In specific what we call Family Assistance 
Centers are those that are operated by the National Guard, the 
Army National Guard, in each of the States and territories, 
specifically to provide assistance that would normally be 
provided for the active duty soldier on an installation within 
the State, particularly for those family members who are not 
proximate to an installation.
    We work closely with both the National Guard and the 
Reserve component to make sure that the programs designed track 
with those that are in the Active Force, and some of that 
funding comes from the National Guard Bureau and some of it 
from the active component. We are working very hard to ensure 
that the services that we provide to the Active Forces is 
replicated in the Reserve component. This becomes critical to 
us as we see more of our Reserve components participating in 
our operational requirements.
    So I would say that we have worked at it pretty hard. It 
certainly is something that we need to work harder at to make 
sure that we maintain the quality.
    Admiral Purcell. Senator, the same sort of services that we 
offered in terms of deployment, pre-deployment briefings, and 
readiness programs were provided for families of reservists and 
contact was made with those units. We usually deploy those as 
groups. Those same home port briefings, and pre-deployment 
briefings were also offered for the reservists. For folks that 
were outside of areas, those contacts were made through the 
Family Service Centers regardless of the geographical region.
    Those services are also offered between all the Family 
Service Centers, and services are offered for the other 
services' folks, whether active or Reserve. So Army folks and 
Navy folks can go to an Army base or vice versa, or other local 
services, and those same kinds of support structures are going 
to be there for them. Between the sharing and the contact of 
deploying units and their preparations, particular emphasis was 
placed on assisting those folks who had to rapidly deploy, 
sometimes without much pre-notice, in terms of taking care of 
personal affairs, and giving briefings, and taking care of 
their families.
    There was a significant effort made to address the concerns 
of reservists and make sure that they were brought into the 
same kind of pre-deployment briefings and provided with the 
same sort of services as those that were available to the 
active duty folks.
    Senator Chambliss. Before we move to Colonel Yanello, you 
mentioned the situation in which a reservist's or a guardsman's 
family lives in an area maybe not where there is an Army base, 
if they are Army, but where there is a Navy base. Is there any 
communication between the Army and the Navy about those 
guardsmen and reservists, so that you can take some overt 
action to make sure that they know what services are available 
in their community and can take advantage of them?
    Admiral Purcell. I will have to get back to you for the 
record about whether there is a specific formal link and what 
that link is. With the resources that we have, I would expect 
that we are going to refer them to the local agencies, phone 
numbers, and contacts and who they would need to go or call. 
What the level of formality that connection is, I will have to 
find out for you, sir.
    [The information referred to follows:]

    With respect to support of mobilized reservists (Navy and other 
Services), the following information is provided after talking with 
FFSC Directors at Mid-South and Joint Reserve Base (JRB) Fort Worth, 
both of which provide service to a variety of Reserve personnel at 
local and remote sites.
    Support services are provided by Navy Fleet and Family Support 
Centers for Navy and other Service Reserve, National Guard, and Coast 
Guard personnel and families through a variety of means:

        -  Army Reserve soldiers provide family contact information and 
        the Army Reserve notifies nearest Navy FFSC when members 
        activate and deploy. FFSC sends out letters with brochures or 
        booklets describing FFSC services and how to access them 
        locally or how to find information on nearest installation 
        services from the SITES internet database (SITES lists detailed 
        information for all DOD installations).
        -  FFSC assists local families to form support groups and 
        maintains contact with these groups as needed.
        -  When mobilization started, FFSCs surveyed all area Navy and 
        Marine Corps units to get lists of assigned Ombudsmen and Key 
        Volunteers and offered training for all. This drew Ombudsmen 
        and Key Volunteers from remote as well as nearby units.
        -  FFSCs use lists of Ombudsmen, Key Volunteers, Family Support 
        Groups, National Guard, Army and Air force Reserve Family 
        Assistance Officers as Points of Contact (POCs) for providing 
        general contact information as well as information of interest 
        to family members by email for further distribution within the 
        units and groups.
        -  FFSCs use other community organizations such as American Red 
        Cross, Veterans of Foreign Wars, etc. as well as area commands 
        to distribute information to units and family members. A number 
        of communities with large numbers of deploying personnel have 
        hosted ``Family Readiness Days'' to draw families out and 
        acquaint them with area health and social service providers 
        including military organizations and family centers.
        -  FFSCs provide pre-mobilization/pre-deployment briefings to 
        Reserve and NG units. FFSC at JRB Ft. Worth prepared a booklet 
        entitled ``Information and Referral for Isolated and Remote 
        Units and Families'' which was sent out to lists for all known 
        units in Texas. Family Centers in Texas are members of an 
        Inter-Service Family Assistance Committee (ISFAC) which 
        promotes sharing of information and resources amongst all 
        branches of service members to reach family members of 
        mobilized troops.
        -  Headquarters programs for all Service Reserve and Army 
        National Guard units have established 1-800 numbers and Web 
        sites where service members and families can access reserve-
        specific information, such as on benefits eligibility, etc. 
        These numbers and Web site addresses are widely distributed by 
        FFSCs as well as Reserve, National Guard, and Coast Guard 
        commands. Families may access and receive most services 
        required (if available) or referrals from any of the Services 
        Family Centers. Consequently, Navy FFSCs have been very 
        proactive in trying to work with units and reach families in 
        their geographic areas.

    Senator Chambliss. Colonel Yanello.
    Colonel Yanello. Senator, what we have done is similar to 
the other Services. However, we also established what we called 
a Marine Corps Community Services (MCCS) One Source, which is a 
specific organization to take 1-800 number calls and because 
reservists live away from the major bases and stations that 
give the support services, they can call in at any time and 
talk to somebody live; it is not just a recording.
    We also go out to the different Reserve stations and give 
briefs as the other Services do. But the MCCS One Source is a 
24 hours a day, 7 days a week, 365 days a year service to all 
the marines and their families and also to the sailors that 
serve with us aboard the bases and stations and throughout the 
Marine Corps.
    There is not only the service available in the continental 
United States (CONUS), but there is also a number for marines 
and their families to call who are outside of CONUS that would 
direct them to either the Services, the nearest station, and 
some of the things that they ask are basically as easy as 
``Where is my marine? What are they are doing? I have a flat 
tire, I do not know how to fix it.'' Things like that, so that 
is the way we take care of, not only the active duty, but also 
the marine reservists who serve with us on active duty.
    Senator Chambliss. Ms. Murray.
    Ms. Murray. Senator, we have had, since Operation Desert 
Storm, family readiness offices in our Reserve installations so 
that we have actual family support staff at our stand-alone 
Reserve installations as well as all our active duty 
installations.
    The Air Guard has in the last few years also brought on 
line staff members to serve as family readiness officers for 
their Guard families. We have been total force in our family 
support centers on our active duty installations since before 
Operation Desert Storm. We will see our Reserve component 
members and their families even when they are not called up for 
deployment, when they are not activated; so at any time they 
can go in and take advantage of all of the programs and 
services there on the active duty installation as well.
    Our readiness officers in our Reserve component are on 
pagers and 1-800 lines. They are available 24/7 around the 
clock for any of our Reserve component members who encounter 
any kind of issues or have special needs.
    We also have a number of Web sites to keep our virtual 
community connected. Our Air Force community Web site, Air 
Force Crossroads, has gotten so popular that we enjoyed a full 
24 million hits for the month of April alone from family 
members and members who were going out, seeking information 
about benefits, seeking information about how to stay connected 
to their deployed family members, how to get kids in school. 
There is a whole host of all of our support information on that 
Web site.
    It has been a tremendous advantage to our Reserve component 
families who are truly isolated in some way from the active 
duty community by virtue of where they live, so they can jump 
right on there and get that kind of information.
    We also have the capability to do feedback in terms of, 
``Hey, I need to know this, I cannot find it from the Web site, 
how do I get an answer?'' We have a Web master who continually 
monitors the site so that we can provide that kind of 
information as well.
    Senator Chambliss. Each of you made reference in your 
written statement to surveys that you conduct to assess 
satisfaction with quality of life by soldiers, sailors, airmen, 
marines, and their families. In its report on the National 
Defense Authorization Act legislation, the Senate Armed 
Services Committee included a provision noting the importance 
of these surveys.
    I would like for each of you to describe surveys of 
personnel that you rely on within your Service and how 
frequently they are authorized to use these tools and what are 
the most significant findings that have emerged in those recent 
surveys. I will tell you also that our last panel today 
includes some folks who have probably filled out those surveys, 
so we may get a different perspective from them when they get 
up here.
    But if you will, again, Mr. Isaacs, let us start with you 
and let us talk about the surveys for a minute.
    Mr. Isaacs. Yes, sir. We have really two ways to survey at 
the department level. We do a formal survey of soldiers and a 
separate formal survey of family members that addresses the 
totality of the Morale, Welfare, Recreation, and Family 
programs, and that is a formal survey that we do every other 
year that we run through the normal formal survey process. I do 
not have the exact number of how many surveys we send out, but 
we get back a statistically significant sample, and that helps 
us in formulating future programs.
    I think the most effective system the Army has developed, 
and has been in place now about 20 years, is the Army Family 
Action Plan process, where at installation levels the whole 
population of an installation meets with the installation staff 
to identify issues of concern.
    Things that can be fixed on the installation get fixed by 
the installation commander. Things that cannot be fixed get 
elevated to, in our context, the major command. Things that 
cannot be fixed at that level are elevated further. We meet 
annually, and a central committee chaired by the Vice Chief of 
Staff of the Army decides which of those issues that the Army 
staff should take on. In many cases, of course, it requires 
resourcing, and only our Vice Chief of Staff can determine that 
an issue is unachievable.
    Over a 19-year period, we have had huge success, and all of 
that has emanated basically from direct feedback primarily from 
family members at installations. Some of it turned out to be 
kind of silly policy stuff that we all said, ``Gee, how did 
that ever happen''? to major changes in benefits such as SGLI 
and dependent dental care and a number of other major 
initiatives. We think that is probably the most effective 
system we have in place.
    Admiral Purcell. Senator, we have a formal survey system as 
well. It repeats itself every 3 years from the MWR site. It 
covers civilian spouses, primarily, 1 year; surveying the MWR 
infrastructure itself another year, and sailors and users on 
the active side another year, and that repeats itself 
cyclically. That is the major survey that we use to keep in 
touch with personnel formally at the major organizational 
level. Those survey results have continued to be quite good, 
actually.
    We also started last year what we have called a ``Family 
Summit.'' The first one of those we have done, and it is going 
to be a biannual affair. We had 200-plus family members from 
all over the United States and overseas, active duty teens, 
spouses, and so on, to meet for a 2-week session to talk about 
issues, what their perceptions were, what was going well and 
what needed work. That effort has been formalized into a number 
of pilot programs, five of which are ongoing right now. That 
summit is also going to be repeated biannually.
    Those are probably two of the biggest vehicles we are using 
right now to get hands-on feedback from folks who are actually 
using the systems and to determine whether they are satisfied 
with the service they are getting in the programs they are 
receiving or whether we have problems that need attention.
    Colonel Yanello. Sir, we have surveys. The ones we have are 
quality-of-life surveys. We had three in the last 10 years 
which talked about everything from housing to expectations over 
time. In fact, our Deputy Commandant for Manpower, Lieutenant 
General Parks, has recently testified on the results of the 
quality-of-life survey.
    In 2002, we did have our first spouse survey, and one of 
the biggest issues identified was separation from their 
serviceman.
    Also, as I would expect with many of the other Services, 
the installation commanders also had open houses where we 
invited the participants, actually the people who were 
stationed aboard the bases and their spouses to come in and 
face to face talk to the commander about what they were or were 
not getting in the way of services on the installation. Thank 
you.
    Senator Chambliss. Ms. Murray.
    Ms. Murray. Sir, we have three different formal survey 
processes, the first one being the Chief of Staff survey which 
is done every 2 years to ask the members what their issues and 
needs are.
    Then we also have a quality-of-life survey that we do about 
every 18 months to 2 years that looks at our specific quality-
of-life agenda items such as safe and affordable housing, 
quality healthcare, operations tempo, quality-of-life issues 
that we have built into the Air Force quality-of-life agenda.
    Then our third survey that we do every 2 years is our 
community assessment, where we survey not only members but 
family members as well in terms of what are their family and 
community issues.
    We have just finished the last quality-of-life survey, and 
it was a tremendous home run hit for the Air Force in terms of 
significant increases in members' intent to remain in the 
Service, what they considered fair and equitable pay and 
benefits and what their family perceives in terms of the Air 
Force being a good place to live and work. So a real home run 
hit for us. Again, I think a lot having to do with the support 
we received in the NDAA for Fiscal Year 2003.
    We are in the process of doing our community assessment as 
we speak and hope to have those results finished by the end of 
this summer. But all three of those surveys have helped drive 
the agenda as we program and look for resources to support our 
members and families.
    Then lastly, we have a process in the Air Force where at 
the installation, major command, and air staff level we have 
what is called a Community Action Information Board (CAIB) that 
is chaired by the commanders at each level. It is chaired by 
the Assistant Vice Chief of Staff of the Air Force at the Air 
Staff level, and is made up of the senior leadership of each 
level of the organization. We start at the installation level, 
and family members as well as members of the leadership team on 
that installation, identify issues particular to that 
installation, and they work at that level to resolve them.
    If they believe that an issue is more global than just that 
installation, or if there are changes needed in policy, in law, 
or in resourcing, they bubble that up to the major command. The 
same board structure looks at those issues that have come from 
the installation at the major command level. Again, if it is 
larger than that, they bubble it up to the Air Staff level 
where our Air Staff, our senior general officer leadership for 
the Air Force, address those issues.
    We have had some tremendous successes in addressing 
financial hardship, in reducing our suicide rates, in looking 
at issues around domestic violence, and we think it is 
probably, of all four of our processes, including our surveys 
and our CAIB process, we think it is the one which bears the 
most fruit.
    Senator Chambliss. I know a lot of people get frustrated 
with these surveys, and the first thing they do when they see 
them is sometimes just throw them in the trash, thinking that 
decisions by your side of the table are not going to really 
matter, and are not going to be determined by what is contained 
in those surveys. But if I am hearing you right, is it a fair 
statement that these surveys do matter and that it is important 
for all personnel to fill those surveys out correctly and be 
careful because they do make a difference when it comes to your 
making decisions on quality of life as well as other issues?
    Ms. Murray. Absolutely.
    Mr. Isaacs. I would certainly say within the Army, sir, 
that we do pay attention to those surveys, and obviously the 
greater return on the survey, on those that get mailed out, the 
higher validity of the information. We work very hard to make 
sure, and a lot of it has to do in the process of how you mail 
things to an individual, as opposed to a different way in 
keeping up with accurate addresses, but absolutely, we pay 
attention to those surveys and the senior leadership reacts to 
the feedback.
    Admiral Purcell. I would just like to add, Senator, that I 
could probably agree with that. We are very concerned about the 
response rate, the return rate. We are making efforts to 
actually try to personalize this so that the people who 
participate in the surveys will get some kind of feedback after 
the survey is completed, and that there is a connection between 
what you put in and getting some kind of feedback on the 
results of what came out of the survey study overall. We hope 
to, by doing that, increase the successful feedback and 
increase the participation rate because people are going to do 
it and there is going to be some kind of response that says, 
``Thank you for participating. Here is what we found out, or 
here are the results,'' which we also hope that will increase 
the participation rate.
    Ms. Murray. Senator, if I might add, we were a little 
concerned about them throwing surveys away too, so we web-based 
it so they cannot throw it away. We have actually gotten 
tremendous response rate. Our quality of life survey that we 
just finished, we sent out over 100,000 surveys and got a 45-
percent response rate, which is up from the last two surveys 
that we have done; they were down in the 30 percentile, but at 
45 percent, it is obviously much more than we needed for a 
statistically valid sample size. What it tells us is that our 
members are actively engaged, and they believe that something 
positive will come from their comments in that survey; 
otherwise, they would not have responded in the volume that 
they did. So we have been extremely pleased with the response 
that we are getting, both from our active duty and Reserve 
component members, as well as from our families.
    Senator Chambliss. Admiral, one of the findings that 
emerged from the tragic deaths at Fort Bragg last year was that 
the availability of marital and family counseling may be 
limited and the attempts to access professional counselors in 
the civilian community may be impeded by the restrictions on 
the use of TRICARE.
    In your written testimony, you note that the Navy is unique 
in providing professional counseling services in its Fleet and 
Family Support Centers, and I certainly saw this on a recent 
visit to Kings Bay last week. Would you please describe the 
services that are provided, including the relationship with the 
chain of command, and have you found that the Navy can provide 
adequately for demand for professional counseling with the 
number of employees you presently have?
    Admiral Purcell. Yes, sir, I will be happy to do that. We 
have a system that is based in the Fleet and Family Service 
Centers that offers professionally licensed counseling for a 
number of issues. Some of them we call life crisis issues, 
whether it is for spouses who are not getting along well or 
problems with teenagers. This also involves the FAP program, 
the Family Advocacy Program, which involves domestic abuse and 
child abuse counseling and treatment.
    This system is not connected in the Navy to the medical 
department. It is not an issue for a sailor's service or 
medical record unless it gets to the level where the counselor 
is concerned for the safety of the individual, such as a 
suicidal issue and that kind of thing, which would be referred 
to a medical professional.
    What this system allows us to do is to address day-to-day, 
life crisis issues, as well as more significant issues, family 
issues particularly, outside the medical and the formal chain 
of command, which we think allows families to make use of those 
services without feeling that these events are immediately 
becoming part of their medical record or becoming part of the 
official chain of command.
    Unless an incident or a problem rises to the level that 
treatment is required, or formal counseling is required, or 
domestic abuse treatment is required, the chain of command 
would not be involved. We have found that this has been a very 
effective vehicle. We also believe that the services that those 
folks are getting in terms of life crisis-type counseling would 
only be available to them at fairly significant expense in the 
civilian community. It is not covered by TRICARE. We estimate 
counseling costs between $50 to maybe $100 an hour, depending 
on where you live, for that kind of counseling.
    So from both respects, in terms of providing a value or 
benefit which we feel is not covered otherwise, and in terms of 
allowing us to get people into the program for assistance early 
on without stigma or the fear that it will be a reflection on 
their professional career, these are advantages of the program, 
and we are very happy with how this is working.
    Senator Chambliss. Colonel Yanello, I appreciate your 
reference to S. 783 in your written statement regarding 
posthumous citizenship for deceased, non-citizen service 
members and their survivors. The ultimate sacrifice made by 
Corporal Garibay and Lance Corporal Gutierrez, as well as many 
other instances of combat injuries has increased awareness and 
our appreciation for non-citizen service members who volunteer 
to defend our Nation.
    I thought you identified an important issue in your written 
statement referring to the CNN effect. With embedded 
journalists submitting constant reports from Iraq and realtime 
coverage by CNN and all the news outlets, families of marines 
clearly needed assistance in understanding how it was affecting 
their loved ones. What were some of the typical questions that 
came to the Marine Corps as a result of the CNN effect?
    Colonel Yanello. Senator, as I said in the beginning, we 
had all kinds of queries from the families. What we had done, 
as a result, was we went ahead, and the Commandant authorized a 
1-800 number for marines, and we have two basic call centers. 
We have Camp Lejeune on the east coast and Camp Pendleton on 
the west coast, and we have also set up call centers there 
staffed by volunteers. Once something appears on the news, 
right away that would spark a lot of interest in folks' family 
members and loved ones, and they would call with all kinds of 
questions such as, ``Where is my marine? How is he? Do you know 
if it was him that was hurt or his unit?'' So we take the calls 
and send them either to the east coast or west coast.
    Now, with respect to the casualty response section, that 
kind of information we obviously are not going to let out to 
the press until the notification of next of kin is done. As far 
as the CNN effect, technology is a dual-edged sword, if I can 
say that. It helps to some extent, but I am sure the other 
Services may agree that it results in people wanting to know 
information right then and there. We have to respect the 
family's privacy before we can actually let information out to 
the press.
    Senator Chambliss. Thank you all very much for your insight 
into these issues. I could spend all afternoon giving questions 
to each of you, but we have a couple of other panels here. 
Thank you very much for being here and for your statements and 
your participation in this hearing.
    I would now like to ask our next panel to come forward. 
With us today is Ms. Linda Heifferon, I hope I am saying that 
right, Director for Community Activity and Services at Fort 
Stewart; Dr. John Kelly, Program Manager for Community Support 
for the Navy's Southeast Region; Ms. Ann Lukens, Director of 
the Family Support Center at Moody Air Force Base; and 
Technical Sergeant Jerry Thornton, U.S. Air Force, Family 
Readiness Noncommissioned Officer at Moody Air Force Base.
    Thanks to each of you very much for being here. We have 
received your written statements, and we will be glad at this 
time to take any comments you would like to make before we 
submit some questions to you.
    Ms. Heifferon, am I pronouncing that right?
    Ms. Heifferon. You are pronouncing it exactly right, sir.
    Senator Chambliss. Good. With a name like mine, sometimes 
you never know, so I always like to make sure.
    Ms. Heifferon. Thank you, sir.
    Senator Chambliss. Please proceed.

    STATEMENT OF LINDA HEIFFERON, DIRECTOR, DIRECTORATE FOR 
     COMMUNITY ACTIVITY AND SERVICES, FORT STEWART, GEORGIA

    Ms. Heifferon. Thank you. Good afternoon, Senator 
Chambliss. It is indeed an honor and a privilege to be here 
today before you to discuss the focus and the emphasis the Army 
and, specifically, Fort Stewart and Hunter Army Airfield place 
on family readiness and taking care of soldiers' families and 
children. I have submitted my statement for the record, but 
would briefly like to highlight some of the Fort Stewart/Hunter 
Army Airfield successful programs and initiatives.
    Sir, success does not occur in a vacuum. Without the 
support of Congress, the Department of Defense, and the 
Department of Army, Hunter Army Airfield and Fort Stewart would 
not be empowered to provide family members with the programs, 
services, knowledge, and resources to be self-reliant and 
successfully handle the many separations, planned and 
unplanned.
    Supporting the soldiers and families through all stages of 
deployment, from pre-deployment through deployment and re-
integration, has been a collaborate effort of the installation 
leadership, senior spouses, Family Readiness Group leaders, a 
dedicated workforce, and most importantly, a community which 
has been incredibly supportive.
    The Army had a motto years ago that said ``The Army takes 
care of its own.'' That motto has now evolved to ``The Army 
teaches its own to take care of itself.'' To that end, our Army 
Community Services has had excellent attendance at pre-
deployment briefings, at reunion briefings, Family Readiness 
Group and rear detachment briefings, and financial readiness 
classes. Additionally, on 25 March of this year, 2003, Fort 
Stewart/Hunter Army Airfield stood up its Family Assistance 
Center on a 24/7 hourly basis.
    Installation initiatives that evolved as part of the 
challenges of deployment are a proactive mass media campaign 
encouraging spouses and families to stay at the installation. 
In conjunction with our Public Affairs Office, Army Community 
Services produced a video entitled ``Stay at the 
Installation.'' The local communities of Hinesville and 
Savannah were also instrumental in promoting this. We also 
found that combined Family Readiness Group training along with 
rear detachment leaders training was very beneficial because it 
gave each group an idea of the role of the other.
    One thing we discovered as a lesson from Operation Desert 
Storm: communication, communication, communication. We found 
that providing communications to our families had to be 
executed in a consistent way. Fort Stewart/Hunter Army Airfield 
provides various forms of communications, to include Family 
Readiness Group meetings, monthly deployment meetings, 
executive Family Readiness Group meetings, and installation 
battle brief meetings.
    Lastly, we had the inception of a crisis support team 
comprised of Family Group volunteers, Army Community Service 
staff, and chaplains who provided practical, emotional, and 
resource assistance in the event of a family crisis.
    In order for our spouses to function successfully, the 
provision of expanded Child and Youth Services is essential. 
Child and Youth Services at Fort Stewart/Hunter Army Airfield 
has always provided quality child and youth programs to the 
military community. Through all the stages of deployment, Child 
and Youth Services has provided expanded hours of operation to 
accommodate Family Readiness Group meetings, weekly and monthly 
openings for spouses' day out and spouses' night out, backup 
family child care for emergency child care. Additionally, on-
site child care was provided for many Family Readiness Group 
meetings and activities. These contingency services were 
provided at absolutely no cost to the families, and we 
gratefully acknowledge and appreciate congressional support and 
funding which allowed us to provide those expanded services. 
Thank you, sir.
    [The prepared statement of Ms. Heifferon follows:]

                Prepared Statement by Linda A. Heifferon

    Senator Chambliss, it is a pleasure to appear before you today at 
this field hearing to discuss families and children. Fort Stewart/
Hunter Army Airfield is a power projection platform and has a heavy 
operation tempo. Deployment, training, and field exercises are frequent 
and numerous often occurring back to back. The optempo places stress on 
families and soldiers. The impact of these stresses can be: domestic 
violence, drug and alcohol abuse, financial difficulties, suicides, 
fatigue, an increased divorce rate, and a lack of parental involvement 
and family cohesiveness. The Army and Fort Stewart/Hunter Army Airfield 
must continue to work diligently and be proactive to provide programs 
and services to address the issues of being a rapid deployment 
installation.
    An issue of concern is the use of embedded media. Embedded media 
has both a positive and negative impact in relation to deployment. The 
positive aspect is the affiliation of the embedded reporter with the 
Division and the Units. This offers a positive image of the military 
and provides the Nation with a view of the soldier who is committed and 
dedicated to defending his/her country. The negative aspect of embedded 
media is the reporting of casualties by unit and/or division instead of 
utilizing a generic term such as coalition forces. The stress of 
watching and learning about casualties not only creates stress, but on 
occasion can incite panic in some of the family members.
    The other issue involves Family Readiness Group (FRG) leaders. The 
FRG leaders feel strongly that a paid FRG liaison position should be 
established at Brigade and/or Battalion level to alleviate the stress 
currently placed on FRG leaders as a result of heavy operational tempo.
    The 3rd Infantry Division (Mech) is comprised of eight brigades 
(one physically located at Fort Benning), and four separate Battalions, 
with 20,000 soldiers and approximately 33,000 family members. The 3rd 
ID is a highly deployable, power projection platform and the largest 
military installation east of the Mississippi River. In addition to the 
deployment of Active component soldiers, Fort Stewart has taken on an 
additional requirement of mobilizing and deploying National Guard and 
Reserve soldiers to various locations. More than 13,000 National Guard 
and Reserve soldiers have been mobilized and deployed since October 2.
    The 3rd Infantry Division looked at lessons learned during the 
Bosnia, Kosovo, Africa, and Afghanistan deployments and began to 
prepare soldiers and families to prepare for the possibility of a 
large-scale contingency operation.

                       PREPARATION FOR DEPLOYMENT

    All units, at Battalion level, coordinated with Army Community 
Service (ACS) for deployment briefings for soldiers and family members 
alike prior to deployment. ACS staff were accompanied by personnel from 
the Finance Office, American Red Cross and the Staff Judge Advocate and 
briefed soldiers and family members on the stresses of deployment, 
programs and services available, communications availability in the 
theatre, finance and money concerns, Red Cross Emergency messaging to 
the theater, legal requirements prior to and during deployments, tax 
affects of deployments, and mailing restrictions.
    During Operations Desert Storm/Desert Shield many families left the 
installation and the support personnel were unable to assist and 
provide services to these families. As a result of this ``lesson 
learned,'' ACS in conjunction with the Public Affairs Office (PAO), 
developed and deployed a mass media campaign to encourage the families 
to stay at the installation during deployment. Brigade and Battalion 
Command Teams were instrumental in sending that message to the 
families. The media campaign included a video entitled ``Stay at the 
Installation.'' The campaign to encourage families to stay in the local 
area was also promoted by the surrounding civilian communities. The 
partnership between the local civilian communities and the installation 
were instrumental in creating an environment in which the families felt 
truly supported.
    Smart Books and Battle Books were developed for the FRG leadership 
prior to the deployment with in-depth information on support, services 
and how to resolve issues. It was a ``Desk Side Reference Guide'' for 
FRGs, and had all the written material (finance requirements, Red Cross 
message guidance, RDC numbers, how to assist a person in stress, etc.) 
in one book. The books were provided to FRG leaders providing them a 
ready guide for resource and referral.
    ACS personnel conducted numerous trainings for FRG leaders and rear 
detachment personnel. These trainings included FRG basic leaders 
training for both FRG personnel and RDC personnel (to understand each 
others roles and responsibilities), and crisis team training. The 
crisis team was developed prior to the Kosovo deployment of 2000. The 
training was based on the assumption that deployments can result in 
deaths, and FRG roles in causality are unofficial. It was determined 
that FRGs and RDC personnel needed to be educated about the casualty 
notification process, stages of grief, and the FRG roles in casualty. 
ACS, AG casualty, and the chaplains provided this training. This 
information and knowledge was used during the Operation Iraqi Freedom 
combat, and has been essential in making the difficult process of 
supporting families during combat casualties easier for the FRGs. 
Training was heavily attended and made mandatory for the Rear 
Detachment Personnel. The combined training inclusive of FRG leaders 
and RDC personnel resulted in the participants connecting to each other 
early in the deployment process.

                     SUSTAINMENT DURING DEPLOYMENTS

    Sustaining families through a deployment can be difficult. The 
Directorate of Community Activities and Services (DCAS) coordinated 
numerous activities for the families to include ``Spouses Night Out'', 
mom and youth aerobic classes, shopping trips, powder puff classes, 
Women's Expo, etc. In addition to Morale, Welfare, and Recreation 
programs being increased and geared to the families, the education 
staff refocused their efforts to the families by opening up the 
Leadership Skills Education Program (LSEP), which offers classes in 
time management, leadership skills, strategic planning, and computer 
skills to family members. Additionally, college class enrollments 
increased tremendously. Free and reduced childcare was provided after 
hours and one Saturday per month for families who wanted to participate 
in the MWR programs. One free night of childcare was provided to each 
battalion for the monthly meeting.
    The Waiting Spouses group is a program for families whose soldiers 
are on unaccompanied or hardship tours, and is coordinated by ACS' 
Relocation Program. This group became critical in the support of 
families of the ``Shelf Replacement Soldiers''. Because shelf 
replacement soldiers were sent where they were needed, based on rank 
and MOS, the families usually had no idea what brigade or battalion the 
soldier was assigned to. The Relocation Program Manager at ACS took an 
aggressive approach in reaching those families and ensuring they were 
kept informed and supported by ACS programs.
    For families, information is key to survival through deployments. 
FRG Leaders and Rear Detachment Personnel were provided constant 
information on current events, activities and programs available to the 
families. This information was disseminated in a variety of ways to 
include email, phone and media print. An Executive FRG consisting of 
Senior Level Spouses was formed for the purpose of disseminating 
information and rumor control. Fort Benning, via VTC, was included in 
the Executive FRG with the Senior Spouses and Senior Command chairing 
each meeting. This method of disseminating information proved most 
effective.
    ACS became the conduit of in kind donations given to the soldiers 
and families of the installation. The outpouring was extremely large, 
and ACS developed a process to get the product to the families through 
the Brigade Rear Detachment Personnel. Donations came from individuals 
and corporations across America. Support from the local veterans 
groups, churches, businesses and general public was incredible. The 
local Military Affairs Committees developed a discount card for 
families of deployed soldiers to receive discounts of products and 
services, local business provided door prizes to FRGs, and billboards 
and marquees of most local businesses had ``We support our Troops'' 
messages.
    Family care plans were validated and in order with primary 
guardians identified. There have been no major issues regarding 
children of single or dual military during the recent deployment.

                         REINTEGRATION PROGRAM

    An extensive reunion program has been developed incorporating 
mental health professionals, social work professionals, chaplains and 
medical doctors. Family member briefings, soldiers briefings, couples 
classes, single soldiers classes, children classes, mental health 
check-ups, stress management and domestic violence classes are given 
prior to redeployment and during the reintegration phase. Additionally, 
soldiers will be required to report to duty (with liberal leave) for 10 
days after redeployment for observation. Commanders will be fully 
trained for signs of stress and will utilize installation resources for 
referral. The family member redeployment classes have been initiated 
and have been heavily attended. Child and Youth Services (CYS) have 
provided free childcare for these briefings and the briefings have been 
well attended.
Schools
    The two Department of Defense Domestic Dependent Elementary and 
Secondary Schools (DDESS) on Fort Stewart serve over 1,800 children in 
grades K-6. Both schools have a Pre-K program. The curriculum utilized 
at the schools was developed and directed by Department of Defense 
Education Activity (DODEA). The off post schools in Liberty County are 
more than 50 percent military affiliated students. The administration, 
staff, and teachers are sensitive to the military lifestyle. Graduation 
and curriculum requirements for off post schools are determined by the 
State Department of Education. Public middle schools (Grades 6-8) offer 
band, chorus, football, dance team, cheerleading, and other enrichment 
options as extra curricular activities. The Liberty County middle 
schools curriculum also supports the team teaching concept. Both on and 
off post schools offer a gifted and talented program, although the 
curriculums for both programs are approached differently. The off post 
schools also offer exploratory classes for middle school students 
(keyboarding, visual arts, etc.).
    Both on and off post schools provide excellent special needs 
programs for students. Both the local and DODEA school systems go above 
and beyond to provide services.
    The off post schools have adopted and implemented the No Child Left 
Behind initiative. Off post schools also offer additional tutoring 
after school and Saturday school for those students who are falling 
behind in their studies and need additional help.
    School personnel tell us that military parents are significantly 
involved in the Parent Teacher Organizations in public schools. 
Parental involvement at schools, both on post at Fort Stewart and off 
post public schools supporting Fort Stewart and HAAF, has increased 
over the last several years due to parent education programs and 
information provided by the School Liaison Office (SLO) and other 
family support related programs on Fort Stewart/HAAF.
    There are no DDES schools on HAAF. Children residing on HAAF are 
zoned for Chatham County public schools. Four percent of the students 
enrolled in Chatham County schools are military-connected children. 
Like Liberty County, graduation and curriculum requirements for Chatham 
County schools are determined by the Georgia State Department of 
Education. Chatham County schools have a gifted program called SEARCH 
(Students Exploring and Reasoning for Creative Environments). Also 
unique to the Chatham County schools are the Options Academies. There 
are 15 academies in Chatham County. They are designated at specific 
schools offering rigorous academic and performing arts programs.
    Partnerships have been developed with off post agencies to provide 
``tools'' for parents in supporting their children in schools. One such 
partnership is Parent University, which is a non-profit organization 
operated by parents for parents. Prior to the deployment, parents were 
surveyed to determine what courses would be beneficial to them and 
their families. Courses were developed based on the parental responses 
which included Discipline and the Difficult Child, Preparing Children 
for Pre-School, Effective Homework Techniques, Stress Management, and 
other courses designed to enhance personal growth and increase 
parenting skills. A Parent University session was conducted at the 
zoned elementary school for HAAF in April. There was no cost for the 
parents to attend the courses and childcare and lunch were also 
provided at no cost.
    Through the initiation of the School Liaison Program, continuity of 
education has improved greatly at Fort Stewart and HAAF. Over the past 
2 years ceremonies were conducted at which the Secondary Education 
Transition Study (SETS) Memorandum of Agreement and Guiding Principles 
were signed and implemented by four school districts (Fort Stewart, 
Liberty, Bryan, and Chatham Counties). Local action plans were 
developed based on the findings of the SETS. As a result of membership 
in the Military Child Education Coalition (MCEC) the four school 
districts received an Interactive Counseling Center with their 
membership. This teleconferencing computer system enables counselors 
from the losing school to communicate with the receiving school when a 
student is in transition. Copies of transcripts, course descriptions, 
and other records can be reviewed on screen and faxed to either school. 
This is an excellent tool for counselors when they are placing students 
in classes.
    Professional Development is also provided to school counselors by 
the MCEC. The training is at the Transition Counselor Institute and is 
conducted in three phases. This training teaches counselors basic 
skills to assist students in transition. Subjects include military 
lifestyle, deployment, social and emotional issues, etc. Phase I and II 
of this training have been offered at Fort Stewart/HAAF for the past 2 
years and will culminate with Phase I, II, and III training next year. 
All of these processes are in place and are working.
    Another key to ensuring continuity and a smooth transition from 
school district to school district has been the Youth Action Council, 
which involves parents, school officials, and support agencies such as 
Child and Youth Services (CYS) and Army Community Service. This forum 
addresses the total well being of military youth and those issues that 
affect the student's academics as well as their leisure activities. An 
action plan was also developed addressing key transition issues, such 
as sponsorship, transition labs, transfer of credits, etc. The schools 
and school districts are very proactive when it comes to the transition 
issues and continuity of education for our military students.
    What children see and hear about the war and their feelings about 
missing their mom or dad in uniform are genuine concerns. In August of 
2002 the SLO and Army Family Team Building (AFTB) coordinator begin 
offering classes on the effects of deployment on children to 
installation and local area schoolteachers. The training was beneficial 
in familiarizing teachers with the impacts of deployment on children 
and youth, and acquainting them with the military support resources 
available to help build coping skills.
    As the deployment progressed and the possibility of casualties was 
a reality, it became evident that a more comprehensive training would 
be necessary to address the impact of casualty on a child, and how the 
school administration and teachers would deal with a casualty and/or 
serious incident.
    In the early stages of the deployment, the SLO and the Family 
Advocacy Program Manager met with the Crisis Intervention Team from the 
on post school at Fort Stewart to review their emergency plans and to 
identify areas where additional resources were required. From these 
meetings, an information paper was developed which outlined 
notification procedures and support for children during a tragedy. 
Follow up measures were taken to ensure the information reached school 
counselors and teachers. Throughout the school year, deployment related 
training was provided to teachers/school staff at schools both on and 
off post. This training was conducted by staff through Army Community 
Service, Social Work Services, and the School Liaison program. In 
addition, trainers from the Military Child Education Coalition provided 
workshops for school counselors and local Parent Teacher Organizations. 
Through these proactive steps, schools were informed and prepared for 
situations requiring student support and care.

                               CHILD CARE

    Quality child care is vitally important to soldiers and families 
both during peacetime and contingency operations. The Army Leadership 
is aware that childcare and youth programs are a readiness issue. If 
soldiers are confident that their children are well cared for and 
engaged in enrichment programs, it allows them to focus on the mission. 
Congress and the White House have recognized the military's program as 
``a model for the Nation.'' To ensure high standards and quality 
service, Army Child Care and Youth Programs are accredited by the 
National Association for the Education of Young Children (NAEYC), the 
National School Age Care Alliance (NSACA), the Family Child Care (FCC) 
Military Home Accreditation (MHA), and are certified by the Department 
of Defense (DOD).
    Fort Stewart/HAAF CYS has done an excellent job in supporting 
Active Duty, National Guard and Reserve Component families during 
contingency operations. CYS programs have been recognized for their 
excellence and proactive posture in providing contingency related 
programs and activities to reduce the conflict between parental 
responsibilities and mission requirements during deployments. CYS is 
providing the following programs during current deployment operations:

        -  Expanded hours of operation for hourly care at the Child 
        Development Center (CDC) for monthly Battalion level FRG 
        Meetings.
        -  Weekly Friday night openings at the CDC for Spouses Night 
        Out.
        -  Monthly Saturday openings for Spouses Day Out at the CDC and 
        School Age Center.
        -  Expanded hours of operation at the middle school and teen 
        center on Friday Nights.
        -  Back up Family Child Care (FCC) homes for emergency child 
        care when existing childcare arrangements are insufficient to 
        support mission requirements. Fort Stewart is a pilot for this 
        program.
        -  Extended hours, evening, weekend, long term, and hourly care 
        in FCC homes.
        -  Hourly Respite Care in facilities based or FCC homes for 
        special needs children, stress related issues for parents, and 
        other contingency emergencies.
        -  Enhanced enrichment programs and activities for middle 
        school and teens to include boys and girls club activities, 4-H 
        activities, and once a month family activities.
        -  Short Term Alternative Child Care (STACC) Sessions for 
        deployment related activities. STACC sessions are on site 
        childcare provided at facilities that have met health, safety, 
        and fire requirements, and the parents are ``on site'' or in 
        the same facility as the child.

    The contingency support outlined above was provided at no cost to 
the families. We appreciate congressional support for the funding that 
allows the CYS program to provide expanded child care/youth supervision 
operations and request this kind of continued support.
    The CYS Mobilization and Contingency (MAC) plan has been an 
excellent tool allowing the installation staff to customize their CYS 
mission support. The ``MAC'' plans include briefings, memorandums of 
instructions, after action reports, and planning guidance from previous 
deployments. A lesson learned from Operations Desert Storm/Shield was 
to ensure family care plans provided by the units for children in CYS 
programs were reviewed on an annual basis to ensure plans were current. 
During recent contingency operations there were few if any problems 
with family care plans being updated or incorrect. The support of 
installation leadership in ensuring that family care plans were a 
priority, was instrumental in CYS being able to provide contingency 
emergency care when needed.
    The CYS contingency services provided during deployments provides 
soldiers and families with peace of mind, enhancing their well-being, 
and quality of life.

    Senator Chambliss. Thank you.
    Dr. Kelly.

  STATEMENT OF DR. JOHN KELLY, PROGRAM MANAGER FOR COMMUNITY 
SUPPORT, NAVY REGION SOUTHEAST, NAVAL AIR STATION JACKSONVILLE, 
                            FLORIDA

    Dr. Kelly. Good afternoon, Senator. I have also submitted 
my written testimony, but I have a few additional comments I 
would like to make.
    Senator Chambliss. Sure.
    Dr. Kelly. First, I want to start by thanking you and your 
subcommittee for inviting us to talk about the services that 
are available in our Fleet and Family Support Centers. These 
centers are located in the southeast region of the United 
States to support service members and their families.
    As the program manager for the Southeast Region Community 
Support Program, I am responsible for supporting Navy 
leadership in achieving maximum mission readiness through 
services provided though Fleet and Family Support Centers. Our 
commands, sailors, and families can and do access a wide range 
of programs that focus on adaptation to the special demands of 
military career and military family life. Some of these demands 
include such things as frequent deployments, frequent 
relocations, and the need for rapid response to current world 
events.
    The core program of the Navy's Fleet and Family Support 
system supports our mission of providing deployment support and 
readiness, crisis response, and career retention and support to 
Navy service members and their families. Under our core mission 
capabilities of deployment and readiness, we provide services 
and programs related to deployment, relocation assistance, 
information and referral, ombudsmen, life skill education, and 
new parent support.
    Counseling services, family advocacy, victim services, 
mobilization, and critical incident intervention programs are 
offered in support of our mission to provide crisis response 
services.
    Finally, we provide transition assistance, spouse 
employment assistance, and personal financial management in 
support of our career and retention programs.
    In general, our FFSCs provide pre-deployment briefs for 
Navy service members and their families, mid-deployment 
programs for families and ombudsmen, and post-deployment 
services to commands upon the return of the squadron or unit. 
These services are also provided to members of the Army, Navy, 
Marines, and Air Force Reserve units in the local areas. Our 
centers also offer return and reunion programs to command while 
still deployed. These programs call for our personnel to 
actually meet the ship at some designated point and provide 
one-on-one counseling services and other skills for living 
training that we think are critical for service members' 
successful reunions with their families.
    As an addition to our standard services, our centers have 
also initiated spouse support groups, developed and conducted 
highly successful Military Spouse 101 resource fairs, hosted 
family days events to provide interaction in families, and also 
information to make it readily available to our members and 
their families.
    In direct support of our military children, our counselors 
have visited local schools to educate staff on working with 
military families. We are currently working with the Florida 
Inter-service Family Assistance Committee on a handbook. This 
handbook will be available to school personnel in working with 
children from military families. Some of the other products 
provided to our service members and their families that 
specifically relate to the hardships of deployment and reunions 
include such materials as Long Distance Couples, Long Distance 
Dads and Moms, Grandparents at a Distance, Children and 
Deployment, Kid Deployment Coloring Books, and Welcome Home Mom 
and Dad banners.
    Our centers have also provided direct support to many of 
the reservists who have been mobilized in support of the global 
war on terrorism. We have provided relocation information and 
assistance to both individual and groups of mobilizing 
personnel. Similar demobilization services have been provided 
to members who are coming back off of active duty. Some of our 
centers serve as repatriation sites and have provided 
assistance to families returning to the United States as a 
result of family evacuations overseas.
    The school district of Camden County has been very 
effective in partnering with our FFSC at Submarine Base Kings 
Bay. There are 12 schools in Camden County. All of these 
schools have been formally adopted by commands at Sub Base 
Kings Bay. The FFSC at Kings Bay provided educational materials 
on how to talk to children about war and deployment. Local 
school counselors use this information to work with students to 
better understand the impact and implications of war.
    Our FFSC psychologists and school counselors offer special 
counseling to students. Many of the schools put together 
displays with pictures of parents who were deployed and placed 
these displays in the hallways of the various schools in Camden 
County.
    One teacher actually used her personal funds to purchase 
diaries for all of the students and had the students make 
entries into the diaries on a daily basis. This allowed the 
students to openly express their feelings and emotions in a 
non-threatening way.
    There have also been many community partnerships in St. 
Mary's and Kingsland, Georgia. I will not go into all of those 
partnerships, but they have been numerous.
    In summary, we have effective and various programs in place 
to ensure that the needs of our members and their families are 
met and most often exceeded. We continue to assess our 
capabilities and make continuous improvement to our programs 
and processes to ensure that we are ready to meet the future 
challenges encountered in both conventional and unconventional 
deployment situations.
    It is for this reason, sir, that I stand proudly behind our 
motto: ``Service to our fleet, both at home and at sea.'' I 
will be happy to respond to questions at the appropriate time.
    [The prepared statement of Dr. Kelly follows:]

                Prepared Statement by Dr. John R. Kelly

    Thank you for inviting me to brief the committee on the provisions 
in place at our Navy FFSCs located throughout the southeast region to 
support family members of our deployed personnel. As the Program 
Manager for the Southeast Region Community Support Programs, I am 
responsible for supporting Navy leadership in achieving maximum mission 
readiness through services provided at Navy FFSCs. Commands, sailors, 
and family members can and do access a wide range of programs, focused 
on adaptation to the special demands of military careers and military 
family life, such as deployment cycles, frequent relocation, and the 
need for rapid response to current world events.
    The core programs of the Navy's FFSCs support our mission of 
providing deployment support and readiness, crisis response and career 
retention and support to Navy service members and their families. Under 
our core mission capability of Deployment and Readiness, we provide 
services and programs related to deployment, relocation assistance, 
information and referral, ombudsmen, life skills education and new 
parent support. Counseling services, family advocacy, victim services, 
mobilization and critical incident intervention programs are provided 
in support of our mission to provide crisis response support. Finally, 
we provide transition assistance, spouse employment assistance, and 
personal financial management assistance in support of our career 
support and retention programs.
    In general, our FFSCs provide pre-deployment briefs for Navy 
service members and their families; conduct mid-deployment programs for 
families and ombudsmen; and offer post-deployment services to commands 
upon the return of the squadron or unit. These services are also 
provided to members of Army, Navy, Marine, and Air Force reserve units 
in the local area. Our centers also offer return and reunion programs 
to commands while still deployed. This program calls for our personnel 
to actually meet the ships at designated points and provide one-on-one 
counseling services and other ``skills for living'' training that is 
critical to the service member's successful reunion with their 
families.
    As an augment to our standard services, our centers have initiated 
Spouse Support Groups, developed and conducted highly successful 
``Military Spouse 101'' resource fairs and hosted ``Family Day'' events 
to provide interactions with families and make information readily 
available. In direct support of our military children, our counselors 
have visited local schools to educate staff on working with military 
families. We are currently working in conjunction with Florida Inter-
service Family Assistance Committee on a handbook to be made available 
to school personnel in working with children from military families. 
Some of the additional products provided to both our service members 
and their families that specifically relate to the hardships of 
deployment and reunions include materials on ``Long Distance Couples,'' 
``Dads at a Distance,'' ``Grandparents at a Distance,'' ``Children and 
Deployment,'' ``Kid's Deployment Coloring Books,'' and ``Welcome Home 
Mom/Dad'' banners.
    Our centers have also provided direct support to the many 
reservists who have been mobilized in support of the global war on 
terrorism. We have provided relocation information and assistance to 
both individuals and groups of mobilizing personnel. Similar 
demobilization services have been provided to members who are coming 
off active duty after their activation period. Some of our centers 
serve as repatriation sites and have provided assistance to families 
returning to the United States as a result of family evacuations 
overseas.
    The school district of Camden County has been very effective at 
partnering with our FFSC at Submarine Base Kings Bay. There are 12 
schools in the Camden County district, all having been formally adopted 
by commands at Submarine Base Kings Bay. The FFSC at Kings Bay provided 
educational materials on ``How To Talk To Kids About War and 
Deployment'' and local school counselors used this information to work 
with the students to better understand the impacts and implications of 
war. Our FFSC psychologists and school counselors offered special 
counseling to students. Many of the schools put together displays with 
pictures of parents who were deployed and placed these displays in the 
hallways of the school. One teacher actually used her personal funds to 
purchase diaries for all of her students who had parents deployed so 
the students could openly express their feelings and emotions in a non-
threatening way. There have also been many community partnerships 
established in St. Mary's and Kingsland, Georgia, to include 
partnerships with the Humana Tricare Office, local child and family 
services agencies, the Camden County Tribune Newspaper, the tourism 
councils of St. Mary's and Kingsland, the Georgia State Department of 
Tourism, and many local real estate offices. These outreach efforts 
provide vital information to service members and their families living 
in the Camden County area of Georgia.
    In summary, we have an effective and varied program in place to 
ensure that the needs of our service members and their families are met 
or exceeded. We continue to assess our capabilities and make continuous 
improvements to our programs and processes to ensure that we are ready 
to meet future challenges encountered in both conventional and 
unconventional deployment situations. It's for these reasons that I 
stand proudly behind our motto of ``Service to the Fleet, Both at Home 
and at Sea.''

    Senator Chambliss. Thank you, Dr. Kelly.
    Ms. Lukens.

STATEMENT OF ANN LUKENS, DIRECTOR, FAMILY SUPPORT CENTER, MOODY 
                    AIR FORCE BASE, GEORGIA

    Ms. Lukens. Good afternoon, Senator, and thank you for the 
opportunity as well to speak to you. I am known for 
succinctness and getting to the point, so I am going to do 
that.
    First of all, I feel a great weight on my shoulders to be 
representing so many of my fellow colleagues in the family 
support business. There are so many things that we do that even 
with my many years in the field, I just cannot simply remember 
all of them. I think to summarize it all, we are a purple 
service at Moody Air Force Base. When I say purple, I mean that 
there is no uniform color other than that person coming in the 
door and that was an emphasis that began in the Air Combat 
Command many years ago.
    Being in south Georgia, we are very often a surprise to 
people who are either retired or reservists or guardsmen that 
want to find some place to go. For that reason, we have had to 
learn a lot of different systems. Our motto at Moody is 
``Mission first and people always,'' and I think that really 
does sum it up very succinctly.
    We have our success stories. They are probably very small 
compared to my sister services here, but we are blessed to have 
an extremely active integrated delivery system which is the 
final component of the system that Ms. Murray described in her 
testimony. That is where the rubber meets the road. That is 
where the agencies all work together to take care of our 
people, and we have done a splendid job in that area.
    We are known to be out at all times of the day and night. 
We say goodbye to our folks with hot dogs and hugs. Then we are 
there when they come home again, whether it is 2 o'clock in the 
morning or 2 o'clock in the afternoon. So we always, sir, 
welcome any kind of support for our people because without our 
military, we are not going to enjoy the freedoms that we do. 
Thank you, sir.
    [The prepared statement of Ms. Lukens follows:]

                    Prepared Statement by Ann Lukens

    Good afternoon, Senator Chambliss. I'm honored to appear before you 
today and to have the opportunity to present information that will 
spotlight Moody Air Force Base's family programs and services that aid 
and support our dedicated men and women of the United States Air Force 
and their families.
    The mission of the 347th Rescue Wing is to organize, train, and 
employ a combat-ready force consisting of approximately 4,500 military 
and 400 civilian employees. The Wing executes worldwide peacetime and 
Combat Search and Rescue operations in support of humanitarian and U.S. 
national security interests. Moody also hosts and supports Air 
Education and Training Command's 479th Flying Training Group and the 
820th Security Forces Group that provides contingency response support 
around the world.
    Currently, Moody has a total population of approximately 2,000 
spouses of military members and 1,800 dependent children. The Family 
Support Center also serves the needs of approximately 15,000 military 
retirees and their families, as well as a small cadre of Guard, 
Reserves, Navy and their families.
    Moody personnel have been deployed to Southwest Asia since the end 
of the first Gulf War in support of Operation Northern and Southern 
Watch and other contingencies. A focus on personal and family readiness 
is the cornerstone for unit, group and wing readiness. The reality is 
that families of personnel assigned to our installation are expected to 
be ready to function without their sponsors at any time, with as little 
as a few days notice, and for as long as 179 days. The challenge for 
the Moody Family Support Center is to assist airmen and their families 
in meeting the highest possible level of individual and unit readiness. 
As of 30 Apr of this year, 58.6 percent of the 820 Security Forces 
Group; 44 percent of the Operations Group; 38.7 percent of the Mission 
Support Group; 30 percent of the Rescue Wing staff; 29.1 percent of the 
Maintenance Group; 9.5 percent of the Medical Group; and 9 percent of 
the 479 Flying Training Group were deployed away from home station. 
Additionally, for several months Moody has been supporting seven 
families who were part of the State Department ordered departure from 
the Middle East after hostilities began. It goes without saying that 
our total focus in the Family Support Center at Moody has been on 
family readiness issues and supporting the needs of those families who 
are separated by the current contingency.
    The Air Force established Family Support Centers in the early 1980s 
to meet the needs of families. For nearly 22 years, the Moody FSC has 
sought to do just that through various types of needs assessments 
targeted to help us understand our community, consultation with 
leadership on community issues, individual contact with customers, 
educational programs and services, and as the advocate for military 
families both on-base and off. Like our military and our families, the 
Moody FSC and all other Air Force Family Support Centers have been an 
evolving, flexible agency. We believe that it is this flexibility that 
has made us strong enough to adapt to the new steady state of 
accelerated operations and personnel tempo.
    One of the largest stressors on our airman and their families is 
deployment. Responding to increasing deployment cycles, the Air Force 
established the Family Readiness Program in our Family Support Centers. 
When we talk about readiness, often people have a difficult time seeing 
how we--the Family Support Center staff--have anything to do with what 
``they'' conceive as readiness--launching planes, bombs on target, 
search and rescue, etc. However, research shows that there is a very 
direct link between ``mission readiness,'' our ability to go to war, 
and personal and family readiness. Personal and family readiness refers 
to our people and their families being equipped with the skills they 
need to deal with the day-to-day demands of military life--whether they 
work on the flight line or in supply. People who have financial, 
family, or other concerns are just not as well equipped to perform 
their duties as people who are not experiencing these kinds of problems 
and anxieties. With 45 percent of our airmen in the 25 years or younger 
age group, most are definitely dealing with the issues associated with 
young relationships, young children, low finances--exacerbated by 
frequent moves, underemployment of a spouse, and most certainly 
separation of the family unit because of extended deployments. The 
programs provided by the Family Support Center help to relieve the 
airman from some of the ``tug'' back and forth between the Air Force 
requirement for ``Service Before Self'' and the family needs for 
``service to us first.''
    The Family Readiness program has grown tremendously at Moody under 
the leadership of the Family Readiness NCO, assigned in Oct 1997 and 
charged with making it work (TSgt Jerry C. Thornton seated here with 
me). Readiness is made up of three components--the pre-deployment, 
sustainment, and reunion cycle; family disaster preparedness; and 
casualty assistance.
    Since June 2002, and particularly since January of this year, 
predeployment briefings and outreach efforts have increased to provide 
a safety net for Moody families, as Operation Enduring Freedom became 
Operation Iraqi Freedom.

        <bullet> 5,500 individual calls were made by TSgt Thornton and 
        other FSC staffers to ensure spouses, parents, significant 
        others and children were aware of the many services available 
        and how to access help no matter the time of the day or the day 
        of the week
        <bullet> 473 family members attended 16 daytime, evening and 
        weekend pre-deployment briefings
        <bullet> 1,868 Moody personnel received hugs and hotdogs and 
        cold drinks during at least 35 Personnel Deployment Function 
        lines
        <bullet> FSC staff planned and executed an old-fashioned BBQ 
        for 43 Army Guard personnel assigned to backfill for deployed 
        security forces personnel

    The poet John Donne stated that no man is an island. Efforts to 
support the community required the commitment of an entire team of 
helping professionals--the Moody Integrated Delivery System. The 
cumulative expertise and dedication of a team composed of Family 
Advocacy and Mental Health specialists; First Sergeants; Health and 
Wellness specialists; Chaplains; Childcare and Child Development 
experts along with FSC staff ensured success. Every effort was made to 
empower Moody spouses so they felt more in control of their lives.

        <bullet> The Extended Duty Care program provided 275 hours of 
        free childcare monthly.
        <bullet> The staff of the Moody Child Development Center (CDC) 
        provided free childcare so spouses could attend Town Hall 
        Meetings hosted by our Wing Commander.
        <bullet> The Give Parents a Break program provided monthly free 
        child care to more than 50 children at the CDC and 30 children 
        at the Youth Center during OIF.
        <bullet> Family Advocacy Outreach provided 278 interventions in 
        the form of support groups, lunchtime seminars, and parenting 
        classes.
        <bullet> Mental Health professionals made themselves available 
        at anytime to talk with stressed family members.
        <bullet> The Chaplains spearheaded monthly deployed family 
        suppers attended by more than 329 spouses and children.
        <bullet> 2,721 Hearts Apart family morale calls were placed 
        through the Moody switchboard by spouses, children, parents, 
        and significant others.
        <bullet> FSC staffers were available on a 24-hour basis; kept 
        spouses company while hospitalized for tests; wrapped holiday 
        presents so every deployed family had presents under the tree; 
        talked with children having a hard time with parent's absence.
        <bullet> IDS agencies played key roles in the annual Parent 
        University Program conducted in concert with the local school 
        systems; a workshop on preparing and supporting children during 
        parental separation and in cases of trauma was very well-
        attended.

    The Family Support staff and IDS members were particularly visible 
during redeployment festivities during the duty day, in the evening, 
and on the weekends. Reunion is presented as the opposite side of the 
pre-deployment coin and is often the most difficult part of the 
process. Research has shown that education for the family and the 
airman on what to expect after a long deployment has a positive affect 
on the reunion process. More than 200 individuals attended 9 reunion 
briefings during the past 12 months. ACC has developed a very useful 
Return and Reunion CD that is provided at many of our deployed 
locations, as well as to our family members at briefings. We hope that 
you enjoy reviewing a copy of this CD also, Senator. We have also 
provided you with some of the education materials that we give to 
family members when they attend our deployment or return and reunion 
briefings and programs.
    During all this activity, we were also deeply imbedded in the 
welcome home support process for seven families who been stationed with 
their military member in Turkey or in Saudi. All these families were 
personally met at the airport by our staff. After meeting them, we did 
an initial needs assessment of the family status to see the type 
assistance they would require, helped with school issues, ensured they 
knew what their Safehaven benefits would be and that they understood 
who various points of contact were for issues/concerns, made at least 
weekly visits with each family, and reported weekly accountability and 
status stats directly to Air Force on each family. We are currently 
assisting each family return to their duty station now that the State 
Department has terminated the Authorized Departure for those areas. We 
are processing waivers for a few families to remain at Moody until the 
end of the school year. The services provided in a Safehaven effort is 
just other example of how the Family Support staff support the needs of 
our Air Force families so that the member is relieved to focus on the 
steady state of accelerated operations at a forward location.
    In addition to supporting Parent University in our civilian 
community, immediately upon declaration of OIF, we contacted the 
offices of both local public school superintendents to provide 
information on dealing with separation anxiety for their guidance 
counselors. The Moody School Board Liaison Committee works tirelessly 
to address any issues that can affect the welfare of military students. 
We personally met with Valdosta City School System counselors to 
discuss specific needs and problems associated with deployment anxiety 
of our students.
    Senator Chambliss, we would also like you to know that the Moody 
Mental Health Clinic data shows a 16-percent decrease in maltreatment 
incidents for the last 12 months. Everyone is striving to prevent 
domestic violence that results in needless and tragic headlines. We are 
hopeful that the education processes we have in place at Moody are 
beneficial in this reduction.
    The greatest test of the Moody family support system came on 23 
March 2003. On that date, six members Rescue Squadrons answering to the 
call sign of Komodo 11 made the ultimate sacrifice while on a 
humanitarian mission to rescue two Afghani children. The crash and loss 
of all souls on-board hit every heart in the Moody community. Under the 
leadership of Major Nancy Weingartner, the MAFB Critical Incident 
Stress Management (CISM) Team mobilized to be present in every corner 
of our community. We closed ranks around six family units while they 
awaited the official word about their loved ones. We cried with them; 
we listened to memories recounted by parents and friends; we prayed 
with them. We are still there for them. No family is left behind at 
Moody!

    Senator Chambliss. Thank you very much. I understand, 
Sergeant, you are not going to make an opening statement.
    Sergeant Thornton. No, sir.
    Senator Chambliss. We are pleased that you are here with 
us, though.
    Sergeant Thornton. Thank you.
    Senator Chambliss. Dr. Kelly, you mentioned the 
availability of your services to the Guard and Reserve on a 
local basis and inter-service availability of those services on 
a local basis. You heard my question earlier to the previous 
panel about whether or not there is any communication to the 
Guard and Reserve community. Do you know whether or not, with 
regard to the Navy, whether there is communication to the Guard 
and Reserve about the availability of these various services?
    Dr. Kelly. Yes, sir, there is communication with those 
units. In fact, in many of our communities we have partnered 
with local television stations to run public service 
announcements (PSAs), where service members and family members, 
as well, can get information on services that are available in 
our Fleet and Family Support Centers. For Navy reservists who 
are coming on active duty, there is a mobilization process. 
Those individuals actually come through the Family Service 
Center and get a formal brief. They bring their spouses with 
them. We give them all of the information that is available for 
our regular active duty service members. To reach out to those 
that are coming from other services, we have partnered with 
local television stations to run PSAs to get the word out about 
what services are available and how they can access those 
services.
    Senator Chambliss. You all have extremely important jobs 
that are often very challenging, especially given the tempo of 
operations in the military over the past several years. You 
certainly have a unique perspective regarding what programs 
work well and which programs do not work well. You may be in 
the best position to know what needs to be done better 
regarding family support, and I would like to start by asking 
you what in your view are the most important needs of families 
and what are the things that simply have to be done right for 
our families in times of deployment. Ms. Heifferon?
    Ms. Heifferon. Sir, I think that in terms of family 
support, one of the most important things is personal 
preparedness. We need to do this through training, Family 
Readiness Group training, through communication, through 
providing classes on encouraging personal responsibility. We 
need training classes in stress management. We need training 
classes in child management and family relations. We need 
support groups, which we have already established, for waiting 
spouses and international spouses. Volunteerism in the 
community, and involvement in the community are imperative.
    We need Morale, Welfare, and Recreation activities to 
support the recreational needs, the personal growth needs, and 
also the spiritual needs of our spouses and their families. 
When I speak of personal growth, I am talking about education 
also, and an example I would like to use is that of our 
educational center. What we did was we opened up to the spouses 
classes in leadership and leadership development and 
technology. Any courses that they indicated, anything that 
would promote personal preparedness for them. Also one of the 
things we emphasized was family activities to bring them 
together as a family to encourage that family readiness.
    Dr. Kelly. Sir, there are several things that I would 
allude to. First, the ability to communicate with all of the 
Services and also being able to communicate with a member when 
that is appropriate and called for.
    The other thing I would say is access to good financial 
management. The Navy has done a wonderful job in training our 
service members, our active duty members, and giving them the 
tools for financial management. What we have also started to do 
is to be sure that that same level of training is available for 
spouses and family members because, quite frankly, when the 
active duty member deploys, most often the spouse who is left 
behind has to take care of finances. Quite frankly, in many 
instances, spouses are doing it even before the service member 
deployed. So having the ability and the skill sets to provide 
good financial management for a family is essential.
    I would also agree with my colleague in terms of support 
groups and putting support groups in place that can take care 
of services. I will give you just one example. On many of our 
bases where, even though we think, we do a fairly good job of 
making sure service members have taken care of the basic 
essentials, it still happens when a member deploys, there are 
things that go wrong. What we have done is put formal volunteer 
groups in place that will help spouses that have been left 
behind, doing things such as fixing tires on cars, fixing 
washing machines. Anything that goes wrong in the house, there 
is a formal volunteer mechanism that is available to help them 
with that. Those are the things that I would point to.
    Ms. Lukens. Yes, Senator, I also would agree with my 
colleagues as far as readiness goes. With Moody being the only 
active duty search and rescue base, our people need to be ready 
from the time they hit the front gate. It is not unusual, I 
would like to say it wasn't, but it is not unusual for folks to 
be assigned and within a few days to be tapped for deployment, 
and they can be gone as long as 179 days. We have had a number 
of those. What that means is that it is important that we 
empower the spouses and the family members left behind.
    Where we partner a great deal is with our schools. We are 
very active with the Lowndes County and Valdosta city school 
system, as well as a number of the private schools in Lowndes 
County, and we find that they are able to identify children and 
families for us who need some additional assistance. We are 
very active anyway with the schools, going out and talking with 
the guidance counselors.
    So as Ms. Murray alluded to, we look at a community 
capacity. We cannot possibly do it all ourselves, so our 
emphasis is on building what we like to call the front-porch 
mentality. When people sat on their front porches, folks would 
come over, sit down and talk and thrash out problems. Sometimes 
we lose that as we become more urban.
    But our intent is to help and educate our other agencies 
within and off the base that can help identify people in need, 
and then we get those people to where they need to be. 
Empowerment is a very important key for this, particularly for 
this generation.
    In addition, access to information is always a problem. We 
do not have that many television stations in town. In fact, we 
do not have any really in town, but we do have the Internet, 
and very recently Moody was able to launch moodyservices.com 
where spouses could access information about what is going on 
on base, both our integrated delivery system as well as morale 
and welfare services and activities.
    So from my perspective, empowerment and access are very 
important, along with the beginning of education from the time 
they hit the front gate.
    Senator Chambliss. Each of you mentioned education. In 
civilian life, there is no greater asset to America than our 
military kids. They are the ones that we find usually grow up 
living in a military community, and a large percentage of them 
enlist in the military. We have, basically, three categories of 
schools in military communities. At Robins, we have an 
elementary school that is a DOD-operated school. I was at Kings 
Bay the other day, and there we have a school located on base 
that is operated by the Camden County School system but that is 
primarily for kids from the base, but the teachers there are 
hired by the Camden County school system and are primarily 
teachers from out in the community. Then at Moody, we have no 
base school; everything is operated by the Lowndes County.
    Ms. Lukens. Yes, sir.
    Senator Chambliss. Do you find that there are problems that 
are unique to these kids, particularly in the elementary school 
ages, when their mothers or dads are deployed, particularly in 
harm's way like we have recently seen happen? Is there a 
difference in the ability of those three categories of schools 
to deal with those children's anxieties? For example, if you 
have spouses of active duty military, as we have here at 
Robins, who are teaching in the schools, are they better able 
to handle the anxieties of those kids versus folks who may come 
from the outside? Can you shed any light on this one way or the 
other? Ms. Heifferon.
    Ms. Heifferon. Yes, sir. In looking at the difference in 
schools, I think one of the things that the Army has developed 
that has really assisted in this area has been the Army school 
liaison program to address those issues.
    You asked if there are particular behavioral issues with 
children in the military when parents are deployed. Absolutely. 
There are emotional behaviors that do come through. One of the 
things that we have done with the Army school liaison program 
in conjunction with Army family team building is we have gone 
out into the schools, both on-post schools and off-post 
schools, and conducted deployment training. The Army has 
developed through its Child and Youth Services a CD-ROM called 
``Your Pal CJ'' and it is interactive. It can be utilized with 
the children, and it addresses their emotions and their 
feelings when moms and dads are deployed.
    Part of the school liaison and Army community service 
training is to assist those teachers in dealing with the 
particular questions that do come up about deployment; some of 
the particular behaviors that are expressed, separation anxiety 
perhaps, and some of the questions, ``Is my daddy or my mommy 
going to be hurt in the war?'' Helping teachers cope with that 
is essential, and quite frankly, that is one of the reasons 
that that Army liaison program was developed, not only to 
assist with these military children in situations like this, 
but also to assist those military children in transitioning 
from one school district to another, whether they are coming 
from another on-school post to an on-school post or coming from 
an off-post--on-post to an off-post school. It has been a very 
beneficial program for us.
    Senator Chambliss. Dr. Kelly.
    Dr. Kelly. If you had asked me that same question 10 years 
ago, I would say there was a drastic difference in the services 
that military schools were able to provide versus schools 
outside the gate. I do not think there is that much of a 
discrepancy today for several reasons. I know the Navy, and I 
think that like many of the other Services we have done a much 
better job of partnering with the educational institutions to 
be sure that the services are provided.
    I will give you just one example. In all of our Fleet and 
Family Support Centers, we have our counselors actually go out 
to the schools and do staff developments for principals, school 
counselors, and teachers in terms of dealing with military 
children effectively. We have also found that superintendents 
are very much open to hiring military spouses to have that 
knowledge on staff in terms of the special needs of military 
children.
    In the fleet concentration areas of Jacksonville, Mayport, 
and Kings Bay, 3 weeks ago we sponsored a workshop that brought 
in all school counselors, all school administrators to actually 
talk about the special issues facing military children. So I 
really think that we have gotten much better at making sure 
there is a level playing field.
    I have to tell you, though, military children still are 
very special and have very special needs. Consider these 
children who go from school district to school district every 2 
or 3 years, where testing requirements are very different, 
where absentee rates are very different, where special 
education programs, the requirements for getting into gifted 
programs all vary from one school district to the next school 
district. Quite frankly, when a military family goes from one 
school district to another, they expect the same level of 
services from one State to the next State. Lets face it, 
however, all States are not equal when it comes to education. 
They are very different, and it does present challenges for our 
families.
    Ms. Lukens. Sir, your question was, are needs different for 
military children. During the Gulf War, I was called by the 
principal of Nashville Middle School, Nashville Elementary 
School, which, of course, is just north of Moody. At that time, 
during recess one of our F-16s had flown over and all the 
children hid because they were afraid the Arabs were going to 
bomb them. What that pointed out at that time was that all 
children have fears and all children have needs and that began 
a very close relationship with our school systems. In the wake 
of September 11, I was on the phone, as was Sergeant Thornton, 
with every school in our area talking, not about what military 
children needed, but what every child needed to be reassured 
that they were safe. That was our first concern. Then to help 
them with the process of avoiding the kind of stress reaction 
that can, hopefully not, but could, develop into posttraumatic 
stress, which, of course, we do not see in our children but we 
unfortunately do see in our adult personnel.
    Sergeant Thornton. Sir, one of the keys to dealing with 
these children in the schools is having an active working 
relationship with the school system itself and being down there 
with the counselors and letting them know where the resources 
are on the base in case they have a problem dealing with these 
children. We do see specific problems that are attributed to 
deployments, dealing with separation anxiety as Dr. Kelly and 
Ms. Heifferon mentioned.
    Sometimes these kids do just totally shut down, and the 
counselors do not know where to turn, so they will turn to the 
Family Support Center, and we will get involved with the kids 
and the family to help them out and assist them with this 
anxiety.
    Senator Chambliss. Ms. Heifferon and Ms. Lukens, very 
quickly, this decision by DOD to embed reporters is going to be 
discussed for some time, I am sure, to determine whether it was 
good, bad, or indifferent. With kids, particularly with the 3rd 
ID being as visible as it was being involved in the heavy 
firefights day in and day out for weeks at a time, and with our 
search and rescue group that had the unfortunate loss of life 
in significant numbers, please give me your quick opinion about 
whether it had an effect on our children and their ability to 
cope, with their parents being deployed.
    Ms. Heifferon. Sir, one of the first things we noticed, and 
we had a discussion, was the fact that the children were 
watching TV. When they were watching TV, the anxiety levels 
definitely went up, and, again, the CNN effect and the embedded 
reporting was a factor. I think it was a personal decision on 
the part of the spouses to decide whether their children could 
indeed watch television or limit it. Additionally, we talked to 
the spouses about allowing their children to express those 
fears.
    In our child development centers, one of the things that 
was done was to allow the children to draw pictures, to be able 
to talk about the fears they have, and to express that anxiety. 
Also in our youth programs, in our middle school and teen 
programs, support groups were formed. At one of our high 
schools in Savannah, our school liaison officer went out and 
formed a support team with the teens to talk about the fears 
they had. So, yes, it definitely had an impact on how they 
reacted to the war. It was like having instant war in the 
living room, and they truly needed some outlets to be able to 
express their concerns and their fears for their parents.
    Ms. Lukens. I would concur with that. One of the very first 
things we did in the wake of September 11 was to send out some 
information about how to sit down with your child when you are 
watching CNN or watching television or televised reports, and 
of course that was continued throughout OEF and OIF. I 
personally advised the spouses to turn the television off and 
go out and take a walk. It probably would be better for 
everybody involved.
    As you mentioned, we did lose a HH-60 and for the families 
who were waiting, it seemed like an eternity for them to find 
out whether or not their loved ones were in that crash. There 
really are not any words to describe it. As far as the children 
go, everything that we do, every component that we have in our 
readiness program, also has an application to children. I did 
give you a copy of our readiness guide which does include all 
that, sir.
    Senator Chambliss. Dr. Kelly, no aspect of your work is 
more important than assisting in the reintegration of military 
members into their families as well as into their communities. 
I know we have already heard a little bit about what the Navy 
does with respect to that. Would you like to expand on that and 
tell us a little bit, particularly in light of what happened at 
Fort Bragg last year, which is still fresh in everybody's 
minds? Now, as we are seeing the return of sailors, in your 
case, to their home ports, what are we doing with regard to 
counseling these individuals before they go back into the 
homes, back into their communities to try to make sure that we 
have done everything we can, from a Service standpoint, to see 
that another Fort Bragg situation does not occur?
    Dr. Kelly. Thank you for the question. The Navy has had in 
place, sir, for about 12 years now, a program that we call our 
Return and Reunion Program. I alluded to it in my opening 
statement. With the Return and Reunion Program, we actually 
send out a team of psychologists and social workers, if it is a 
ship situation, they will actually go out and meet the ship. 
They have designated time, one-on-one with the service members. 
There are a whole range of topics that are discussed.
    If a service member just needs one-on-one counseling, that 
is available. If the service member is having a first-born 
child, born while he is at sea, we talk about first-time dads 
and what that really means.
    If a service member needs help with financial counseling, 
briefings on financial counseling are available on the ship. If 
a service member has interest in what is going on back at his 
particular location or her particular location, we bring videos 
of happenings in the community and the military while they are 
away at sea. They are exposed to all of that.
    While they are getting that, we have another team of social 
workers and psychologists working with the family members at 
the installations, giving them the same information so that 
when they come back, then they have both been exposed to the 
same information.
    Another issue that I did not talk about was the whole issue 
of intimacy. When you have a service member who has been 
deployed for 6 months, and in some instances 9 months with our 
Seabees, the whole issue of intimacy takes on a whole separate 
meaning. There is a lot of anxiety associated with it, and our 
counselors and psychologists talk openly about what to expect 
with their first encounters with their spouses when they are 
back home. As I said, the spouses back home are getting the 
same kind of information.
    Quite frankly, with our commands that take advantage of our 
Return and Reunion Program, we notice that the incidents of 
counseling once the commands are back go down tremendously as 
opposed to those that do not take advantage of the Return and 
Reunion training. So we think it is a real valuable tool.
    Senator Chambliss. Comments from either one of you ladies?
    Ms. Heifferon. Yes, sir, I would like to add something. Our 
reintegration is very similar to what the Navy is doing, but 
the one thing I would like to stress that I think is very 
important, once our soldiers are back, they have already 
received, concurrently, the same training that we are offering, 
the reunion briefing, in-theater and the families have received 
it stateside. Once they are back, for approximately 2 weeks, we 
have couples training where they come together as a couple 
basically after that 2-week reacquainting period is over, and 
we address some of the stresses or some of the issues that have 
come up. As my colleague stated, intimacy can be one of the 
primary issues. Or how to communicate, or the issues with 
children, or the fact that you have had two people in charge, 
one has been in charge in-theater and then you are coming home, 
and here is another person in charge. It is re-communicating, 
coming back together as a team, because you have been 
separated.
    After that, and to 6 weeks into their return, we also send 
our family advocacy program manager out into the units to 
assess some of the issues that may have arisen, and the 
stressors in the family environment that possibly could lead to 
some kind of domestic violence incidents. We want to, we really 
want to be proactive with that. As you said, to avoid anything 
that could occur again or reoccur as it did at Fort Bragg.
    I also want to emphasize that we are all aware of that 
tragedy and have stepped up in our family advocacy programs in 
terms of commander and troop training. One of the things that 
we have initiated with the support of our installation 
commander, has been, as our commanders and first sergeants come 
in, we have expanded our course from anywhere to 4 to 8 hours 
training these first sergeants and company commanders to be 
looking for those risk indicators that could indicate that 
there might be some possible problems. We also give them the 
tools and resources to be able to deal with some of those 
indicators and who they have to contact.
    Ms. Lukens. Sir, from an Air Force point of view, at least 
at Moody, reunion and pre-deployment are really just two sides 
of the same coin. So we begin talking about reunion as soon as 
we finish the sentence on pre-deployment. We also have been 
very focused on the issue of domestic violence, and we have 
been very successful, as I cited in my testimony, as far as a 
decrease in the number or percentage of maltreatment 
statistics. I believe that is because we started 3 years ago 
investing in our families. Through our IDS, our Integrated 
Delivery System, we began offering couple communication 
monthly, and we have continued with that, and I think that that 
is certainly part of the empowerment that I spoke about 
earlier, so that our folks can at least communicate about their 
fears. If they need a little help, we are there for them.
    Senator Chambliss. Thank each of you very much for your 
service to our country, for what you do, and for being here 
today to share some insights into problems and the solutions 
that you are bringing to those problems on behalf of all of our 
service members. Thank you very much.
    Now we will move on to our third panel and we would welcome 
at this time Ms. Kate Payne, spouse of Captain Matt Payne, 
United States Army; Ms. Chrystie Palomo, spouse of Sergeant 
Philip Palomo, United States Army from Fort Stewart; Ms. Kris 
Edmondson, spouse of Petty Officer First Class Richard 
Edmondson, United States Navy from Kings Bay. Kris, it is nice 
to see you again in such a short time.
    Ms. Edmondson: Thank you.
    Senator Chambliss. Ms. Marian Bush, spouse of Captain Jason 
Bush, United States Air Force; and Mrs. Semantha Matthews, 
spouse of Technical Sergeant Lawrence Matthews, United States 
Air Force from Moody Air Force Base.
    Ladies, I want to thank each of you for taking time to be 
here with us today. You have heard the comments that have been 
made here, and we particularly want to talk about the practical 
side of what we are doing with respect to services to all of 
our military personnel. If any of you have an opening statement 
you would like to make, we will be happy to hear from you or we 
will proceed just to questions.
    Ms. Payne.

     STATEMENT OF KATE PAYNE, SPOUSE OF CPT MATT PAYNE, USA

    Ms. Payne. Thank you, sir. Good afternoon, Senator 
Chambliss. It is an honor and a privilege to have been asked to 
participate in today's Senate hearing to address deployment and 
reunification among military families. I would like to 
introduce myself. My name is Kate Payne, and I am currently 
stationed, with my husband Matthew, at Fort Stewart. Since our 
move to Georgia, we have had two children, Carmen, age 2, and 
Rosa Jean, age 10 months. We have lived in Hinesville for 3 
years, and Matthew currently serves as commander of Charlie 
Battery, First Battalion, Ninth Field Artillery. He has been 
deployed to Kuwait and, subsequently, Iraq since 23 September 
2002.
    As I share my thoughts this afternoon, it may help to know 
that my professional background is in Roman Catholic theology, 
an area in which I hold a master's degree. From this 
perspective, I consider my role as a military spouse, and 
specifically my work in the area of family readiness, as a type 
of secular ministry.
    Families of soldiers are in need of knowledge, support, 
information, and for lack of a better word, fellowship, before, 
during, and after a deployment experience. Family readiness is 
the means by which our military community provides these 
intangible, though certainly necessary, benefits.
    From the onset, I must admit this is my first deployment as 
a military spouse. My extended family has had minimal military 
involvement since the Vietnam era, so my comments today reflect 
both my own thoughts and experiences as well as conversations I 
have had with other Fort Stewart spouses in preparation for 
this hearing. Many of these women are currently experiencing 
their second or third deployment in 5 years. Surely these are 
the experts, and I am pleased to share their thoughts with you 
today.
    My primary role of service in the military is as a battery 
commander's spouse. For your reference, our battery is 
comprised of approximately 100 soldiers, and of these, 40 
percent are married. As the commander's spouse, I comprise one-
half of what the Army terms the command team, and provide the 
primary leadership for our battery-level Family Readiness 
Group. Essentially, Matthew runs the soldier portion of the 
battery, and I lead the spouse side of the group.
    Battery command is the first opportunity for a military 
couple to experience working together for the benefits of ours 
soldiers. Our common goal is to provide both soldiers and their 
families ample opportunity to become well-prepared for any 
contingency that may occur. While my part is one that may seem 
simple and straightforward enough, an effective command team 
spouse is truly invaluable. When soldiers are home with their 
families, the command team spouse works to put into place and 
develop effective communication tools, constructing a strong 
support network in preparation for planned training exercises 
and the possibility of real world deployment.
    Just as soldiers train for combat situations, spouses, as 
individuals and in the context of family readiness, have the 
opportunity to train to be ready to support their soldier as 
expert household managers. After all, a soldier with concerns 
about his family and their well-being is unable to focus fully 
and completely on his mission. He becomes ineffective in his 
job and endangers himself and others. By taking the opportunity 
to train alongside their husbands, military spouses become the 
means by which their soldiers are able to concentrate fully on 
the task at hand, get the job done, and return home safely and 
in a timely manner.
    With the help of educational and support programs offered 
by the Army as well as the moral support of other spouses in 
the Family Readiness Group, these women learn to survive both 
the day-to-day, and the unforeseen, situations that inevitably 
arise during a soldier's absence.
    As a command team partner, elements of my upbringing and 
professional background have served me well, but it has been 
the Army's educational and support programs that have made the 
most significant difference. Classes offered by Army Family 
Teambuilding, friendship, and fellowship provided by the 
Military Council of Catholic Women, as well as the practical, 
more technical training offered by Army Community Service have 
been the most crucial in forming me as an effective member of 
the command team.
    Not long after we were married, I became aware of the Army 
Family Teambuilding program. With various classes offered on 
three levels of study, Army Family Teambuilding addressed many 
of the questions I had as a new military spouse. Especially as 
someone with so little military experience, I greatly 
appreciated the opportunity to learn about rank structure, the 
organization of the Army, and how to read my husband's leave 
and earnings statement, not to mention how to understand him 
when he came home from work. Unfortunately, acronyms run 
rampant among Army folk, so this was truly an enlightening 
educational experience. I was so pleased with the Army Family 
Teambuilding program that I eventually became trained as an 
instructor. This was an especially rewarding way to utilize my 
previous experience teaching at the high school level to 
benefit my fellow Army spouses.
    Another group which played a key role in my development as 
an Army spouse is the Military Council of Catholic Women. As is 
often true of spiritually-based programs, these ladies were a 
warm, welcoming group offering a variety of worship, study, and 
service opportunities. The women I met through the Military 
Council of Catholic Women were varied in age and background, 
providing invaluable mentoring for me. Through their shared 
experience and abundant support, I was better prepared to 
accept my growing understanding of military life as one of 
significant sacrifice and selflessness. In addition, the 
monthly First Friday programs, service activities, prayer and 
Bible study offered by the group gave me an opportunity to see 
how I could be replenished in the midst of such a sacrificial 
lifestyle which often called for my husband's absence.
    Since my arrival at Fort Stewart, I have become 
increasingly familiar with the formal training offered by Army 
Community Service. In preparation for Matthew's command tenure, 
we participated as a couple in a week-long training course. 
Through this experience, we became the beneficiaries of years 
of command experience and were familiarized with the programs 
developed in response to real needs expressed by Army families. 
Covering everything from self-organization and military 
protocol to crisis management, the courses involved in our 
training have truly been a benefit to our command. In this way, 
the Army has moved from the traditional role of taking care of 
its own to the more empowering role of teaching its own to take 
care of themselves. These classes have allowed us to know how 
best to help the battery soldiers help themselves and their 
families. Especially in light of the current deployment, it has 
been an honor to share in this developing tradition of 
empowerment. Practically speaking, I have seen spouses who had 
never written a check in their lives now adeptly managing the 
family's finances. Quiet, reserved women who had previously 
been afraid to speak their minds have begun to share thoughts 
with confidence at our monthly Family Readiness Group meetings.
    Admittedly, deployment and separation are significant 
hardships. From this difficult situation, however, new growth 
has taken hold and watching our spouses blossom has been one of 
my greatest pleasures.
    As I bring my comments to a close this afternoon, I would 
be remiss if I did not draw pointed attention to the essential 
role of personal responsibility in my development as a command 
team spouse. The Army offers the immensely beneficial programs 
I have outlined here, as well as many others, but it cannot be 
overemphasized that every military spouse must take personal 
responsibility for her own growth and development. Family 
Readiness Group meetings are offered on a monthly basis in 
nearly every unit at Fort Stewart, and yet many are very poorly 
attended. The average for our battery is about 30 percent 
attendance, and this during our most intense preparation for 
deployment and subsequent departure of our soldiers. To be 
frank, I expect our numbers to dwindle significantly with our 
soldiers' return.
    It is the choice of every spouse to be an active 
participant in the Army family or to remain outside this vast 
network of support. For many, though, the risk of taking that 
first step to attend a Family Readiness Group meeting, return a 
welcome call from another spouse in a new unit, or to register 
for an Army Family Teambuilding class is just too great. While 
these programs are wonderful, the essential person-to-person 
contact, the reaching out of one spouse to another, seems to be 
the crucial element that makes the difference between a 
successful Army spouse and one who refuses to step beyond her 
area of comfort.
    I have been blessed with many wonderful mentors during my 
short experience with the Army who reached out to me as a new 
military spouse, offering the benefit of their experience and 
an open door to participation in activities and groups where 
these women had found strength and support themselves.
    I strive to be for others as these women were for me, a 
shining example of the hospitality, strength, warmth, and 
selfless sacrificial living that is the military spouse. Thank 
you.
    Senator Chambliss. Thank you.
    Ms. Palomo.

 STATEMENT OF CHRYSTIE PALOMO, SPOUSE OF SGT PHILIP PALOMO, USA

    Ms. Palomo. Hello, Senator Chambliss. It is a distinct 
honor and privilege to speak to you today on behalf of the 
noncommissioned officer wives about deployment and family 
concerns. My name is Chrystie Palomo and I am married to 
Sergeant Philip Palomo II, who has been serving in the now-
famous Third Infantry Division in the Persian Gulf since 
January of this year. We have lived on Fort Stewart, Georgia 
for the past 14 months as our first active-duty station. My 
husband was an Army reservist from 1988 to 1996. In November 
1991 he was called to active duty in support of Operation 
Desert Storm. During that time, I was 20 years old, had an 8-
month-old baby, and had just found out I was expecting our 
second child. I knew nothing about the Army except that he wore 
a green camouflage uniform that was very hard to iron. At that 
time, there was no reaching out to the Reserve families from 
the Army.
    I remember the threat of him being called to active duty 
with his Reserve unit, and I had no idea what I would do if 
that were going to happen. Of course, the inevitable happened, 
and his unit was activated to serve in Operation Desert Storm. 
It was like a tornado came through my life.
    My husband had to report every day to Fort Sam Houston in 
San Antonio, and one evening he came home and said we had a 
mandatory meeting. When we walked into the room, I knew no one. 
I was very intimidated by those men in green. All of a sudden 
they were talking power of attorneys, wills, things I knew 
nothing about. There was no family support or family readiness 
groups. I felt very scared.
    When it was all done and Philip was on that bus to Lord 
knows where, I moved to where my parents lived. I relied 
totally on my husband calling or writing a letter. Calls were 
very few, and letters were also. I never received a phone call 
from anyone other than him. Compared to today, there has been a 
vast improvement in communication since Operation Desert Storm, 
and my husband has gotten better at writing me.
    As a new family entering into the Army, I have found Army 
Community Service to be the greatest asset provided by Fort 
Stewart. The information provided to us today by Army Community 
Service is just awesome. They offer so many avenues for us as 
spouses to get involved, to learn more about other programs, 
and to take different classes.
    I will never forget the first day I walked into Army 
Community Service. Our household goods were not going to be 
delivered to our house until 2 weeks after we had gotten there. 
I was told to go to ACS as they have what is called a lending 
closet. When I arrived at that building I was greeted with 
smiles and such willing hearts to help me. I received a box 
full of necessary household goods on loan for a family of six. 
It was incredible, and it was all done with a smile.
    The preparation they provided for us as pre-deployment 
issues arose was another grand slam. ACS provided an awesome 
display of information from every avenue to ease the spouse's 
mind. When I found out that Philip was getting deployed to the 
Persian Gulf, I felt very prepared for the questions that could 
arise upon his absence. They provided all the names and numbers 
that I would ever need for any question that needed answered.
    During the conflict of Operation Iraqi Freedom, Susan 
Wilder invited each Family Readiness Group leader, rear 
detachment personnel, and battalion commander wives to a 
meeting once a month to brief us on any new information. I 
found these to be most beneficial. As a matter of fact, most of 
the information that was provided to us in these meetings were 
the meat of my monthly newsletters.
    Child care issues came up more than once at these meetings, 
with a concern about the yearly fee of $30 per household with 
children being too much. I had to comment on this as most of 
the people present were officers or officers' wives, and they 
do have a bigger pay scale than we do. I stood up and said that 
although I was the wife of probably the lowest-ranking soldier 
in there and I had four children, I am more than sure that if I 
could afford the $30 a year, everyone else could, too.
    Currently, I am the Family Readiness Group leader for my 
husband's unit. We have 128 spouses left here. We have meetings 
once a month, and a detailed monthly newsletter is sent out. I 
call at least five spouses a week just to check on them. I also 
pass information via E-mail.
    There have been some challenges I have faced as a Family 
Readiness Group leader. Senator, one area of opportunity has 
been the flow of information and support coming from the rear 
detachment. A more active role was needed to remedy those 
areas. Another challenge I have dealt with is customer service 
issues on post. While the ACS provides service with a smile, 
there are some departments which do not hold this view as 
strongly as ACS does. Moving forward with family support and 
readiness issues, the Army should focus on improving customer 
service and continue to improve upon the variety of existing 
services.
    A final area to work on is to get units to work harder on 
encouraging soldiers to get their spouses and families involved 
in what is going on so that in times of deployment it will not 
prove to be hard on the spouses, the rear detachment, or other 
people that are trying to help them. A lot of what I am saying 
lies solely on personal responsibility.
    Senator, this has been a great moment, not only in human 
history but in the history of the United States. Our men and 
women in uniform have done an outstanding job, yet an even 
greater job still was the sacrifice made by American families 
who lovingly and dutifully continued on with daily living, 
ensuring bills were paid, houses were cared for, children were 
tended to, and that all things pertaining to domestic matters 
were handled. The thought of my husband going off to war, while 
difficult, was not overwhelming. I support my husband 100 
percent and know how important it is for me to understand my 
role in making this a successful deployment. The truth is that 
this situation allowed for and proved to be a testing ground 
for me and my family. Yes, it was emotionally challenging, 
especially when one of my four children, for that matter, all 
of them, decided to be out-of-sorts at one time or another. 
Nevertheless, I worked through the issues and actually became a 
stronger parent and person because of it. I know some families 
experienced greater difficulties and challenges than I did, and 
my heart and prayers went out to them. For me, now all that 
remains is being reunited with my husband and working together 
to help him adjust to family life again.
    Senator Chambliss, I would like to thank you for allowing 
me this opportunity to speak before you and this committee. It 
has been an honor. May God bless America and thank you.
    Senator Chambliss. Thank you.
    Ms. Edmondson.

 STATEMENT OF KRISCHELE EDMONDSON, SPOUSE OF MM1 (SS) RICHARD 
                         EDMONDSON, USN

    Ms. Edmondson. Good afternoon, Senator. I do not have a 
prepared statement, but you do have my biography. I am from 
Naval Submarine Base Kings Bay, which is pretty much the 
mystery of the Armed Forces as far as services goes. We are 
called the silent service because usually there is not a lot of 
information that goes out about us or what is going on around 
our base.
    I would like to thank you and the previous two panels 
because without you and their caring, our military spouses 
would not be able to face the challenges that are constantly 
put before us. I do applaud that and I do thank you all on 
behalf of all of the military spouses. Thank you very much.
    Senator Chambliss. Thank you.
    Ms. Bush.

   STATEMENT OF MARIAN BUSH, SPOUSE OF CAPT. JASON BUSH, USAF

    Ms. Bush. Good afternoon, sir. I, too, do not have a 
statement prepared but just a little bit on my background. I 
have been involved with and around the military for just over 
10 years now. My husband is a personnel captain. My background 
is in education. I have taught school in several States, 
including in a DOD school. I taught in an on-base school in the 
Washington, DC, area to kindergarten children. I have an early 
childhood background.
    I now have one son that I stay at home with and try to stay 
involved in different aspects of what is going on in our base 
involving many different child care issues and children and 
families, bringing my background, as well as support from 
myself.
    My husband just took his first deployment. He was gone for 
6 months and has just returned home in the last week, and 
without the support of these services and these people it would 
have been a very difficult time. However, with the different 
agencies and programs that were available, we made it through. 
I definitely have grown. I have become a stronger person 
because of it and I hope that I can lend my support and my 
experience to others that will go through it someday after me.
    Senator Chambliss. Thank you, Ms. Bush.
    Mrs. Matthews.

   STATEMENT OF SEMANTHA MATTHEWS, SPOUSE OF TSGT. LAWRENCE 
                         MATTHEWS, USAF

    Mrs. Matthews. First, I would like to thank you, Senator, 
and the other members of the Armed Services Committee and to 
those who have dedicated their professional careers to taking 
care of us.
    I am so sorry, I am not poised at all like these other 
ladies, but I thank you for how you serve me and my family. My 
name is Semantha Matthews; I am a wife. My husband is Tech 
Sergeant Matthews right there, returning from Operation Iraqi 
Freedom just Tuesday. So this is very fresh for me.
    I was born into a military family 37 years ago, and then I 
joined the military at 20 for an 8-year enlistment, and then I 
married military. I have been happily married for 15 years 
serving as a military spouse. I guess I am the ideal Air Force 
brat, I guess you could say; I am proud to be so, though.
    I did know much of what my sisters on this panel have said, 
and I am not surprised that much of what we share is not 
different. I just commend those who care for us and 
particularly these ladies who, unless you have been there, it 
is not impossible but it is quite difficult to really 
understand what a homecoming is like or what a goodbye is like 
or what a nightmare in the middle of the night is like. But it 
is worth it. It is worth it.
    Senator Chambliss. Mrs. Matthews, you knew what you were 
getting into from day one, and it looks like you asked for a 
husband even who is sharing this with you. That is a great 
story. He is a pretty good camera man, too, I notice there.
    Thank all of you all for your great service to our country; 
we appreciate that very much. Let me just start out, there are 
five of you all here, and I am sure what Ms. Murray said about 
the return rate on our surveys is about average, or the Air 
Force may be above average. That means that only two of you 
ladies returned a survey. Tell us, if you will, whether or not 
the surveys mean anything to you? Are we asking the right 
questions, getting the right information, and do you feel like 
that anything is being done based on the information, you are 
providing in those surveys?
    Ms. Payne.
    Ms. Payne. I am sorry, sir, I have not had the opportunity 
to fill out a survey.
    Senator Chambliss. Okay.
    Ms. Palomo. Nor have I.
    Senator Chambliss. All right.
    Ms. Edmondson. I have. Yes, sir, I really appreciate 
receiving the surveys, whether it be from TRICARE, the Family 
Service Center, or even a command survey. They are invaluable. 
I have seen action on them in the command, as well as the Fleet 
and Family Support Center. I have also acted as a Navy command 
ombudsman, which is basically a liaison between the families 
and the commands. When we get these surveys, the spouses will 
often ask me about it. Is it really worth it? Do we really need 
to fill it out? Absolutely, you need to be heard. I help you to 
be heard, but they need your words on that piece of paper. So, 
yes, they are very valuable and yes, we are being heard.
    Senator Chambliss. Okay.
    Ms. Bush.
    Ms. Bush. I definitely agree with that. Some of the things 
that I have heard of why not to fill it out is they are very 
long and time-consuming and when you are at home with one, two, 
three, four children, that is just not something that takes a 
priority. But I also have seen results on them and agree that 
it is definitely invaluable, and we just try and encourage each 
other to get through it even if it is at midnight.
    Mrs. Matthews. I, too, have filled out the survey and I do 
believe that where we are today is because those before us have 
filled them out, so I just think that part of my responsibility 
is to continue on to also fill them out, to take care of the 
needs of those who come after us. The needs are constantly 
changing. The Air Force is constantly changing. Their job is to 
take care of us and meet our needs, and our job is to let them 
know what the needs are, so it is very important.
    Senator Chambliss. I know that you all appreciate that 
deployments and separation from your spouses are unavoidable. 
That is part of military life. The purpose of this hearing 
today is to discuss how we can better manage those deployments 
for you and your families when duty calls.
    As we have all heard today, the service family support 
centers and service leadership work very hard to make these 
deployments as manageable as possible for you and your 
families. I would like to know more about what is important to 
you while your spouse is deployed. For example, is it the 
ability to communicate easily and regularly? Is it the ability 
to know where the unit is and when they are scheduled to come 
home? Is it having a supportive base community and having your 
children taken care of? What are the things that go the 
furthest to ease you and your families during the times that 
your spouse is gone? Ms. Payne.
    Ms. Payne. My first response to your question would be that 
I understand that communication, especially in a conflict-type 
situation as we have just experienced, is not always possible 
and knowledge of where your husband's unit is and what they are 
doing is not always safe. So I would say the more we can do to 
empower our spouses, the better.
    My concerns are not so much for myself. I know that I can 
manage my family, but what I am concerned more about is 
Matthew's soldiers' wives. Some of them are just not 
experienced in the least, and the more opportunity we can give 
them to grow, the better.
    Senator Chambliss. Okay. Ms. Palomo.
    Ms. Palomo. My first reaction to respond to your question 
is the mail system. I understand that while in theater, and 
while there is conflict going on, you cannot mail to the front 
line, and I understand that. My husband is not on the front 
line. He is about midways back, which is about right outside of 
Baghdad. So, he has not received mail, and the conflict is 
over.
    Now, I do get to have pretty regular communication with my 
spouse. He is in a support command unit, so we do get to speak 
with him regularly and correspond on E-mail, but he has not 
received any mail in about 3 weeks now, and that is about 10 
packages ago and about 35 letters ago. So as far as concerns 
are, I think that Fort Stewart is doing an awesome job keeping 
all of us informed of what is going on and the programs that we 
can put ourselves into to better inform ourselves for anybody 
that has any questions. I know lots of women in my neighborhood 
do not attend their meetings, and so I am their source of 
information for them. So as long as they are providing the 
services that they do, we really need to push for the wives to 
get involved, but you cannot make it mandatory. So, there 
again, it is personal responsibility.
    Ms. Edmondson. What is important? Well, definitely 
empowering our spouses. In the submarine service, communication 
is not an option, or it is one-way pretty much. We have gotten 
a slight ability of a little bit of E-mail every now and then, 
but that is hit or miss. Therefore, it is very important to 
inform the spouses as far as the resources available to them, 
may it be the Fleet and Family Support Center, Navy-Marine 
Corps Relief Service, Red Cross, informing them and putting 
some solid ground underneath them.
    Our average age on our base of our sailors is 21 years old. 
Our spouses are often younger. They have no military life 
experience. They barely have life experience, and they come up 
and they are standing on the pier saying bye, and now what? 
Where do they go, what do they do? They often do not know 
anybody at all because they have just reported. I am a very 
strong advocate for the Navy Family Ombudsman Program, and I 
believe the Marine Corps has something similar as far as the 
key volunteers. I am not sure really about the Army or the Air 
Force. But these volunteers, these are actual volunteers that 
are there as one point of contact to assist the families. So I 
definitely think keeping the ombudsmen program funded is 
important, so that the ombudsmen can be trained.
    I can take approximately 150 calls if necessary. Hopefully, 
I have prepared them so they do not need to make that call, but 
this way we have another crew that helps us out, but hopefully 
they will call me so these sailors can do their jobs and get 
ready to go. Basically, I believe as one of the ladies over 
here mentioned, preparation, preparation, preparation is vital. 
Let us get these spouses, either male or female, get them ready 
to prepare for what is coming up against them.
    I think that the Fleet and Family Support Centers and the 
other organizations like them are very invaluable, and we need 
them there.
    Ms. Bush. I agree with the others that communication is one 
of the key elements of what is needed during a deployment. My 
husband is part of a very small squadron on the base and his 
unit that deployed was even smaller. He took a team of four 
where he went, and so we did not have the big goodbye or a big 
network of spouses, although there are several spouses on base 
whose husbands are deployed. As far as his unit, where he is, 
there were just two of us. The other two that went with them 
were not married.
    So, in that sense, I had to step out of my comfort zone and 
out of my familiar surroundings and find other spouses to 
network with, and that was the greatest thing I could have ever 
done. One of the key things that got me through this deployment 
was having other spouses with children that met my child care 
needs because we could switch off with each other. I had other 
spouses that I could talk to to get things off of my chest when 
I had a bad day.
    Stress is a big part of deployments. You are not only a mom 
and a wife, you have the entire household to take care of. Many 
of them work, so they are still managing a career. They are 
taking care of the children, they are taking care of the 
finances. I stay at home with my son, and you would think that 
it would be very easy, that I do not have anything to do. But I 
was even busier with him being gone, and stress level goes way 
high even when you are not doing much because there are so many 
things that you are left to take care of.
    Some of the things that I dealt with while he was gone was 
my 2\1/2\-year-old son was admitted to a hospital for a week, 
and I dealt with that alone. My family is not here, so I dealt 
with that. Communication was excellent between myself and my 
husband during that point. His unit made sure that he was able 
to call me as often as he could so that for his benefit he knew 
that his son was okay, but for my benefit I could say, we are 
going to be okay; he is okay; it will just take some time.
    After one of my trips that I went home to spend with 
family, I came back home to a hole in my roof, and it had been 
after the 2 weeks of rain that we had. So communication was 
very important with my Family Support Center and different 
people on base. They helped me out. I called them one afternoon 
and said, ``My house is full of water and there is a huge 
gaping hole in my roof. Who do I call?'' They were absolutely 
wonderful at connecting me with the right people for that.
    Some of the positive things that came out of this, at Moody 
they started a deployed spouse dinner program, and once a month 
at our base chapel they offered a free dinner for the spouses 
and their families. Not only was it great just to get out and 
relax and not have to worry about dinner for that night, but it 
was great networking with other spouses and a good release for 
the kids because they could go and play there.
    Then I also had good communication with the commander of my 
husband's squadron. He made sure to call me at least once a 
month just to check in and say, ``Hey, are you okay? We are 
here if you need us.'' I really did not need to call on them 
for anything specific other than what I had mentioned, but it 
made me feel good that somebody was thinking about me, and I 
had some place to go if I did need it.
    Mrs. Matthews. I think before deployment, it is really 
important for us spouses to know what to do in case of a 
situation like your roof falls in. I think readiness is really 
important. I think the Family Support Center at Moody does an 
excellent job in that. Over 15 years, we have had several 
deployments, four lengthy ones, particularly in the last 6 
years since we have been at Moody, and I feel like we have been 
fairly prepared to handle those.
    During a deployment, it is wonderful, just the activities 
that are available. I have a 12-, 10-, and a 4-year-old. We 
stay very busy, but being busy makes the time go pretty fast. 
So it is nice that the Integrated Delivery System sends out a 
calendar of events for the month. I circle them; I highlight 
the activities and then we stay busy. That is always great.
    I took a car care seminar; I have always been wanting to do 
that. Since the last two deployments a different car has broken 
down each time. Very expensive repairs at that. So I decided it 
is really about time to take a car care seminar, and I did. A 
local CMC, it is a Goodyear place down in Valdosta, offered it 
to spouses for free, and it was absolutely incredible. I 
learned how to do some things I just did not know how to do and 
I just took for granted that he would take care of. It was 
wonderful, I did still have a car that broke down this time.
    But afterward, I guess after deployment I just really think 
we need a lot of time off. So I would just say, if the guys 
could just have time. They get 2 weeks off, but it takes a week 
at least or more for his body to adjust to United States time 
zones. We need more than the time that they give us, and I just 
think that after serving in a war and serving for 24-hour days, 
I am sure some days they just hardly slept and working so 
faithfully and so hard, I think they deserve more time off, if 
that helps. [Applause.]
    Senator Chambliss. We are running out of time here, but I 
have to get a comment from each of you about the educational 
environment and experience that you have had with your 
children. You all come from somewhat similar situations with 
respect to non-DOD schools. How do you find that children 
overall, particularly your children, react in their educational 
environment? Are we doing the right things? Are we providing 
the right services? Now that your spouses are coming back, what 
are you seeing with respect to counseling that is available or 
guidance that is available to our children of these deployed 
military parents? Ms. Payne.
    Ms. Payne. My children, of course, are very young, so the 
service to which I could probably speak most accurately would 
be the hourly child care service on post which I use 
approximately once or twice a month. The most descriptive or 
the clearest way that I could communicate to you the type of 
attention that my child gets at the hourly care center would be 
relating a story from when she was maybe 10 or 11 months old.
    I had taken her in for regular hourly care, and the staff 
there will always change your child's diaper before you leave 
the center. The woman who changed my child Carmen's diaper, 
told me that she had had a temperature of approximately 99.1 
degrees, and the child care worker said in her opinion she 
thought Carmen was probably teething. I said, ``Thank you very 
much,'' and we collected our things and proceeded to leave the 
center.
    On the way down the hallway the director for hourly care 
for infants stopped me in the hallway and said, ``Mrs. Payne, 
Carmen had a temperature this afternoon. I think it was about 
99; I think maybe she is teething.''
    As we were leaving the front doors of the facility, one of 
the child care workers who had evidently been with Carmen 
throughout the day said, ``Mrs. Payne, I am on my break, but I 
want to take time to tell you, Carmen had a fever today about 
99 degrees and I think maybe she is teething.''
    So the attention to detail that we experience, even as a 
family that uses the center very sparingly, is just phenomenal, 
and it is very much appreciated.
    Ms. Palomo. I can give you some really good examples of the 
school system. I have four children. My daughter is 13 and she 
goes to school about 15 miles off-post to a middle school, 
Midway Middle School. I have three sons, one is in sixth grade, 
one is in fourth grade, and one is in third grade, that go to 
school on post at Fort Stewart. This is our first example or 
first time of going to an on-post school.
    As far as through this deployment, I have seen at the 
school on post the support there. The teachers are so 
empathetic, sympathetic. They have open arms for these 
children. If you walk down the halls of Brittan Elementary 
School, outside on each door pane, they made a yellow ribbon 
out of yellow construction paper, and each one of those 
children has their mother or father's name on the yellow ribbon 
and it hangs around the door post, so when you enter in that 
room they are reminded that their fathers and mothers are 
heroes.
    Another point is, the day that my husband left, we got 
notified at 8:30 on a Monday evening that he was going to be 
leaving at 8:30 the next morning. I guess better that way than 
the other to be prepared. I kept my children out of school on 
the day that he was deployed, I think basically to keep me 
together.
    When I wrote the note on the Wednesday when they did go 
back to school, of course, the ones on post were, of course, do 
not even fret; you do not even have to write a note; we 
understand, Dad is gone, Dad was leaving.
    The one off post, however, did give me a little bit of a 
fit in saying that she was not sick, she was not in the 
hospital, she was not at the doctor's office. They wanted to 
count it unexcused, and I was not going to settle for that 
because this is a military community and, I mean, give us at a 
little break here.
    As far as the schools on post, and the counselor goes 
around to the classrooms. They have a counselor for the upper 
grades and a counselor for the lower grades, and I only know 
the upper grades. She goes around and she makes herself very 
open to the children and to the parents to let us know, if you 
need me to talk to your child, or if your child needs to talk 
to me, or if you need to talk to me.
    So I have found with the on post school, that I have 
thoroughly enjoyed the openness that they have for the 
children. I do not know if it is really so much sympathy that 
they have for the kids, but they have more understanding. They 
could be civilians themselves, but the children, they have a 
lot more attention, a lot more sympathy from the teachers as 
far as the moods that they might be in and the teachers 
understanding that.
    Ms. Edmondson. Senator, if I might step back just a second. 
I did just want to relay some information as far as 
communication goes. Our Seabee unit, I spoke to a young spouse, 
married 2 weeks before the Seabee unit deployed, I spoke with 
her this weekend, and she said that the care and the 
communication was incredible, that she was being called on a 
weekly basis to make sure things were taken care of.
    Also, I spoke with a young marine wife who I work with. She 
also said that the Marines were also very good about keeping in 
touch, making sure they had everything they needed. So I did 
want to add that. I am sorry to step back.
    But as far as the school goes, let me tell you about the 
schools. My children are 12 years old. I have twin girls, and 
they are now going into the sixth grade and they have been to 
approximately five schools. We moved, on average, every 2 
years. That means that we have seen a lot of different school 
systems, some good, some not so good. One thing that we would 
definitely like to see is a consistency in education throughout 
the United States.
    Just when you go up to Maine, and then you expect for the 
education to be a certain level, and then you are ahead of them 
or Tennessee, you just--we are moving throughout the country 
and making a transition is very difficult--it is difficult 
enough, but then when you find you are either behind or ahead 
of the school that you are with, it brings just an immense 
amount of challenges to our children. So I think if something 
can be done to somewhat regulate it.
    Also the standardized testing, I understand the need for 
it, but I have found that one thing is very consistent, is that 
now the teachers are teaching to pass the test; they are not 
teaching to teach. They are teaching to pass the test. I think 
that our children are developing holes in education, and I 
think consistency would be good there, and I think looking 
over--I know this is probably a little bit out of the area but, 
sir, consistency would be wonderful, and if we could possibly 
review the standardized testing. Yes, our children might know 
what is on that test, but do they know anything else? I think 
we need to look at that.
    Military children bring wonderful things to the schools 
that they enter. Life experiences. I know, I am personally from 
Kansas, and just the fact that my children have been on a 
nuclear-powered submarine, that would just wow me, or in a 
plane or in a tank, it is just incredible. Our children have 
been all over the world and can bring real insight. I have 
talked to my children's teacher and they see this and they 
appreciate that.
    The schools in our area are wonderful. They work with Fleet 
and Family, as well as the parents, as well as the base, to do 
whatever they can do to assist the children.
    When we were stationed in Norfolk, my husband was on a 
fast-attack submarine and was preparing to leave with a battle 
group for a 6-month deployment. I have never seen such 
outpouring of caring from a community. It was just incredible. 
The counselor had support sessions every week. The children 
would either write daddy or E-mail. Of course, that was not an 
option for our children at the time, but they would take 
pictures; they had pictures of the dads up on the door, they 
had a tracker with as much as they could track.
    I believe that the schools in the military areas are really 
adapting to help the children and they work with the parents to 
do so. Thank you.
    Senator Chambliss. Ms. Bush.
    Ms. Bush. Going back to my education background, when I was 
a teacher and I worked in the school that was on the base--this 
was 6 or 7 years ago--but I was given no training in counseling 
or dealing with the children that had parents that were 
separated from them.
    Being fairly new as a teacher and new to the military, it 
was kind of hard, but I guess with time what I realized what 
they needed the most was individual attention and just time to 
let them do what they needed to do to get through. I guess that 
would be what I would take to teachers and schools and 
districts now, that even if they get no training, understand 
that military children have individual needs and they go 
through different things that the other children do go through.
    I had a similar experience with my son. This was my 
husband's first deployment, but being my son is only 2 years 
old and when he went to his Mom's Morning Out program, about a 
month after my husband left, it started to kind of sink in with 
him, and he got real angry and was very belligerent, and when 
asked, ``Do you want to talk to Daddy on the phone today?'' He 
said ``No, no.'' He would take it out on other children, and 
that was his way of dealing with it, and I had to let the 
school know that no, his hitting and that sort of thing is not 
acceptable, but understand that this is why he is going through 
what he is going through.
    One thing that I would like to suggest and like to see more 
of made available to military parents is child care for while a 
parent is deployed. As I mentioned earlier, it is a very 
stressful time on parents and children, and we have a program 
at Moody called Give Parents a Break, and it is a program where 
once a month the child development center opens its doors to 
children under 5 years of age, and there is also a program for 
older children. It is a wonderful program. There is no cost 
involved with it, and the kids can go there for, I think it is 
4 to 6 hours on one Saturday a month, and it gives the parents 
and the children a break from each other. It is a wonderful 
program.
    I would like to see that maybe if funding could made 
available for more of that. It is great on Saturdays, but when 
you are a parent at home, you have meetings and doctors' 
appointments and things like that during the week that you 
cannot schedule on a Saturday, so programs where things are 
made available during the week to parents as well as children, 
and even older children, like I said, there is a program for 
older elementary and pre-teen children. We need a break from 
each other after 6 months and just to keep that funding 
available and increased if possible.
    Mrs. Matthews. Senator, I think that one of the people in a 
previous panel had mentioned how providing education about what 
is going on in the military family life is so important, not 
just to the military kids, but also to the other kids, as well. 
I thought that was such an excellent point to make.
    I guess it was in the last year, one of my oldest son's 
friends make a comment, ``See, that's why I hate the 
military.'' I thought, ``Oh, that's horrible.'' He is not a 
military family, but he associates military with war and death, 
and he had heard that we were going into Iraq, and to hear a 
seventh grade boy say, ``That's why I hate the military,'' and 
I said, ``Certainly you don't mean you hate the military. I 
mean, Mr. Larry is military,'' and I had to use that moment to 
explain to him. My point is that education is so important in 
the schools, not just to the military kids; it is not just 
important in the Family Support Center, but them getting out, 
and I know that our Family Support Center does do that.
    We have career day in Valdosta. I know the middle schools 
have that, and our military are a hit at career day. They bring 
the helicopters out and their classes are completely full all 
the time. We have a school board liaison that meets at Moody 
and they coordinate with the different schools, and they do an 
outstanding job at working and networking with all the schools 
in our area. We have many; we have the county schools of like 
12 or 13, and then we have the city schools, but they do a 
great job at talking about those needs and those troubles that 
come up.
    I just want to share one story that Sergeant Dorn shared 
with me that I thought was really incredible how they meet the 
needs, and he shared about how a troubled mother came in and 
said, ``I am having a terrible time with my son.'' He said, 
``Well, let us think about what we can do,'' because she did 
not want to put her son on the spot and, of course, she did not 
want to drag him into counseling or maybe she did. I am not 
sure if I got those facts right. But he went and arranged to 
have a speaker in that child's classroom, not pinpointing that 
child, but knowing that that child was in that classroom, 
worked out arrangements to have the military come in and say, 
``ask whatever questions you want,'' and that child asked most 
of the questions, and he did not realize that they were there 
for him.
    I thought that is one really creative way that we can meet 
the needs of those troubled kids that just do not want to ask 
the mom or cannot ask the dad and do not want to talk to a 
professional doctor. They are already feeling odd as it is, and 
I commend our people at family support for thinking of creative 
ways to meet those needs of those kids and at the same time 
they were in a class with that troubled child that probably was 
sharing with some of those other kids, or maybe he was the 
troublemaker in that class, who knows, but at least it was a 
really resourceful way of dealing with a problem. I think he 
said that she reported that he did well. So thank you for what 
you do.
    Senator Chambliss. Well, ladies, certainly each of you are 
married to true American heroes, but you and every other 
military spouse out there are a hero in the eyes of all 
Americans. We thank you for the sacrifices you make as well as 
for your service to our country in addition to the service that 
your spouses provide.
    I will tell you, Ms. Palomo, Dick tells me that we have had 
previous complaints about that mail service, and it is being 
looked into as we speak and we are going to make sure that gets 
speeded up.
    Ms. Palomo. Thank you.
    Senator Chambliss. One thing that I have not heard, which I 
am glad I have not heard it because when I was over at Hunter I 
heard it a good bit, and that was that your spouses were having 
a hard time getting to a telephone; they were having to stand 
in lines. Once they got to a telephone the service was not that 
great getting to you, and it maybe cut off in the middle of a 
conversation, which was only about a 3-minute conversation. I 
hope that is getting better. We made some changes and hopefully 
are making that a little bit better.
    I thank each of you for your willingness to come over today 
and to spend some time with us to help shed some light on a 
very critical issue. I assure you, just like the surveys, we 
are going to take this information back and we are going to 
utilize exactly what you all have told us and compile our 
information and continue to make positive changes to make life 
a little better for you and your families, so we thank you very 
much.
    Ms. Edmondson. Senator, may I add something really short 
here?
    Senator Chambliss. Sure.
    Ms. Edmondson. Just that these organizations have great 
programs. One of the things that we come across a lot at our 
base is our sailors are deployed and the spouses have the 
children, so they cannot come to our wonderful programs because 
of lack of child care. I do not know if any. I know Fleet and 
Family Support Center cannot pay for child care, and often MWR 
might be overwhelmed with the children that they have, so I do 
not know if there can be some extra funding to assist with that 
so that our spouses and our sailors can make use of the 
programs available to them. Just a side note there that I know 
that has come up. So if some kind of funding--and I do not know 
the way all that works, but I know that is a brick wall we hit 
when it comes time to going to classes.
    Thank you, sir. I am sorry.
    Senator Chambliss. No, that is quite all right. I 
appreciate that additional comment. This has been a rather 
lengthy hearing, but I do not know of any more important 
subject that we could deal with from a legislative perspective 
than to make sure that our families are getting the care and 
the attention that they need. I want to thank all of our 
witnesses for being here today and providing great insight and 
great information to this very critical aspect of our military.
    So, I thank you for being here, and know that your words 
have been heard and we will incorporate it into our thought 
process as we move through this authorization act over the next 
2 or 3 weeks. Thank you very much, and this hearing is now 
adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee adjourned.]


  ISSUES AFFECTING FAMILIES OF SOLDIERS, SAILORS, AIRMEN, AND MARINES

                              ----------                              


                         TUESDAY, JUNE 24, 2003

          U.S. Senate, Joint Hearing of the
                       Committee on Armed Services,
                                 Subcommittee on Personnel,
                                    and    
            Committee on Health, Education,
                               Labor, and Pensions,
                     Subcommittee on Children and Families,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 3:30 p.m., in 
room SD-106, Dirksen Senate Office Building, Senator Saxby 
Chambliss (chairman of the Subcommittee on Personnel, Committee 
on Armed Services) and Senator Lamar Alexander (chairman of the 
Subcommittee on Children and Families, Committee on Health, 
Education, Labor, and Pensions) presiding.
    Armed Services Committee members present: Senators 
Chambliss, Dole, Kennedy, Ben Nelson, Clinton, and Pryor.
    Health, Education, Labor, and Pensions Committee members 
present: Senators Alexander and Dodd.
    Armed Services Committee majority staff members present: 
Patricia L. Lewis, professional staff member; and Richard F. 
Walsh, counsel.
    Armed Services Committee minority staff member present: 
Gerald J. Leeling, minority counsel.
    Armed Services Committee staff assistants present: Michael 
N. Berger, Andrew W. Florell, Andrew Kent, and Sara R. Mareno.
    Armed Services Committee members' assistants present: James 
W. Irwin and Clyde A. Taylor IV, assistants to Senator 
Chambliss; Christine O. Hill, assistant to Senator Dole; Mieke 
Y. Eoyang, assistant to Senator Kennedy; Eric Pierce, assistant 
to Senator Ben Nelson; Andrew Shapiro, assistant to Senator 
Clinton; and Terri Glaze, assistant to Senator Pryor.

     OPENING STATEMENT OF SENATOR SAXBY CHAMBLISS, CHAIRMAN

    Senator Chambliss. The hearing will come to order. First of 
all, let me apologize to our witnesses and to all other 
interested parties. Unfortunately, we had to do what you 
taxpayers pay us to do, and that is go over and do the people's 
business on the floor of the Senate, and it took a little bit 
longer than what we expected. I really appreciate your 
patience, I appreciate your being here.
    This joint hearing of the Subcommittee on Personnel of the 
Committee on Armed Services and the Subcommittee on Children 
and Families of the Committee on Health, Education, Labor, and 
Pensions, will come to order. The two subcommittees meet today 
to receive testimony on issues affecting families of soldiers, 
sailors, airmen, and marines.
    The issues we address today are of great importance to 
military personnel. While striving every day to be superb 
soldiers, sailors, airmen, and marines, the men and women of 
the armed services strive with equal commitment and dedication 
to be superb spouses, fathers, and mothers, and the programs 
and problems that we consider today directly impact the ability 
of our military personnel to successfully fulfill these all-
important roles. The manner in which the Department of Defense 
and the Services address family issues may be instructive in 
assisting us as legislators in finding ways to help all 
American families, so I am delighted that Senator Alexander, 
who is chairman of the Subcommittee on Children and Families, 
joins me today as co-chairman of this hearing.
    I will make a few more comments in a minute. If Senators 
Dodd and Nelson come in, we will interrupt our proceedings at 
whatever point they may be. We want to go ahead and get 
started. I will recognize my long-time good friend and the 
chairman of the Subcommittee on Children and Families, Senator 
Lamar Alexander.

 STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thank you, Senator Chambliss, and let me 
also thank the witnesses for waiting while we voted. We're 
looking forward to this hearing, and I know Senator Dodd, 
Senator Ben Nelson, and others are as well.
    Half the men and women in today's military are parents 
raising children, and they volunteer for service, they 
volunteer for the marriage, we know that, but with such a large 
percentage of the Armed Forces' reduced force structure already 
deployed in 120 countries, and talk in the newspapers of 
staying in Iraq for 5 years, there are even more stresses on 
those marriages and on those children.
    We know that family readiness affects military readiness. 
That's why our subcommittees, as Senator Chambliss said, have 
held hearings at Fort Campbell and at Warner Robins and at 
Groton. We have basically combined forces between our two 
subcommittees, and today we want to look at what we found in 
those three field hearings, and talk with you about solutions.
    Now, here is the picture that we've found: fewer warriors, 
more missions, longer deployments, frequent moves, more 
marriages, more spouses working away from home, and more 
children, and we're also finding that while our military is 
ahead of many segments of society in making it easier for 
parents raising children, there's also some work in this area 
that needs to be done.
    In order to retain and attract a talented volunteer force, 
we need to make sure that families' needs are addressed in the 
following areas: a reasonable standard of living, a nurturing 
environment for children, more opportunities in the supporting 
community for the larger number of working spouses, as well as 
fostering a sense of security for families during a time of 
deployment.
    Today, I hope we'll have a chance to discuss some specific 
solutions and to get your advice on those. We've read your 
testimony, and I look forward to exploring that testimony. For 
example, on the standard of living point I just made, on the 
bases and posts we visited, housing was being improved, and 
where it is that greatly affects morale, but it was disturbing 
to see where it was not being improved, and it was especially 
disturbing to find that in some cases, housing allowances are 
being counted as part of a military family's income, making the 
family ineligible for other Federal benefits, and some of you 
point to that in your testimony. We'd like to talk about that 
more.
    On the point of a nurturing environment for schools, about 
20 percent of the military families have a child in a post 
school, and there's a study going on about whether we ought to 
just have all military children in public schools. There is a 
recent Vanderbilt University study that shows that while they 
cost more, children are learning more in the military schools, 
and that the highest scores for reading among African-American 
eighth graders in America in schools is in the military 
schools, so perhaps we should be learning something from these 
schools. We found widespread support for expanding the practice 
that's been tried in some Services of giving 11th or 12th grade 
students, families with 11th or 12th grade students, the option 
of staying where they are assigned so the child can graduate in 
that place.
    A couple of other areas I'd just mention now, and then I'll 
hold my comments until we have a chance to hear more of yours. 
In terms of spouses, in your testimony you point out that more 
than half, and in terms of the junior enlisted families, more 
than 80 percent, of the spouses are working away from or 
outside the home. Child care is an area in which the Services 
excel, with nationally accredited centers, beautiful centers 
which we had a chance to visit, but many families need respite 
care, the break a busy parent needs, and many families would 
like to expand the family day home network for child care 
services. If the Commander in Groton had more flexibility, he 
could spend some of the money for preschool care, where there 
are vacancies, for infant care, where there's a waiting list.
    Finally, the Services are taking a number of steps to 
support family readiness with family readiness centers, but 
those readiness centers could use a paid director to organize 
the volunteers, and the public schools which deal with families 
which may have a child move 10 or 11 times during a K through 
12 experience need more specialists who can help deal with 
that.
    Throughout our hearings, and especially when Senator Dodd 
and I went to Groton the other day, we talked a lot about 
reciprocity, how if you've taken some steps with this with 
model programs, but if we could encourage States to recognize 
professional licenses as spouses move from one base to another, 
that would help. If we could encourage States to recognize that 
if you learn Georgia history at Fort Stewart you might not have 
to learn Tennessee history at Fort Campbell in order to 
graduate on time, or Georgia has a good example of, if 
someone's transferred, the student can continue to receive 
tuition there at the Georgia universities.
    So these are all very important. I was very impressed by 
the testimony we heard. There was no complaining. Every spouse 
we heard from was very proud of their husband or their wife who 
might be serving, but to use one example, today, Major Lee 
Medley commands a Chinook helicopter unit. He and his wife, 
Gricell, have a 17-month-old daughter. During those 17 months, 
he's been in Afghanistan or Iraq for 15 of the months, and when 
he was home for 21 days, he was spending most of his time 
training.
    His wife put it this way, we want to allow our soldiers to 
be good soldiers, but they also want the opportunity to be good 
husbands and fathers. Our purpose today is to encourage 
military readiness, save taxpayers' money, and help children by 
making it easier for military parents raising children.
    Senator Chambliss. Thank you, Senator Alexander, and the 
ranking member on the Subcommittee on Children and Families is 
Senator Chris Dodd, who has been a very strong advocate for 
just that, children and families. Chris, we appreciate your 
hard work, particularly on your hearing at Groton, and any 
comments you would like to make, we look forward to them.

     STATEMENT OF HON. CHRISTOPHER DODD, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Dodd. Thank you very much, Mr. Chairman. Let me 
commend both you and Senator Alexander for your leadership in 
conducting these hearings. I think it was a wonderful idea to 
bring these two subcommittees together and to work on these 
common issues.
    Obviously, we don't need to preach to our audience. Most in 
our audience do understand that the condition of a person in 
the military's family life just has an immediate and profound 
impact on their ability to do their job, their military 
mission, and if that family life, for whatever reason, is 
fragile or in trouble, then the ability of that military 
personnel to do their job is also going to be in trouble. 
That's as axiomatic as anything I know.
    Senator Alexander and I visited the submarine base in New 
London, which I've had the wonderful privilege of representing 
now for almost 30 years. It was in my old congressional 
district for 6 years. I'm now in my fourth term in the Senate, 
so we've gone through a lot of work over the years at the sub 
base. I'm deeply proud of the facility, installation, and 
deeply proud of the people who have served there.
    Senator Alexander already knew this, but I think it was 
helpful getting up there and having a chance to see and talk to 
these people. Even during the most calm, peaceful periods, 
those who serve in our submarine services, it's a unique and 
difficult service, an all-male service in submarines, gone for 
3 to 6 months at a clip, usually a secret mission, which means 
that communication with the family is very limited. When you're 
away that length of time, and even when you're on shore, the 
hours can run 12 hours a day. There isn't a notion when you 
come off the submarine and on shore that you're on a vacation, 
quite the contrary. So the pressure on families is just 
tremendous there, as it is for, of course, any serviceman and 
woman who serve, who have families to take care of. It really 
is a critical issue if you're going to attract people in the 
military, and then critically if you're going to retain them.
    A person who goes home at night and faces a family 
situation that is not harmonious is not likely to make that 
decision to re-up. As much as they may want to, if the family 
is unhappy with the conditions, and particularly today, when 
there are recruiters outside those gates that will offer them 
three and four and five and six times their salaries, benefits, 
you're home in the afternoon, we'll help you buy a house, we'll 
do a lot of things for you, it's awfully tempting when things 
on the home front aren't as strong as they could be. So these 
are critically important issues.
    For those who want to see our military be as strong as 
possible and be as ready as possible, be concentrating and 
focused on the mission in front of them, this is about as 
essential an issue as you can have in terms of achieving those 
goals. I think having the hearings we've had at our various 
installations have made that point over and over to us, and 
some wonderful ideas, by the way, on how we can possibly 
strengthen these conditions.
    I was particularly interested in the housing issue. We've 
been told by the Defense Department there are some 134,000 
housing units that are inadequate. That we ought to be able to 
deal with. I can't understand, in this day and age, why we 
can't provide the best housing conditions. We may not pay a lot 
of money, but that place that you put your family in, 
particularly if they're there without you for extended periods 
of time, ought to be some of the best housing we can provide 
anywhere in this country, and that ought to be a mission for us 
to try and achieve that if we can.
    I'm so impressed with what the military has done on child 
care. I've been raving about it for years. I just wish I could 
get the country to adopt the child care standards the military 
have. They've really been the model, in my view, and that 
wasn't always the case, by the way.
    The military did its own assessment of child care, 
concluded it was doing a dreadful job on child care, and under 
its own initiative completely changed it. As a result, today 
it's the best child care offered anywhere, not just in this 
country, in the world, and there are some specific issues that 
Senator Alexander and I ran into in terms of infant care and 
toddler care that I'd like to raise at the appropriate time, 
Mr. Chairman, in terms of expectations on how we deal with some 
of these questions. But again, particularly when we have 
working families, second incomes, husband and wife in many 
cases today in uniform, child care becomes an essential 
ingredient for those families to have safe, quality child care, 
and the military is doing a great job on that front.
    Senator Alexander has already mentioned a couple of other 
ideas we received, and I want to endorse those, Mr. Chairman, 
as ones we might think about. A lot of it may be done just 
through encouraging. We're not even suggesting, I don't think, 
legislation is necessarily. Some of this might be done by just 
encouraging the States to adopt some uniform standards, on 
uniformity, so that you don't have duplication of efforts, 
particularly in those 10th and 11th grade high school students. 
I think this is a major issue, if we could say to these 
families, your child reaches that 10th or 11th grade, we're 
going to leave you put until they finish that high school.
    When you meet families that have moved 17 times in 21 
years, 11 times in 12 years, and particularly with children in 
the high school years, you could really again force a family 
that we'd like to keep in uniform to make a decision to put 
their family first and leave an occupation they love, they 
truly love.
    No one's doing this for the money in the military. If 
you're doing it for the money, there's something fundamentally 
wrong with you, because that's not the motivation here. It's 
service of country, a great job, a wonderful way to make a 
commitment and fulfill a duty to one's country, and we ought to 
be doing everything we can to eliminate barriers to sticking 
with that career choice.
    So this hearing is very important, and I'm grateful to you, 
Mr. Chairman and Senator Alexander, for bringing us all 
together to talk about what we might do as a Senate to be 
helpful in this regard.
    Senator Chambliss. Thank you, Senator Dodd, and you raised 
a good point in that we're not going to necessarily recommend 
legislation, but we may have some practical ideas of how to 
solve some of these problems, and make suggestions to the 
Department of Defense.
    Now I'd like to call on my ranking member on the Personnel 
Subcommittee, a man with whom I have worked very closely in a 
very bipartisan way over the last 6 months, my good friend, 
Senator Ben Nelson.

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you, Mr. Chairman and Senator 
Alexander. I'm sorry to be late. I'm trying to learn how to 
dance at two weddings at the same time, not very successfully, 
but I appreciate the opportunity to be here. I want to thank 
both of you for holding this series of hearings focusing on 
issues that affect the families of our soldiers, sailors, 
airmen, and marines. I plan to conduct a similar hearing in 
Nebraska in September focusing on the education of children of 
our military personnel, an important part of the quality-of-
life issues that we're all interested in improving.
    I commend you for holding this joint hearing because I 
think it will help address the issues of concern to both 
subcommittees. I believe that by working together, these two 
subcommittees can gain a far more complete picture of the 
challenges that face our military families, and this is 
particularly important today because of the extensive 
commitments that our military forces are pushing our military 
families. They're pushing military families to the limit, 
because of the long deployments, because of multiple 
deployments, and because of the importance of securing the 
peace across the world.
    Our military makeup has undergone a significant demographic 
change since we ended the draft in 1973 and changed to an all-
volunteer force. Before that change, our military was mainly a 
conscripted force, which was primarily male, unmarried, and 
without children. The composition of the military today, 
though, is far more complex. Today, more military members have 
family obligations. This has a profound impact on the variety 
and the kinds of programs needed to support our military 
personnel and their families.
    To demonstrate the complexity of the family makeup of our 
Armed Forces, let me list some of the different combinations 
that we encounter. More than half of the force is married, many 
with children. We have dual military couples. In some cases 
both husband and wife are in the same Service, and others are 
in different Services, but both serving.
    In most families only one spouse is in the military. 
Normally the husband is the service member, but we also have a 
number of families where the wife is the service member and the 
husband is the family member.
    We also have a number of single parent families, some where 
the mother is the single parent service member, and others 
where the father is the single parent service member.
    Now, the reason I listed all of these different family 
configurations is to demonstrate the wide variety of programs 
that we need in order to meet the needs that these families 
have. Each family makeup has unique needs. We need child care 
programs that address the needs of single military parents as 
they work unpredictable shifts or are subject to short-term 
military exercises or longer-term, short-notice deployments.
    We need programs for children when one parent is in the 
Service and the other is a civilian working at what we would 
refer to very often as a normal job, and we need education 
programs that meet the needs of children who relocate every few 
years, as my colleague, Senator Dodd, has suggested.
    We need after-school programs and summer youth programs for 
every age group to provide a healthy environment for military 
children, and in addition to programs specifically for 
children, the Services provide many other support programs for 
families and spouses, and these include deployment and 
mobilization support programs, family advocacy programs, 
parenting programs, financial management programs, relocation 
assistance programs, spouse employment assistance programs, 
comprehensive health programs, and probably a whole lot of 
other programs I haven't mentioned.
    On the Armed Services Committee, the chairman and I have 
worked together to improve the benefits for service members and 
families to make their lives even better. This year, our 
subcommittee mark, which was adopted by the committee and 
passed by the Senate, authorized an average pay increase of 
4.15 percent, almost a full percentage above the increase in 
the employment cost index.
    For families of troops fighting our wars overseas, we 
increased the family separation allowance from $100 a month to 
$250 a month, and we increased combat pay from $150 a month to 
$225 a month. We also authorized a high-deployment allowance of 
up to $1,000 a month for service members who are repeatedly 
deployed, or are deployed for extensive periods of time.
    We know that this is not enough, but it's a step, clearly, 
in the right direction, so I say thank you, Senator Chambliss, 
for allowing me to work so closely with you to improve the 
quality of life and service of the service members and their 
families. This hearing will give us an opportunity to know more 
and to learn the answers to the questions of what more do we 
need to do, and what else can we do that would be helpful.
    Again, thank you and Senator Alexander for holding this 
joint hearing.
    Senator Chambliss. Thank you, Senator Nelson. Senator Dole, 
thank you for giving deference to Senator Kennedy, who has 
another appointment.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, and I'm particularly 
appreciative of your having this joint hearing. Senator Dodd 
has been the chairman of our Children's Caucus for so many 
years, and I think that this joint hearing could be enormously 
important.
    I just want to bring to the attention of our members here, 
in preparation for this hearing, and to our panel, the 
excellent program that I've been briefed on called One Source, 
which is the Marine Corps program, which has really an 
incredible acceptability within both the Marine Corps and 
individual marines.
    First of all, it went from usage of 1.6 percent December 
2002 to 29 percent. It's 7 days a week, 24 hours a day, 365 
days of the year, and the ratings of this program by the 
marines and their families are right up through the roof in 
terms of, the overall quality is 98 percent, would use it again 
99 percent, would recommend it, 98 percent, $1.3 million annual 
appropriations, going up to $1.6 million, that's about $5 per 
marine, and the range of different issues that the marines were 
inquiring about would be. You might well imagine, they were 
about parenting issues, about child care, about education, and 
about finances generally. That's just some legal issues.
    The service, the availability for this was basically across 
the range in terms of the marines. It's active duty and family 
members; it's the reservists and family members; it has 
confidentiality provisions in here, and as I said, it makes as 
a goal, a response within 7 days unless otherwise agreed to.
    It just seemed to me, in terms of the range, we have the 
needs our colleagues have talked about, and we've been involved 
in working with others in terms of particularly the Reserve and 
the Guard in terms of health insurance, how they have to leave 
coverage, and whether we shouldn't help provide the 
continuation, and the impact aid, which I know Senator Dole and 
I have been particularly interested in, and other issues.
    Which I think is justified, if you look through in terms of 
these reports, that there's increasing problems with children 
whose parents are overseas in terms of discipline in the 
schools. In terms of some depression of the children and their 
academic achievement in terms of the greater kinds of needs, 
what you might expect, so there are recommendations of 
additional kinds of support, which I think we ought to try and 
be able to find out through all of you what those particular 
needs would be within the Services, and to the extent that 
there are additional resources, help and assistance, I'd hope 
that we could find that out from you. I'll submit some 
questions along those lines. Perhaps you might be able to give 
some response.
    Secretary Molino, I draw this to your attention and the 
others as well, and to the committee's attention. I'll file my 
comments just with my statement, but it just seemed to me that 
it's a contract with a company, Ceridian, but it seemed to me 
to just have a high degree of a kind of acceptability and 
support by the marines, and is something that I thought was 
extremely useful. I'm impressed by whoever got the program 
going, and started, and, hopefully, if it's as successful, 
there might be parts of it that are as applicable to the other 
Services.
    I thank the chair.
    Senator Chambliss. Thank you.
    Senator Pryor, we're glad to have you with us, and welcome 
any comments you might have.
    Senator Pryor. Thank you, I don't, but I sure do appreciate 
your holding this hearing. It's very important. Thank you.
    Senator Chambliss. Yes, sir.
    Military families have been placed under tremendous stress 
in recent years even before September 11, 2001, and the global 
war on terrorism, the high tempo of operations affecting 
military personnel was a source of great concern. Since 
September 11, our active duty, Reserve, and Guard personnel 
have performed magnificently in every mission they have been 
assigned.
    However, the sacrifices made by the military personnel and 
their families, the long and continuing separations they have 
endured, and the problems in their personal lives resulting 
from these realities of military duty must be understood and 
carefully evaluated. We must make every effort, working closely 
with the Department of Defense and Department of Education, 
advocates for families, and the private sector and others to 
respond in helpful ways.
    As my colleagues know, our two subcommittees have taken 
testimony earlier this month in field hearings conducted in 
Warner Robins, Georgia; Fort Campbell, Kentucky; and Groton, 
Connecticut. My expectation today is that we will continue to 
gain insight into programs and initiatives of the Services and 
of the formulation of the policies at headquarters level, and 
also into work that remains to be done on behalf of individual 
members and their families.
    We have two panels of witnesses today that will testify. 
First, we will hear from John Molino, Deputy Under Secretary of 
Defense for Military Community and Family Policy; Dr. Joseph 
Tafoya, Director of the Department of Defense Education 
Activity; Colonel James Scott, U.S. Army National Guard, 
Director of Individual and Family Policy of the Office of 
Secretary of Defense for Reserve Affairs; and Michael Petrilli, 
Deputy Assistant Secretary for Innovation and Improvement in 
the Department of Education.
    We'll introduce our second panel at the time they testify. 
I welcome members of our first panel. We have your written 
testimony, but we will start with you, Secretary Molino, for 
any comments you want to make in summary of your written 
testimony.

  STATEMENT OF HON. JOHN M. MOLINO, DEPUTY UNDER SECRETARY OF 
        DEFENSE FOR MILITARY COMMUNITY AND FAMILY POLICY

    Secretary Molino. Thank you, Chairman Chambliss, Chairman 
Alexander, members of the subcommittees. Thank you for the 
opportunity to discuss with you matters of vital and mutual 
interest, the welfare of our brave men and women in uniform and 
their families. Since I am not sure how long Senator Kennedy 
will be able to stay here, let me depart briefly from my 
prepared text and thank you, sir, for the endorsement of the 
Marine Corps OneSource program.
    Just by way of background, when we decided to test that 
program we asked the Marine Corps to do it because, of all the 
Services, they were less than enthusiastic about testing it, 
and we knew, based on their size, that they were the ideal 
force that we should test it on. They not only have tested it, 
they have literally fallen in love with that program.
    The Army has learned from their feedback and has gotten on 
board, and is now contracting with that organization. They've 
even added an additional service from another organization that 
will help out and complement. The other two Services, the Air 
Force and the Navy, are considering, based on the feedback that 
we're getting from the Marines, the feasibility of moving 
forward, but Senator, you're exactly right, we're very enthused 
with the potential of this program.
    Senator Kennedy. 140 languages, I saw.
    Secretary Molino. Yes, sir.
    Senator Kennedy. Or at least that's in the print. I'm not 
sure, but it's incredible.
    Secretary Molino. With only a slight delay they can link 
you with someone who speaks one of those 140 languages.
    Senator Kennedy. Thank you very much.
    Secretary Molino. Yes, sir.
    Senator Kennedy. Thank you.
    Secretary Molino. Mr. Chairman, I welcome the chance to 
share good news with you, news about taking care of people. I 
welcome the direct involvement of both subcommittees and, on 
behalf of the Department, I am open to your ideas and your 
suggestions. We can learn from your observations, from the 
hearings in Georgia, at Fort Campbell, at Groton, and the 
future hearings in Nebraska and perhaps elsewhere.
    In the interest of time I'll be brief and, with your 
permission, refer to my written remarks for greater detail.
    Those who volunteer to serve our country in uniform expect 
to make sacrifices. However, since 60 percent of military 
members now have family responsibilities, they must, as we 
would expect, give due consideration to the well-being of their 
spouses and their children. If we are to keep dedicated men and 
women whom we have trained so well, we must ensure that they 
and their families are provided with pay, health, education, 
and other benefits that provide them with a quality of life 
that is, at the very least, competitive with the society they 
have sworn to defend.
    In the first month of his tenure in office, President Bush 
formally directed the Secretary of Defense to study military 
quality of life, and expressed clearly his commitment to this 
genuine readiness issue. To that end, the Department, in its 
new social compact, has entered into a written commitment to 
improve life in the military, to underwrite family support 
programs, and to work in partnership with families to 
accomplish the military mission.
    In the decade since Operation Desert Storm, the Department 
has worked diligently to ensure that service members and their 
families are provided with the best support possible, 
especially during periods of mobilization and deployment. We 
have sought and employed the best knowledge and tools available 
to help military families cope with the demands of frequent 
separations and the realities of a vocation in which one or 
both parents may be placed in harm's way, in some cases on very 
short notice.
    In several instances, we have leveraged the power of 
public-private partnerships and technology to deliver these 
services. The Department has come to rely heavily on its 
professional Reserve components. After National Guardsmen and 
reservists complete their tours of active duty, it is our 
responsibility to ensure that they receive the information, 
counseling, and other support they may need for successful 
reintegration with their families and transition back into 
their civilian jobs.
    We are meeting that responsibility. Each of the four 
Services has made great strides in preparing service members 
and their families for dealing with deployments and 
facilitating ongoing contact between deployed members and their 
families.
    All parents are challenged by the need to satisfy the 
competing demands of work and family. That is doubly true for 
parents whose work is ensuring that military missions are 
successful. The Department is committed to maintaining a high 
standard for its child and youth programs, and offering a full 
spectrum of services. During periods of deployment, youth 
programs take on added significance, especially when parents 
are deployed to areas where open hostility may be encountered.
    Children are not only stressed by the fear of physical harm 
to their parents, but they also lose the benefit of the 
guidance, support, and nurturing that parents would provide. 
Our 474 youth centers provide safe and secure environments 
where military youth can connect with their peers and 
participate in recreation and sports programs. I have asked the 
Army's Program Manager for Children and Youth, Ms. M.A. Lucas, 
to give you more details about these programs. She will testify 
as part of the second panel, and will share some good news 
about the initiatives regarding services both on and off 
installations and in remote areas.
    Let me now speak to the issue of schooling for children of 
military personnel. After health and safety, perhaps no concern 
related to their children's development is as great as parents' 
desire that their children attend good schools. The Department 
operates an excellent K-12 school system for 106,000 military 
dependent students at 224 schools overseas and in 7 States in 
the continental United States.
    Dr. Joseph Tafoya, director of that school system, is with 
us today to provide you with details about the DOD schools and 
the children who attend them. However, 1.5 million school-age 
children of active duty, Reserve, or National Guard families 
attend schools not within the Department of Defense system.
    About 600,000 of these children come from active duty 
families. It is not unheard of for these students to attend six 
different schools before high school graduation. Some have 
reported attending as many as 10 or 11. As they move from 
school to school, students and their families encounter 
difficulties with course transfers, exit exams, athletic 
eligibility, and unique graduation requirements.
    Recently, we have addressed issues related to the stress 
experienced by military dependent children because their 
parents are deployed to areas where danger is very real. We are 
addressing these issues, working closely with school 
superintendents, principals, and educators to increase 
awareness and raise sensitivities.
    Just as life at our installations changes when troops are 
deployed, local communities are also affected significantly 
when large numbers are withdrawn from the community. Around the 
country, citizens have been generous with their time and their 
skills to be good neighbors to military family members left 
behind. We are grateful that during deployments over the past 2 
years, local business and community service organizations have 
felt very connected to military families and have sought ways 
to help. Through cooperative efforts with the USA Freedom 
Corps, we have been able to channel the volunteerism of many 
local businesses and individuals to the families of deployed 
personnel who most need assistance.
    The Department has resolved to recognize communities that 
are particularly friendly to military members and their 
families. We are developing a quality-of-life quotient that 
will enable us to identify communities of excellence. This 
initiative will also enable civilian communities to target 
efforts to make their communities excellent places to live, 
work, and raise a family.
    We are committed to meeting the quality-of-life needs of 
our service members and their families. To maintain a modern 
military force in a honed state of readiness requires high 
morale that is bred of satisfaction with working and living 
conditions. We are confident that if we treat our people well, 
they will stay with us.
    When they retire or otherwise leave active duty, they will 
depart with a positive memory of the military lifestyle and be 
our best advocates for service by future generations. With 
that, the Department will receive an excellent return on its 
training investment and ensure that tomorrow's military will be 
strong and capable.
    Thank you again for the opportunity to testify before you 
today. I very much appreciate your continued interest in and 
support of quality-of-life programs and initiatives that 
enhance readiness and benefit military members and their 
families.
    [The prepared statement of Secretary Molino follows:]

               Prepared Statement by Hon. John M. Molino

    Chairman Chambliss, Chairman Alexander, and members of the 
subcommittees, thank you for the opportunity to discuss with you 
matters of vital and mutual interest: the welfare of our brave men and 
women in uniform and their families. I welcome this chance to share 
good news with you; news about taking care of people.
    Those who volunteer to serve our country in uniform expect to make 
sacrifices. However, since 60 percent of military members now have 
families, they must, as we would expect, give due consideration to the 
well-being of their spouses and children. If we are to keep dedicated 
men and women whom we have trained so well, we must ensure that they 
and their families are provided with pay, health, education, and other 
benefits that provide them with a quality of life that is, at the very 
least, competitive with what they would experience outside the 
military.
    To that end, the Department, in its new Social Compact, has entered 
into a written commitment to improve life in the military, underwrite 
family support programs, and work in partnership with families to 
accomplish the military mission. Several new initiatives have 
germinated in the nourishing environment created by the recognition 
that the military's most valuable asset is its people.
    Many of these new initiatives have leveraged the power of public-
private partnerships and technology to deliver services. One that I am 
most excited about is an information service available to members and 
their families 24 hours a day, 7 days a week, every day of the year.
    Earlier this year, we entered into a contractual partnership to 
pilot a program providing information and referral services to marines 
and their families. From anywhere in the world, an active duty or 
Reserve Marine or family member using toll-free telephone, email or 
Internet can communicate with a professional counselor regarding myriad 
topics, including parenting and child care; educational services; elder 
care; relocation; health and wellness; and financial and legal 
information. Communication is confidential and services provided 
include a comprehensive array of pre-paid educational materials, such 
as books, CDs, and videos. Simultaneous translation in 140 languages is 
available, as is assistive technology for low-vision users. Early 
reports about this program are very positive and we expect eventually 
to make these services available to all military families.
    In the decade since Operation Desert Storm, the Department has 
worked diligently to ensure that service members and their families are 
provided with the best support possible, especially during periods of 
mobilization and deployment. We have sought and employed the best 
knowledge and tools at our disposal to provide education, training, 
outreach, and personal support to help military families cope with the 
demands of frequent separations and the realities of a vocation in 
which one or both parents may be placed in harm's way; in some cases, 
on short notice.
    Last October, we issued guidance to the Services outlining the full 
array of services and issues to be addressed in deployment support. The 
guidance covered responsibilities not only for the period of 
deployment, but also for the phases before and after deployment. The 
guidance addressed such issues as total force accessibility to 
Services, outreach to parents, use of technology, support for high-risk 
families, strengthening volunteer unit-based support activities, and 
providing comprehensive return and reunion programs.
    We established a Joint Services Contingency Planning Group to 
assess requirements and resources needed to support the total force 
during deployment. The effort was highly successful: establishing a 
forum for sharing ideas, eliminating redundancy, and identifying gaps 
in programs and services. Partnerships were formed with non-profit 
organizations to identify and implement strategies to ensure that 
resources and services are made available to those service members and 
families that most need them.
    Through an important partnership with the Department of Veterans 
Affairs, we are working collaboratively with their Readjustment 
Counseling Service Centers to provide support for our returning 
National Guardsmen and reservists. These ``Vet Centers'' offer broad 
readjustment counseling services to our military veterans and their 
families. The centers are community-based and located in all 50 States 
and the territories. They have a strong track record in providing 
valued employment assistance and advice about educational 
opportunities, as well as individual and group counseling.
    The Department relies heavily on its professional Reserve 
components. After National Guardsmen and reservists complete their 
tours of active duty, it is our responsibility to ensure that they 
receive the information, counseling and other support they may need for 
successful reintegration with their families and transition back into 
their civilian jobs. Personnel who work at Vet Centers know how to do 
that well. Our job is to ensure that our de-mobilizing members are 
aware of and linked to this important resource that the Department of 
Veterans Affairs offers to our veterans.
    I am happy to report that all four Services have made great strides 
in preparing members and their families for dealing with deployments; 
facilitating ongoing contact between deployed members and their 
families; working with all components to integrate and augment support 
programs; using technology to provide accurate and timely information; 
assuring the viability of Family Care Plans; and developing web-based 
resources. Working with commercial airlines, we have even secured 
discounted fare options for military members who, on short notice, 
needed to transport their children to primary caregivers.
    All parents are challenged by the need to satisfy the competing 
demands of work and family. That is doubly true for parents whose 
``work'' is ensuring that military missions are successful. The 
Department is committed to maintaining a high standard for its child 
and youth programs and offering the full spectrum of services, 
including daycare through family childcare, accredited child 
development programs, and school-age care programs. As of December 
2002, the military services were providing 176,000 childcare spaces, 
using a combination of delivery approaches to maximize availability 
within existing resources. We are working to add more spaces each year.
    To ensure the continuity of services in unforeseen circumstances, 
the military services are expected to have contingency plans in place 
so that they can adjust programs and services to meet family needs as 
quickly as possible. Additionally, the Services, using emergency 
supplemental funds, have begun offering several new or expanded 
services, including care for mildly ill children, increased respite 
care at rates below normal hourly fees, and care during weekends, 
evenings and extended hours.
    During periods of deployment, youth programs take on added 
significance, especially when parents are deployed to areas in which 
armed conflict or open hostility may be encountered. Children are not 
only stressed by the fear of physical harm to their parents, they also 
lose the benefit of the guidance, support, and nurturing that parents 
would be providing to their maturing offspring. Our 474 youth centers 
provide safe and secure environments where military youth can connect 
with their peers and participate in recreation and sports programs. We 
have been able to expand our programs considerably through partnerships 
with Boys and Girls Clubs of America, 4-H Clubs and other national 
organizations. For example, Boys and Girls Clubs of America has, over 
the past year, generously provided over $5.8 million in program grants, 
gifts, scholarships and marketing initiatives.
    Let me now speak to the issue of schooling for children of military 
personnel. After health and safety, perhaps no concern related to their 
children's development is as great as a parent's desire that their 
children attend good schools and receive a high quality education that 
will open the doors to collegiate studies and success in chosen 
professions, or satisfaction in the world of work.
    The Department operates an excellent K-12 school system for 106,000 
military dependent students at 224 schools overseas and in 7 States in 
the Continental United States.
    However, 1.5 million school-aged children of active duty, Reserve 
or National Guard families attend schools not affiliated with the 
Department of Defense. About 600,000 of these children come from active 
duty families and attend public schools. It is not uncommon for these 
students to attend 6 different schools before high school graduation; 
some have reported attending 10 or 11. As they move from school to 
school, students and their families encounter difficulties with credit 
transfers, exit exams, athletic eligibility, and unique graduation 
requirements such as formal study of state history.
    We are addressing these issues and others related to frequent 
relocations through identification and information sharing on a website 
(www.militarystudent.org) that will be operational later this summer. 
Also, through meetings with school leaders, parents, students and 
military commanders, we have found some ``best practices'' to be shared 
with other schools and communities. Last year, we published a booklet 
titled ``Promising Practices'' and have sent copies to school districts 
that enroll our students. The demand for additional copies has exceeded 
our supply. We plan now to include the booklet on our website so the 
good information it contains will be available universally.
    Further, we are working with the Military Family Research Institute 
of Purdue University to study the impact that frequent moves or 
deployments of one or both parents have on the social, emotional and 
educational success of children from military families. Our study will 
encompass a cross-section of children from elementary-school through 
high school and from all four Services. The results of the study will 
enable us to work with schools to develop additional support programs 
and teacher training.
    Educators, counselors, and mental health workers associated with 
public schools are generally not aware of the unique issues and 
challenges that confront military dependent students. To be effective, 
they must become aware of military child issues and appropriate 
interventions.
    We have initiated several partnerships to help us address these 
issues with educators. We have expanded our partnership with the 
Department of Education's Office for Safe and Drug Free Schools to 
include work with the National Child Traumatic Stress Network 
(sponsored by UCLA, Duke University, and the Department of Health and 
Human Services). Together we developed the following information 
booklets: Educator's Guide to the Military Child During Deployment, 
Educator's Guide to the Military Child During Post Deployment: 
Challenges of Family Reunion, and Parent's Guide to the Military Child 
in Deployment. The first deployment guide is currently featured on the 
Department of Education's website. All three guidebooks will be 
available on the DOD website later this summer. We are considering 
publication of the booklets to ensure that the information is seen and 
used by educators and parents. The Department wants to be a good 
partner to local schools and is seeking ways in which we can help 
promote excellence in public schools, especially in those schools that 
educate our children.
    More generally, we know we have a symbiotic relationship with the 
communities near our installations. Just as life at our installations 
changes when troops are deployed, local communities are also affected 
significantly when large numbers of people are withdrawn from the 
community. Citizens have been very generous with their time and skills 
to be good neighbors to family members left behind. We are grateful 
that during deployments over the past 2 years local business and 
community service organizations have felt very connected to military 
families and have sought ways to help. Through cooperative efforts with 
the USA Freedom Corps we have been able to channel the volunteerism of 
many local businesses and individuals to those families of deployed 
personnel who most needed assistance.
    The Department has resolved to recognize communities that are 
particularly friendly to military members and their families. These are 
communities in which our families would be content to live even if they 
hadn't been assigned to that location. We are working with a contractor 
to develop a Quality of Life Quotient, and then to evaluate certain 
weighted factors. With this, we will be able to rate communities. A few 
of these factors are the following: Affordable Housing; Health Care; 
Availability of Quality Child Care; Employment Opportunities for 
Spouses; the Quality of Schools; Opportunities for Adult and Continuing 
Education; and Traffic and Safety. Using the Quality of Life Quotient 
as a guide, we will be able to identify Communities of Excellence. This 
initiative will also enable civilian communities to target efforts to 
make their communities excellent places to live, work and raise a 
family.
    We are committed to meeting the quality of life needs of our 
service members and their families. Our service members have high 
aspirations and strong family values. They desire a fulfilling life for 
themselves and their families. To recruit the best and brightness, we 
must provide an inviting environment. To retain those we have trained 
and whose skills we vitally need to keep, we must ensure continuing 
challenges and opportunities to grow both intellectually and 
professionally. To maintain a modern military force at a honed state of 
readiness requires high morale bred of satisfaction with working and 
living conditions that make being a part of the military family more 
inviting than living outside of it. We are confident that if we treat 
our people well, they will stay with us. When they finally retire or 
leave active duty, they will depart with positive memories of the 
military lifestyle and be our best advocate to future generations. As 
such, the Department will receive an excellent return on its training 
investment, and ensure that tomorrow's military is as strong, 
dedicated, and vital as is today's. Now, more than ever, our national 
security and way of life depend on it.
    Thank you Chairman Chambliss, Chairman Alexander, and members of 
both subcommittees, for the opportunity to testify before you today. I 
very much appreciate your continued interest in and support of Quality 
of Life programs and initiatives that benefit military members and 
their families.

    Senator Chambliss. Thank you, Secretary Molino. We have 
also been joined by the Senator from New York, Senator Clinton, 
and we'd be happy at this time to take any comments you might 
want to make.
    Senator Clinton. Thank you, Mr. Chairman, and I want to 
thank you and Senators Alexander, Dodd, and Nelson for holding 
this hearing on these important topics. I would like unanimous 
consent to submit my entire statement for the record.
    Senator Chambliss. Certainly.
    Senator Clinton. Just very briefly, I want to thank the 
panel also for focusing on this range of issues: time away from 
children, which we know has a tremendous impact on the 
children's attitudes and their feelings, trying to make sure 
that none of these inequities that we're now hearing about. We 
had an awful example on Long Island where children of two 
deployed parents were kicked out of their school after they 
went to live with their grandparents, and they wanted to 
continue the continuity by sending them across district lines 
to continue to go to their same school, and unfortunately, the 
district applied the most egregious kind of rule to disrupt 
these children's lives further.
    We have a lot of issues, and I appreciate very much 
bringing these to this hearing. I look forward to working with 
the panelists as well as my colleagues to address them.
    [The prepared statement of Senator Clinton follows:]

             Prepared Statement by Senator Hillary Clinton

    Thank you Senators Alexander, Chambliss, and Nelson for coming 
together to hold this hearing on this important topic. Thank you to all 
the witnesses for testifying.
    This issue has long been a priority for me. Throughout my time as 
First Lady and now as a Senator, I have had the opportunity to meet 
with the families of our men and women in uniform. I have gone to Fort 
Drum and other military installations in New York where I have visited 
with the families of our soldiers as well as the families of Guard 
Members and reservists and to learn about the issues that are important 
to them.
    It is not often recognized that the families also have to make a 
significant sacrifice when a husband, wife, or parent is sent off to 
war. These families left behind are serving their Nation like our men 
and women in uniform. When both parents are deployed simultaneously or 
the children of single parents are deployed, the children make a 
significant sacrifice that we cannot ignore.
    When I was in the White House, I worked to champion the military 
childcare system because it should serve as models for the rest of the 
Nation. The military has done a truly exceptional job of providing 
high-quality care to meet the unique needs of military families. 
Military families often need care at nontraditional hours, including 
round the clock care, and, unfortunately, too often cannot afford to 
pay the market rate for high- quality care. By offering a means-tested 
payment system and a full spectrum of service offerings, from informal 
care to child development centers staffed by professionals, the 
military has done what the rest of the country has not--make high-
quality care affordable and accessible to all families.
    We still have a problem with reservists, who often live far away 
from a military base, to access affordable childcare at the hours they 
need them, and I hope that this is an issue these committees can work 
on together.
    I have also been a long supporter of Troops-to-Teachers, which was 
started under my husband's administration. I think this program 
provides such an exceptional model that I worked to expand it into a 
national program during concentration of the No Child Left Behind Act, 
and today that program--``Transition to Teaching''--has already 
provided $7 million to New York alone. I am pleased that Mr. Petrilli's 
testimony focuses on this important program, and I am committed to 
continuing to assist our retiring military in pursuing careers in 
service.
    Despite the Department of Defense's model systems in education and 
childcare, I am troubled that finding high quality and affordable 
housing continues to be a problem for many military personnel and their 
families. Our service men and women cannot successfully complete their 
missions if they are preoccupied with concerns over the living 
conditions of their families. Sixty percent of the approximately 
300,000 housing units are inadequate, and the waiting lists for on-base 
housing are often so long that many families wait over a year before 
finding permanent housing. Many military families choose to live off 
base in search of housing that meets high quality standards. When the 
private sector provides a better option, I believe we must provide our 
military families with a sufficient basic housing allowance that meets 
their needs. I am committed to ensuring that all of our military 
families have access to high quality and affordable housing that at the 
very least matches the standard provided by the private sector.
    I am also concerned about the 20 percent of guardsmen and 
reservists who do not have health insurance, and I was pleased to work 
with my colleague, Senator Lindsey Graham, to address this problem 
introduced the National Guard and Reserves Reform Act for the 21st 
century, which will allow these individuals to enter TRICARE and will 
offset the costs for low-income people.
    This bill was a tremendous step forward, and I hope that it will 
survive the conference,  which is going on now. Either way, I will 
continue to work with Senator Graham to address this critical issue.
    In closing, I just want to reiterate how pleased I am that these 
two subcommittees are working together on these important issues. As a 
member of both subcommittees, I intend to continue to make this issue a 
priority, and I look forward to working with all of you to make that 
happen.

    Senator Chambliss. Thank you.
    Dr. Tafoya, we'll move to you, and let me tell the 
remaining witnesses that we're going to adhere to a 5-minute 
rule on summarizing your statements so we can get to questions, 
so Dr. Tafoya, welcome.

STATEMENT OF DR. JOSEPH TAFOYA, DIRECTOR, DEPARTMENT OF DEFENSE 
                       EDUCATION ACTIVITY

    Dr. Tafoya. Thank you very much, Senator Chambliss, Senator 
Alexander, members of the subcommittees. It is my great 
pleasure to serve as the Director of the Department of Defense 
Education Activity.
    As Secretary Molino said, we serve 225 schools, and about 
110,000 students around the world, and through our schools 
domestically. Our charter says we must provide a quality, 
comprehensive education, and it's in that second area where we 
have the quality-of-life issues. We must provide especially 
children that are overseas, the opportunity to do those kinds 
of things they would experience in a normal American school.
    We have a quality staff, and we spend a lot of money 
orienting staff to the military issues. They become part and 
parcel of the communities overseas. They have an opportunity to 
be part of that community because of where they live. In our 
domestic schools, they live on base and off base and many of 
them are spouses, and so we spend a lot of time and effort 
ensuring that our teachers and administrators are sensitive to 
the needs of the military child and the military family.
    We have a strong connection to local commands. You see 
examples in my written remarks to you of our efforts to 
communicate with parents that are deployed, to get our children 
involved, based on the age-appropriateness of their education, 
in activities that promote the parents and the child 
connection.
    We have identified effective counseling and psychology 
programs for our psychiatrists to begin to work with kids as 
they have needs in our programs. We've been very aggressive in 
this area because we feel it's important to address those kinds 
of needs of children. Basically our communication with parents 
is the key issue, and our philosophy is, it doesn't matter 
whether the parent is there or around the world. We need to 
communicate with that parent; I think the examples we gave in 
my written statement highlight that.
    Lastly, because we are a part of the Department of Defense, 
and our teachers are in places where the military is overseas, 
sometimes they are also in harm's way. Recently, our evacuation 
of several of our schools brought home the issue to our own 
staff that we need to make sure that those staff members, their 
children, and dependents are taken care of as we move them 
around the world based on the needs and recommendations of the 
State Department.
    Lastly, we realize that we have kids only for a short 
period of time. I think the recent Vanderbilt study in your 
great State, Senator, highlighted the fact that we see mobility 
as an opportunity, not only as a challenge, and that we have 
kids only for a certain period of time. We need to maximize 
their education.
    Likewise, at the direction of Secretary Molino and 
Secretary Abell, they have directed me as the director to get 
more involved in national activities with other State 
superintendents, with other districts, where we have high 
concentrations of military children to try to, wherever 
possible, ease that transition.
    Sir, I welcome the opportunity to speak with you today and 
take any of the questions that you have to ask of me later. 
Thank you, sir.
    [The prepared statement of Dr. Tafoya follows:]

               Prepared Statement by Dr. Joseph D. Tafoya

    Chairman Chambliss, Chairman Alexander, and members of the 
subcommittees, thank you for the opportunity to discuss with you the 
efforts that the Department of Defense Education Activity (DODEA) is 
making to meet some of the challenges facing military parents. DODEA is 
charged with providing a high quality, comprehensive American 
educational program to dependent children of our military members 
overseas and in our domestic schools. Part of that charge is to provide 
services and assistance that go beyond the basic educational needs of 
our students, especially during times of deployment and war.
    DODEA accomplishes this on many levels through programs specially 
developed and implemented to address all issues that arise when a 
parent is deployed. Our teaching staff and administrators are provided 
with a comprehensive orientation to issues of deployment as well as to 
issues related to the military service of the sponsor. Deployment is a 
way of life in the military and DODEA employees understand the impact 
that it has on the families and particularly the students they serve. 
Just as part of the DODEA mission is to provide instructional 
excellence, it is also to maintain continuity and normalcy in otherwise 
very anxious times. This not only provides stability for the students, 
but also eliminates at least one concern from the minds of active duty 
military parents. Active military members should never have to add 
concern about their children's progress in school to their duties in 
the field. Our first and foremost responsibility is to keep students 
focused on their academic development, and DODEA's record of strong 
student achievement is reflective of this focus. Students need time to 
be children and the daily schedule of school can provide this.
    DODEA teachers are highly sensitized to the needs of their students 
and their communities. Overseas, DODEA teachers are an active part of 
the military community. They have a strong allegiance to the mission of 
the bases they serve and have a strong sense of pride in the military 
activities of that base. They value the strong partnership they have 
with the command and parents who value their work with students. In our 
domestic schools, DODEA teachers are part of the larger community 
surrounding the base and are also active in supporting the service 
members.
    DODEA annually identifies programs, materials, and intervention 
strategies to assist school counselors and school psychologists in 
their daily role of support for and training of staff, students and 
parents. In addition to these materials, DODEA ensures that counselors 
and psychologists are provided information about resources and 
strategies to support students and their families in response to world 
situations. Prior to Operation Iraqi Freedom, DODEA researched 
materials, programs and intervention strategies to enhance the 
resources available to counselors and psychologists. The Crisis 
Information Webpage, a link to the DODEA website was designed to help 
families, educators, and community members understand how schools would 
ensure that children and personnel are safe and secure.
    The schools extended instruction to address questions and topics 
that are naturally on students' minds during a time of combat, by 
initiating special age appropriate activities across the curriculum. 
Older students were able to study geography and historical aspects of 
the Middle East to develop a better understanding of the culture and 
history of the region. Younger students participated in craft 
activities that sent cards, cookies, and other touches of back home to 
their parents and other deployed members of their community. Patriotic 
activities became an even more important part of the school culture.
    Lastly, the strong connection to the command was extremely helpful 
in addressing the needs of our students. From the very top, commanders 
were committed to providing information and a connection for our 
students to their deployed parents through Internet connections, video 
conferencing activities, and to the Adopt-a-Service Member Program. 
Schools became a conduit for a variety of direct and indirect 
communication with deployed parents. Students regularly wrote letters, 
sent e-mail messages, recorded audio tapes and sent videos produced in 
their classes to maintain a dynamic connection with their parents.
    A classic example of this was the recent graduation of the 2003 
Class of General H.H. Arnold High School in Wiesbaden, Germany. Through 
a partnership with parents, contractors, and command, the graduation 
ceremonies were broadcast live by satellite to locations in Iraq 
permitting deployed parents to be virtual participants in the critical 
milestone of their child's graduation ceremony. Events such as these 
occurred at a number of DODEA high school graduations. These events 
don't happen without the strong partnership and sense of commitment of 
the command, community, and staffs at DODEA schools.
    DODEA staff and students also faced the need to ``redeploy'' during 
the recent military activities in Iraq. Several of our schools were 
evacuated due to State Department directives and our staff and students 
were faced with leaving their homes. DODEA staff members and their 
families were returned to the United States and depending on their 
certification were assigned to our domestic schools, reassigned to 
other schools in Europe or brought to DODEA Headquarters to work on 
curricular issues.
    Our DODEA students and their families were given packets before 
they left for the designated safehaven. These packets included 
transcripts and course work information that would assist in an easy 
transition to their new school. Since we were unsure on how long these 
schools would be closed, for those students who were seniors, the 
packet included the transcript, the course work needed to graduate and 
a letter of assurance to the local school district from DODEA that upon 
completion of the listed coursework, DODEA would issue a diploma for 
that student. With few exceptions, this cooperation between DODEA and 
the local school districts went very well.
    I thank you for the opportunity to share with you just a few of the 
ways that DODEA supports the social and emotional needs of our students 
while continuing to focus on our primary mission of providing a high 
quality education. Everyone at DODEA feels honored to play a role in 
supporting our military families and contributing to their quality of 
life. I am proud of the DODEA staff around the world for their 
commitment to our parents and students.

    Senator Chambliss. Thank you very much.
    Colonel Scott, we're pleased to have you and look forward 
to your comments.

STATEMENT OF COL. JAMES L. SCOTT II, ARNG, DIRECTOR, INDIVIDUAL 
   AND FAMILY SUPPORT, OFFICE OF THE ASSISTANT SECRETARY OF 
                  DEFENSE FOR RESERVE AFFAIRS

    Colonel Scott. Yes, sir. Good afternoon, chairmen and 
members of the subcommittees. I represent the individuals and 
families of our National Guard and Reserve components as the 
Director of Individual and Family Support in the Office of the 
Assistant Secretary of Defense for Reserve Affairs.
    I'd like to share with you some of the critical challenges 
facing our National Guard and Reserve component military 
parents, and explain the policies, programs, and partnerships 
we've established in the Department to assist them in preparing 
for the absence of their military family member, and also for 
sustaining them for the duration of that absence, including the 
return, reunion, and reintegration resources to reunite them 
with their family and to reestablish them in their civilian 
jobs and dual military-civilian careers.
    This committee has been very supportive of our National 
Guard and Reserve members and families, and, on their behalf, I 
want to publicly thank you for all your help in strengthening 
our Reserve components. Our military personnel and their family 
members are extremely grateful.
    Our Guard and Reserve perform vital national security 
functions, and are closely interlocked with the States, cities, 
and towns in every community in America. We have recently seen 
reservists called to active duty under the partial mobilization 
authority, and since September 11, 2001, nearly 300,000 Guard 
and Reserve members and their families have supported the 
global war on terrorism.
    World events and our Nation's response have presented many 
challenges to the men and women who serve in our Reserve 
components. We are closely monitoring the impact of that 
increased use on our Guard and Reserve members, their families, 
and their employers, while taking a proactive approach to 
identify and establish new programs, modify and adapt existing 
programs and resources, and to expand partnerships in and out 
of the Department to enhance our military members and their 
families' ability to cope with the challenges of military 
service in defense of our great Nation and our communities.
    Most of our Reserve component members have full-time 
civilian jobs in addition to their military duties, and we know 
that civilian employer support is a major quality-of-life 
factor for Reserve families. The Department recognizes the 
positive impact employer support has on Reserve component 
readiness, recruiting, retention, and the completion of the 
Department's missions. The National Committee for the Employer 
Support of the Guard and Reserve coordinates the efforts of a 
community-based, national network of 55 committees consisting 
of over 4,200 volunteers in every State, the District of 
Columbia, Guam, Puerto Rico, the Virgin Islands, and now 
Europe.
    Strengthening employer support is a major focus of current 
Department planning guidance. It requires the existence of a 
strong network comprising both military and civilian employer 
leaders, and the capability to provide for communication, 
education, and exchange of information.
    Despite the increased utilization of our Reserve Forces 
since the events of September 11, and the obvious impact that 
the call-up of reservists has had on our Nation's employers, 
those employers have responded in an overwhelmingly positive 
fashion. Later today, this evening, I will depart Washington, 
DC, to join my colleagues at the 2003 Employer Support of the 
Guard and Reserve Leadership Conference, where many of these 
employers will be recognized.
    Mr. Chairman, there's a great deal more detail in my 
written testimony concerning the programs and policies and 
tools that we've established to support our family members. 
This concludes my oral statement. I thank you and the 
subcommittees' members for the opportunity to testify before 
you today, and also for the outstanding support that you've 
provided to the military members of our total force, and to all 
of their families.
    [The prepared statement of Colonel Scott follows:]

           Prepared Statement by Col. James L. Scott II, ARNG

                              INTRODUCTION

    Good morning chairmen and members of the subcommittees. Thank you 
for the invitation to testify before you today. I represent the 
individuals and families of our military Reserve components, as the 
Director of Individual and Family Support Policy in the Office of the 
Assistant Secretary of Defense for Reserve Affairs. Today, I will share 
with you some of the critical challenges facing National Guard and 
Reserve component military parents and explain the policies, programs, 
and partnerships we have established in the Department to assist them 
in preparing for the absence of their military family member and 
sustaining them for the duration of that absence as well as the return, 
reunion, and reintegration resources to reunite them with their family 
and to reestablish them in their civilian jobs and dual civilian 
military careers. This committee has been very supportive of our 
National Guard and Reserve members and families and on their behalf, I 
want to publicly thank you for all your help in strengthening our 
Reserve components. Our military personnel and their family members are 
grateful. Thank you.

           OASD/RA AND INDIVIDUAL AND FAMILY SUPPORT MISSION

    The mission of the Office of the Assistant Secretary of Defense for 
Reserve Affairs (OASD/RA), as stated in title 10 USC, is the overall 
supervision of all Reserve components affairs in the Department of 
Defense. The mission of the Individual and Family Support Policy 
Directorate in that office is to ensure total force family readiness, 
and our goal is to support mission readiness through Reserve component 
family readiness.
    I take this responsibility very seriously because our Guard and 
Reserve perform vital national security functions and are closely 
interlocked with the States, cities, towns, and every community in 
America. We have recently seen reservists called to active duty under 
partial mobilization authority as a result of the terrorist attacks on 
the World Trade Center, the Pentagon, and western Pennsylvania as well 
as continuing their participation and commitment to Presidential 
Reserve Call-Ups (PRCs) in Bosnia, Kosovo and Southwest Asia. Since 
September 11, 2001, nearly 300,000 Guard and Reserve members and their 
families have supported the global war on terrorism. World events and 
our Nation's response have presented many challenges to the men and 
women who serve in our Reserve components. We are closely monitoring 
the impact of that increased use on our Guard and Reserve members, 
their families, and their employers while taking a proactive approach 
to identify and establish new programs, modify and adapt existing 
programs and resources, and expand partnerships in and out of the 
Department to enhance our military members' and their families' ability 
to cope with the challenges of military service in defense of our 
Nation and our communities.

        RESERVE COMPONENT FAMILY READINESS AND SUPPORT PROGRAMS

    In the post-Cold War era, members of the National Guard and Reserve 
are being called to active duty to an unprecedented extent. Indeed, in 
recent years we have called reservists to duty involuntarily for 
ongoing missions in Bosnia, Kosovo, and Southwest Asia. Today, there 
are National Guard and Reserve members serving on active duty in 
support of Operation Noble Eagle, Operation Enduring Freedom, and 
Operation Iraqi Freedom. Contingency operations challenge our service 
members and their families, and demonstrate that mission readiness and 
family readiness are inextricably intertwined. We cannot continue to 
rely on our reservists, who now comprise approximately half our total 
force, if their families are not ready for the stresses and strains of 
separations and long deployments.
    When mobilized, reservists and their families face unique 
challenges and barriers. Reserve families are widely dispersed 
geographically and live and work in over 4,000 communities across the 
Nation. Often, they do not live near military installations where 
family support readiness services are most readily available and they 
may not know what services are available. Even when they are aware of 
available services, they often encounter difficulties in accessing 
them. More often they are in civilian communities with their children 
in public and private schools where there may be little experience or 
knowledge of the impacts of mobilization and deployment on parents and 
children.
    The Department of Defense (DOD) is continuing to enhance its 
efforts to support Reserve families and children. The Office of the 
Assistant Secretary of Defense for Reserve Affairs (OASD (RA)) and the 
Office of Family Policy (OFP) have formed a strategic partnership to 
ensure that National Guard and Reserve family readiness requirements 
are recognized and included in all family readiness policy concerns 
within DOD. One significant result of this partnership was the 
publication of the first Guard and Reserve Family Readiness Strategic 
Plan 2000-2005. It provides a blueprint for offering greater support to 
National Guard and Reserve families and assisting them in coping with 
the stresses of separations and long deployments. The plan set out 
specific goals and milestones and we have already accomplished a number 
of these. Also, it established a link between family readiness and unit 
mission readiness. This plan and the products established as a result 
of its implementation are a direct result of partnership efforts within 
the OSD staff to include the Office of Military Community and Family 
Policy and their Quality of Life, Family Policy, Children and Youth, 
Community Support, and Continuing Education offices. Their efforts and 
cooperation have allowed us to keep Reserve component families in the 
mainstream of current initiatives to support all military families.
    Beginning in 2002 the OSD Office of Family Policy, Reserve Affairs, 
the Services and their Reserve components, and numerous Federal 
agencies have been meeting regularly in a Joint Service Family 
Readiness Contingency Assessment Working Group. The group 
representatives work to anticipate challenges and disseminate 
information during ongoing Operations Noble Eagle, Enduring Freedom, 
and Iraqi Freedom. The foundation for support of family members lies in 
the preparation and education of professionals and family members alike 
well before a reservist is called to active duty or actually deployed. 
The ability of Reserve component members to focus on their assigned 
military duties, rather than worrying about family matters, is directly 
affected by the confidence a member has that his family can readily 
access family support services.
    We published the 5th Edition of A Guide to Reserve Family Member 
Benefits in May 2003, to inform family members about military benefits 
and entitlements, including medical and dental care, commissary and 
exchange privileges, military pay and allowances, and reemployment 
rights. From our surveys of spouses of deployed Reserve component 
members, we know that information and communication are essential to 
Reserve families. In addition to information concerning their deployed 
spouse, family members request information on available benefits, 
services, and programs, to include locations of commissaries, 
exchanges, healthcare and other facilities. Communication through an 
established unit or organizational point of contact is also key. We use 
a constant stream of updated information on benefits and entitlements 
disseminated through informal e-mailing lists, news releases, and 
personal speeches to ensure that Reserve component members and their 
families have the most current and accurate information possible. We 
are also expanding the accessibility of 1-800 and Internet-based 
employee assistance-like programs to include all Reserve component 
families. The United States Marine Corps has implemented Marine Corps 
Community Services ``One Source'' for all marines and their families, 
the National Guard has fielded their ``Guard Assist'' and 
``Guardfamily.org'' for the Army and Air National Guard, and we are 
working closely with the Naval Reserve and the Air Force Reserve to 
establish their programs.
    One of the lessons of this and other recent wars is that 
effectiveness in combat depends heavily on jointness, how well the 
different branches of the military communicate and coordinate their 
efforts on and off the battlefield. It is eminently clear that 
achieving jointness in wartime requires building that jointness in 
peacetime. That includes jointness in mission readiness, family 
readiness, and all quality-of-life areas of concern. We recently 
published a Joint Service/Total Force Guard and Reserve Family 
Readiness Programs Tool Kit. It is a comprehensive guide on pre-
deployment, deployment, and post-deployment information for commanders, 
service members, family members, and family program managers. It 
contains checklists, pamphlets, and other information, such as benefits 
and services available that inform family members how to prepare for 
deployment. The Tool Kit is based on ``best practices'' from the field 
as identified by the active and Reserve components. As with other 
informational products, the family readiness tool kit can be accessed 
on the Reserve Affairs website at http://www.defenselink.mil/ra.
    DOD guidance on Reserve family readiness is provided in DOD 
Instruction 1342.23, which encourages commanders at all levels to 
support total force joint-service family readiness efforts in 
maximizing regional cooperation, planning, and information sharing. The 
Department encourages participation in InterService Family Assistance 
Committees at the State and regional level rather than reliance on 
single Service or component programs to meet the needs of a divergent 
and geographically dispersed force.
    Taking care of our mobilized Guard and Reserve members and their 
families is a top priority for the Department. While we can draw on our 
experience from past call-ups, we continue to examine our policies and 
programs to ensure that our mobilized reservists do not feel 
disenfranchised and that we have the family support systems in place. 
The National Guard has greatly enhanced the Department's ability to 
meet family needs by establishing more than 400 Family Assistance 
Centers in all 50 States plus Puerto Rico and Guam. Moreover, many of 
the Veterans Service Organizations have come forward with initiatives 
to support active and Reserve families left behind. One example is the 
Veterans of Foreign Wars who provide State coordinators in each of the 
States to ensure that volunteer efforts and donations are channeled to 
families who have the greatest need for assistance. The Department is 
also partnering with the Veterans Administration to ensure that 
demobilizing Reserve component members have access to their post-
mobilization and transition counseling benefits through the Veterans 
Rehabilitation Counseling Centers across the Nation. The Office of 
Continuing Education has worked with our office to provide information 
and materials through the Department of Education to all school 
districts throughout the United States so that administrators, faculty, 
counselors, staff, and parents may begin to understand and address the 
needs of children of deployed Reserve members. These include an 
Educator's Guide to the Military Child During Deployment and a Parent's 
Guide to the Military Child During Deployment and Reunion.
    We also recently conducted a childcare summit to determine the 
significance of childcare requirements for Guard and Reserve families 
when the military member is training at home station and also the 
additional requirements when the military member is mobilized and/or 
deployed. The summit determined that childcare requirements for Reserve 
families vary dramatically between the Services and are largely 
determined by the families' ability to provide childcare from internal 
resources. Each of the Services have addressed these varying 
requirements by conducting pilot programs to assist and expand 
childcare services and resources for Reserve component families when 
and where needed. These programs have been largely successful and will 
likely be embedded in future planning and programming.

                            EMPLOYER SUPPORT

    Since most Reserve component members have a full-time civilian job 
in addition to their military duties, civilian employer support is a 
major quality-of-life factor for Reserve families. The Department 
recognizes the positive impact employer support has on Reserve 
component readiness, recruiting, retention, and completion of the 
Department's missions. The National Committee for Employer Support of 
the Guard and Reserve (ESGR) coordinates the efforts of a community-
based national network of 55 committees consisting of over 4,200 
volunteers in every State, the District of Columbia, Guam, Puerto Rico, 
the Virgin Islands, and Europe. ESGR's mission is to obtain employer 
and community support that ensures availability and readiness of 
National Guard and Reserve Forces.
    Strengthening employer support is a major focus of current 
Department planning guidance. It requires the existence of a strong 
network, comprising both military and civilian-employer leaders, and 
capable of providing for communication, education, and exchange of 
information. To build this support, we are increasing our efforts to 
improve communications between the Department and employers, identify 
future actions that will provide some relief for employers when we call 
upon their reservist-employees, and strengthen the relationship between 
the Department and employers that will enable us to continue to use our 
shared employees.
    Despite the increased utilization of our Reserve Forces since the 
events of September 11, and the obvious impact that the call-up of 
reservists has had on our Nation's employers, our Nation's employers 
have responded in overwhelmingly positive fashion. Many employers have 
extended benefits for their reservists mobilized to support Operations 
Enduring Freedom, Noble Eagle, and Iraqi Freedom, provided pay 
differential while they serve, continued their civilian health 
programs, and given both financial and moral support to their families, 
spouses, and children. Our Nation's employers have overwhelmingly 
supported our reservists in this war on terrorism, and we are extremely 
appreciative of their support to the Nation and to our men and women of 
the Reserve components who are supporting this effort.

                               CONCLUSION

    Mr. Chairman, this concludes my statement. I thank you and the 
subcommittees' members for the opportunity to testify before you today 
and also for the outstanding support you have provided to the military 
members of our total force and to their families.

    Senator Chambliss. Thank you very much, Colonel Scott. Mr. 
Petrilli, we welcome you and look forward to your comments.

   STATEMENT OF MICHAEL J. PETRILLI, ASSOCIATE DEPUTY UNDER 
    SECRETARY FOR INNOVATION AND IMPROVEMENT, DEPARTMENT OF 
                           EDUCATION

    Mr. Petrilli. Thank you, Chairman Chambliss, Chairman 
Alexander, and the members of the subcommittees. I'm pleased to 
be here this afternoon to discuss the Troops-to-Teachers 
program. This program provides a powerful option for military 
personnel as they retire from service or enter the Reserves to 
serve again on behalf of our Nation's children.
    My position is Associate Deputy Under Secretary in the 
Office of Innovation and Improvement at the Department of 
Education. The mission of this new office is to identify, 
support, and promote promising innovations in education. We are 
especially interested in innovations that bring in highly 
qualified individuals into teaching and allow them to obtain 
teacher certification with a minimal amount of difficulty. 
Troops-to-Teachers is one of those programs, and I am proud to 
say that the Bush administration supports this program 
enthusiastically.
    As you may know, the No Child Left Behind Act requires 
States to ensure that every teacher is highly qualified by the 
end of the 2005-2006 school year. This is an ambitious goal, 
and one that we can meet, but as Secretary Paige has explained, 
in order to meet this goal we're going to have to do things 
differently.
    First, we must raise academic standards for our teachers, 
and second, we must lower the barriers that keep thousands of 
talented individuals out of our classrooms. The Troops-to-
Teachers program does both.
    The brave men and women who fought in Afghanistan and Iraq 
and their colleagues around the world represent one of the most 
highly skilled, highly trained sectors of our society. Many of 
our service men and women possess a command of mathematics and 
science, subjects that are critical to our Nation's economic 
success in the 21st century, and subjects for which there is a 
critical shortage of teachers in our schools. The Troops-to-
Teachers program promotes high standards by identifying and 
bringing these qualified men and women and their top notch 
skills and abilities into our Nation's public schools.
    The program also addresses the barriers that keep many 
talented people out of our schools. The hoops and hurdles and 
bureaucratic entanglements, and sometimes mindless 
requirements, that find their way into State certification 
requirements keep countless numbers of potentially wonderful 
teachers from ever setting foot inside a classroom. Troops-to-
Teachers cuts through this red tape by placing critical 
personnel inside state departments of education, people who 
help retiring military personnel negotiate the land mines of 
government bureaucracy and certification requirements, and then 
connect them to school districts who want to hire them. The 
program has also put helpful pressure on the States to open up 
their certification systems to alternative routes into the 
classroom.
    Participants in this program can receive stipends of up to 
$5,000 to help them with the cost of certification, or 
recruitment bonuses of up to $10,000 if they teach in a high-
needs school. So far, Troops-to-Teachers has placed at least 
5,000 new teachers in the classrooms, many of them in the hard-
to-fill areas of mathematics, science, and special education. 
Participants are heavily male and heavily minority, providing 
more such role models in the classroom. Retention rates have 
been very good, and principals are generally thrilled with the 
performance of these teachers.
    Not surprisingly, the troops hold very high standards for 
their students. A 1998 survey found that program participants 
believe that all children can achieve at high levels, and that 
students' socioeconomic backgrounds should not prevent them 
from performing at the highest levels.
    Examples abound of military personnel who went on to become 
excellent teachers through this program. I included many in my 
prepared remarks. Let me just mention one here, Michael Glaze, 
who left the Air Force after 19 years to become a third-grade 
teacher in Beaufort, South Carolina, and last year was named 
teacher of the year of that elementary school. There are many 
more stories just like that.
    We are convinced that this program is good for America's 
schools. We also think it is good for military personnel and 
their families as they look for new career opportunities after 
their retirement, or during their service in the Reserves. We 
at the Department of Education are proud to be a small part of 
this program's success.
    That concludes my prepared remarks. I'd be happy to answer 
any questions that the subcommittees may have. Thank you.
    [The prepared statement of Mr. Petrilli follows:]

               Prepared Statement by Michael J. Petrilli

    Chairman Alexander, Chairman Chambliss, and subcommittees' members, 
I am pleased to be here this afternoon to discuss the Troops-to-
Teachers program, as part of your hearing on the impact of Federal laws 
and policies on military families raising children.
    My position is Associate Deputy Under Secretary in the Office of 
Innovation and Improvement in the Department of Education. The mission 
of this new office is to identify, support, and promote promising 
innovations in elementary and secondary education. We are particularly 
interested in approaches that bring highly qualified individuals into 
teaching, including approaches that target non-traditional candidates 
and allow them to obtain teacher certification with a minimum of 
difficulty. Troops-to-Teachers is definitely one of those programs, and 
I am proud to say that the Bush administration supports it 
enthusiastically.
    The No Child Left Behind Act, passed by overwhelming bipartisan 
majorities in both houses of Congress, challenges States to put plans 
in place to ensure that every teacher is ``highly qualified'' by the 
end of the 2005-2006 school year. This is an ambitious goal, and one 
that we can meet. But, as Secretary Paige has explained, in order to 
meet this goal, we must do things differently. First, States must raise 
academic standards for their teachers to ensure that they are prepared 
to teach challenging content to our students. Second, we must lower the 
barriers that keep thousands of talented individuals out of our 
classrooms. The Troops-to-Teachers program reflects both objectives.
    The brave men and women who fought in Afghanistan and Iraq, and 
their colleagues around the world, represent one of the most highly 
skilled, highly trained sectors of our society. Many of our service men 
and women possess a command of mathematics and science, subjects that 
are critical to our Nation's economic success in the 21st century, and 
subjects for which there is a critical shortage of qualified teachers. 
The Troops-to-Teachers program promotes high standards by identifying 
and bringing these talented men and women, and their top-notch skills 
and abilities, into our Nation's public schools.
    The Troops-to-Teachers program also addresses the barriers that 
keep many talented people out of our schools. Unfortunately, for too 
long, States have relied on certification systems that seem to repel 
talent, rather than recruit talent. Please don't misunderstand: many 
teachers coming through traditional preparation programs and State 
certification systems are highly qualified indeed, and we owe them our 
gratitude for the work they do with our children. But the hoops and 
hurdles, the bureaucratic entanglements, the sometimes mindless 
requirements that find their way into State certification regimes keep 
countless numbers of potentially wonderful teachers from ever setting 
foot inside a classroom. That is a shame. Troops-to-Teachers helps cut 
through this red tape by placing critical personnel inside State 
departments of education, people who help retiring military personnel 
negotiate the landmines of government bureaucracy and certification 
requirements. The program has also put helpful pressure on the States 
to open up new, streamlined ``alternative'' routes to certification 
that take less time, cost less, and are designed specifically for 
career-changing adults with lots of relevant skills and experience. (As 
I will explain later, however, many barriers remain that keep talented 
individuals, including those from Troops-to-Teachers, out of the 
classroom.)
    With that context in mind, let me lay out some basic facts on how 
Troops-to-Teachers operates and what it has accomplished. Beginning in 
fiscal year 2002, Congress has appropriated Troops-to-Teachers funds to 
the Department of Education; through a memorandum of understanding with 
the Defense Department, we transfer that money to DANTES, which handles 
day-to-day administration, as it has done since the program's 
inception.
    Troops-to-Teachers assists eligible military personnel in making 
the transition to teaching in public elementary and secondary schools. 
To be eligible, in general, a service man or woman must: (1) have 
retired from active or Reserve service; (2) have separated from the 
Service after 6 or more years of continuous duty and be willing to 
enter the Reserves for at least 3 years; or (3) be currently serving in 
the Reserves and have at least 10 years of active and Reserve service 
and commit to continuing in the Reserves for at least 3 more years. 
Program entrants must also hold a baccalaureate or advanced degree, 
except that those seeking to become vocational and technical education 
teachers qualify if they have at least 1 year of college, at least 6 
years of military service in a vocational or technical field, or meet a 
State's certification requirements for vocational and technical 
education teachers.
    The program offers participants counseling, referral, and placement 
assistance in moving into their new teaching careers. In other words, 
it links military personnel with teacher preparation programs operating 
in the States in which they want to teach, and then with school systems 
seeking to hire Troops-to-Teachers participants. It provides these 
services through 33 State support offices that assist participants with 
State certification requirements and employment leads in a total of 44 
States. DANTES also provides program information through a network of 
military education centers and transition offices, and maintains a Web 
page that provides information on job vacancies and includes model 
resumes and other information.
    Participants can also receive stipends of up to $5,000 to help them 
with the cost of certification expenses, or recruitment bonuses of up 
to $10,000. Recipients of stipends must agree to teach full time in a 
school in a ``high-need'' school district for at least 3 years. 
Recipients of recruitment bonuses must commit to teaching full time for 
at least 3 years in a school that has at least 50 percent of its 
students living in poverty or that has a large percentage of children 
with disabilities.
    What has the Troops-to-Teachers program accomplished in its almost 
10 years of existence? The Department of Education has not yet 
conducted a rigorous, scientific evaluation of the program--we have 
been involved with it only for the last 2 years--but the data on 
program participation and information from available studies are very 
impressive. Although, for 5 years, the program did not receive an 
appropriation sufficient to provide financial assistance to 
participants, Troops-to-Teachers has placed over 5,000 new teachers in 
classrooms, and many of them have filled needs that are of the highest 
priority in school districts and schools. For instance, some 44 percent 
of placements have been in the hard-to-fill areas of mathematics, 
science, and special education. Participants are also heavily male and 
heavily minority; their presence thus addresses the need for more male 
and minority role models in the classroom. Retention rates have been 
good; as of 1999, 82 percent of participants who had entered teaching 
were still in the classroom. Under the statute, Troops-to-Teachers 
participants who receive financial assistance must be placed in high-
poverty schools and districts, which typically have the hardest time 
recruiting and retaining highly qualified teachers.
    These basic statistics are backed up by positive findings from 
independent studies of the program. A 2001 General Accounting Office 
report found that the official records on participation in the program 
may actually understate the total number of military personnel who have 
benefited; they count only people who applied formally to the program, 
not other personnel who may have taken advantage of the counseling and 
placement services available but never submitted a formal application.
    A 1998 national survey of Troops-to-Teachers participants by the 
independent National Center for Education Information found that 
participants had the types of attitudes and expectations that result in 
effective education. Participants believed that all children should be 
held, and can achieve, to high educational standards and that students' 
socioeconomic backgrounds should not prevent them from performing at 
the highest levels of achievement. It also found that teachers who had 
entered the profession through the program believed that they had 
achieved satisfactory relationships with students, parents, and other 
teachers, and that two-thirds intended to remain in teaching as long as 
they were able to do so or until retirement.
    A survey in Texas found that school principals who had hired 
teachers through the program rated almost 60 percent of those teachers 
``Above Average'' or ``Outstanding.'' They considered program 
participants superior to other teachers (with comparable levels of 
experience) in such areas as ``contribution to improvement of 
performance,'' ``contributions to the school and community,'' and 
``classroom management.'' In a companion survey, 89 percent of Texas 
teachers who had entered teaching through the program reported that 
their last official performance rating was either outstanding or above 
average.
    The Department's optimism that Troops-to-Teachers can become an 
important vehicle for helping to solve the teacher shortage problem, 
bringing non-traditional candidates into the teaching profession, and 
opening up new methods of training and licensing teachers is bolstered 
not only by these reports but also by some of the experiences of 
individuals who have gone through the program. To take one example, 
Michael Glaze left the Air Force after 19 years to become a third-grade 
teacher in Beaufort, South Carolina. Last school year, he was the 
``teacher of the year'' at Beaufort Elementary School.
    Other examples include 17-year Army veteran Eusabio Bretado who has 
taught math and social studies at Desert Hills Elementary School in the 
El Paso area. An immigrant from Mexico and a one-time high school 
dropout, he has received excellent performance ratings and his students 
have performed extremely well on Texas academic assessments. Douglas 
Kononos, after 20 years in the Air Force, has embarked on a second 
career teaching special education in New Braunfels, Texas. Arthur 
Moore, who teaches special education in Baltimore, entered the 
profession, after a 24-year Army career, through an innovative 
alternative-preparation program operating in that city.
    I hope these anecdotes convey to you why we are so excited about 
this program. But I must also stress that we do not want to rest on 
anecdotes. One of the key objectives of our new office is to determine, 
using scientifically based research and evaluation methodologies, what 
strategies and interventions in elementary and secondary education 
really work, and then try to capitalize on those success stories by 
encouraging their proliferation. So we have begun work with the 
Department's evaluation offices on the initiation of studies that hold 
Troops-to-Teachers to rigorous analytical standards.
    Before I finish, I should point out the remaining challenges 
confronting the Troops-to-Teachers program, and similar efforts to 
place nontraditional candidates in our Nation's schools. In too many 
States, certification barriers remain high. Alternative certification 
programs--which allow teachers to earn their certification while they 
are teaching, and often include intensive mentoring by expert 
teachers--are an important step forward. Without them, troops would 
have to go back to education school for several years, a luxury that 
many men and women with families to support cannot afford. But 
oftentimes, these alternative programs are expensive and lengthy, and 
merely repackage traditional education school programs into a different 
(but still burdensome) arrangement. The Troops-to-Teachers stipends 
help with the cost, but many participants in these programs complain 
about attending evening classes that they see as adding very little 
value to their teaching.
    What we desperately need are bold new approaches to certification, 
approaches that recognize the knowledge and skills that nontraditional 
candidates bring to the table, and approaches that focus more on 
results and competencies rather than on process and seat time. The 
administration has tried to do its part in recent years by supporting 
some important initiatives in this area. For example, we made a 5-year, 
$10 million grant to the Western Governors University to support the 
launch of its online Teachers College. This virtual college allows 
individuals to earn their credentials by demonstrating their competency 
to teach through completion of courses or other creditable experiences. 
The competency assessments can be completed on line, any time, 
anywhere, and, combined with a teaching experience, can qualify an 
individual for a teaching position. This program is just getting off 
the ground, but imagine the possibilities it holds for the Troops-to-
Teachers program. Military personnel stationed around the world, as 
they approach retirement, could take courses on line when off-duty and 
make great progress toward full State certification even before they 
return to civilian life. Only a handful of States have approved this 
program so far, but we hope the rest follow suit soon.
    Similarly, the Department has made a 2-year, $5 million grant to 
the American Board for Certification of Teacher Excellence. The 
American Board is developing extremely rigorous assessments for new 
teachers, both in key academic areas and in professional teaching 
knowledge. If these assessments are adopted by States, individuals who 
pass them would be considered fully certified, and therefore highly 
qualified. Troops-to-Teachers participants could take and pass this 
online exam and head straight into the classroom. This kind of 
streamlined approach is the best and fastest way to turn our troops 
into teachers, but it depends on the willingness of the States to do 
things differently.
    This concludes my prepared remarks. I would be happy to answer any 
questions the subcommittees may have.

    Senator Chambliss. Thank you very much. I will tell my 
colleagues we're going to adhere to the 6-minute rule on 
questions. I will defer until the end, and we'll begin with 
Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman. Thank you for 
the testimony. I would like to ask questions about the subject 
most of you talked about, which is education. If I had to 
guess, I'd think, of the families we've talked to, their first 
concern, outside the safety of their military spouse, is that 
their children have a chance to have a good education, and the 
three areas that I'd like to try to get some reaction to, if we 
have time in the 6 minutes, is, one, talk for a moment about 
the post schools and what we might learn from them; two, to 
inquire about, in how many instances are any of the Services 
allowing families with children in the 11th and 12th grade to 
allow those children to continue to graduate where they are 
rather than reassign the parent; and then third, I wanted to 
see if you had any suggestions about how we might help you in 
the comments you make about encouraging States to recognize, to 
engage in reciprocity, particularly as we get into the 
increased testing and someone moves from Arkansas to Tennessee 
and has to meet a new set of standards and delay graduation.
    I was thinking about this. If I had to describe a school 
this way, and say that its students were from families who were 
at the lower end of income, whose parents were often and 
unexpectedly absent, who moved regularly, sometimes as many as 
6 or 8 or 10 times during a K-12 period of time, who had a 
significant minority population, who had a number of single 
parents, who had an unusual amount of stress at home because 
their parents were subjected to the possibility of great 
danger, and who were from families where 63 percent of spouses 
are working and more than 80 percent of the lower income 
members are working away from home, why, you might say I was 
painting a recipe for an education disaster. Yet the Peabody 
College study of the post schools that you mentioned, the 
schools that are on the bases and the posts, and as you said, 
serve 110,000 students, is it 20 percent of all of the 
students, or 10 percent?
    Dr. Tafoya. Excuse me?
    Senator Alexander. Ten percent or 20 percent of all the 
children of military families are in post schools?
    Dr. Tafoya. In post schools, approximately 30 percent of 
our enrollment, and we're approximately about one-ninth of the 
children. So if you do the math real quick we have about 30,000 
students out of the 900,000 that are on post schools in the 
United States. Obviously, we have 110,000 worldwide.
    Senator Alexander. Okay, so I listed all those potentials 
for problems, yet in September 2001, Vanderbilt University's 
study of the post schools found that DOD schools demonstrated 
high minority student achievement, and high achievement 
overall. For example, African-American students in DOD schools 
ranked first in the Nation in eighth-grade reading scores 
compared to all the States, so I gather we spend more per 
student at these schools, but we have at least as many of the 
same challenges in these schools as they have in others.
    What can we learn from the post schools, first about the 
schools that serve at Fort Campbell, the majority of children 
go to public schools, not post schools. What can we learn about 
those schools, or what can we learn about all of our public 
schools from these very successful Department of Defense 
schools?
    Dr. Tafoya. Sir, we are very fortunate to have the strong 
recommendation and support of the commands at these bases. 
These DOD schools are their schools. It's a model that 
corporate America could take to heart to see that, for 
instance, during our parent-conference days, the Services say 
to our parents, unless it's a case of a military mission, your 
duty station that day is at the school. We have many schools 
that have 95 to 100 percent of the parents coming for parent 
conferences because that's the expectation of the command that 
is there. So we have that ability.
    We think in many communities where they have large 
employers, if they had that same kind of a program to dismiss 
their workers, to say to their workers, you need to take 2 
hours, you need to go visit your school, you need to be there 
at parent conferences, that high rate of parent activity in the 
schools is what sets us apart, but I think there are other ways 
that public schools could benefit from that.
    In addition, the other issue I'd like to comment in my 
brief time here, sir, is that again we spend a lot of money. A 
lot of that money has to go for other services. There's a 
misconception out there about the amount of money. We're the 
only school system that has to actively house our people 
overseas, give them allowances, travel their families back and 
forth, and so when we actually compare the amount of our budget 
that we spend on classroom, we're very close to the national 
average.
    A lot of these auxiliary costs are what make our people 
costs higher. When our teams compete against one another in a 
limited six-game football-season schedule, we have teams going 
from London to Frankfurt to play football, in buses, so that's 
the additional cost we have.
    Senator Alexander. While I've got you, what about the idea 
of allowing military parents who have a child in the 11th or 
12th grade to not be reassigned, so their child can graduate? 
Is that practice prevalent in the armed services, and if so, 
should it be?
    Dr. Tafoya. I'll let Secretary Molino respond to that.
    Senator Alexander. Secretary Molino.
    Secretary Molino. Senator, it's a policy within the Army 
that, unless there are compelling military requirements, those 
requests will be approved, and in fact Army statistics show 
that only 1 percent of the requests since they instituted that 
policy have been denied. That amounts to less than 20 requests.
    The Air Force is actively looking at that Army policy and 
considering the implementation of a very similar policy. The 
Navy and the Marine Corps, at this point, indicate that they 
have policies in effect where service members may request 
deferment from assignment, and don't feel they need a specific 
policy addressing this topic. They do say there is ample 
opportunity to request those kinds of waivers.
    The most up-front example, however, is the Army, and 
they've had wonderful success with it, and it gets very good 
feedback from the parents.
    Senator Alexander. Thank you very much, Mr. Secretary.
    We have a vote going on, and that's why a couple of 
Senators have left, so I'm going to go to Senator Nelson.
    Why don't we go to Senator Dodd, if that's all right with 
Senator Nelson.
    Senator Dodd. I'm going to abbreviate my question. I want 
to address child care, if I can. I want to set you up so that 
you understand what I'm getting at. You know the history of 
this, 1988, serious problems on bases with child care, Congress 
stepped in, working with the military, we had 350 percent 
turnover rate, low wages, very poor quality. Within 1 year of 
the military instituting some recommendations, we went to a 40-
percent turnover rate, which mirrored exactly what was going on 
within the Services themselves, just a vastly improved 
situation.
    We hired 5,700 Civil Service GS positions to improve 
training, linked pay, in fact, to training, and just took a 
system that was really in trouble and just shot it up and made 
it, as I said in my opening comments, the best child care 
system in the world.
    The question I have for you is, I understand here now we're 
about to make some decisions that the DOD and the Army are 
doing away with the Civil Service or GS positions, going back 
to the pre-1988 level for NAF, or the nonappropriated fund 
employees, and I'm very concerned with the cut in these 
positions, as they pertain to child care specifically, because 
child care, as I mentioned earlier, is such an important 
support for military families. It is inconceivable to me that 
someone who is out fighting, putting their lives on the line, 
is going to have to worry at all about whether or not their 
children are getting the kind of care they need.
    It's been such a success. I can't think of anything that 
would cause a bigger problem than to have people in the 
Services worry about whether or not their children are getting 
adequate child care. I don't know why we'd want to roll back 
the clock to the 1988 direction, if that's the case, and I want 
you to address that if you can.
    I understand the family daycare system. I'm not opposed at 
all to having family daycare, and Senator Alexander and I heard 
in Groton some concerns about whether or not they would step 
in, but family daycare can't be the system. In fact, most 
military personnel if given a choice between a family daycare 
setting or a center-based, choose the center-based 
overwhelmingly. Given the choice, they prefer a center-based 
system, and so I wonder if you might address, Secretary Molino, 
what's going on here, and you're going to have a lot of concern 
expressed here in a bipartisan way, if we're rolling back the 
clock on child care on our military bases.
    Secretary Molino. Thanks, Senator. We're not going back to 
1988, and we will not accept or tolerate any degradation in the 
quality of the child care program that we have. You are 
absolutely right, we have the best in the world. We're very 
proud of it. Some organizations that were the most critical of 
the military child care system are now our biggest advocates, 
and give us the highest praise.
    What we're looking at in the Civil Service versus NAF, 
nonappropriated fund, scenario, is, would that provide the 
commander more flexibility vis-a-vis the hiring process? Is 
this something the Services want, to give them more ability to 
fill spaces that might otherwise go unfilled in the staff 
positions?
    We don't know if the answer is yes or no to that. We're 
looking at it. We're willing to ask those kinds of questions, 
but I give you our firm commitment that if there's any 
indication that any of these moves would lead to a degradation 
of quality, that's a step we're not going to take.
    Senator Dodd. You keep us posted on that. I'd be very 
interested in how the various Services would react to that very 
question. I applaud you for asking the question of them as 
well. I'd be very interested in their answers.
    [The information referred to follows:]

    That is why only one Service, the Army, will evaluate the system 
between August 2003 and September 2005. They will specifically look at 
such areas as the length of time for recruitment and placement, the 
continuation of appropriated fund support, issues related to training, 
benefits and health insurance and the review and expansion of the 
current child care personnel pay plan. We will, of course, involve all 
the Services in any assessment and future decisions.

    The second quick question I have for you as well goes to 
the issue of infant care and toddler care. I don't want to bore 
you with all of this, but we found a situation where in the 
child care centers there were no vacancies for the infant care, 
and they had a ton of slots open for the older children, and it 
seems that under these--they call it a most efficient 
organization, or MOE, something's not lining up here right. 
What's going on?
    Secretary Molino. I agree with you, Senator. I didn't react 
as skillfully as you did, but I read that example in Senator 
Alexander's and Senator Chambliss' op-ed piece that was in the 
Washington Times. I don't know the specifics of it. I did ask 
the question, and I intend to get into it a little more deeply 
to find out the details, because the information I've received 
would lead me to conclude that the commander in fact has the 
latitude to move money around so that it could apply to infant 
programs if they don't need them in the preschool programs.
    What must be considered, however, is the fact that a dollar 
that buys toddler care, that dollar will not buy the same level 
of care.
    Senator Dodd. You're absolutely right.
    Secretary Molino. It's more expensive.
    Senator Dodd. You're exactly right.
    Secretary Molino. I don't know if that's the nuance that's 
involved here, but I need to find out more about it.
    Senator Dodd. Will you let us know about that?
    [The information referred to follows:]

    However, the commander does have flexibility within budget and 
facility constraints.

    Secretary Molino. We think the commander has that 
flexibility.
    Senator Dodd. That would be good. That would make more 
sense to me, and you're right, infant care is more expensive 
for all the obvious reasons, but it would seem to us there was 
something else going on, other than just that. We didn't ask 
the simple enough question that we just asked, so I'd 
appreciate an answer. If you could inquire about that, I'd 
appreciate it.
    Secretary Molino. When we get to the bottom of it, we'll be 
happy to.
    [The information referred to follows:]

    While commanders do have some flexibility for adding or changing 
space use, what must be considered, however, is the fact that a dollar 
that buys preschool care, will not buy the same level of infant care. 
Changing the configuration of child development center rooms can 
require construction and more equipment and staffing. Often, it is not 
economical or practical to reconfigure rooms as the population changes 
from year to year.

    Senator Dodd. Mr. Chairman, in order to make sure my 
colleague gets a question or two in here before the second 
bells ring, if I could just submit maybe some additional 
questions that have been raised in writing to our panelists 
they could respond to, I would appreciate that very much. I 
apologize, but I'm offering the next amendment on the floor in 
the Medicare bill, and I may not get back, and that's what I'm 
concerned about.
    Senator Alexander. That will be done.
    Senator Dodd. I thank you, Mr. Chairman, immensely, and I 
can't tell you how appreciative I am, Mr. Chairman, of your 
taking time to come to Connecticut and visit the sub base in 
Groton. It meant a great deal to have you up there, and I'm 
sorry Senator Nelson couldn't make that trip, but you're 
invited any time as well.
    Senator Ben Nelson. I'll come back.
    Senator Dodd. We're very proud of it. These issues are so 
important. I'm glad you understand how important they are. I 
know you do, but I can't think of anything we can do that could 
be as important as getting these family issues right for 
people. I thank both you and Senator Chambliss for holding this 
joint hearing.
    Senator Alexander. Thank you, Senator.
    Secretary Molino. Senator, sometimes we're rightly accused 
of keeping our lamp under a bushel, and we welcome the 
opportunity to brag a little bit.
    Senator Dodd. You should. Some of these things are just 
great what you're doing, just terrific.
    Senator Alexander. Senator Nelson and Senator Dodd, thank 
you for your leadership. Senator Nelson, we have three votes 
coming up. I think we have time for you to ask the questions 
that you'd like, and then Senator Chambliss will be back and 
I'll go vote, so if you'll bear with us we'll keep going.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    Dr. Tafoya, the Department of Defense Education Activity as 
an office does an outstanding job of operating two separate 
educational systems. One for foreign schools, overseas schools 
in other words, and one for domestic schools at select 
locations here within the United States.
    Of course, these schools have an excellent reputation. 
You've already heard some of the results of students who are 
attending these schools in terms of their outstanding 
scholastic performance.
    The question I have is, does the Department of Defense have 
any activity or any kind of program that might help State 
public schools meet those unique needs of military children who 
are not able to attend the DOD schools? In other words, you're 
not able to provide all the educational activity that's 
required by military students, so is there a program that you 
might have in mind? It would apply certainly in the case in 
Nebraska. It's one of the things that we're going to be seeking 
at our field hearing later this year.
    Dr. Tafoya. Perhaps Secretary Molino would be better able 
to answer that.
    Senator Ben Nelson. Would you be better able, Secretary 
Molino?
    Secretary Molino. I don't know how much better able I'll 
be, Senator, but I'll give it a shot. The Department has worked 
for sometime--we've recognized this, and as you heard in my 
statement the vast majority of our students, military children, 
do attend public or private schools. We have collaborated for 
some time with major organizations, the Military Child 
Education Council, of course, and the Military Impacted Schools 
Association, with which I know you're very familiar.
    Senator Ben Nelson. Yes.
    Secretary Molino. In fact, we're doing what we can to share 
best practices and to make superintendents, principals, and 
schoolteachers aware of what is involved in being a military 
student, and trying to make them more sensitive to it.
    We have a Web site that's about to be stood up called 
militarystudent.org, which would enable anyone, because of the 
dot-org indicator, to tap into that and find out what's going 
on with military students.
    We have another Web site, militaryteensonthemove.com, which 
is keyed to the military student, so he or she can share and 
realize that they're not alone in the things they're 
experiencing, and you may or may not be familiar with, in 
collaboration with the MISA organization and John Deegan, we 
published a book called Promising Practices, which is an effort 
to share best practices across the Nation. It cites the best 
practices that districts around the country have implemented to 
make this transition that much easier.
    So having said all of that, sir, we are very interested in 
learning from anything that comes out of the hearings that you 
all plan to have.
    Senator Ben Nelson. Thank you. We are anxious to get that 
information as part of the public record so that it might be 
made available so that others can certainly be aware of it and 
appreciate the activity as well.
    Because I don't want to miss a vote, at this point in time 
I'm going to take a recess until Senator Chambliss or Senator 
Alexander return. Well, just in time. Thank you.
    Senator Chambliss. I apologize for the interruption again, 
but we have three votes in succession, but we're going to try 
to keep going, because you've been very patient, and we have 
one more panel to go.
    Colonel Scott, one question that came up during our field 
hearing at Warner Robins was with respect to the reaching out 
by local communities, particularly bases in local communities 
where local units of the Guard and Reserve had been called up.
    A lot of times we know that services are available to 
active duty that aren't available to the Guard and Reserve. As 
we're calling Guard and Reserve personnel up more and more, we 
need to make sure that we're equalizing not just benefits while 
on active duty, but while they're off active duty, and we've 
been doing that, but when they're on active duty the support 
services that are required by active duty are the same kind of 
services that the Guard and Reserve need. I would appreciate 
your comments on what your perspective is on that particular 
issue.
    Colonel Scott. Yes, sir. We've been working very closely 
with the bases and the posts and the military installations to 
ensure that they can meet the surge capability, and, basically, 
what we found is that many of our military members and their 
families, as you suggested, may live in the communities, but 
many of them live away from the communities where these 
installations and activities are. The outreach characteristic 
is critical in order to provide those services.
    What has happened over the last 3 months is that the 
National Guard, as the role model and leader in providing 
family assistance centers across the Nation to Guard and 
Reserve total force personnel, they've established more than 
400 family assistance centers across the Nation, the goal here 
being that no one would be more than a phone call or a short 
drive to be able to get information, referral, and follow-up 
activities.
    These family assistance centers obviously are not equipped 
and resourced to provide services directly, but they are there 
to assist the families in identifying exactly what they need 
and how they can access it. Again I would refer to the 
discussion between Secretary Molino and Senator Kennedy about 
the Marine Corps OneSource program. We're working closely with 
the Department to ensure that the Reserve components in the 
National Guard are also included in those services as they are 
provided and contracted for, and that is working very well.
    Senator Chambliss. Secretary Molino, is your One Source 
program in operation at all Marine Corps bases?
    Secretary Molino. It is, Senator. It's active for the 
entire Marine Corps, active and Reserve. The Army has picked up 
on it, and has let a contract of its own. In addition to that, 
with some of the supplemental funding that Congress provided, 
we were able to go to Central Command and Special Operations 
Command and enable them, across Services, to give it to those 
family members who are assigned to those two commands.
    Senator Chambliss. To you and Dr. Tafoya, let me address 
this question. Another consistent problem that we've seen 
service-wide is the fact that some kids are required to pass 
history exams in one State, move to another State for their 
senior year, and run into a problem with credits because they 
don't get credit for that history course or that history exam 
they may have taken in Georgia and now they're in Louisiana. In 
addition, there are some courses that you may take in one State 
and you move to another State and all of a sudden they're not 
getting credit for those courses they fall behind in.
    Another example of an issue similar to this, although a 
little bit different, is what has been addressed in my State, 
and that is that any child who now graduates from high school 
and enters into a university system school pays in-State 
tuition irrespective of whether or not the parents are 
subsequently transferred to another State. I think it's a very 
positive program.
    In those types of situations, are there any ongoing 
affirmative efforts by the Department of Education as well as 
the Department of Defense towards equalizing this situational, 
and solving these problems, and do you have any thoughts about 
things that we might do to try to assist you with that?
    Dr. Tafoya. First of all, before we could actually go out 
to other people and say, here are some solutions, we had to 
ensure that we had our own house in order. We were one of the 
first groups that was involved in the Army Secondary Education 
Transition Study (SETS), where they were looking at transition 
issues, to have our superintendents around the world agree to 
accept all transcripts, to agree to accept all courses that 
students have to ensure that in the Department of Defense 
schools we were not presenting obstacles to kids. That's been 
resolved.
    We have worked closely with Otto Thomas, who also works 
with Secretary Molino. We have one of our ex-superintendents, 
Dr. McMullen, who was the superintendent at Fort Campbell's 
schools, working with local school districts that are around 
military bases to assist in that issue of transition to ensure 
that superintendents and local boards, according to the SETS 
the Army has done and the SETS agreement, they make a 
commitment to address just those things you've asked for, that 
requirements and courses and State history courses and all 
these kinds of things are addressed through the local board and 
the local superintendent. I believe there are 125 school 
districts now across the Nation who have signed onto that.
    So part of our process here is to assist in that. We've 
asked our superintendents of our DDESS schools, our domestic 
schools to work closely with the surrounding schools in their 
community to ensure that is happening. I know Secretary Molino, 
through the Office of Educational Opportunity, has addressed 
these issues, and he may want to expand on that.
    Secretary Molino. I'd like to, Senator, if you'd permit me.
    The Department, in addition to what Dr. Tafoya has 
mentioned, has sponsored four conferences in areas where 
there's a high military density that brought students, parents, 
and commanders together with school personnel and school 
districts to discuss issues in common. Specific issues were 
identified, and we've worked extensively with these leaders and 
others to ease the transition for the dependents.
    This summer, we'll activate a Web site that links to 
schools which our children are most likely to attend so that 
the students can communicate with those schools and know what 
the requirements are and bring the proper documentation with 
them, or in many cases even forward that documentation before 
they arrive.
    The SETS that Dr. Tafoya speaks of is the Army-sponsored 
Secondary Education Transition Study. It looked at the problems 
at the secondary education level for students transferring 
between schools, that has provided some very revealing 
guidance. I cited the booklet to Senator Nelson that we 
published in conjunction with the Military Impacted Schools 
Association, and we're very optimistic.
    What we have found is that some of this is a matter of 
miscommunication. Very often what one course is described as on 
a transcript is really the same course requirement. It's just 
under a different nomenclature, and we're finding that by 
breaking down these communication barriers we're having a good 
deal of success.
    Dr. Tafoya. Sir, if I may add one point about making sure 
our house is in order, we've worked very closely with others as 
the Department of Education receives the State plans, to ensure 
that we are aware of what other States are doing, especially 
those States with a large proportion of military children. We 
want to ensure that our graduation requirements, once in our 
system, are consistent with the most stringent in the Nation.
    What we don't want to have happen is have one of our 
students leave one of our DOD schools, transfer into the 
regular school, and not meet all the requirements. So, as 
States up their graduation requirements for additional math, 
algebra, geometry, we are doing likewise, because we believe 
it's our responsibility to ensure that any student leaving our 
school and going back into a regular public school is able to 
meet those State standards. We're working very closely with 
representatives of the Department of Education and local State 
superintendents to address those issues, because we want to 
ensure that, in fact, the kids are well-prepared when they 
leave our system in terms of course credits and requirements.
    Senator Chambliss. Do we have any DOD high schools?
    Dr. Tafoya. Yes, sir, we have 57 of them.
    Senator Chambliss. Are there any domestically?
    Dr. Tafoya. Yes. We have schools at Fort Campbell and Camp 
Lejeune. We have another school at Quantico and at Fort Knox. 
We have four local schools in our domestic schools. We also 
have three in Puerto Rico and one in Guam.
    Senator Chambliss. Mr. Petrilli, in your written testimony 
you discuss some of the innovative methods to enhance the 
process for certifying teachers, including online 
opportunities. It seems to have great potential to benefit 
military personnel and their spouses who are interested in 
teaching. Has the Department of Education explored the 
possibility of extending the principles of the Troops-to-
Teachers program to spouses of military members who may need 
just this type of assistance to achieve necessary training and 
certification?
    Mr. Petrilli. Thank you, Senator. We do have several 
programs that relate to people who are not in the military. We 
have a program called Transition to Teaching, which supports 
programs across the country such as Teach for America, that 
bring in talented individuals from other fields, mid-career 
professionals. Some of those programs do a lot of work online.
    We've also supported through a Star Schools grant, Western 
Governors University's Teachers College, which is entirely 
online, and is meant to be really a national system. They have 
now accreditation, and they have reciprocity agreements with 47 
States now, so if maybe a spouse of somebody who's in the 
military wants to get certified to teach, they could do so 
anytime, anywhere, and once they go through that process, that 
certification should be accepted anywhere in the country, so 
they're working hard on that. We've been very supportive of 
those efforts. We'd be happy to continue to do work on that 
front.
    We are looking at other opportunities right now to support 
additional outreach efforts to try to make sure that anybody in 
the country who wakes up one day and decides, I'd like to find 
out how I could become a teacher and what the requirements are, 
to make sure that information is easy to find.
    We support a center called Recruiting New Teachers, which 
has an online clearinghouse. They're about to do a new relaunch 
of their site, and they're going to have a lot more information 
about alternative certification to really help walk people 
through what's required in all the States to make this happen.
    A lot of this comes down to State policies, though, and the 
States being willing to look at these alternatives to their 
traditional systems. A lot of these troops simply could not 
afford to go through the traditional route of going back to 
school for several years to take all these additional courses, 
so we've really got to make a system that works for them, and 
acknowledges all the skills and knowledge that they bring into 
this service.
    Senator Chambliss. Are you getting the expected 
participation in these online training programs?
    Mr. Petrilli. Many of them are very new, so you know, at 
this point it's in its early days, and we don't know yet, but 
all indications are that this is something that's going to be 
very popular. Certainly we look to the other instances in 
higher education of online learning which are extremely 
popular, so we expect that to be the same here as well.
    Western Governors University just received its 
accreditation about 3 or 4 months ago, so they now can really 
ramp up, and we expect to see that in coming years.
    Senator Chambliss. Great. Gentlemen, let me thank you once 
again for your patience in being here, for your testimony. 
Members will have an opportunity to submit written questions to 
you. I'm sure that we're going to have some of those so that we 
can put some additional information in the record.
    Thank you very much for the great job you do for our men 
and women, and for our families. We appreciate you. Thanks for 
being here today.
    Secretary Molino. Thank you, Mr. Chairman.
    Dr. Tafoya. Thank you.
    Colonel Scott. Thank you.
    Mr. Petrilli. Thank you.
    Senator Chambliss. At this time, we'll ask our next panel 
to come forward: Dr. Shelley MacDermid from the Military Family 
Research Institute of Purdue University; Joyce Raezer of the 
National Military Family Association; and M.A. Lucas, Director 
of the Army Child and Youth Services.
    Ladies, welcome to each of you today. We have already 
received your written statements. I compliment each of you on 
the quality of your written statement, and they will be entered 
into the record. I'd like to give each of you the opportunity 
to make an opening statement to summarize your written 
statement, and if you will, so we can continue to move forward, 
limit that to 5 minutes, please. Dr. MacDermid, we will start 
with you.

STATEMENT OF SHELLEY M. MacDERMID, Ph.D., CO-DIRECTOR, MILITARY 
          FAMILY RESEARCH INSTITUTE, PURDUE UNIVERSITY

    Dr. MacDermid. Thank you very much, Chairman Chambliss, and 
thank you for your invitation to testify.
    My sense of the question that concerns you is, has military 
life become so demanding that it's destroying families, and I'd 
like to answer with an analogy. Imagine a large-frame home 
built beside the sea. It was sturdily built, on a strong 
foundation. Over the years, it has withstood major storms, 
surviving high winds, dangerous hail, and isolation from the 
mainland.
    Recently, the storms have been coming closer together and 
lasting longer, causing some damage. Less obvious than the 
periodic storms is the relentless wash of the waves, which has 
gradually eroded the shore and may be getting close to the 
foundation of the home. Dedicated and skilled workers have been 
doing repairs and preventive maintenance, but it's getting 
harder to keep up.
    This is the image that developed in my mind as I reviewed 
data about military families over time. Deployments and 
separations are the storms of military life, the acute 
challenges that families willingly face. As I'm sure you know, 
the frequency and duration of deployments have been rising for 
more than decade.
    The waves of military life are the chronic conditions 
families repeatedly confront. Frequent moves and long work 
hours are two examples. You've heard a lot about moving 
already, so let me say a word about work hours. These have been 
creeping up the beach. More than half of active duty members 
now report more than 50 hours of work per week. High or 
unpredictable work hours are associated with negative 
evaluations of military life, particularly amongst spouses.
    Despite the storms and the waves, military families seem to 
be holding strong. There is good news from several studies in 
that 75 to 90 percent of families perceive themselves as 
functioning with no major problems, even after moves and 
deployments. I have seen no clear evidence that military 
marriages on the whole have become less stable.
    I'd like to use my remaining time to try to do some long-
term forecasting about the weather systems approaching in the 
future, based on the data now in hand. First, I think there 
might be some issues on the horizon about marriage, 
specifically about spouses. Military members are now less 
likely to be married when they enter, and increasingly less 
likely to marry while they serve, although 2002 looks to have 
been an unusually good year for weddings in the military.
    To the extent that members want to be married, I wonder if 
they will feel that they must leave the military, particularly 
if the pool of prospective spouses is uninterested in military 
life. For current spouses, I think underemployment, as opposed 
to unemployment, may become a larger concern in the future. I 
also note that spouses' dissatisfaction with the amounts of 
personal time allowed military members took a sharp upward turn 
during the 1990s at the same time that members reported more 
satisfaction with military life. I wonder what the discussions 
are in those homes?
    Second, there is much we do not know about reunion and 
readjustment. Following the first Gulf War, at least two large 
studies found that members' psychological distress was 
substantially higher a year or more after reunion than it had 
been immediately upon return. The degree to which reunion 
programs are based on such findings is unclear. In general, we 
know little about the processes of readjustment within families 
over time, and especially how different approaches to 
intervention stack up. I endorse the goal of broadening access 
to family counseling as a basic resource for well-functioning 
families, as well as families with more serious issues.
    Finally, as I have reviewed the data, I have become 
increasingly concerned about depletion. Some researchers have 
observed that negative reactions to recent increases in tempo 
seem disproportionate. I wonder whether the combination of 
rising tempo and long and rising work hours may be eroding 
family resilience. Reservists in particular are being called 
upon to do more, more often, and for longer periods of time, 
but with limited access to the supports originally created with 
active duty families in mind. I think that the creation of the 
1-800 information and referral service is an excellent step in 
the right direction for them.
    We still don't know much about how challenges accumulate 
for military families over time and with what result. 
Independent of my vested interests, I think the creation of the 
Military Family Research Institute was a positive step, and 
we've been pleased to be part of efforts to address these gaps, 
for example with an upcoming study on military families as they 
move.
    This concludes my statement. Thank you.
    [The prepared statement of Dr. MacDermid follows:]

           Prepared Statement by Shelley M. MacDermid, Ph.D.

    Good morning chairmen and members of the subcommittees. I 
appreciate very much your invitation to testify. I've been asked to 
review and discuss data regarding the well-being of military families, 
especially in relation to changes in the demands posed by military 
duties. In general, my remarks focus on the Armed Forces as a whole and 
not differences among the Services. Also, my comments focus on married 
military members, but I am very aware that all members are parts of 
families who care and worry about them.
    My sense of the question that concerns you is, ``Has military life 
become so demanding that it's destroying families?'' I'll answer with 
an analogy. Imagine a large frame home built beside the sea. It was 
sturdily built on a strong foundation. Over the years, it has withstood 
major storms, surviving high winds, dangerous hail, and isolation from 
the mainland. Recently, the storms have been coming closer together and 
lasting longer, causing some damage. Less obvious than the periodic 
storms is the relentless wash of the waves, which has gradually eroded 
the shore and may be getting close to the foundation of the home. 
Dedicated and skilled workers have been doing repairs and preventive 
maintenance, but it's getting harder to keep up.
    The home in my analogy represents military families. Deployments 
and separations are the storms of military life; the acute challenges 
that families willingly face. As I'm sure you know, the frequency and 
duration of deployments have been rising for more than a decade (Polich 
& Sortor, 2001; Rand Research Brief).
    The war on terrorism has placed prolonged demands on military 
families in both the active and Reserve components. For example, in 
fiscal year 2000 less than 1 in 100 members of the Guard and Reserves 
was deployed (2002 Population Representation Report). As of last week, 
that number was more than one of every five (Wolfowitz, 2003). While 
this may be normal in time of war (Dunning, 1996), it is no less 
demanding of families.
    I have two additional observations about deployment; first, to the 
extent that they are unexpected, prolonged, and violent, hostile 
deployments are ``catastrophic'' stressors that are much more 
challenging for families than routine events (Peebles-Kleiger & 
Kleiger, 1994). Second, deployment is not the only military event that 
separates families. Unaccompanied tours of duty and other assignments 
should not be ignored as part of the military ``weather system''.
    The waves of military life are the chronic conditions families 
repeatedly confront: Frequent moves and long work hours are two 
examples. With each move, employed spouses who comprise about two-
thirds of the total lose several weeks of work, and children make 
educational transitions (Active Duty Survey, 1999; Hosek, Asch, Fair, 
Martin & Mattock, 2002), sometimes changing schools multiple times with 
a single change of station because of moves to and from temporary 
housing. Substantial percentages fall behind or lose academic credit. 
The schedule mismatch between children's school days and parents' work 
days makes affordability and accessibility of nonparental child care 
major challenges, even for school-aged children too young--or teenagers 
too old--to be left home alone.
    Work hours are another wave in the weather picture, and they have 
been creeping up the beach: the percentage of active duty members 
reporting more than 50 hours of work per week rose from 46 to 56 
percent between 1992 and 1999 (Active Duty Surveys). High or 
unpredictable work hours are associated with the perception that work 
responsibilities interfere with family life, which in turn is related 
to family problems and disagreements, and especially among spouses, 
negative evaluations of military life. Soldiers with more predictable 
work hours, who feel better informed, or who feel that their tasks are 
necessary, well-planned or relevant report significantly lower conflict 
and inclination to leave (Castro & Adler, 2000; Durand, Burrell, Stetz, 
& Castro, 2003; Huffman et al., 2001). In the future, work-family 
conflict may grow as a concern because workers in general have 
increased their participation in family life and may be becoming less 
tolerant of the invasion of home life by work.
    Despite the storms and waves, military families seem to be holding 
strong. There is good news from several studies, in that 75 to 90 
percent of families perceive themselves as functioning with no major 
problems, even after moves or deployment (Orthner, 2002a; Kleiger & 
Kleiger, 1994; Marlowe, 2000). In addition, military members' overall 
satisfaction with military life has been rising slightly (Active Duty 
Surveys, 1985, 1992, 1999). To the extent that deployments are not too 
numerous or demanding, and offer personal challenges and professional 
opportunities, there is some evidence that they increase members' 
willingness to stay--especially members with dependents (Hosek & 
Totten, 2002; Huffman et al., 2001). Spouses' satisfaction with their 
employment and career opportunities, while still relatively low, rose 
during the 1990s, evidence of success of the strong efforts by the 
Office of Military Community and Family Policy and others to assist 
them.
    I know that there has been concern that the percent of married 
military members has fallen, but I have seen no clear evidence that 
military marriages on the whole have become less stable (MFRC, 2001). 
There is some suggestion that deployment may exacerbate the instability 
of already-troubled relationships, however (Schumm, Bell & Gade, 2000).
    The news is also generally encouraging regarding the possible 
connection between deployment and spouse abuse. Overall, substantiated 
reports of spousal abuse fell from 1998 to 2002 (Keel, 2003). Recent 
longitudinal analyses show that the strongest predictor of post-
deployment violence is not deployment but earlier violence (McCarroll, 
2000, 2002).
    I'd like to use my remaining time to try to do some long-term 
forecasting about the weather systems approaching in the future, based 
on the data now in hand.
    First, I think there might be some issues on the horizon about 
marriage, specifically about spouses. Military members are now less 
likely to be married when they enter, and increasingly less likely to 
marry while they serve, although 2002 looks to have been an unusually 
good year for weddings (DMDC, 2003)! To the extent that members want to 
be married, I wonder if they will feel they must leave the military, 
especially if the pool of prospective spouses is uninterested in 
military life.
    For current spouses, I think underemployment, as opposed to 
unemployment, may become a larger concern in the future. I know of no 
studies specifically on this issue, but in the July 2002 Status of 
Forces Survey, 29 percent of active duty members reported that their 
spouses were overqualified for their work. I know that spousal 
employment is already a high-priority issue for military policymakers, 
and continued efforts to expand access to good jobs and to child care 
are likely to help.
    I also note that spouses' dissatisfaction with the amount of 
personal time allowed military members took a sharp upward turn during 
the 1990s, at the same time that members reported more satisfaction 
with military life. Spouses continue to raise concerns about family 
communication during military action (Bell & Schumm, 1999). Anxiety, 
pain and anger on this issue come through loud and clear in family 
members' contributions to the our web-based deployment diary.
    Second, there is much we do not know about reunion and 
readjustment. Following the Gulf War, at least two large studies found 
that members' psychological distress was substantially higher a year or 
more after reunion than it had been immediately upon return (Marlowe, 
2000; Wolfe, Keane, & Young, 1996)--the degree to which reunion 
programs are based on such findings is unclear. In general, we know 
little about the processes of readjustment within families over time, 
and how different approaches to intervention stack up. I endorse the 
goal, however, of broadening access to family counseling as a basic 
resource both for well-functioning families who need help over a hump, 
and families with more serious issues.
    High percentages of active duty military members continue to report 
being unaware of some or all of the family support mechanisms available 
to them (Mancini & Archambault, 2000; Orthner, 2002a). I applaud the 
efforts of the Office of Military Community and Family Policy to 
improve awareness and coordination via the Joint Family Support 
Contingency Working Group.
    Finally, as I have reviewed the data, I have become increasingly 
concerned about depletion. Some researchers have observed that negative 
reactions to recent increases in tempo seem disproportionate (Polich & 
Sortor, 2001); I wonder whether the combination of rising tempo and 
long and rising work hours may be eroding family resilience. Reservists 
in particular are being called upon to do more, more often, and for 
longer periods of time, but with limited access to the supports 
originally created with active duty families in mind--I think that the 
creation of 1-800 information and referral is an excellent step in the 
right direction for them.
    Unfortunately, since DOD has so far conducted relatively little 
longitudinal research, especially about Reserve families, we don't know 
enough about how challenges accumulate over time and with what result. 
Independent of my vested interest, I think the creation of MFRI was a 
very positive step and we have been very pleased to be part of efforts 
to address these gaps with, for example, the upcoming Military Families 
on the Move study.
    In conclusion, the military house continues to stand strong, but it 
is being tested. The options for policy makers are to reduce the 
storms, abate the waves, and devote even more resources to preventive 
maintenance and repair.
                                sources
    Bell, D.B. & Schumm, W.R. (1999). Family adaptation to deployment. 
In P. McClure (Ed.), Pathways to the future: A review of military 
family research (pp. 109-132). Scranton, PA: Military Family Institute.
    Bianchi, S.M. (2000). Maternal employment and time with children: 
Dramatic change or surprising continuity? Presidential address to the 
Population Association of America.
    Casper, L.M. & Bianchi, S.M. (2002). Continuity and change in the 
American family. Thousand Oaks, CA: Sage.
    Castro, C.A. & Adler, A.B. (2000, November). The impact of 
operations tempo: Issues in measurement. Presentation at the annual 
meeting of the International Military Testing Association, Edinburgh, 
U.K.
    Defense Manpower Data Center. (2003). Analysis of decreasing 
percentages of active duty personnel that are married: fiscal year 1994 
to fiscal year 2002. Prepared for Ms. Jeanne Fites, DUSD (Program 
Integration). Arlington, VA: Author.
    Defense Manpower Data Center. (2000). Youth attitude tracking 
study: 1999 propensity and advertising report. Arlington, VA: Author.
    Defense Manpower Data Center. 1985, 1992, 1999 Survey of Active 
Duty Personnel: Arlington, VA: DMDC, Survey and Program Evaluation 
Division.
    Deputy Assistant Secretary of Defense (MC&FP). (2003, June). 
Quality of life and transformation: Underwriting family support. Status 
of Forces Briefing.
    Dunning, C.M. (1996). From citizen to soldier: Mobilization of 
reservists. In R.J. Ursano & A.E. Norwood (Eds.), Emotional aftermath 
of the Persian Gulf war: Veterans, families, communities and nations 
(pp. 197-226). Washington, DC: American Psychiatric Press.
    Durand, D.B., Burrell, L., Stetz, M., & Castro, C. A. (2003, 
April). Work/family conflict issues for soldiers and families. 
Presentation.
    Gaines, C., Deak, M.A., Helba, C. & Wright, L.C. (2000). 
Tabulations of responses from the 1999 survey of active duty personnel 
(Vol. 2). Arlington, VA: Defense Manpower Data Center. DMDC Report No. 
2000-2007.
    Hosek, J., & Totten, M. (2002). Serving away from home: How 
deployments influence reenlistment. Santa Monica, Calif: RAND, MR-1594-
0SD.
    Hosek, J., Asch, B. C., Fair, C., Martin, C., & Mattock, M. (2002). 
Married to the military: The employment and earnings of military wives 
compared with those of civilian wives. Santa Monica, CA: RAND, MR-1565-
0SD.
    Huffman, A.H., Adler, A.B., Dolan, Ca. A., Thomas, J.L., & Castro, 
C.A. (2001, November). Impact of OPTEMPO on retention of U.S. Personnel 
in Europe. Presentation at the annual meeting of the American 
Psychological Association, San Francisco, CA. (OPTEMPO Report Series 
#11).
    Jensen, P.S. (1999). Mental health in military children: Military 
risk factors, mental health and outcomes. In P. McClure (Ed.), Pathways 
to the future: A review of military family research (pp. 155-182). 
Scranton, PA: Military Family Institute.
    Jensen, P.S., Martin, D. & Watanabe, H. (1996). Children's response 
to parental separation during Operation Desert Storm. Journal of the 
American Academy of Child and Adolescent Psychiatry, 35, 433-441.
    Keel, Marilyn (2003). Child Abuse Data Trends From 1998 to 2002; 
Spouse Abuse Data Trends From 1998 to 2002. Information Paper. Family 
Advocacy Program.
    MacDermid, S.M., Olson, T.M., & Weiss, H.M. (2002, October). 
Supporting military families throughout deployment. Presentation at 
Family Contingency Assessment and Planning Meeting, Alexandria VA.
    Mancini, D.L. & Archambault, C. (2000, August). What recent 
research tells us about military families and communities. Presentation 
at the DOD Family Readiness conference, Phoenix, AZ.
    Marlowe (2000). Psychological and psychosocial consequences of 
combat and deployment with special emphasis on the Gulf War. Santa 
Monica, CA: RAND.
    McCarroll, J.E. (2000). Deployment and the probability of spouse 
aggression by U.S. Army soldiers. Military Medicine, 165, 41-44.
    McCarroll, J.E. et al. (2003). Domestic violence and deployment in 
U.S. Army soldiers. The Journal of Nervous and Mental Disease, 191, 3-
9.
    McCarroll, J.E., Ursno, R.J., Newby, J.H., Liu, X., Fullerton, 
C.S., Norwood, A.E., & Osuch, E.A. (2003). Domestic violence and 
deployment in U.S. Army soldiers. The Journal of Nervous and Mental 
Disease, 191,3-9.
    Military Family Resource Center. (2001). Profile of the military 
community: 2001 demographics. Arlington, VA: Author.
    Military Family Resource Center. (1998). Military Families: Staying 
in Step in the 1990s. Arlington, VA: Author.
    Orthner, D.K, & Rose, R. (2003). Dealing with the effects of 
absence: Deployment and adjustment to separation among military 
families. Journal of Family and Consumer Sciences. 95. 33-37.
    Peebles-Kleiger, M. & Kleiger, J.H. (1994). Re-integration stress 
for Desert Storm families: Wartime deployments and family trauma. 
Journal of Traumatic Stress, 7, 173-194.
    Polich, J.M. & Sortor, R. (2001). Deployments and Army personnel 
tempo. Santa Monica, CA: RAND, MR-1417-A.
    Population Representation in the military services. Fiscal Year 
2000. February 2002 http://www.defenselink.mil/prhome/poprep2000. 
Downloaded June 12, 2003.
    Schumm, W.R., Bell, D.B. & Gade, P.A. (2000). Effects of a military 
overseas peacekeeping deployment on marital quality, satisfaction and 
stability. Psychological Reports, 87, 815-821.
    Secretary of Defense. (2002). 2001 Annual Report to Congress. 
Appendix N.
    Segal, D.R. & Segal, M.W. (1999). Changes in the American Armed 
Forces: Implications for military families. In P. McClure (Ed.), 
Pathways to the future: A review of military family research (pp. 1-
10). Scranton, PA: Military Family Institute.
    Wolfe, J., Keane, T.M. & Young, B.L. (1996). From soldier to 
civilian: Acute adjustment patterns of returned Persian Gulf veterans. 
In R.J. Ursano and A.E. Norwood (Eds.), Emotional aftermath of the 
Persian Gulf war: Veterans, families, communities, and nations (pp. 
477-500). Washington, DC: American Psychiatric Press.
    Wolfowitz, P. (2003, Washington). Testimony on U.S. military 
presence in Iraq: Implications for global defense posture. Prepared for 
delivery for the House Armed Services Committee.

    Senator Chambliss. Thank you very much, Dr. MacDermid.
    Ms. Raezer, welcome back to the Subcommittee on Personnel. 
We're pleased to have you once again. I enjoyed your written 
statement and look forward to your summary comments.

    STATEMENT OF JOYCE WESSEL RAEZER, DIRECTOR, GOVERNMENT 
        RELATIONS, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Raezer. Thank you, Chairman Chambliss. I want to thank 
you and Chairman Alexander for seeking the military family 
input at your recent field hearings, and for your continued 
interest in determining how best to support these families as 
they support the mission. NMFA thanks Congress for its work 
over several years to provide pay, housing allowance, and other 
benefit improvements necessary to retain the quality force now 
protecting our homeland and waging war against terror.
    We also thank you for including that $150 increase in the 
family separation allowance in the fiscal year 2003 
supplemental appropriations, and in the Senate version of the 
defense authorization for 2004, and would hope that that 
permanent authority is approved for all service members on 
orders away from their families. Whether a service member is 
deployed to Iraq, on a ship in the Pacific, or on an 
unaccompanied tour to Korea, to the family it's the same thing. 
Gone is gone.
    Our written statement details many of the pressing issues 
affecting families, not just related to deployment, but also to 
their daily life, and as we've seen today, all of those things 
intersect. We urge you to examine how these issues intersect, 
and to ensure that changes made to remedy one problem do not 
result in an unintended consequence that creates a problem 
somewhere else. As seen in our discussion of military 
allowances, our families too often deal with the confusion 
caused by unintended consequences of program or policy changes.
    Although some service members are coming home, many will be 
deployed for a very long time in too many locations around the 
world. Others are working those long hours at their home 
station to support their deployed colleagues. These service 
members need to know their families are as prepared as possible 
to handle the stress of deployment, that they can access vital 
support services wherever they live, and that's important, 
because so many of our families don't live on the installation, 
and that the volunteers and family support personnel on the 
front line of family support have the backup and resources they 
need to assist families over the long term and in crisis 
situations.
    NMFA congratulates the Department of Defense for 
initiatives now in place, and for the heightened level of 
support provided during Operation Iraqi Freedom, especially the 
joint actions across the Services and the active and Reserve 
components.
    We believe the level of family support now is higher than 
it was in the first Gulf War. What concerns us is how that 
level of support will be sustained over the long term.
    Like Dr. MacDermid, I also had a weather analogy. My 
weather analogy was that dealing with deployment is a little 
bit like having a cloud over one's head the entire time. You 
have to go about your daily business, but the deployment is 
always there, just as the clouds have been over all of us on 
the east coast this spring, and so you have to look at both the 
daily life and the extra pressure that deployment brings, 
because that daily life has to go on. The children need the 
quality education, spouses need a satisfying job, health care 
has to be available, their homes must be safe and well-
maintained, and the family must be secure financially.
    What we are seeing is also that depletion, the fatigue, 
military families as they're dealing with the simultaneous 
burden of all of this, the deployments, pre-, post-, during 
deployment, education issues, spouse career issues, all of that 
is made worse, and more unpredictable when families don't have 
a consistent source of information or support services.
    There are many wonderful support services. Unfortunately, 
the level of information and support still varies across the 
Services, and across the active and Reserve components, across 
units within a single Service. They also depend on where 
families live, and whether the service member is deployed as 
part of the unit, or individually. Family support 
responsibilities are the command's rear detachment of 
volunteers, and professional family support staff must be 
clearly delineated and standards set so that families know 
where to go for assistance, and so that everything does not end 
up on the shoulders of volunteers.
    Wonderful programs such as the ones referenced here today 
don't help if service members and families don't know about 
them. Family communication with the service member and the unit 
is essential during deployments, but family expectations about 
the level of that communication must be realistic so that those 
expectations don't actually contribute to the stress.
    Some service members deployed to Iraq have been able to 
send and receive e-mail and regular mail messages and have had 
the opportunity to make weekly morale calls home. For those who 
haven't, and there are many, the families are more stressed. 
The unknown is always harder to deal with, especially when, as 
one service member's mother told us, we keep hearing on the 
radio that a soldier has died.
    Families don't understand why their service members can't 
communicate regularly. Commands must contribute. Commanders 
must help service members communicate, and must encourage not 
discourage, and demand that their rear detachments communicate 
with families, especially if that unit is in a situation that's 
on the nightly news, and that includes Guard and Reserve 
families as well.
    Other witnesses have talked a lot about the school issues. 
The schools are on the front line of family support for a lot 
of our families, and we hope that the support for schools will 
continue, both the DOD schools, and the civilian schools that 
educate most of our children.
    Service members can't afford to be distracted by worries 
that their spouse is having problems with finding a job, that 
their children aren't doing well in school, that their disabled 
child has lost vital services because of the deployment and the 
counting of an allowance. The stability of a military family 
and community and the ability of the service member to focus on 
the mission rests on the Nation's continued focus on the entire 
package of quality-of-life components.
    [The prepared statement of Ms. Raezer follows:]

               Prepared Statement by Joyce Wessel Raezer

    Chairman Chambliss, Chairman Alexander, and distinguished members 
of these subcommittees, the National Military Family Association (NMFA) 
is appreciative of your interest in the well-being of military families 
as evidenced by the scheduling of this hearing and recent field 
hearings. Your focus on military families at this critical time sends a 
message to those families that Congress is interested in how they are 
faring and wants to ensure they have the tools they need to maintain a 
stable home life while supporting their service members engaged in the 
military mission.
    This statement highlights the most pressing deployment-related 
concerns, as reported to NMFA by military families and our network of 
more than 140 Installation Representatives. It also includes a 
discussion of other important issues affecting military families' 
quality of life: the education of military children, spouse employment, 
relocation, health care, and how military allowances are treated by 
other government programs. While attention over the past year has 
appropriately focused on deployment-related issues, it is important to 
remember that military families' quality of life, and thus their 
ability to support the service member's mission, depends on the 
interaction of many factors. Service members look to the Nation to 
understand the family's quality of life is a readiness requirement: 
service members must have confidence their family is taken care of in 
order to focus on their military task. Quality of life is not just 
about the support provided during deployment, nor just about pay. It is 
about having a safe, well-maintained place to live. It is about access 
to quality health care without bureaucratic complexities. It is about a 
quality education for their children. It is about meeting the 
aspirations of a spouse for a career and a couple for a secure 
retirement. It is about respect for a job well done.

                            FAMILY READINESS

    Since September 11 active duty members and their National Guard and 
Reserve peers have engaged in numerous duty assignments from homeland 
security to armed conflict. At the same time, members have continued to 
perform ongoing missions in various far-flung areas of the globe. 
Deployments produce economic and psychological strain and raise stress 
levels in the family. The lifeline of the military family, the military 
community, also feels the strain. Family services are important to an 
installation not pressured by high perstempo or conflict-related 
deployments. They are essential when families are left behind. Family 
center personnel, military chaplains, installation mental health 
professions and Morale, Welfare and Recreation programs all provide 
needed assistance to families. When spouses find themselves as the sole 
head of the family, the services available to assist them and their 
children are truly lifelines. E-mail, video teleconferencing centers, 
and special family activities ease the strains and pains of separation. 
But none of these services are without cost. Just as the deployed 
service member's readiness is dependent on proper training, food, 
shelter, clothing and weapons systems, the readiness of the family is 
dependent on accessing needed services. Both must have adequate funding 
and staff to ensure a force ready to successfully carry out its 
assigned mission.
    NMFA is appreciative of actions taken earlier in this session of 
Congress to ease the financial burden facing military families as they 
deal with deployment by providing an increase for Family Separation Pay 
in the fiscal year 2003 supplemental. We strongly request permanent 
authority to provide the increase for all service members deployed from 
their families, as included in S.1050, the Senate version of the 
National Defense Authorization Act (NDAA). Whether the service member 
is deployed to Iraq, on a ship in the Pacific, or on an unaccompanied 
tour in Korea, to the family, ``gone is gone!''
Families and Deployment
    Lessons learned during the first Gulf War and subsequent operations 
on how to support families have resulted in a wider range of options to 
assist families, units, and installations in communication and family 
support during the most recent deployments. Recent initiatives to 
support families include:

        <bullet> Toll-free information lines;
        <bullet> Partnerships with organizations such as the Armed 
        Forces YMCA, Boys and Girls Clubs, and 4-H Clubs to provide 
        additional youth activities and after-school care;
        <bullet> Increased after-hours child care available at some 
        installations;
        <bullet> Family readiness materials posted on various 
        Department and Service Web sites;
        <bullet> Additional Family Assistance Centers set up in 
        communities dealing with high levels of deployment;
        <bullet> Improved information and assistance for Reserve 
        component families transitioning to TRICARE;
        <bullet> Family support personnel tasked to obtain family 
        contact information from service members at mobilization sites;
        <bullet> Increased training and guidance for rear detachment 
        personnel;
        <bullet> Increased interaction with nearby civilian community 
        organizations, including schools; and
        <bullet> Improved return and reunion programs to support 
        service members and families in the post-deployment period.

    A program offered by Army Chaplains, ``Building Strong and Ready 
Families'' is a good example of innovative family programs and 
coordination between commanders and helping agencies. It is targeted at 
improving relationship skills and assisting initial-entry soldiers and 
their families with making the transition into the military culture. A 
clarification on the use of appropriated funds to pay the expenses of 
soldiers and their families to participate in these command-sponsored, 
chaplain-lead training opportunities was included in the Fiscal Year 
2003 Defense Appropriations Act; permanent authority applying to the 
active and Reserve components in all Services is included in H.R.1588. 
NMFA requests that the Conference Committee include this language in 
the final version of the Fiscal Year 2004 NDAA.
    Based on what NMFA hears from families, initiatives put in place 
since the first Gulf War have enabled them to better cope with 
deployment-related demands this time around. There are gaps, however, 
as pointed out by the family members at the recent field hearings. 
Problem areas include the need for more child care, better 
communication with the service member, timely information from the 
command, specialized support for geographically-separated Guard and 
Reserve families, training and back-up for family readiness volunteers, 
and enhanced support mechanisms to deal with crisis situations arising 
from long or frequent deployments. NMFA is concerned that installations 
have had to divert resources from the basic level of family programs to 
address the surges of mobilization and return. Just as the Family 
Separation Allowance helps families deal with the increased financial 
burdens they face during deployment, resources must be available for 
commanders and others charged with ensuring family readiness to help 
alleviate the strains on families facing more frequent and longer 
deployments.
    Family Readiness volunteers and installation family support 
personnel have been stretched thin over the past 2 years as they have 
had to juggle pre-deployment, ongoing deployment, and return and 
reunion support, often simultaneously. Unfortunately, this juggling act 
will likely continue for some time as many service members are only now 
leaving for deployments of indeterminate lengths. Volunteers, whose 
fatigue is evident, are frustrated with being called on too often 
during longer than anticipated and repeated deployments. As these 
family members--on whom the military depends to help others even while 
dealing with their own family needs--expressed to you in the field 
hearings, they support the service members' choice to serve; however, 
they are worn out and concerned they do not have the training or the 
backup from the family support professionals to handle the problems 
facing some families in their units. Military community volunteers are 
the front line troops in the mission to ensure family readiness. They 
deserve training, information and assistance from their commands, 
supportive unit rear detachment personnel, professional backup to deal 
with family issues beyond their expertise and comfort level, and 
opportunities for respite before becoming overwhelmed.
    NMFA knows that the length of a deployment in times of war is 
subject to change, but also understands the frustrations of family 
members who eagerly anticipated the return of their service members on 
a certain date only to be informed at the last minute that the 
deployment will be extended. The unpredictability of recent deployments 
is perhaps the single most important factor, other than the danger 
inherent in combat situations, frustrating families today. This 
unpredictability extends also to the length of time a family can count 
on a service member being home before he or she is ordered for another 
deployment. Families who can count on a set return date cope better 
than those dealing with an unknown return. Because of the unpredictable 
nature of the military mission today, family members need more help in 
acquiring the tools to cope with the unpredictability.
    To better assist family members deal with the unpredictable, a 
clearer delineation of responsibility must be developed on who among 
the command, the professional family program staff, or other helping 
agencies provides what information, what training, and what support for 
families. Although the Services have improved rear detachment 
accountability and responsibilities since the first Gulf War, NMFA 
still hears of too many cases where rear detachment personnel 
supposedly the commander's information connection to families and the 
first line of assistance in dealing with the military chain of command 
and in facilitating communication with the service member were not 
responsive to the needs of unit families, did not provide timely 
information to volunteers, or did not even know what resources were 
available in the community. Families often express confusion about 
where to turn for assistance to the rear detachment, to the 
installation family center, or to the new Family Assistance Center set 
up in response to the deployment. Unit Family Readiness Group leaders 
ask where they are to receive training in communicating with and 
supporting other family members and what level of support is 
appropriately their responsibility. Because responsibilities are often 
not well-delineated, family volunteers frequently feel that everyone's 
problems are being dumped on them, even when they do not have the 
requisite skills to handle them.
    Commanders may recognize these gaps, but often do not have the 
expertise or time to train their rear detachment or volunteers in 
dealing with family issues, nor do they always know what resources are 
available either. Commanders must set the expectation that their rear 
detachment personnel assist families when needed and that families are 
to be kept informed about what is happening in the deployed unit. 
Communication is key in allaying some of the stress associated with a 
deployment, especially when the unit is involved in an operation 
featured on the nightly news. Frequent communication also dispels 
rumors. A capable rear detachment cadre and family readiness volunteers 
help to facilitate communication to and from the command and to serve 
as the commander's agents in supporting families. NMFA believes that 
the responsibility for training the rear detachment personnel and 
volunteers and in providing the backup for complicated cases beyond the 
knowledge or comfort level of the volunteers should flow to the 
installation family center or Guard and Reserve family readiness staff. 
Family program staff must also facilitate communication and 
collaboration between the rear detachment, volunteers, and agencies 
such as chaplains, schools, and medical personnel.
    Organizational stovepipes continue to hinder collaboration in the 
development and maintenance of strong emotional and mental health in 
both individuals and families of the military community. As was seen in 
the Fort Bragg, NC domestic violence cases during the summer of 2002, 
not all military family members or service members make use of the 
counseling and support services available to them. While the TRICARE 
mental health benefits are rich by the standards of many other plans, 
the program does not have a preventive care component. For TRICARE to 
pay for services, there must be a medical diagnosis, thus discouraging 
many family members from seeking care. Many members and their families 
also believe that seeking counseling services through military programs 
may harm their careers or that these services are only intended for 
families identified as having problems. The authors of the Fort Bragg 
Epidemiological Consultation Report who examined the domestic violence 
incidents noted that the various support agencies do not often 
coordinate their activities. NMFA strongly believes that better 
coordination and communication among all installation helping agencies 
as well as with those in the civilian community is imperative to help 
families deal with stress and promote better mental health. NMFA also 
believes that TRICARE must cover preventive mental health services just 
as it covers medical preventive services such as well-baby checks, 
immunizations, PAP smears, and mammograms. An emphasis on emotional 
health rather than treatment may also make beneficiaries more likely to 
seek appropriate services in a timely manner.
National Guard and Reserve Families
    As of June 18, 210,256 National Guard and Reserve members were on 
active duty. While many of the challenges faced by their families are 
similar to those of active component families, they must face them with 
a less-concentrated and mature support network and, in many cases, 
without prior experience with military life. Unlike active duty units 
located on one installation with families in close proximity, Reserve 
component families are frequently miles from the service member's unit. 
Therefore, unless they pay for their own travel expenses, families are 
often unable to attend unit pre-deployment briefings. NMFA constantly 
hears the frustrations family members experience when trying to access 
information and understand their benefits. The lack of accurate benefit 
information and unrelenting communication difficulties are common 
themes among Guard and Reserve families.
    DOD has developed several key initiatives that address the needs of 
Guard and Reserve families. NMFA applauds this effort, but there is 
still much to be done. Although the Guard and Reserve have increased 
the number of paid family readiness coordinators to assist volunteers 
and provide basic information, Guard and Reserve unit volunteers, even 
more than many of their active duty counterparts, are still stressed 
because of the numbers of families they must assist and the demands 
placed upon them. At a minimum, NMFA requests funding for child care to 
enable these dedicated volunteers to perform their expected tasks more 
efficiently. Funding to enable families to attend pre-deployment 
briefings would help strengthen the ties between the units and the 
families and the families with each other and assist in ensuring that 
accurate information is provided directly to the family members. Guard 
and Reserve families ask for standardized materials that are 
appropriate to all Services, so that if an Army Reserve family happens 
to live close to a Navy installation they would understand how to 
access services there. The establishment of a joint Family Readiness 
program could facilitate the understanding and sharing of information 
between all military family members.
    Through our contact with Guard and Reserve families and family 
support personnel over the past year, NMFA has heard wonderful stories 
of individual States, units, and families caring for and supporting 
each other. NMFA is aware of leadership involvement at all levels to 
help ease the challenges faced by service members and families. NMFA is 
especially proud of the efforts of The National Committee for Employer 
Support of the Guard and Reserve (ESGR) as an advocate for the Reserve 
component member facing employment issues. ESGR is encouraging 
employers to set up their own family support programs and provides 
information to employers and to their employees about the legal rights 
of Reserve component members. By providing this information in the 
workplace, ESGR is helping civilian communities gain a better 
understanding of the valuable role the Guard and Reserve play in the 
defense of our Nation.
    Compensation issues continue to be of paramount concern among Guard 
and Reserve families. Some surveys indicate that as many as one-third 
of Reserve component members have taken a significant pay cut upon 
activation. Families who initially financially prepared for a 6-month 
activation now are faced with the devastating monetary consequences of 
a 1- or 2-year loss in income. Some small business owners and single 
practice professionals are facing the loss of their businesses. NMFA is 
aware of the disaster the previous income replacement program created, 
but believes that attention must be directed to these problems or 
retention of these individuals may become extremely problematic. In 
addition, some Guard and Reserve members experienced problems with pay 
processing upon activation. This delay in receiving the paycheck led to 
overdue payments on bills, and occasional threats to foreclose on 
mortgages or to turn the family over to a collection agency. Pay and 
personnel systems for activated Guard and Reserve members must work in 
coordination so families do not have to deal with bill collectors.
Opportunities Exist for Joint-Service Collaboration
    NMFA applauds the Office of Military Community and Family Policy in 
the Office of the Secretary of Defense (OSD) for its creation of a 
Joint Family Support Contingency Working Group to promote better 
information-sharing and planning among OSD and the military Service 
headquarters family support staff, including the Reserve components. 
NMFA appreciates the invitation to participate in this working group, 
an innovative concept that grew out of the successful collaboration in 
the operation of the Pentagon family assistance center after the attack 
on the Pentagon. The working group understands that most military 
families live off-base and is encouraging new ways of helping families 
that are not all centered on the installation. NMFA has long promoted 
additional outreach into the civilian community by installation 
personnel so that family members unable to get to an installation can 
still receive needed assistance. The possibility of further incidents 
that might prompt restricted access to installations makes this 
outreach even more imperative.
    Working group discussions have also highlighted just how ``joint'' 
our military has become and how joint coordination to improve family 
readiness makes sense in providing consistent information and in using 
scarce personnel and other resources to the best advantage. Because 
service members increasingly serve on joint missions or are assigned to 
installations not belonging to their parent Service, they need easily 
accessible information and support not necessarily tied to one 
particular Service. A start in improved joint family readiness support 
would be the establishment a common web and phone portal to provide 
basic information and referral services. One possible vehicle for 
providing this joint information portal and for communicating with 
family members and helping them access assistance when needed, wherever 
they are located, is being tested by the Marine Corps Community 
Services (MCCS). The new program, ``MCCS One Source,'' provides 24 
hours a day, 7 days a week, telephone and online family information and 
referral, situational assistance, and links to military and community 
resources. Since February 1, this service has been available to active 
duty and Reserve Marines and their family members. The Army is also 
making this service available to soldiers and families at an expanding 
list of installations. Employee Assistance Programs such as ``One 
Source,'' provide an accessible source of information for service 
members and families and, if properly coordinated with other support 
services, should allow service family support professionals to devote 
more time and attention to supporting unit volunteers and to assisting 
families with more complex problems.
    Joint-service, community-based support, supplementing the 
information and assistance provided through the unit during a 
deployment makes sense, especially for Guard and Reserve families 
geographically separated from the service member's unit and from each 
other, NMFA suggests that DOD strengthen and perhaps formalize 
partnerships with national organizations such as the American Red Cross 
and U.S. Chamber of Commerce to enlist their assistance through their 
local chapters in setting up community-based support groups for 
military family members. The groups could include not only spouses and 
significant others of all deployed members, no matter what unit or 
Service the member is attached to, but also the parents of service 
members. Involving local community leaders in setting up these support 
groups would address two of the most common concerns expressed by some 
of these isolated families: the feeling that they are the only families 
in town going through the strain of deployment and the sentiment that 
people not associated with the military do not appreciate their 
sacrifices.
Child Care
    Military child care is another important element in family 
readiness. In testimony this spring, Sergeant Major of the Army Jack 
Tilley noted that during 2002, 27 percent of enlisted soldier parents 
reported lost duty time due to a lack of child care. Deployments 
increase the need for child care. Families, where the parents were 
previously able to manage their work schedules to cover the care of 
their children, must now seek outside child care as one parent deploys. 
Guard and Reserve families most often do not live close enough to a 
military installation to take advantage of the subsidized, high-quality 
care available at the Child Development Center or Family Daycare homes. 
Since 2000, DOD has had the authority to increase the availability of 
child care and youth programs through partnerships with civilian 
agencies and other organizations. The Services set up pilot programs to 
take advantage of this authority and obtain more care for children off 
the installations; however, NMFA has been informed that less than 10 
percent of DOD child care is provided off-base.
    To meet the needs of far-flung families, some with limited funds to 
pay for child care, DOD must look for innovative ways to provide access 
to child care services, tied not to specific locations selected by DOD, 
but to what best serves parents and children. Employee Assistance 
Programs such as the Marine Corps's ``One Source'' could help families 
locate the child care and a DOD subsidy, possibly based on the income 
categories used to determine rates at DOD centers, would help create a 
more equitable benefit. Another option to help military families pay 
for child care would be to make them eligible to contribute pre-tax 
dollars to a Flexible Spending Account. These accounts are popular in 
many civilian work places and are currently being implemented for 
Federal civilians in some agencies.
    Military spouses testifying at the field hearings spoke 
emphatically about the need for increased child care slots to serve 
families of deployed service members. While there may be some increased 
need for full-time slots, the greatest need is for hourly care to 
support spouses in their roles of family readiness volunteers, to 
enable a spouse to keep a doctor's appointment or attend a parent-
teacher conference, or just to provide a well-deserved respite for both 
parent and children. Hourly care has almost always been in short supply 
at many installations and NMFA is concerned that current funding 
levels, as well as those proposed for fiscal year 2004, for the 
Military Child Development System may not be adequate to meet both the 
routine demands for child care and the increased need due to 
deployments. We request additional funds to ensure the provision of the 
high quality child care service members and their families need.
Return and Reunion
    The Services recognize the importance of educating service members 
and family members about how to effect a successful homecoming and 
reunion and have taken steps to do so. The Navy pioneered this process 
and has been holding reunion briefings on ships prior to homecoming for 
several years. The Army, Marine Corps, and Air Force, learning lessons 
from recent deployments and the tragedy of Fort Bragg, have developed 
online programs and brochures for the service members and their 
families. They have also stepped up briefings for returning service 
members and, when possible, their families to assist in the return and 
reunion process. Information gathered in the now-mandatory post-
deployment health assessments may also help identify service members 
who may need more specialized assistance in making the transition home. 
Successful return and reunion plans depend on the interaction between 
all helping agencies, support from the command, and multiple methods of 
getting information and assistance to service members and families.
    Return and reunion programs are aimed at both traditional and non-
traditional family units, including single and married service members, 
spouses, parents, children, and significant others. The information 
spans subjects from finances and division of chores to recultivating 
family intimacy and practicing safe driving procedures. The Services 
have gone from the old policy of ``if we wanted you to have a family we 
would have issued you one'' to sharing guidance on how to reestablish 
intimacy with your spouse or significant other after separation. The 
one underlying theme with almost all the literature available is to 
``go slow'' and develop realistic homecoming expectations. Other 
organizations outside the Services, such as the American Red Cross, 
offer reunion resources as well.
    The question remains, however: how can one access the information? 
Returning military units will be briefed as units before they are 
returned home, but what about the service members deployed and 
returning individually? Information for families is readily available 
on a variety of ``unofficial,'' family-friendly Web sites. However, 
there are times one needs to know the special code word or the secret 
hand shake to navigate or even find the official Service Web sites to 
know that Lifelines is the family friendly program for the Navy, 
Crossroads is the source for Air Force family information, the Well-
Being tab on the official Army site contains information on family 
programs, or that ``One Source'' is available for both active and 
Reserve marines. Web information is an easy fix, however. The biggest 
challenge is reaching the geographically isolated families, the 
families of service members who deployed individually or not as a part 
of a unit, or the families with no access to the web. News about 
briefings for families should be disseminated as widely as possible. As 
NMFA has emphasized before, family briefings would be better attended 
if child care and travel expenses were provided. NMFA encourages DOD to 
use the same organizations that were so effective during the height of 
the crisis--the Red Cross, local chapters of veterans' service 
organizations, the Chamber of Commerce--to get the information out to 
families in avenues other that the Internet.
    NMFA applauds the quality of much of the new reunion information. 
It is a great example of ``purple'' information, much of the new 
material is not Service specific. In addition, the special attention 
paid to the Guard and Reserve returnees and their reacclimation into 
the work place enhances the scope of the entire reunion process. The 
inclusive way all the Services, active and Reserve components, are 
addressed in this literature serves as a model for how information 
should be presented in a joint family readiness plan in the future.
    Successful return and reunion programs will require attention over 
the long term. Many mental health experts state that some post-
deployment problems may not surface for several months after the 
service members' return. NMFA is especially concerned about the 
services that will be available to the families of returning Guard and 
Reserve members and service members who leave the military following 
the end of their enlistment. Although they may be eligible for 
transitional health care benefits and the service member may seek care 
through the Veterans' Administration, what happens when the military 
health benefits run out and deployment-related stresses still affect 
the family? As part of its return and reunion plan, the Army has 
announced it will contract with an Employee Assistance Plan to provide 
toll-free phone and Internet access to help returning service members 
and families access local community resources and to receive up to six 
free face-to-face mental health visits with a professional outside the 
chain of command. Unfortunately, we do not have information yet on how 
long returning service members and families will be eligible to use 
this service.
    Ongoing evaluation through surveys of service members, families, 
commanders, and family support personnel is essential to capture 
lessons learned and determine what initiatives were most effective in 
ensuring family readiness during deployments and a smooth transition in 
post-deployment. NMFA was pleased that the Senate approved an amendment 
to Sec. 1023 of its version of the NDAA that would require DOD to 
include an investigation on the availability of support services to 
Guard and Reserve families as part of its report on the conduct of 
Operation Iraqi Freedom. In formulating any study of family support, 
NMFA suggests that questions be included on support and information 
provided in all phases of the deployment process: pre-deployment, 
during deployment, and return and reunion.
    NMFA applauds the various initiatives designed to meet the needs of 
families wherever they live and whenever they need them and requests 
adequate funding to ensure continuation both of the ``bedrock'' family 
support programs and implementation of new initiatives. Higher stress 
levels caused by open-ended deployments require a higher level of 
community support. The cost of meeting unique family readiness needs 
for National Guard and Reserve families must be calculated in Guard and 
Reserve operational budgets and additional resources provided. Family 
readiness responsibilities must be clearly delineated so that the 
burden does not fall disproportionately on volunteers. DOD should 
partner with other organizations and explore new means of communication 
and support to geographically dispersed families. Innovative ways of 
meeting the child care needs of geographically-dispersed families and 
the deployment-related surge demand for child care may need to include 
a combination of subsidies, the use of information and referral 
services, and the option of Flexible Spending Accounts, in addition to 
increased slots available in the DOD child development system. As with 
other family readiness information and support, return and reunion 
programs should be both unit and community-based and should be 
facilitated by a collaborative effort of all helping agencies across 
the active and Reserve components of all Services. Return and reunion 
support must be considered a commitment to service members and families 
over a period of several months. Special attention must be provided to 
ensure that geographically separated families have access to needed 
services, especially following a service member's deactivation.

                    EDUCATION FOR MILITARY CHILDREN

    A significant element of family readiness is an educational system 
that provides a quality education to military children, recognizing the 
needs of these ever moving students and responding to situations where 
the military parent is deployed and/or in an armed conflict. No less 
than the stay at home spouse, children are affected by the absence of a 
parent and experience even higher levels of stress when their military 
parent is in a war zone shown constantly on television. The military 
member deployed to that dangerous place cannot afford to be distracted 
by the worry that his or her child is not receiving a quality 
education. Addressing the needs of these children, their classmates, 
and their parents is imperative to lowering the overall family stress 
level, and to achieving an appropriate level of family readiness. But 
it does not come without cost to the local school system.
    Service members want to know that their children's school buildings 
are secure, that school district leaders are working with installation 
leadership to ensure the safety of children at school and on the school 
buses. They want their children's schools to serve as extra eyes and 
ears, watching for changes in their children's behavior and academic 
performance and ensuring that adequate counseling resources are in 
place to assist children in dealing with not only the stress of the 
deployments, but also with the fears of unknown dangers at home. 
Teachers and counselors now must help the remaining parent answer the 
children's questions of ``Why did the military send Dad or Mom away 
when we could be in danger here?'' Schools educating military children 
must be prepared to help teachers and other staff who are also military 
family members deal with the emotions brought on by the combination of 
domestic threats and large-scale military deployments. They must often 
run programs with fewer volunteers, sometimes losing both the deployed 
service members and their spouses who now have more demands on their 
time. They must also help ``new'' military children, the children of 
members of the National Guard and Reserves, who may be dealing with 
deployment for the first time.
    NMFA is pleased to report that most schools charged with educating 
military children have stepped up to the challenge. They have become 
the constant in a changing world and the place of security for military 
children and their families. The goal, according to one school 
official, ``is to keep things normal for the kids.'' The schools' role 
is to ``train teachers in what to look for and deal with what they 
find.'' NMFA received many positive stories from parents and schools 
about how the schools have helped children deal with their fears, keep 
in touch with deployed parents, and keep focused on learning. We have 
also heard stories of schools helping each other, of schools 
experienced in educating military children and dealing with deployment-
related issues providing support for school systems with the children 
of activated Guard and Reserve members. In the process, many schools 
have increased the understanding of their teachers and other staff, as 
well as their entire communities, about issues facing military 
families.
    NMFA is appreciative of the support shown by Congress for the 
schools educating military children. Congress has consistently 
supported the needs of the schools operated by the DOD Education 
Activity (DODEA), both in terms of basic funding and military 
construction. Congress has also resisted efforts by a series of 
administrations to cut the Impact Aid funding so vital to the civilian 
school districts that educate a majority of military children. NMFA is 
also appreciative of the approximately $30 million Congress adds in 
most years to the Defense budget to supplement Impact Aid for school 
districts whose enrollments are more than 20 percent military children.
DODEA
    Department of Defense schools are located in overseas locations 
(DODDS) and on a small number of military installations in the United 
States (DDESS). The commitment to the education of military children in 
DOD schools between Congress, DOD, military commanders, DODEA 
leadership and staff, and especially military parents has resulted in 
high test scores, nationally-recognized minority student achievement, 
parent involvement programs and partnership activities with the 
military community. It is significant to note that the Commander of 
USAREUR stated in May that over half of the military members assigned 
to USAREUR are deployed away from their permanent duty sites. Imagine 
the challenges facing a school system in a foreign country where half 
of the student body has an absent parent! DOD schools have responded to 
the increased operations tempo with greater support for families and 
children in their communities. Most recently, several schools arranged 
special satellite hook-ups to allow deployed parents in Iraq and Kuwait 
to participate in their high school students' graduations from a 
distance. NMFA also appreciates the actions taken by DODEA staff in 
easing the transition for students enrolled in DOD schools in Turkey 
when they were forced to evacuate prior to the start of the war. DODEA 
not only provided families with contact information and educational 
records, but also guaranteed that students who could not meet the 
standards for graduation or promotion to the next grade because of 
their late transition into a civilian school could receive DODDS 
diplomas and certification that their work in the DODDS schools 
warranted promotion.
    While DOD schools have been immune from some of the constraints 
besetting civilian schools affected by State and local budget 
pressures, military families served by DOD schools have expressed 
concerns about DOD rescissions this year that caused cuts in 
maintenance, staff development, technology purchases and personnel 
support and also forced the elimination of some instructional days in 
some districts. While DODEA has experienced Department-wide rescissions 
in previous years, this year's was larger than normal, thus making it 
more difficult for the system to make the necessary adjustments midway 
through the school year. Because the timing of the Federal fiscal year 
is out of sync with the school year, NMFA believes this calendar 
mismatch may tend to worsen the impact of mid-year Department-wide 
budget allocations on the school system and the children it serves.
Transition Issues
    Despite the success of the DOD schools in raising achievement 
levels, it is important to remember less than 20 percent of military 
children attend these schools. The rest depend on civilian school 
districts, which often vary in quality and responsiveness to families' 
concerns and the demands of the military lifestyle. Military families 
move on average every 2.9 years and their children may be at an 
educational disadvantage, even by many well-intentioned programs and 
rules designed to improve school quality. Military parents applaud 
higher accountability standards--they want the best possible 
instruction for their children as well as rigorous course offerings. 
They do not want their children punished, however, when the various 
Federal and State initiatives clash, causing difficulties for mobile 
children. Because of varying course standards, school schedules, and 
State graduation requirements, military children sometimes lose credits 
needed for graduation. Currently, at least 18 States have graduation 
requirements linked to performance on State exit exams and several 
others are developing exit exams. With the rise of exit exams and 
increased graduation requirements, transfers are becoming more 
problematic, especially in the high school years.
    NMFA believes that the improved accountability measures promoted by 
the States and contained in the Federal No Child Left Behind Act will 
ultimately benefit all children. In the short term, however, NMFA is 
concerned that the reliance on States to determine what tests they will 
use to meet the Federal testing requirements, what standards must be 
met for promotion and graduation, and how to determine which schools 
are making adequate progress will make things more difficult for 
military and other mobile children. If one-third of the population of a 
civilian school in a military community turns over every year, how can 
that school be held responsible for the academic performance of the 
children who just arrived? How fair is it to apply sanctions to a 
school for gaps in children's learning that occurred somewhere else? 
How can children be held responsible for concepts their former school, 
which used a different set of curriculum standards, never taught? NMFA 
urges Congress as it monitors the implementation of No Child Left 
Behind to take into account the issues facing mobile children and the 
schools that serve them to ensure they are not unfairly penalized for 
circumstances beyond their control.
Impact Aid
    NMFA also asks Members of Congress to continue their support of 
Impact Aid. A well-funded Impact Aid program enables districts serving 
large numbers of military children to approach the level of educational 
opportunity available in neighboring, non-impacted school districts 
even though they do not have access to the same kind of tax base. 
Impact Aid dollars are provided in lieu of lost tax revenue to 
districts where the Federal responsibility is the greatest under the 
law. The dollars go directly to school districts with no strings 
attached. The local community, the people with the greatest stake in 
the quality of education in their schools, decides how Impact Aid funds 
will best serve the basic education needs of all students.
    Military families understand that the Impact Aid program supports 
basic education services provided by their local school districts. They 
understand the impact the Federal presence has on the tax base of these 
local districts and their States. They understand the impact their 
children and the transient military lifestyle can have on their local 
schools. What they and their civilian neighbors do not understand is 
why Impact Aid funds fall short of the levels intended by the creators 
of the program or of the amount needed by their children's schools. 
Military children, whether living on- or off-base, impose costs on the 
district as they move in and out: records must be prepared, evaluations 
and testing must be done for special programs, transition labs or 
remedial programs may be needed. Military families hold the government, 
and the citizens they have sworn to serve and protect, accountable for 
living up to their promise to provide a quality education for their 
children. The districts have accepted the responsibility to educate 
military children; the Federal Government must provide the resources it 
has promised to support that education.
    NMFA thanks Congress for its continued funding of Impact Aid for 
the military children who live off the installation, the so-called 
``military Bs.'' Two-thirds of military families live off-base. 
Although military families living in the civilian community pay 
property taxes to help support local schools, they often do not 
contribute to other sources of education funding. States provide an 
increasingly larger share of local districts' funding. Many military 
members pay no State tax on their military income. They also shop in 
military exchanges and commissaries, thus paying no sales tax. Under 
the provisions of the Soldiers' and Sailors' Relief Act, they are often 
exempt from paying personal property taxes or license fees for 
automobiles if they are on military orders away from their home State. 
Funding for these children will become even more crucial for school 
districts as the military Services increasingly look to the civilian 
community to provide more housing for military families. Funding for 
military Bs will also be important to districts serving installations 
building privatized housing in civilian communities off-base rather 
than on the installations. Although developers may pay some taxes, 
these revenues may be inadequate, especially during the early years of 
the privatization contracts.
DOD Support
    NMFA has been pleased with recent comments by DOD officials and 
with Department initiatives focusing on military parents' concern about 
the quality of their children's schools. In congressional testimony and 
in press interviews early this year, Dr. David Chu, Under Secretary of 
Defense for Personnel and Readiness, outlined some of the factors other 
than mission capabilities that must be considered in the Department's 
considerations of installations to be slated for closure or 
realignment:

        Once we begin the base realignment process, a careful look at 
        the quality of life of civilian communities where our military 
        families live is warranted. We owe children a good education no 
        matter where their parents may serve, as well as good child 
        care, homes, and spousal career opportunities.

    Schools serving military children have been aided by improved 
interaction and partnerships with their local installations. The 
military Services are, to varying degrees, increasing their 
collaborative efforts with schools and their support to military 
parents who need information and assistance in becoming more effective 
advocates for quality education for their children. The Army has taken 
the lead in creating and funding School Liaison Officer positions to 
provide an important link between schools, the installation command, 
and parents. Well-trained, involved school liaisons have also provided 
important information and support for school staff on how to support 
children during deployments. Other Services are beginning to hire 
school liaisons at some of their installations and, even when they do 
not have school liaisons, they frequently provide briefings on 
deployment-related issues to school staff.
    Cooperation between educators and the military in support of 
military children and their schools is also occurring at the national 
level; the Department of Education has posted a resource guide for 
educators created by the DOD Educational Opportunities Directorate on 
assisting children in dealing with deployments. NMFA does wish, 
however, the brochure could be a little more visible and accessible on 
the Web site! (http://www.ed.gov/inits/homefront/homefront.pdf) Private 
organizations such as the Military Impacted Schools Association and the 
Military Child Education Coalition have made materials available to 
help school districts better support children of deployed service 
members. NMFA has also fielded its share of calls from school staff 
looking for deployment-related resources and has provided information 
in its newsletter and on its Web site.
    NMFA is pleased that the military services are responding to 
military families' belief that quality education is both a quality of 
life factor and a retention issue. We hope that the partnership 
programs begun by the Services and local schools, the hiring of school 
liaison officers, and initiatives to provide military families with 
better information about local schools and to study the problems faced 
by military children as they move will continue despite the greater 
demands placed on both the military and supporting school districts. 
Out of the challenge of working together to develop plans for security 
and to move children, school staff, parents, and school buses on and 
off installations under security alerts have emerged better working 
relationships to address other issues. Service initiatives to 
facilitate parent involvement in schools, such as the policy at Fort 
Hood, TX and other installations that states a service member's place 
of duty is the scheduled parent-teacher conference, help schools and 
the children they serve. The Army has addressed the difficulties 
students face when moving in their senior year by recently instituting 
a Senior Stabilization Policy that enables the soldier to request a 
delay in PCS orders so that a rising senior can finish high school at 
the current location. Since the policy was implemented 2 years ago, the 
Army has received applications from more than 2,400 service members for 
stabilization and has approved 99 percent. The biggest complaint NMFA 
has heard about this program to date is that other Services have not 
yet adopted it! The Army is also the lead agent for DOD on an 
initiative to educate States about the problems facing military members 
and their families in obtaining in-State tuition status. Heightened 
awareness among military commanders and local States about education 
issues has also resulted in the creation of reciprocity arrangements, 
most notably concerning the high school State history credit, to keep 
students from losing academic credit or from repeating similar courses.
    Lastly, NMFA would hope that DOD will begin to request the 
supplement to Impact Aid, rather than wait for Congress to add it. 
Building this funding into its budget request would signal to school 
districts and military families that the Department wants to ensure 
better quality in all schools educating large numbers of military 
children, not just those in DOD schools. Requesting this funding will 
also signal that DOD recognizes that it may need to assist schools with 
security, school construction, or special learning programs if the 
presence of military children or DOD programs and policies cause a loss 
of school funding or increased expenditures that cannot be met through 
Impact Aid or other Federal, State, or local programs.
    Schools serving military children, whether DOD or civilian schools, 
need the resources available to meet military parents' expectation that 
their children receive the highest quality education possible. Impact 
Aid funding for both on and off-base children and the DOD supplement to 
Impact Aid provide needed funds in lieu of lost tax revenue and help 
districts meet the additional demands caused by large numbers of 
military children. Initiatives to assist parents and to promote better 
communication between installations and schools should be expanded 
across all Services. Military children must not be placed at a 
disadvantage as State and Federal governments devise accountability 
measures.

                           SPOUSE EMPLOYMENT

    The ability of a military spouse to be employed and to have career 
progression affects both the family's finances and the self-sufficiency 
of the spouse when the member deploys. Studies after the first Gulf War 
showed that spouses who were employed handled the stressors of the 
deployment better than those who were not employed. NMFA anxiously 
awaits the DOD report on the status of its spouse employment programs 
requested by Congress in the fiscal year 2002 NDAA. While we do not 
expect DOD to create a jobs program for every military spouse, it does 
need to facilitate the transition of mobile military spouses into 
already existing opportunities and to target efforts where spouses are 
having the greatest difficulty accessing educational programs or 
employment. Sixty-three percent of all military spouses and 87 percent 
of junior enlisted spouses (E-1 to E-5) are in the labor force. Very 
obviously, the financial health of the military family is significantly 
dependent upon the employment of the spouse. Family financial health is 
without question a family readiness issue.
    The ineffectiveness of military spouse employment programs and 
military spouses' own efforts to pursue careers have been a source of 
frustration for service members, spouses, and the Department for at 
least two decades. This satisfaction was most recently highlighted in 
DOD's 2002 Active Duty Status of Forces Survey. When asked about their 
satisfaction with spouse employment and career opportunities, only 32 
percent of the respondents stated they were satisfied; 34 percent were 
dissatisfied. Approximately one-fifth also noted that the loss of 
spouse income due to a PCS move had caused a problem for their family. 
Because they are more likely than their male peers to have an employed 
spouse, female military officers cite an even higher level of 
frustrations with spouse employment issues. In the 1997 DOD Survey of 
Enlisted Spouses, the majority of spouses in the job market reported 
that they had been unable to find a job that matched their experience 
and training.
    Part of the frustration boils down to numbers and limited 
resources. Of the approximately 677,000 military spouses, approximately 
60 percent are in the job market. Approximately one-third move each 
year, meaning that an average of 135,000 military spouses will need to 
find a job each year. Some civilian corporations, when moving 
employees, pay private relocation firms up to $1,500 per spouse to help 
them find a job in the new location. The sheer numbers of military 
spouses make this kind of funding support out of reach for DOD. Service 
spouse employment program managers often have several other 
responsibilities within the installation family center and thus have 
difficulty finding the time to develop contacts with local employers, 
provide basic job search training to young spouses entering the job 
market for the first time, and help spouses who have been on a career 
track somewhere else find appropriate upward mobility at their new 
location.
    In order to enhance military spouse career progression, NMFA 
suggests that DOD should first make improvements in its own Military 
Spouse Preference Program to make more Federal civilian jobs available 
to mobile spouses. We also hope that any proposed changes in DOD 
civilian personnel and hiring procedures expand opportunities for 
mobile military spouses to become part of the DOD workforce; we look to 
Congress to ensure that military spouses are not placed at a 
disadvantage by these changes. Because DOD is increasing the number of 
contract positions, NMFA also suggests that Congress expand the use of 
Military Spouse Preference to include jobs offered by government 
contractors. DOD should continue to expand its nascent partnership 
efforts with corporations and other Federal Departments to enhance 
training, placement, and career progression for military spouses.
    To address the spouse employment dislocations caused by Permanent 
Change of Station (PCS) moves, DOD should work with States and 
localities to enable military spouses to participate in local 
educational and training programs at the same fee structure as in-State 
residents, to encourage States to enter into reciprocity agreements 
covering trade and professional licenses, and to raise awareness of the 
needs of transitioning military spouses. A spouse professional goods 
allotment included in relocation weight allowances could help affirm 
the importance of a spouse's career or volunteer activities to the 
military family. Key in addressing the financial burden placed on 
military families when they make a PCS move is ending the reluctance of 
many States to pay unemployment compensation to military spouses who 
quit their jobs to accompany the service member on military orders. At 
a time when family expenses are already high, the family should not be 
forced to give up the spouse's income. The inability to collect 
unemployment compensation often means that military spouses must take 
the first available job at their new location because they cannot 
afford to spend time looking for more suitable, career-enhancing 
positions. Employers in military communities are aware of this need and 
thus tend to offer lower wages to the military spouse.
    NMFA looks forward to the release of the DOD spouse employment 
report and to increased efforts to enhance military spouse career 
progression. NMFA believes that DOD's primary focus related to spouse 
employment should be on mitigating the disruptions caused by 
government-ordered moves. It should also make the Military Spouse 
Preference program more responsive to changes in government hiring 
practices. Partnerships with other agencies and employers as well as 
coordination with States to promote training and educational 
opportunities, address licensure issues, and secure unemployment 
compensation for spouses forced to move would also enhance the 
financial well-being of military families.

                               RELOCATION

    While progress has been made in easing the difficulties faced by 
military children when they enter new schools as a result of their 
military parent's PCS orders and initiatives are being developed to aid 
military spouses in transporting their careers, military families note 
less help in facilitating the actual move process. NMFA is appreciative 
of the significant increases in certain PCS allowances authorized in 
the fiscal year 2002 NDAA. These are very significant steps to upgrade 
allowances that had been unchanged for over 15 years. Even with these 
much-needed changes, however, service members continue to incur 
significant out-of-pocket costs in complying with government-directed 
relocation orders.
    PCS household goods weight allowances were increased for grades E-1 
through E-4, effective January 2003, but weight allowance increases are 
also needed for E-5s and above and officers as well to more accurately 
reflect the normal accumulation of household goods over the course of a 
career. The frequency of PCS moves coupled with the spotty quality 
record of many carriers requires continued improvements to the 
household goods movement process, to include a greater emphasis on 
measurable accountability standards in the evaluation of carriers. 
After a series of pilot programs designed to test improvements to the 
move process, DOD is now developing a ``re-engineered'' program 
incorporating some of those improvements. NMFA has been informed that 
the anticipated roll-out of this new initiative is expected in fall 
2004. The new program, called ``Families First,'' is being developed by 
a working group made up of representatives of the military Services and 
the moving industry. Ironically, the ``Families First'' working group 
has sought no input from military families!
    This year's DOD request for the NDAA contained a provision to 
authorize the payment of full replacement value for goods damaged in 
PCS moves. In recent NMFA briefings to family members, this legislative 
proposal was the one receiving the highest praise, with the sentiment, 
``It's about time!'' Family members have been shocked to learn that, 
although requested by DOD, the full replacement value provision was 
included only in the Senate version of the NDAA. Federal civilian 
employees receive full replacement value reimbursement for goods 
damaged in their government-ordered moves. NMFA urges Congress to 
provide the same benefit for military families as soon as possible, and 
not make it contingent on the implementation of another round of ``re-
engineering.''
    NMFA urges Congress to continue upgrades of permanent change of 
station reimbursement allowances to recognize that the government, not 
the service members, should be responsible for paying the cost of 
government-directed relocations. NMFA urges Congress to include 
authorization for the payment of reimbursement for full replacement 
value of goods damaged in PCS moves and to increase weight allowances 
to better reflect the accumulation of household goods over a service 
member's career.

                              HEALTH CARE

    After a rocky start over several years, the TRICARE system is 
providing most of the promised benefit for most families, particularly 
those enrolled in Prime. Changes made in the Prime Remote program for 
active duty families and ensuring access to Prime and Prime Remote for 
the families of activated Guard and Reserve members have gone a long 
way to providing a truly uniform benefit for all families of those on 
active duty.
    NMFA is appreciative of congressional initiatives this year to 
provide additional assistance to TRICARE Standard beneficiaries, to 
provide a point of responsibility within DOD to ensure that Standard 
beneficiaries receive appropriate benefit information, and to identify 
locations with inadequate provider participation in order to encourage 
more providers to participate in TRICARE. The Senate proposal to 
mandate market area surveys of TRICARE Standard provider participation 
will provide DOD and Congress with the information they need to 
determine the causes of provider shortages reported by beneficiaries 
and to devise a solution to the problem. NMFA notes that these surveys, 
as with all surveys of civilian provider participation in TRICARE, must 
not only identify participating or network providers, but also whether 
or not these providers are accepting new TRICARE patients.
    Despite the improvements in TRICARE, NMFA remains apprehensive 
about several issues: beneficiary access to health care, the 
implementation of a new generation of TRICARE contracts, and the 
ability of National Guard and Reserve families to have reasonable 
access to care and continuity of care.
Access
    Although recent TRICARE surveys highlight improvements in 
beneficiary access to care, NMFA continues to field calls from 
beneficiaries with access issues. Service members and families enrolled 
in Prime are promised certain standards for access to care in providing 
appointments, wait times at a provider's office and geographic 
availability. Yet the calls we receive tell another story. Even service 
members are told by the direct care system, ``Call back next month, 
there are no more appointments available now.'' Family members are 
routinely not informed that they can request an appointment with a 
provider in the civilian sector if access standards cannot be met in 
the direct care system. However, IF the member or family member 
mentions the words, ``access standards,'' appointments that fall within 
the guidelines magically appear. Although deployment-related access 
issues at MTFs now seem to have been resolved, NMFA is concerned that 
some family members may have been denied access to timely care despite 
the promises made when they enrolled in TRICARE Prime. TRICARE was 
designed so that care could be provided in a timely manner within the 
civilian network when it was not available in the direct care system. 
There is no reason, including the deployment of medical personnel, that 
access standards should not always be met.
TNEX and other contracts
    The next round of TRICARE Contracts (TNEX) would appear to place 
significant new levels of authority and responsibility on local 
Military Treatment Facility (MTF) commanders. NMFA is concerned this 
may actually increase the differences in how beneficiaries access care 
rather than make it more uniform. NMFA looks for assurances that the 
transition to the new contracts and from the current twelve United 
States regions to only three will be managed to cause as few 
disruptions as possible for beneficiaries. Because existing regions 
will be brought gradually into the newer, large regions, the potential 
exists for an education and information nightmare as beneficiaries 
moving to a new location try to determine what regional contractor 
handles their enrollment, processes their claims, and sets the ``rules 
of the road.''
    Currently, Managed Care Support Contractors in some regions have 
total responsibility for making appointments, and in all regions have 
the responsibility for making appointments within the civilian network. 
The new contracts would appear to leave this responsibility to the 
local MTF commander, either to arrange all of the appointments or to 
opt into an as yet unknown national appointment contract. Also, all 
current Managed Care Support Contractors are required to have a health 
information line. Surveys have revealed that military beneficiaries use 
these advice lines at a higher rate than civilians, yet the new 
contracts do not require TRICARE contractors to offer them. Instead, 
the decision to have one and/or which one to have is left up to the 
local MTF commander.
    TNEX also appears to blur lines of authority and accountability 
rather than strengthening them. Beneficiaries need a clear line of 
command and accountability for their problems with accessing care to be 
fixed and for their concerns about quality of care to be appropriately 
addressed. This oversight also must apply to information about changes 
to the benefit or in how beneficiaries access care from the current 
method. If changes are to be made, beneficiaries need to be educated 
and informed BEFORE the fact.
    NMFA is especially worried about what will happen to the resource 
sharing arrangements that have provided the staff necessary to optimize 
care in the military facilities, thus providing continuity of care for 
patients while enabling the system to avoid the higher costs of paying 
for care the civilian sector. Resource sharing arrangements made by the 
Managed Care Support Contractors at the request of the military 
hospital commanders have been a TRICARE success story for beneficiaries 
and the facilities. Currently, there are approximately 600 resource 
sharing arrangements provided by the Managed Care Contractors in 95 
military treatment facilities. They have enabled commanders to keep 
emergency rooms open longer hours, staff more operating rooms, operate 
additional primary care and pediatric clinics, and maintain access 
standards during deployment and summer rotation staffing gaps. 
Unfortunately, the TNEX contracts call for current resource sharing 
agreements to end immediately on the termination of the old TRICARE 
contracts. Although the Services and their MTF commanders will have the 
authority under the new contracts to enter into various types of 
contractual agreements with providers, NMFA is concerned that the 
abrupt termination of existing resource sharing agreements may result 
in the loss of valued medical providers familiar with the medical needs 
of the beneficiaries they serve and at least a temporary halt to 
certain vital services.
    Madigan Army Medical Center at Fort Lewis, WA, for example, uses 
resource sharing arranged by the TRICARE contractor to staff its 
pediatric clinic. Resource sharing provides 3.4 physician and 4.4 
licensed practical nurse positions, as well as clinic support staff, 
enabling the hospital to keep approximately 24,000 patient visits each 
year in the facility. When the current Region 11 contract expires next 
year, the agreement providing that staff goes away. Imagine the 
disappointment of the families who have come to depend on those doctors 
and nurses to care for their children when told their hospital no 
longer has the means to retain them. Imagine the reaction of a deployed 
service member when he or she receives an e-mail from the spouse that 
their child's doctor is no longer available because of the provisions 
of a ``new and improved'' TRICARE contract.
    To protect beneficiaries' continuity of care during the 
implementation of the new contracts, NMFA believes that current 
resource sharing arrangements should not automatically end with the 
expiration of the existing TRICARE contracts. Rather, a plan must be in 
place to allow for a bridge period under which the resource sharing 
arrangements can be transitioned smoothly from the control of the 
Managed Care Support Contractors to the MTFs. The plan's emphasis must 
be on ensuring that current providers are retained in order to protect 
the relationships they have developed with patients and with the 
facilities.
    NMFA is also concerned that the transition to the new contracts has 
delayed implementation of the important changes in the Program for 
Persons with Disabilities (PPWD) enacted by Congress in the Fiscal Year 
2002 NDAA. The program to replace the PPWD has been developed and, 
according to briefings provided to military association representatives 
and at this year's TRICARE Conference, promises a rich benefit and 
vital assistance for some of the most vulnerable active duty families. 
Members of these subcommittees were instrumental in securing the 
legislative changes to enhance this program; NMFA urges Congress to 
press for implementation as soon as possible following the start-up of 
TNEX. Legislative ``tweaking'' may also be needed to provide a benefit 
bridge as service members move from active to retired status until they 
can secure needed benefits for the disabled family member in their 
local community.
Guard and Reserve Health Care
    While the ``rules of the road'' for using TRICARE, particularly 
Prime, seem now to be well understood by most active duty and retired 
family members, it is another story for National Guard and Reserve 
families. Since many of these families do not live near an 
installation, most of their information comes in printed form, on the 
web or via telephone. In addition, many live in areas where providers 
are unaware of TRICARE, as there are few if any other uniformed service 
beneficiaries in the area. Lead agents and TRICARE contractors 
routinely conduct TRICARE briefings for members of units about to 
mobilize; unfortunately, in most cases, families (those who will 
actually have to navigate the system) live too far away to attend. If 
the service member and family live in a different TRICARE region from 
the one where the unit is located, the information provided in the unit 
setting may not be the same for the region in which the family actually 
lives. Decisions to enroll in Prime, use standard or remain with an 
employer provided plan need to be family decisions based on full and 
accurate information provided to service members and their families. 
NMFA is pleased that the Senate has recognized the distinct health care 
information and education needs of Guard and Reserve members and their 
families and included a provision in S.1050 to require DOD to create 
new Beneficiary Counseling and Assistance Coordinator positions (BCACs) 
to assist them in making the transition to TRICARE and guiding them 
through the transition following demobilization. These new BCAC 
positions will be located at both the Lead Agent offices and at the 
MTFs and will be in addition to the BCACs who currently provide 
assistance to other beneficiaries.
    NMFA has long believed that the approach to meeting the health care 
needs of Guard and Reserve members and their families must be flexible 
enough to ensure access to care and continuity of care. We believe the 
provisions in S.1050, as amended, address most of these issues. The 
amendment approved by the Senate would authorize Guard and Reserve 
members, for a reasonable premium, to enroll themselves and their 
families in TRICARE when not on active duty. Thus, members who 
currently have no insurance in civilian life could have access to an 
affordable program and would enjoy continuity in both program and care 
for the family when the member is activated. Alternatively, the 
legislation would authorize DOD to pay the premiums of an employer-
provided private sector plan for the family of an activated Guard or 
Reserve member up to the level of what TRICARE would cost DOD if it 
were provided to the member and his/her family. This would allow those 
with civilian provided coverage to continue with their current plan and 
providers.
    Defense Health Care funding must be adequate to meet readiness 
needs and provide for both the purchased care segment of TRICARE and 
the direct care system. Access standards were part of the promise DOD 
made to families when they enrolled in TRICARE Prime and must be met. 
Civilian networks must be robust enough to support MTFs in meeting the 
access standards. Recruitment of TRICARE Standard providers and 
education of Standard beneficiaries should be as much a part of the 
TRICARE program as are these endeavors for Prime providers and 
enrollees. The new round of contracts must provide standardized ways to 
access health care across all regions and beneficiaries should have a 
clear picture of who can solve their access problems and quality of 
care concerns. Families of Guard and Reserve members should have 
flexible options for their health care coverage that address both 
access to care and continuity of care. In addition, accurate and timely 
information on their options and such things as transitional health 
care must be provided to the families as well as the service member.

                MILITARY ALLOWANCES AND FEDERAL PROGRAMS

    As service members were preparing to head to the Middle East for 
Operation Iraqi Freedom, NMFA heard from some of the most vulnerable 
military families of a large cost being imposed on them because of the 
service member's deployment. Disabled family members of military 
service members may qualify for Supplemental Security Income (SSI), 
based on the disability and on income. Often the SSI payment itself is 
relatively small; however, SSI is the gateway to coverage under 
Medicaid, which covers some services not covered by TRICARE. When 
service members deployed and began receiving deployment-related 
payments, they discovered that their disabled child or spouse would 
probably lose eligibility for SSI because of the increase in the family 
income. Some families actually tried to refuse the extra allowances 
because the services provided as a result of their SSI eligibility were 
more valuable than the additional pay. One Marine family cited in press 
reports, for example, received approximately $400 in additional 
deployment allowances, but stood to lose services, supplies, and 
medical care for their disabled 3-year-old worth $8,000 a month. The 
problem: Social Security counted special pays and allowances as 
unearned income when calculating a person's eligibility for SSI, thus 
weighting the allowances heavier than basic pay.
    After Members of Congress brought this issue to the attention of 
the Social Security Administration this spring, Social Security 
Commissioner Jo Anne B. Barnhardt issued an emergency regulation, 
retroactive to October 1, 2002, to exempt deployment pay received while 
the service member is in an officially designated combat zone from the 
eligibility calculation for SSI benefits. Commissioner Barnhardt issued 
a second ruling on March 27 to exempt Basic Allowance for Housing (BAH) 
received by service members residing in privatized military family 
housing from SSI eligibility calculations, thus protecting residents of 
military family housing once it is turned over to private developers. 
Families living in government quarters are more likely to qualify for 
SSI than families receiving BAH because the value of the government 
housing is not counted toward SSI eligibility while BAH is. When 
government housing is privatized, service members, even if still living 
on the installation, begin receiving BAH, which is then paid to the 
developer as rent in an allotment.
    This spring's SSI dilemma highlights a long-standing frustration 
for military families: the confusion involved in how and when military 
allowances are counted for tax purposes or to determine eligibility for 
military and civilian programs. The treatment of BAH alone, as seen in 
the following matrix, results in confusion for families and disparities 
as they move from one assignment to another and from on-base to off-
base housing. The matrix shows only Federal and DOD programs; many 
State programs also have varying rules for treating BAH and other 
military allowances.

                            BASIC ALLOWANCE FOR HOUSING (BAH) AND PROGRAM ELIGIBILITY
----------------------------------------------------------------------------------------------------------------
                                                                  Privatized Military
                                         Value of Government      Family  Housing (BAH
               Program                         Quarters          included on Leave and             BAH
                                                                  Earnings Statement)
----------------------------------------------------------------------------------------------------------------
Earned Income Tax Credit (EITC)......  Excluded...............  Excluded...............  Excluded
Food Stamps..........................  Excluded...............  Included...............  Included
WIC (USDA)...........................  Most States exclude....  Most States exclude....  Most States exclude
WIC Overseas (DOD)...................  Excluded...............  N/A....................  Excluded
DOD Family Supplemental Subsistence    Included (adds in        Included...............  Included
 Allowance.                             amount of BAH service
                                        member would have
                                        received).
National School Lunch Program (USDA).  Excluded...............  Excluded...............  Included
DOD Overseas Student Meal Program....  Excluded...............  N/A....................  Excluded
Head Start Program...................  Excluded...............  Included...............  Included
Supplemental Security Income (SSI)...  Excluded...............  Excluded...............  Included
DOD Child Care Fees..................  Includes BAH II (not     Includes BAH II (not     Includes BAH II (not
                                        geographically-based     geographically-based     geographically-based
                                        BAH).                    BAH).                    BAH)
----------------------------------------------------------------------------------------------------------------

    As can be seen in the matrix, BAH is not even consistently treated 
under DOD programs. The eligibility puzzle has grown more complicated 
in recent years as the military Services have begun to privatize 
military family housing. The promise of privatization is that the 
Services will be able to upgrade their housing stock at a faster pace 
using private capital than by relying on the military construction 
process. By law, when housing is privatized, service members must be 
paid BAH. The effect of this provision on family members' eligibility 
for certain safety net programs was not known when the privatization 
authorities were created. It soon became evident, however. When Army 
housing at Fort Carson, CO, was privatized, two-thirds of the families 
living on Fort Carson who were eligible for food stamps became 
ineligible, simply because they started receiving BAH. The inclusion of 
the BAH on their Leave and Earnings Statement (LES) made it appear that 
these families' income had increased, even though they were living in 
the same house and the BAH was immediately paid out as an allotment to 
the developer as rent.
    Next, many families found out they no longer qualified for free and 
reduced school lunches because of the inclusion of BAH on their LES. 
Because the percentage of children on free and reduced lunches is used 
as the poverty rate when qualifying schools for Federal title I funds 
and certain State school funding, the local school district serving 
Fort Carson stood to lose approximately $400,000 in the year following 
the privatization. School districts launched a legislative initiative 
to restore the status quo so that children would remain eligible for 
free and reduced lunches and schools would remain eligible for funding 
they needed to better serve their students. The legislative change 
exempting BAH received by service members in privatized housing from 
eligibility calculations for free and reduced lunch passed as an 
amendment to the Farm Security and Rural Investment Act of 2002 
(P.L.107-171).
    Last year's protection of the status quo in determining eligibility 
for free and reduced lunches and this year's SSI regulatory change 
related to BAH are a boon to families living in privatized housing. 
These changes, however, do exacerbate disparities experienced by 
military families based on where they live. Often, whether or not 
families live on the installation in government quarters or privatized 
housing is determined by chance--by the availability of housing or the 
size of the waiting list--and not by choice. Young families most in 
need of government housing are often forced to seek housing on the 
economy because there is not enough junior enlisted housing available 
on the installation. Although funding for BAH has improved in recent 
years thanks to funding support from Congress, on average, BAH still 
does not cover service members' total housing costs. This year, it is 
funded to provide on average all but 7.5 percent of out-of-pocket costs 
for a housing standard tied to a service member's rank. The standard on 
which BAH is based for an E-5 with dependents, for example, is a two-
bedroom townhouse. Service members needing a larger home off-base cover 
the additional rental costs out of their own pockets, yet because they 
receive BAH, they often have too much income to qualify for Federal 
safety net programs. Service members lucky enough to receive either 
government quarters or privatized housing on an installation obtain the 
appropriate size housing for their family size and, because the value 
of their government housing does not count toward eligibility for most 
programs, they find it easier to qualify. Families in privatized 
housing by law may be charged no more in rent than their BAH, thus 
limiting their out-of-pocket costs. So, we have the situation where 
families living on base with fewer expenses qualify for additional 
support programs while families living off-base with higher housing and 
transportation expenses do not.
    NMFA urges members of these subcommittees to assist in bringing a 
sense of order in how military allowances are counted for Federal 
programs to ensure equitable access to these safety net services and to 
protect families against disruptions in benefit eligibility caused by 
the receipt of deployment pays. No family should have to face the 
prospect of losing valuable benefits for a disabled child because a 
service member has received deployment orders. Families living off the 
installation are often there only because of insufficient on-base 
housing, yet endure higher expenses than families living on an 
installation. Ideally, therefore, NMFA believes tax free allowances 
such as BAH should not be counted under any safety net program, which 
is how they are now treated in determining eligibility for the Earned 
Income Tax Credit (EITC). NMFA understands that this could increase the 
number of military families eligible for some of these programs, but 
believes this is justified given the need for equitable treatment of 
all service members, as well as the loss of spouse income due to 
military relocations and high operations tempo.
    Inconsistent treatment of military allowances for tax purposes and 
in determining eligibility for safety net programs creates confusion 
and disparities between service members based on where they are able to 
find housing, and can exact a financial penalty on military families. A 
start in correcting this inequity would be to adopt a common standard 
in how BAH should be counted in eligibility formulas and to ensure that 
the receipt of deployment-related allowances do not cause military 
family members to become ineligible for support services for which they 
would otherwise be eligible.
    NMFA thanks these subcommittees and Congress for your advocacy for 
a better quality of life for service members and their families. Just 
as the family worries about the deployed service member, the service 
member's constant concern is about the well-being of his or her family. 
In the dangerous environment in which they must frequently operate, 
service members cannot afford to be distracted by concerns at home. 
They need to know their spouse has access to information about benefits 
and services available, their children are receiving a quality 
education, their family can access health care when needed, their 
family's prized possessions will arrive at a new home in one piece, 
their spouse isn't frustrated by an inability to have a meaningful 
career, and that their disabled child has not lost vital services 
simply because of deployment or the location of the family's residence. 
Assuring the service member that the decision to serve will not 
penalize the family is critical to the service member's readiness and 
thus to mission readiness. The stability of the military family and 
community and their support for the forces rests on the Nation's 
continued focus on the entire package of quality of life components. 
Military members and their families look to you for continued support 
for that quality of life. Please don't let them down.

    Senator Chambliss. Thank you.
    Ms. Lucas, we're pleased to have you here.

    STATEMENT OF M.A. LUCAS, DIRECTOR, ARMY CHILD AND YOUTH 
    SERVICES, U.S. ARMY COMMUNITY AND FAMILY SUPPORT CENTER

    Ms. Lucas. Thank you, sir. Good afternoon. I appreciate the 
opportunity to discuss the child care and school transition 
challenges facing military parents. The requirement for 
military child care and youth programs is quite simply to 
support force readiness by reducing the conflict between 
parental responsibilities of the military service members and 
their unit mission requirements. There's no doubt that the 
conflict is there.
    Surveys in the Army indicate that soldiers lose duty time 
to deal with issues related to youth misconduct and the lack of 
available child care. Child care is a workforce issue that 
truly impacts readiness.
    Other militarily unique factors contribute to the need for 
child and youth programs. For example, military families are 
younger than their private sector counterparts, and live away 
from their own extended families. Young service members have 
infants and toddlers, as Senator Dodd noted, who need the very 
kind of care that is least available and most expensive off-
post.
    Service members generally don't have a standard Monday- 
through-Friday, 9-to-5 work week. Likewise, the military mobile 
lifestyle, with its frequent relocations, makes school 
transitions difficult, especially for our teens. Quality child 
and youth programs allow service members to focus on their 
mission, knowing their children are learning and are well cared 
for in our child care programs and their teens are adjusting 
well to new schools. Military child care and youth programs are 
an incalculable force multiplier.
    In addition to providing our routine child care services 
and youth supervision options, to date, this year, in fiscal 
year 2003, the Department of Defense Military Child and Youth 
Programs have supported military parents with more than 400,000 
hours of additional contingency-related child care. We are also 
piloting outreach efforts aimed at serving geographically 
dispersed active component service members as well as Guard and 
Reserve members who are eligible to utilize these services 
while on active duty or in a training status.
    Our challenge is to sustain our baseline child and youth 
programs, construct additional child care facilities where 
necessary, develop the infrastructure to stabilize our child 
care workforce, and consistently provide services such as 
respite care, extended hours care, back-up care, school 
transition assistance, care options for geographically 
dispersed service members, support youth communications with 
our deployed parents, and career potential, especially for our 
military spouse employees. These objectives will increase the 
availability of military child care in a systemic manner.
    The Army has begun the process of implementing the results 
of the secondary education study, SETS, that addressed the 
challenges that military-sponsored students face when 
transitioning from one school district to another. In the Army, 
we are implementing two outcomes of this study. First, the Army 
has funded school liaison officer positions at Army 
installations to provide these transition support services, for 
instance, information about graduation requirements and records 
transfer and extracurricular activities.
    Second, we have established a framework for school systems 
called the SETS agreement to encourage and facilitate the 
adoption of reciprocal school policies and practices among the 
SETS schools. To date, 125 superintendents, representing 129 
school districts, which encompass over 2\1/2\ million military-
connected and civilian children, have signed on to make school 
transitions easier by giving all mobile children, not just 
military-connected children, a level playing field.
    A ground-breaking Army personnel process, begun in April 
2001, has allowed more than 2,400 soldiers with children 
entering their senior year in high school to remain an extra 
year at their current duty station. Students are not disrupted, 
and can graduate with friends. Clearly, this is the right way 
to support our families when possible.
    In August 1990, the House Armed Services Committee 
challenged the Department of Defense, and I quote, ``to be on 
the leading edge of the child care movement in America.'' The 
Services responded by making military child care, once derided 
by many as the ``ghetto of child care,'' the model for national 
child care reform.
    Military child care and youth programs are absolutely 
essential to the well-being of our military families. Your 
committees have been champions of military child and youth 
programs for more than 20 years. We believe the Department of 
Defense and the military Services have delivered unprecedented, 
measurable cost, quality, and availability outcomes documented 
by various reports and studies, including GAO and the Rand 
Corporation. A May 17, 2000, USA Today quote sums it up: ``the 
military is a model of child care efficiency.''
    I would hope you would agree that the Nation has received 
an excellent return on its investment in military child care. 
On behalf of military parents all over the world, I ask your 
continued support for our military child and youth program. 
Military parents face a variety of challenges every day. 
Knowing their children are well cared for should make those 
challenges a bit easier to handle.
    Thank you.
    [The prepared statement of Ms. Lucas follows:]

                  Prepared Statement by Ms. M.A. Lucas

    Good afternoon, Chairman Chambliss, Chairman Alexander, and members 
of the subcommittees. I appreciate the opportunity to testify before 
you today to discuss the child care and school transition challenges 
facing military parents. It is my privilege to represent the Child and 
Youth Programs of our armed services and to tell you about our 
initiatives that respond to the needs of our military parents.
    As the Director of Army Child and Youth Services, I can report that 
never have the stresses of military parenting been greater than in this 
``post-September 11 world''--nor has the need been greater to assure 
our military parents that their children will be well cared for as they 
deal with the daily impact of the global war on terrorism. Throughout 
these significant challenges, our Military Child and Youth Programs are 
also accommodating the needs of our military communities and striving 
to meet the ever-increasing demand for unique child care options and 
school transition services not found in the private sector.

                      INTRODUCTION AND BACKGROUND

    The requirement for Military Child Care and Youth Programs is--
quite simply--to support force readiness by reducing the conflict 
between the parental responsibilities of military service members and 
unit mission requirements. There is no doubt the conflict is there. The 
Army Sample Survey of Military Personnel Spring 2002 data shows 27 
percent of enlisted soldier parents who use child care lost duty time 
in a 3-month period due to the lack of child care. This reflects a 
rising trend, up from 20 percent in 1995 and 23 percent in 1999. 
Likewise, a fall 2001 survey showed 27 percent of enlisted soldier 
parents with children 13-18 years living with them lost duty time in a 
12-month period as a result of dealing with youth misconduct. Clearly 
these trends demonstrate the fact that availability of child care and 
youth supervision options has an impact on military mission readiness.
    There are many military-unique factors that make child care and 
youth supervision options a necessity to support our troops, e.g., 
military families are younger families with children away from their 
own extended families and neighborhoods; large numbers of infants and 
toddlers--the very age group that care is least available for off post; 
military duties requiring child care and youth supervision options 10-
14 hours per day including early morning, evenings, and weekends as 
well as round-the-clock care--sometimes for an extended period of time; 
lack of care options at remote sites and overseas; and large numbers of 
parents whose spouses are deployed making them temporarily 
geographically single, as well as true single and dual military 
parents. Likewise, the mobile military lifestyle with its frequent 
relocations makes school transitions difficult--especially for teens. 
Quality Child and Youth Programs allow service members to focus on 
their missions knowing that their children are thriving in our child 
care programs and their teens are adjusting well to new schools. 
Military Child Care and Youth Programs are an incalculable force 
multiplier.
    With the advent of the global war on terrorism, military parents 
literally ``go to war'' each day they leave their homes. It may be they 
will be gone for a day and return home that night. It may be they will 
board a ship and be gone for 6 months. To a child or young person who 
sees the reality of this war on the evening news, the fact that his or 
her parent--or, in some cases, both parents--must leave every day to 
face this threat can be understandably frightening. Military Child Care 
and Youth Programs have responded, meeting as many needs as current 
resources allow, most recently during Operation Iraqi Freedom.
  child care and youth supervision options to support military parents
    In a very real sense, Military Child Care Programs also ``go to 
war'' whenever our military forces are called upon to do so. Many 
installations and bases have Child Care Mobilization and Contingency 
Plans that can be activated whenever there is an extraordinary 
contingency condition, be it a natural disaster or a war. When these 
child care plans are activated, here are some of the things that happen 
to benefit military parents, especially parents who may have been 
sharing child care arrangements and now will need additional support 
while one of the parents is deployed:

        <bullet> Child care options provided are tailored to meet the 
        current mission requirements, e.g., hours of operation may be 
        adjusted to support an extended duty day, more hourly care is 
        available to support unit briefings.
        <bullet> Child and Youth staff identify locations for 
        alternative child care sites to expand services.
        <bullet> Staff recruitment and background check actions are 
        expedited to replace those family member employees who return 
        home during the sponsor's deployment and to accommodate 
        increase in children served.
        <bullet> Safety and security measures are augmented and may 
        include the designation of staff as ``mission essential 
        personnel'' in order to provide child care services for other 
        mission essential personnel.
        <bullet> Fees are often reduced and extended child care hours 
        in support of the mission may be provided at little or no cost 
        to service members.

    Today, thousands of Child and Youth employees and Military Home 
Care providers are supporting families of deployed troops, often 
beginning as early as 4:30 a.m. and going until late into the evening 
to support shift workers. Military Home Care providers frequently 
provide additional evening hours of care taking the children to ball 
practice, choir, helping with homework, and volunteering to coach youth 
sports teams whose coaches are deployed. Staff also often work at night 
and weekends to provide care during family readiness group meetings and 
special events held by the installation to support families of deployed 
service members. In short, Child and Youth employees and Military Home 
Care providers are making every effort to provide a ``normal'' life to 
children who desperately need this support.
    It may not sound extraordinary to us, but to the families that are 
supported, the efforts of these Child and Youth staff and Military Home 
Care providers make all the difference in their ability to cope with 
the stress of family separation. Telling, too, is the fact that many of 
them are also dealing with the deployment of their own spouses.
    Here are some examples of initiatives implemented by the Services 
specifically to support the needs of parents during the current 
deployments:

        <bullet> The Army offers extended hours care to soldiers using 
        Child Development Centers and Family Child Care Homes at 85 
        installations. Many of these locations are providing care for 
        children of deployed soldiers for up to 60 days in Family Child 
        Care Homes. This allows these children to stay in a familiar 
        setting as an alternative to foster care when grandparents or 
        other family members are unable to care for them while their 
        parent(s) is deployed. Providers caring for these children 
        receive special training and oversight. An average of 38,000 
        hours of contingency related care is provided monthly in these 
        child and youth programs. Twenty-one thousand of these care 
        hours are in Family Child Care homes.
        <bullet> The Navy is offering around-the-clock care in Pearl 
        Harbor and Norfolk regions (where there are large fleet 
        concentrations) to meet the extended hours need of shift 
        workers and families of deployed sailors. The Navy is also 
        creating a group home in each of these regions accommodating 
        12-18 children, with three shifts available.
        <bullet> The Marine Corps is offering respite care, extended 
        hours care, and child care during deployment briefings to 
        support Marine Corps families. Deployment training materials 
        for children were developed to assist Child and Youth staff and 
        Home Care providers help children deal with the current 
        deployment.
        <bullet> The Air Force has expanded their Family Child Care 
        Program at 70 Air Force bases to help parents when they need 
        care beyond their regular child care arrangements to include 
        before, during, and after deployments. Child care services 
        include extended duty care for parents who work extended hours 
        or have a shift change or need temporary help. Sixteen hours of 
        care are offered for each child in families of active duty 
        military, Air National Guard, and Air Force Reserve members 
        returning from deployments of 30 days of more so they can spend 
        time with spouses and catch up on family duties. An average of 
        11,000 hours of care is provided monthly through the use of the 
        Expanded Family Child Care programs.

    To this point in fiscal year 2003, through its different 
initiatives, Army child care programs have impacted nearly 10,000 
families with more than 20,000 children by delivering 231,400 child 
care hours beyond ``normal'' operations. The Air Force, Navy, and 
Marines are providing comparable support to their families as well. In 
total, more than 400,000 hours of contingency related child care have 
been provided to military parents Department of Defense (DOD) wide.
    Military parents are also concerned about the impact of the global 
war on terrorism on their school-age children and teens. All the 
Services have held meetings with teens to help develop the kinds of 
programs on the installations that appeal to this age group and help 
them cope with the changes in their lives brought on by a parent's 
absence.
    Communication with parents who are deployed is an essential factor 
in maintaining well-being in the lives of our children and youth. At 
youth centers, where computers with internet connectivity are 
available, our young people use e-mail and digital photography to stay 
connected.

                     NEW WAYS OF PROVIDING SERVICES

    The global war on terrorism is transforming the way we deliver 
child care services to military families, particularly to those not 
living on or near military installations. For example, one of our 
National Guard bases provided on-site child care to a Marine Corps 
Reserve unit located approximately 2 hours away. Although the child 
care staff had only 3 days to prepare for the request to provide child 
care for a Sunday deployment briefing--it happened . . . much to the 
great satisfaction of the Marine Corps unit making the request. By 
offering child care to military parents located 100 miles away from the 
Child Development Center, the staff demonstrated they were not bound to 
delivering service in the ``traditional'' way.
    The military Services are piloting numerous outreach efforts aimed 
at serving geographically-dispersed active component service members as 
well as Guard and Reserve members who are eligible to utilize these 
services while on active duty or in training status.

        <bullet> A Memorandum of Agreement between the Army and the 
        General Services Administration (GSA) permits active duty 
        patrons to include Guard and Reserve in 23 communities 
        throughout the country (e.g., Albany, New York and St. Louis, 
        Missouri) at the same cost as at an Army Child Development 
        Center.
        <bullet> The Army is implementing several pilot programs to 
        support monthly weekend drills for Guard and Reserve units and 
        child care for 12 activated Guard and Reserve Family Support 
        Groups.
        <bullet> Cooperative agreements between the Army and the Boys & 
        Girls Clubs of Miami, Florida; Killeen, Texas; Tacoma, 
        Washington; Silver Spring, Maryland; and Dale City, Virginia, 
        are allowing the Clubs in these local communities to offer 
        services to military-connected youth that are comparable to 
        Army Youth Programs in terms of training, staff supervision, 
        and predictable programming.
        <bullet> Our Military Youth Programs are receiving strong 
        support through our ongoing partnerships with the United States 
        Department of Agriculture Cooperative Extension Service (i.e., 
        4-H Clubs) and the Boys & Girls Clubs of America.

                <bullet> In support of Operation Enduring Freedom, Boys 
                & Girls Clubs all over America have ``opened their 
                hearts and doors'' to our school-age children and teens 
                of military families living off-post, as well as to 
                children of reservists and National Guard. Children can 
                participate in local Club activities for little or no 
                cost to their families.
                <bullet> Cooperative Extension Service ``military 
                liaisons'' in 38 States are supporting military-
                connected children and youth through a variety of 
                outreach initiatives. These State and local 4-H Club 
                partnerships with Military Youth Programs reinforce a 
                sense of community for our school-age children and 
                teens whether they live on or near a military 
                installation or are a part of the greater community. 
                Wherever they move, our youth are involved and 
                connected in 4-H clubs.

    We are encouraged by these successes and by that fact that each of 
these deployment support initiatives has the potential to be expanded 
to additional sites.
                         a systematic approach
    The Department of Defense is working to institutionalize our 
``lessons learned`` by establishing an infrastructure to support the 
child care and youth supervision needs of our military parents. This 
systematic response may range from ensuring we have a cadre of well-
trained Home Care providers who can handle long-term care or respite 
care to support that single service member or that ``geographically-
single'' spouse, to guaranteeing extended hours that mirror the 
installation duty day at Child Development Centers so that dual-
employed military families can meet their military obligations.
    Working parents and service members require a range of baseline 
programs to support their child care needs. These programs and services 
are vital in ensuring that military parents have reliable child care 
options that minimize lost duty time. Normal duty requirements usually 
involve Full Daycare in Child Development Centers, Military Child Care 
Homes, or Before and After School Programs. Full day operations cover a 
range of duty hours usually from 6 a.m.-6 p.m., Monday through Friday. 
Hourly Care is provided in these same programs to support the 
intermittent child care requirements of both working and non-working 
parents. Non-working parents who volunteer their time supporting family 
programs use hourly care options. Youth Programs provide predictable 
options and services during out-of-school time particularly for middle 
school youth who are too old for child care and too young to drive or 
have a job. Youth programming can include leisure activities, life 
skills classes, opportunities to volunteer for community service, 
workforce preparation, individual/group sports and fitness activities, 
homework centers, and youth technology labs.
    Many military parents often need care beyond the normal duty day. 
Extended Hours Child Care, usually offered in Military Child Care Homes 
on and off post, must be available for children of parents who require 
routine evening child care, work unusual or long hours, or have mission 
related child care needs that require services over 12 hours a day. 
Parents involved in training exercises or temporary duty away from 
their home station may require round-the-clock care with specially 
trained Home Providers for periods of up to 60 days.
    Single parents and parents with deployed spouses find themselves 
dealing alone with the stresses of parenthood. Respite Care offers 
short-term hourly care to provide them a ``break'' to tend to family 
business or take time for themselves. Respite care services, often 
offered as part of a child abuse prevention plan, are generally at no 
cost to parents for limited periods of time or offered at a reduced 
rate.
    We believe much lost duty time is due to routine child illnesses 
and unreliable child care arrangements. Back-up child care homes are an 
option to provide care when routine child care arrangements break down 
or cannot be used. Many times it is the service member who takes time 
off to be with a child recovering from a cold because the spouse holds 
a job with limited benefits and would lose needed income from a day's 
pay.
    On-Site Group Care, provided in non-traditional settings, is often 
used to support command functions, e.g., pre-deployment briefings. 
Child care staff come to the event location with mobile child care kits 
and ``set up shop.''
    We need to institutionalize services such as these to support 
military parents who are under constant stress of a high operating 
tempo and frequent deployments.

                       SCHOOL TRANSITION SUPPORT

    Just as we are sharing our lessons learned in Military Child Care, 
the work the Army is doing in partnership with local school systems is 
applicable to ease school transitions for any mobile student.
    In 2000, the Army, in partnership with the Military Child Education 
Coalition, conducted a study to gain a greater understanding of the 
challenges that military-sponsored students face when transitioning 
from one school district to another. The findings included student 
difficulties with transferability of student records, course grades, 
credit hours, and high stakes testing requirements of different States 
as they moved from school district to school district. Of course, these 
are issues that impact all mobile children and not on just those 
children with military parents.
    To institutionalize the results of the Secondary Education 
Transition Study (SETS), the Army has funded School Liaison Officer 
positions at Army installations to facilitate school transitions for 
our children. These trained professionals are providing Army families 
with consistent and predictable transition support services, e.g., 
improved communication about school calendars, graduation requirements, 
records transfer, and opportunities for students to more rapidly 
develop social and emotional connections to the new school and 
community.
    The number of school systems serving children from families of all 
branches of the military who are willing to both emulate promising 
practices and share ideas that will make the transitions easier 
encourages us. To date, 125 superintendents, representing 129 school 
districts, which encompass over 2.5 million school-age children, have 
signed the SETS Agreement to facilitate the development of reciprocal 
school policies and practices to institutionalize processes for school 
transitions. The vast majority of the signatory school systems are 
stateside public schools, and I am pleased to note that all of our 
Department of Defense Dependent Schools and Department of Defense 
Domestic Elementary and Secondary Schools are signatories. The Army is 
forming a steering committee of superintendents to promote 
communications among these school systems and expand the SETS Agreement 
process to major school systems supporting military installations. A 
web-based ``forum'' will allow all SETS superintendents to network and 
share information on promising practices. We are asking local schools 
to consider policy changes in order to level the playing field so all 
mobile children have the same opportunity for academic success and 
smooth school transitions. We are hopeful all major school districts 
serving military-connected children will become signatories of the SETS 
Agreement so that no child is ``left behind.''
    During Operation Iraqi Freedom and Operation Enduring Freedom, it 
has been clear that SETS school systems are committed to responding to 
the needs of our military children. Superintendents, principals, and 
counselors welcome information about how to support our children, 
including military support services available for their use. Teachers 
and counselors are extremely positive and demonstrate a genuine 
interest in the well-being of our military-connected children. Because 
these partnerships with the local schools were well established prior 
to the need for them, the outcomes resulted in a better understanding 
among students, parents, and school personnel as mobilization of 
soldiers occurred.
    School systems who are members of the Military Child Education 
Coalition, a private, non-profit organization whose mission is to 
address the education needs of children in military families of all 
Services, receive an ``interactive counseling center.'' This point-to-
point video teleconferencing computer system enables counselors from 
the losing school to communicate with the receiving school when a 
student is in transition. Copies of transcripts, course descriptions, 
and other records can be reviewed on screen and transmitted real time 
to either school. This is an excellent tool for both and parents 
counselors.
    The Military Child Education Coalition also sponsors a Transition 
Counselor Institute series to help school guidance personnel work with 
military-connected children. Subjects include the military lifestyle, 
deployment, and relocation issues. The Military Child Education 
Coalition has trained almost 1,000 educators from 29 States and 
overseas through this institute.
    Since April 2001, the Army has allowed more than 2,400 soldiers 
with children entering their senior year in high school to remain an 
extra year at their current duty station. Soldiers may apply to the 
Army Personnel Command for stabilization approval 12 months prior to 
the start of their child's senior year. Only 21 requests, fewer than 1 
percent, have been denied because of the needs of the Army. As of June 
2003, 60 requests were pending approval. The Army evaluates the 
applications on a case-by-case basis and looks to be able to say 
``yes'' to the request.
    Families tell us this process works. Students are able to prepare 
for post secondary opportunities, go to the prom, and graduate with 
friends they made during their high school days. Army service now means 
one less sacrifice for families. We are being told we are doing the 
right thing.

                               CONCLUSION

    In August 1990, the House Armed Services Committee challenged DOD 
``to be on the leading edge of the child care movement in America.'' 
The Services responded by making military child care, once derided by 
many as the ``ghetto of child care,'' as the model for national child 
care reform. Indeed, a May 2000 report issued by the National Women's 
Law Center entitled: ``Be All That We Can Be Lessons from the Military 
For Improving our Nation's Child Care System,'' notes: ``The best 
chance a family has to be guaranteed affordable and high quality 
(child) care is to join the military.'' Several States are now piloting 
the key components of the Military Child Care System, in response to 
the language in the Fiscal Year 2000 Defense Authorization Act, Public 
Law 106-65, ``Support for Expanded Child Care and Youth Programs 
Services for Dependents.'' We believe that this effort, in addition to 
improving child care in the private sector, will lead to additional 
quality child care options for military parents.
    Although military child care programs are acknowledged as a 
benchmark model today, we are evaluating our present operations with a 
clear view of where we must go in the future while maintaining the key 
elements of quality, affordability, and availability that define our 
DOD Child Care and Youth Program policies.
    Our new challenge is to sustain our baseline Child and Youth 
Programs and develop the infrastructure that will allow us to routinely 
provide predictable services such as school transition assistance, 
offer respite and extended hours care as needed, identify care options 
for geographically-dispersed service members, support youth 
communications with deployed parents, and facilitate partnerships with 
schools and community organizations that will increase the availability 
of care for military-connected children. Only by looking at these 
options, in addition to our existing baseline programs, will military 
parents have sufficient affordable, quality child care and youth 
supervision options.
    To do so, we must focus our planning on ensuring fee equity for all 
patrons regardless of whether they choose care in Child Development 
Centers or in Military Child Care Homes; increasing the availability of 
off-post care options that are comparable in quality and cost to on-
post programs; stabilizing our child care workforce by paying 
competitive wages; and offering career potential--especially for our 
military spouse employees--within the Military Child and Youth Program 
system DOD-wide, and constructing additional on-post child care 
facilities where necessary.
    We must also, however, recognize that we are accountable for our 
operations and deliver back to military families and to the American 
taxpayer the very best and most efficient system that we can. We have 
done that and will continue to do so.
    Military Child Care and Youth Programs are absolutely essential to 
the well-being of our military families. Your committees have been 
champions of Military Child and Youth Programs for more than 20 years. 
We believe DOD and the military services have delivered measurable 
cost, quality, and availability outcomes. These outcomes are documented 
by various private sector reports and studies done by the General 
Accounting Office, RAND Corporation, our national professional 
accreditation status, and media stories. A May 17, 2000, USA Today 
quote sums it up: ``The military is the model of child care 
efficiency.''
    I hope that you would agree that the Nation has received an 
excellent return on its investment in military child care. On behalf of 
military parents all over the world, I ask your continued strong 
support for our Military Child Care and Youth Programs. Military 
parents face a variety of challenges every day. Knowing their children 
are well cared for should make those challenges a bit easier to handle.
    Thank You.

    Senator Alexander. Thank you very much, Ms. Lucas, and 
thanks to all of the witnesses for your complete testimony. 
I've read all of your testimony. I'm sorry I wasn't here to 
hear it all. The United States Senate does not run with the 
same precision as the United States military.
    I have several questions, and just so you know what the 
schedule is, the Senators have two or three more votes. I'll be 
here for another 20 minutes or so, others will be back, I 
think, but probably we'll wind this up, if that suits your 
schedules, about 5:30. Is that all right with you?
    I would like to first thank you for the completeness of 
your testimony. It's a big help to us, and it helps us begin to 
get specific with areas of things that we might do. I thought 
that I would ask you about some very specific things, and let 
me start with Ms. Raezer. Let me start with the housing 
allowance. At Groton, or at New London, I guess I should say, 
we ran into this, and you mention it here, that in the new 
housing that's being provided there is a housing allowance, and 
so the sailors are finding on their paychecks a new entry that 
says, here is your housing allowance.
    Now, that looks good, but one problem, and maybe it was an 
unintended consequence, or maybe it wasn't, one problem is that 
that makes those families ineligible for some other Federal 
benefits, like child care vouchers, WIC payments, perhaps even 
food stamps, because previously those housing allowances were 
treated as in-kind benefits, and not a part of income. Is that 
true? How widespread is that, and if that's true, what should 
be done about that?
    Ms. Raezer. As we addressed in our testimony, this is a 
really big issue. It has been an issue historically because of 
the way basic allowance for housing has been treated versus 
government housing, the in-kind housing. Value of in-kind 
housing for most programs has not been counted toward 
eligibility. However, housing allowances which show up on a pay 
stub are, so our folks who have lived off the installation, and 
remember 60 percent of our folks live off the installation, 
have had to deal with this issue for a long time.
    It was especially bad when the housing allowance wasn't 
covering even close to what it was supposed to cover by law. 
These folks were dealing with higher housing costs, higher 
transportation costs, they were further away from base 
services, and yet they couldn't qualify for free and reduced 
lunches for their kids and other safety net programs.
    Senator Alexander. They were off base.
    Ms. Raezer. They were off base.
    Senator Alexander. The basic allowance for housing was 
counted in their income.
    Ms. Raezer. What's complicating the issue now is that under 
the authorities for the privatization of military family 
housing, which in one sense is a very good thing, since we're 
getting private capital in to fix military housing at a much 
faster rate than we can get through military construction.
    Senator Alexander. They were pretty good-looking buildings.
    Ms. Raezer. Yes.
    Under that legislation, it was mandated that service 
members in the privatized housing will receive this basic 
allowance for housing, which is then turned over as an 
allotment to the developer as rent. So you have these folks 
sometimes living in the same house, but when the contract goes 
into effect with the developer, all of a sudden it looks like 
they're making more money, but they lose eligibility for the 
programs on which they've depended for extra help.
    At Fort Carson, Colorado, when the Army turned over all 
that housing to the developer, two-thirds of the families who 
were on food stamps went off food stamps, simply because the 
housing allowance started showing up on their LES. This issue 
has been fixed for some programs for free and reduced lunches, 
that eligibility was fixed.
    Senator Alexander. When you say fixed, what do you mean?
    Ms. Raezer. Well, what I mean is that now with respect to 
children living in privatized housing, their parents' housing 
allowance is not counted towards those children's eligibility.
    Senator Alexander. So that was the solution.
    Ms. Raezer. It was legislation attached to the agricultural 
bill last year, but it only fixed the problem for those 
children and parents--it only really maintained the status quo. 
It fixed the problem for the folks in privatized housing. We 
still have those folks out in the community who are having 
larger expenses who still can't qualify.
    Our organization, after looking at this, said it would 
really be nice if everybody was treated the same way in terms 
of basing allowance for housing. The military child care system 
kind of compromises. Everybody has the standard, what's called 
BAH-2 counted as part of their income, so it's the same across 
the board for everyone.
    Right now, as you can see in the chart in our written 
statement, it's a mish-mash for some things it's counted for 
privatized housing, not for other housing. Some places it 
hasn't been readjusted yet for the privatized housing. It's 
very, very confusing for our families.
    Senator Alexander. I can imagine that there would be a 
large cost to the Government and in equity of dealing with 
people off-base as well as on-base, and the question would come 
up, well, would it be then fair to everyone, including people 
who don't have families, that--excuse me just a minute.
    Ms. Raezer. Sure.
    Senator Alexander. I'm just checking to see if I'd voted.
    Ms. Raezer. We're looking for you folks to help us simplify 
this.
    Senator Alexander. I'm glad to know the problem, and if 
you're then considering all families, the question might be, 
should that total amount of money just go as a pay raise to the 
Services, but I think that's as far as I can take it now, but I 
think it's a significant issue, and a larger one than I 
thought.
    A second question I have to pose to any of you is, can you 
be of any help to us in suggesting what we might do to 
encourage more reciprocity among States on the issues that make 
life more difficult for frequently moving military families, 
particularly families with children? There are various models, 
and there are various agreements, but I'm wondering if there 
might not be an interstate compact of some kind that the 
Federal Government might encourage, not a Federal law.
    A lot of these are State prerogatives, driver's licenses, 
professional licenses for spouses who are accountants, or who 
want to work for child care, but maybe there would be some sort 
of interstate compact that the Federal Government could help 
encourage, and that military associations could then go out and 
encourage their State legislators to pass, or is that already 
being done?
    Ms. Raezer. It's being done in some places. The Governor of 
Texas just signed a bill into law that would actually encourage 
the State of Texas to look at reciprocity agreements on some of 
these issues with other States that have a high number of 
military children.
    Senator Alexander. It's a law to encourage other States?
    Ms. Raezer. Encourage Texas to enter into, to explore 
reciprocity agreements with other States.
    Senator Alexander. I see. Texas would make its own 
agreements.
    Ms. Raezer. Yes, and that's the first step, because as you 
said, this isn't completely a Federal issue, but I would hope 
that Members of Congress could use their bully pulpit to say, 
this really is something that is worthy of the States' 
attention when you go back home.
    One piece that we would ask for Federal help on is just, in 
your oversight of No Child Left Behind, to ensure that the 
varying State accountability measures that are being developed 
to bring the States in compliance with No Child Left Behind 
don't unfairly penalize mobile children and the schools that 
are charged with educating them.
    Senator Alexander. Another role that the Federal Government 
might play is, the Department of Defense has lots of resources, 
many of the people who were here today have lots of resources 
that would assist Governors and legislators in figuring out 
what it is they ought to do, so it might be just as simple as 
getting a few of the Governors together with some of us and the 
Department of Defense and some of you all and in an orderly way 
trying to get that going.
    Ms. Raezer. It would.
    Senator Alexander. Ms. Lucas or Dr. MacDermid, do either of 
you have comments?
    Ms. Lucas. Yes, sir. I can tell you that the Army has 
contacted a number of State legislators asking them to review 
their in-State tuition eligibility, especially under the 
following conditions, asking them to look at their in-State 
tuition for soldiers and family members within the State of 
legal residence, the immediate in-State tuition for soldiers 
and family members in the State of assignment, and then the 
continuity of in-State tuition once established.
    The proponent for that within the Army is the Office of the 
Adjutant General, and we would refer your question to them for 
a more comprehensive reply.
    Senator Alexander. I wonder if I might ask you to do this 
for the committees, would each of you, if you feel you can, 
think about the reciprocity issue and write us a letter when 
you are finished, in the next few days, and outline for us the 
areas where you think reciprocity would be most useful, and any 
other comments you might want to make. Like, some things are 
easier to do than others, and you've pointed out that some 
things are already being done. I was a Governor one time, and 
the Uniform Commercial Code was not adopted by the Federal 
Government. It was adopted State by State, and my guess would 
be that many States with military posts and bases would rush to 
try to adopt some sort of reasonable compact, and once several 
States did, that would encourage others to do more, but it 
would help us to know, from the families' point of view and 
from the military's point of view, what would help the most.
    In New London they might say, we have a lot of spouses who 
want to be a part of the family daycare network, and it takes 6 
months to get certified in Connecticut, and by the time they're 
certified, they're off doing something else. They can't wait 6 
months.
    Dr. MacDermid, did you have anything you'd like to add?
    Dr. MacDermid. No, thank you, Senator.
    Senator Alexander. Let's talk about child care just a 
little bit more. I was very impressed with what's happened in 
the child care, child development centers we saw, and Senator 
Dodd and I may have a little different emphasis on the family 
network. I think that's a pretty good thing. At Fort Campbell 
they were saying, we have 65 licensed spouses. My guess is that 
many of those are military spouses, which provides an 
opportunity for income and care for children, and fulfillment, 
and they need perhaps 230 homes.
    I heard discussion that we need respite care. The 
discussion about flexibility we talked about, but other than 
respite care, family network, what other child care issues 
should we be thinking about?
    Ms. Lucas. Sir, I'd like to talk just a little bit about 
the family child care first, because military family child care 
providers are, in fact, all military spouses.
    Senator Alexander. So they're all spouses.
    Ms. Lucas. They are all spouses, but military family child 
care is a viable option only if the parent fees are equitable 
to the same fees that parents are paying in military child 
development centers; and that the home providers receive some 
kind of compensatory funding offset, as authorized in the 
Military Child Care Act to make up the difference in their 
expenses.
    Senator Alexander. Now, today, are the home providers not 
paid?
    Ms. Lucas. They are paid directly by the soldiers and 
sailors and airmen and marines. However, the fee policy that 
the Department of Defense uses for patrons to pay for care in 
their child development centers is not applied to the family 
child care homes because the same level of subsidy is not given 
to the homes that is given to the child development centers. In 
general, a soldier using a military family child care home will 
pay about $10 a week more than if he were using a military 
child development center.
    It's an issue of competing priorities, and the Military 
Child Care Program has never been funded for that full 
compensatory subsidy so that we can use the same fee policy for 
both our centers and our family child care homes.
    We see really a steady drain of our family child care 
providers leaving for other opportunities. Just in the Army 
alone over the last 5 years we've lost some 3,500 child spaces 
because providers have left for more lucrative opportunities 
elsewhere.
    Senator Alexander. Now, they've gone for more lucrative 
opportunities?
    Ms. Lucas. Well, they would go to work in the child 
development center.
    Senator Alexander. Oh, you mean you've lost the family 
spaces.
    Ms. Lucas. We've lost the family child care spaces, so 
we've seen a steady decline in the number of family child care 
spaces in all the Services over the years. Two years ago, the 
Services were asked as part of the conference report to give a 
report on what would be needed to help expand the family child 
care program, and we did provide that.
    Senator Alexander. Any other comments on child care?
    Ms. Raezer. Yes. I think it's important to remember we have 
a lot of folks who can't access either the child development 
center or the family child care homes on an installation, 
because they don't live near an installation, or because of 
transportation issues. An active duty marine who lives in 
Woodbridge and works in the Pentagon probably isn't going to 
find the Pentagon child development center all that attractive 
for their child because it means hauling them up and down I-395 
every day. They need child care at home.
    Senator Alexander. It's not attractive, no.
    Ms. Raezer. We have a lot of our activated Guard and 
Reserve families who cannot access the installations, so there 
is this whole big population for whom the installation child 
development center or family care homes aren't an option, who 
right now don't have a military child care service or benefit, 
and they're asking for some kind of help in paying for the 
child care that they need.
    Senator Alexander. There are many different levels of child 
care in America, and many of them are adequate. Some are just 
better than others. Is it really necessary that the family day 
care home subsidy be equal to what the subsidy would be for the 
child development center, or is that just a matter of equity 
among service families?
    Ms. Lucas. Sir, it isn't that it costs. It actually is less 
expensive for us to provide child care in a daycare home.
    Senator Alexander. Yes.
    Ms. Lucas. So it is a lower amount. The equity that we're 
talking about is that the soldier or the service member pays 
the same whether they're using a family child care home or a 
center, so it is truly a choice and a matter of equity among 
service families.
    I think, too, we're also concerned about when we refer 
military family members, for instance, through community 
referral service. It's one thing to refer them, but once you're 
out there, they need to have some kind of support so that they 
are using child care in the private sector, but again looking 
to pay something, if not exactly the same as if they were on a 
military installation, but receiving some support for that.
    We have a pilot site in the Army right now with the GSA-
accredited centers, more than 100 centers throughout the 
country, and as part of the pilot site a service member can use 
one of those centers and they will be charged the same as if 
they were actually on a military installation, and we think 
that has a lot of possibilities for future expansion.
    Senator Alexander. That's very helpful.
    The hour is late. You've been patient with your time, and 
most of the Senators have another vote to cast in just a few 
minutes, so I want to thank you very much for the 
comprehensiveness of your testimony.
    This is the fourth in a series of hearings that we have 
had. Senator Nelson will have the fifth. We expect to continue 
our spotlight for the foreseeable future on how to help make it 
easier for military parents raising children. It would seem to 
me that a military, if we had a military child care 
certification that we could agree on, that might be one of the 
first things States might recognize, making it easier for 
families, spouses who are moving families to a new State to 
immediately be eligible for that program, if we could get the 
compensation part fixed.
    So I thank you very much for coming. I look forward to 
anything you have to suggest to us on the list of items best 
for reciprocity, and if any of the witnesses have any other 
information you'd like for us to have, we'd like to receive it 
within about a week.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 5:30 p.m., the subcommittees adjourned.]


         ISSUES RELATING TO THE EDUCATION OF MILITARY CHILDREN

                              ----------                              


                        TUESDAY, OCTOBER 7, 2003

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                Bellevue, Nebraska.
    The subcommittee met, pursuant to notice, at 1:10 p.m., in 
room 100, Bellevue Public Schools/Offutt Air Force Base Welcome 
Center, Bellevue, Nebraska, Senator Saxby Chambliss (chairman 
of the subcommittee) presiding.
    Committee members present: Senators Chambliss and E. 
Benjamin Nelson.
    Majority staff member present: Richard F. Walsh, counsel.
    Minority staff member present: Gerald J. Leeling, minority 
counsel.
    Staff assistant present: Michael N. Berger.
    Committee members' assistants present: Clyde A. Taylor IV, 
assistant to Senator Chambliss; and Eric Pierce, assistant to 
Senator Ben Nelson.

     OPENING STATEMENT OF SENATOR SAXBY CHAMBLISS, CHAIRMAN

    Senator Chambliss. Good afternoon. The subcommittee will 
come to order. The Subcommittee on Personnel meets today to 
receive testimony on issues relating to the education of 
military children.
    It's a great pleasure for me to be here in Bellevue, 
Nebraska, today, and I bring you greetings from the 
Southeastern Conference, from our Georgia Bulldogs, and our 
Georgia Tech Yellow Jackets from the ACC. [Laughter.]
    Unfortunately, the last time, as I remember, our two 
schools, Nebraska and Georgia, met was in the Sun Bowl several 
years ago, and you all were happy after the game, and we were 
very unhappy. [Laughter.]
    It's nice to be here in Nebraska today under different 
circumstances. I'm particularly pleased to be here with my good 
friend, Ben Nelson. As a freshman member of the United States 
Senate, I've had the privilege of chairing the Subcommittee on 
Personnel in the Armed Services Committee, and being as my 
ranking member, he has been my right hand, my partner in this 
all the way through.
    The Senate is not always bipartisan, but on this 
subcommittee and on the Armed Services Committee, it is a very 
bipartisan effort to look after the needs of our men and women 
who serve in every branch of our military. I can't be more 
proud or happier to have as my ranking member on the 
Subcommittee on Personnel, Senator Ben Nelson. He has been a 
terrific asset. Plus, he and I have gotten to be very good 
friends. I was telling somebody inside, we're going to be 
coming back out here because I'm an avid outdoorsman, as is he, 
and I want to get some of your pheasant under wraps out here 
one of these days.
    I was surprised. I have an aunt and uncle who live out in 
Lincoln, and my Aunt Florence Anderson is here today. Florence 
surprised me by coming here. I was very pleased to see my 
mother's sister here. So we have a little bit of a Nebraska 
connection there.
    I would like to start by stating my appreciation for the 
strong advocacy on the behalf of the men and women of the Armed 
Forces by Senator Nelson. The Committee on Armed Services has a 
strong tradition of bipartisanship, and that tradition could 
not be stronger than in the Personnel Subcommittee.
    I'm sure Senator Nelson agrees it is essential that the 
Subcommittee take advantage of every opportunity to visit 
military communities and military personnel and their families 
where they live and where they work and hear firsthand from 
them about their experiences, concerns, and hopes for the 
future as they proudly serve in the Armed Forces.
    In early June, we conducted a field hearing very similar to 
this at Robins Air Force Base in Warner Robins, Georgia, and 
received testimony on issues affecting families of soldiers, 
sailors, airmen, and marines. A few weeks later, we joined with 
Senator Lamar Alexander's Subcommittee on Children and Families 
of the Health, Education, Labor, and Pensions Committee in 
Washington, DC, to conduct a joint hearing on these issues.
    In both hearings, we focused on various issues affecting 
the quality of life of military personnel and their families. 
We heard from military leaders in the Services and civilian 
officials of the Department of Defense who are responsible for 
programs directly serving individuals, families, and the 
communities that surround military installations.
    We heard about such issues as support networks for family 
members of the deployed active duty and Reserve personnel, 
availability of child care for military parents, enhancing 
spouse employment opportunities, and improving the availability 
of counseling services for families in distress.
    I was impressed by the programs I heard about and the 
dedication of those who serve military families worldwide. More 
can be done to ensure the best use of available resources to 
support military personnel in being successful parents as well 
as successful soldiers, sailors, airmen, and marines.
    Today, we focus on military parents and civilian community 
schools and the unique challenges they face in providing the 
education of military children. We expect to learn more about 
the problems facing civilian communities in responding to the 
educational needs of military families. We hope to bring back 
to Washington, DC, a better understanding of how Congress can 
assist in improving the quality of education given and 
received.
    We have two panels of witnesses who will testify this 
afternoon. First, we will hear from Dr. John F. Deegan, 
Superintendent of Schools for the Bellevue Public School System 
and the Chief Executive Officer of the Military Impacted 
Schools Association. Dr. Deegan is well-known to us in 
Washington, DC, for his strong advocacy and unflagging energy 
on behalf of military dependents and the community schools that 
serve them.
    We will also receive testimony from Otto J. Thomas, 
Director of Educational Opportunities within the Office of the 
Under Secretary of Defense for Personnel and Readiness.
    Gentlemen, welcome to each of you.
    Our second panel will consist of parents of military 
children who will share with us their experiences and 
suggestions. Additionally, we will receive testimony from 
Sheila Murphy, a former director of a Family Readiness Network, 
who can speak about issues affecting Reserve component 
personnel.
    I welcome members of our first panel, and we will begin 
shortly, but I would first like to recognize my good friend and 
colleague, and what a great host he is, in the great State of 
Nebraska, Senator Ben Nelson.

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you, Mr. Chairman. It is my 
pleasure to welcome you to the great State of Nebraska. Today 
we planned about as good weather as you could ever expect 
anywhere. I'm sure you have good weather in Georgia as well, 
but it would be pretty hard to top what we've been able to get 
for you today here in the State known for the good life.
    I know you are a fan of peaches, and it's a little 
premature for us to determine what's going to happen at the end 
of the football season, but hopefully the Cornhuskers and the 
Yellow Jackets or the Bulldogs will get a chance to meet. I do 
remember that game in the Sun Bowl. I was sworn to secrecy as 
to the score. [Laughter.]
    Perhaps we can get an honorable wager if that were to occur 
again.
    Seriously, Saxby, I'm very pleased to have you here in the 
State of Nebraska, and to congratulate you and thank you for 
what you've recognized as an important part of providing for 
the military families, and that is to make sure that the 
educational opportunities are appropriate for the 
circumstances. For holding this hearing here in Nebraska, I am 
deeply indebted because here in Bellevue, education meets the 
military through the Bellevue Public Schools. What an 
outstanding job Dr. Deegan and his staff have done over the 
years to make sure that the educational opportunities are 
appropriate for the circumstances.
    As the hearings have shown, education of our children, and 
particularly of military children, can be one of the most 
important values that we possess as Americans. Our military 
families are no different when it comes to that. They rank 
quality education as one of the most important quality-of-life 
issues that they face as they serve our Nation. If we can't 
provide a quality education for their children, our soldiers, 
sailors, airmen, and marines will choose some other vocation, 
with an all-voluntary source, even though in their hearts they 
would prefer to continue to serve in our military Services.
    When we think of military families, most people first think 
of Active-Duty Forces. During peace time, we ask our service 
members to move every few years, sometimes to other duty 
locations throughout the United States, and other times to duty 
stations outside the United States.
    Most of the time, the military family is able to accompany 
the service member as he or she moves from duty station to duty 
station. This creates unique challenges for their children, who 
move from school to school, and have to adapt to the unique 
culture and requirements of each new school system.
    During times of conflict, the stresses on these military 
families are even greater, particularly when the military 
member is deployed to combat zones where their lives are 
constantly at risk. Their children at home watch the TV 
coverage of our military at work, and they worry about their 
moms and dads on the battlefields.
    Our National Guard and Reserve families also have unique 
educational challenges. It's a dramatic event when mom or dad 
is mobilized and ordered to active duty, leaving the family 
behind. Many of these ``citizen-soldiers'' serve with the 
Active-Duty Forces right on the battlefield, and just like the 
children of active duty parents, children of Guard and Reserve 
parents watch TV and worry about their parents.
    Others are ordered to active duty to other locations, but 
the impact on the family is the same. Mom or dad is taken away, 
leaving the rest of the family to deal with the problems 
compounded by the missing parent. These families turn to family 
support groups and local schools for help in dealing with the 
practical and emotional needs caused or aggravated by the 
mobilization of one or, in some cases, both parents. We need to 
understand better what these needs are and how we can help meet 
them.
    Today's hearing will give us a chance to learn, firsthand, 
about the most important concerns regarding the education of 
our military children.
    I'm delighted that Dr. Deegan is here to talk about what 
this school system has done to deal with these challenges. In 
addition to his full-time occupation and duties as 
Superintendent, as you've indicated, Mr. Chairman, he's also 
the CEO of the Military Impacted Schools Association. This is 
an added bonus for us here today because, in my view, he is the 
Nation's leading expert on Impact Aid, a Federal program that 
provides funding for a portion of the educational costs of the 
federally-impacted students.
    We also welcome Otto Thomas. We appreciate what he brings 
to us, as a result of the DOD Impact Aid to Public Schools, and 
other educational-related initiatives, including outreach to 
public schools and support of military-dependent students 
affected by frequent relocations and deployments.
    I am also very excited about the second panel. We have 
parents of military children from each of the Services. Ms. 
Bruce is the wife of Army Lieutenant Colonel Robert Bruce; 
Petty Officer Lemasters is our Navy parent; Sergeant and Mrs. 
Simon will tell us about their Air Force experiences; and Mrs. 
Bruno is a Marine Corps parent who has been very active in her 
children's various schools. These parents are able to be here 
today to talk about the challenges that they have experienced.
    Ms. Sheila Murphy is also going to talk to us today, and 
she's going to talk about the Family Readiness Network for the 
155th Air Refueling Wing in Lincoln, when it won the Air 
National Guard's 2002 Outstanding Family Program.
    Mr. Chairman, we have an outstanding array, and without 
taking any more time, I'm looking forward to the testimony that 
we are able to get. Thank you, again, for holding this hearing.
    Senator Chambliss. Thank you, Ben. We'll talk about that 
wager the closer we get to the end of the hearing. [Laughter.]
    In addition to Senator Nelson, my good friend and the 
gentleman that sits next to me on the Senate Intelligence 
Committee, Senator Chuck Hagel, has sent a statement. He is 
actually over in Germany today and sent a statement which will 
go into the record.
    Also in my years in the House, I had the privilege of 
becoming very good friends with now former Congressman Bill 
Barrett, who I served with on the House Agriculture Committee, 
as well as your current Congressman here in Omaha, Lee Terry, 
who I know is very active regarding the issue of education of 
military children, and I think last night, Dr. Deegan, you 
presented an award to him regarding his work on Impact Aid.
    Dr. Deegan. National award, right.
    Senator Chambliss. He and I worked very closely on that 
particular issue during my years in the House. So we also have 
a statement from Congressman Terry that will be inserted into 
the record.
    [The prepared statements of Senator Hagel and 
Representative Terry follow:]

               Prepared Statement by Senator Chuck Hagel

    Thank you, Mr. Chairman and Senator Nelson, for holding this 
hearing in Nebraska today and thank you for your leadership and 
commitment to military personnel and their families. Improving the 
quality of life for the men and women of the Armed Forces is the best 
way to show our support for the important work they do.
    Our troops are making tremendous sacrifices in service to our 
country. We must not forget that their families are also asked to make 
significant sacrifices while their loved ones are away. As students 
across the country begin a new school year, many find themselves with 
one or both parents deployed overseas or training away from home. We 
must be especially attentive to the needs of these families, and to the 
education of their children.
    As a member of the Senate Impact Aid Coalition, I have strongly 
supported efforts to increase funding for the Impact Aid program. 
Federal funding for this program ensures that schools serving military 
children have the resources they need to provide a quality education to 
all their students.
    Year after year, military families relocate to new cities and towns 
across the country, uprooting their lives without complaint. These 
families should have confidence that their children will receive a 
quality education wherever they live. Direct funding to schools through 
the Impact Aid program makes this possible.
    Bellevue Public Schools, and others like it, give parents the peace 
of mind they need to focus on their duties as members of the Armed 
Forces. For more than 50 years, support provided through the Federal 
Impact Aid program has helped more than 1,400 schools nationwide 
replace lost local property tax revenue due to a Federal presence.
    Last week, I joined a bi-partisan group of Senate colleagues in 
signing a letter to House and Senate conferees to the Labor, Health and 
Human Services, and Education Appropriations bill regarding funding for 
the Impact Aid program. The letter urges conferees to provide an 
increase of $50 million for the program this year, the House-passed 
level, which would bring total funding to $1.238 billion in fiscal year 
2004. Funding for this program is an annual battle that I intend to 
continue fighting until we meet our goals of fully funding this 
program.
    I am glad to know you will hear testimony from Dr. John Deegan, 
Superintendent of Bellevue Public Schools, and Chief Executive Officer 
of the Military Impacted Schools Association, today. Dr. Deegan is a 
true champion of military children and has first-hand knowledge of the 
needs of these young people. Also, thank you for inviting Otto Thomas, 
Sheila Murphy, and our military families to testify here today.
    Mr. Chairman and Senator Nelson, thank you again for your 
leadership on behalf of military families, and especially the education 
of their children. These individuals are our bravest Americans, we have 
a duty to invest in their future and that of their children.
                                 ______
                                 
             Prepared Statement by Representative Lee Terry

    I want to thank you for your willingness to examine the issues 
facing the education of our military children, and for holding your 
subcommittee hearing in my congressional district. Nebraska's Second 
District is home to Offutt Air Force Base, which has more than 9,000 
military and civilian personnel.
    The quality of education for America's military children is one of 
my top concerns. We have a responsibility to the men and women of the 
Armed Forces that while they are busy defending the Nation, the least 
we can do is make certain their children receive a sound education.
    One of the best ways Congress can uphold that responsibility is by 
providing adequate funding for the Federal Impact Aid program, which 
supplies important financial support to public schools near military 
bases. Despite the additional number students they must educate, public 
schools serving military children face severe limits in their ability 
to raise revenue, due to fewer property taxes and provisions of the 
Soldiers and Sailors Relief Act. Impact Aid is especially important at 
this time when most schools are experiencing cuts in State funding.
    Earlier this year, I helped lead the effort in the House to restore 
funding for Impact Aid after the administration proposed a $172.7 
million cut to the program--already receiving approximately less than 
half of its authorized levels. As a co-chairman of the House Impact Aid 
Coalition, I testified before the House Budget Committee and urged 
Chairman Nussle to increase the program's funding by $50 million over 
the previous fiscal year. I also worked with several other coalition 
members in urging appropriators to follow the Budget Committee plan.
    As a result, the House Labor-HHS-Education appropriations bill 
(H.R. 2660) includes this increase for Impact Aid, with the funding 
level at $1.238 billion for fiscal year 2004. Unfortunately, the Senate 
bill contains about $45 million less than the House bill.
    I urge the members of your subcommittee to work with Senate 
appropriators, to secure the funding level provided by the House. These 
funds are critical in our effort to help schools near military bases 
provide a quality education for all children.
    Of course, there are other means by which we can improve the 
education of our military children, such as the DOD's Supplement to 
Impact Aid, established to address overall quality of life, readiness, 
and retention issues in our all-volunteer service. The extra student 
services provided by this program, such as counseling for military 
children, are especially needed at a time when one or both parents are 
deployed. The program also allows schools near military bases to 
bolster safety and security measures, as well as address the needs of 
special education students.
    School construction funding is another area of concern. Currently, 
I am working with Chairman Boehner of the House Committee on Education 
and the Workforce to reform the school construction competitive grant 
within the Impact Aid program. Under its current formula, the program 
allows for disproportionate funding between the two types of school 
districts that receive this financial assistance. I have proposed 
language to Chairman Boehner that would ensure a more equal system of 
funding for schools serving the children of military personnel.
    To better address the needs of our youngest military children, I 
urge my colleagues in the Senate to support the School Readiness Act 
(H.R. 2210)--approved earlier this year by a one-vote margin in the 
House. The bill, now awaiting Senate action, would protect Head Start 
services for children at Offutt Air Force Base and other military 
installations around the country. Without passage of this legislation, 
thousands of military children will not receive nutritional assistance, 
immunizations, early academics, and other valuable Head Start services.
    Finally, it is important that we recognize the bipartisan work of 
both chambers on the Fiscal Year 2004 Defense Appropriations Bill (H.R. 
2658). This legislation fully funds the average 4.1 percent military 
personnel pay raise requested in the budget, and lessens out-of-pocket 
housing expenses for our military members. It also provides $128 
million for the continuation of increased rates for Imminent Danger Pay 
and Family Separation Allowances. These measures will allow military 
families to devote more resources to the needs of their children.
    In conclusion, I believe we are obligated to ensure that America's 
military children receive a first-class education; so the sons and 
daughters of our fighting forces are well prepared for success beyond 
graduation.
    Again, I appreciate your attention to this important issue and 
respectfully request that this letter be submitted for the record of 
this field hearing. Thank you.

    With that, I again want to welcome our first panel: Dr. 
Deegan and Mr. Thomas. We thank you for being here today to 
share some thoughts with us, and at this time, Dr. Deegan, 
we'll start with you for any opening comments.

   STATEMENT OF DR. JOHN F. DEEGAN, SUPERINTENDENT, BELLEVUE 
  PUBLIC SCHOOL DISTRICT AND CEO OF MILITARY IMPACTED SCHOOLS 
                          ASSOCIATION

    Dr. Deegan. The opening comment would be thank you so much 
to you both and to the staff for choosing Bellevue to hold your 
hearing. This is a great honor to the Bellevue/Offutt community 
to be able to have Senators and a committee come out like this, 
and we're indebted to you for doing that. So thank you very 
much for doing that.
    I know the members of our Board of Education are very 
proud, and a number of those Board members are here today in 
support of what we're saying as well. When you mention the 
success that I've had in this school district, it's only 
because of the Board of Education and the quality work they do.
    I would like to begin by saying that the Impact Aid program 
is a program that's sometimes hard to describe to people, but I 
do have a way that we can go through it pretty quickly.
    One of the things about the Impact Aid program is you know 
that there is impact in the community; otherwise, there 
wouldn't be any aid or help from the Federal Government, so 
Impact Aid is really a way for the Federal Government to become 
the taxpayer and to help out for all the properties that have 
been removed from the tax rolls, and to underwrite to make sure 
at least half of the cost of education is picked up by the 
Federal Government to help in serving these military children.
    So the program has been through a number of things since it 
began in 1950, and actually, in the last few years, we've had 
great success in being able to increase the amounts of Impact 
Aid, and during both of your tenures, we have seen a great 
increase in the Impact Aid program which we're really helpful 
and thankful for.
    I'll talk today a little bit about the Impact Aid program, 
and then I wanted to spend a moment just saying that part of 
the Impact Aid program is discretionary funding under section 
8007 (20 United States Code, Section 7707) for school 
construction. I know you'll probably be a bit shocked, but the 
program that was reauthorized in 2001 basically set up criteria 
that was anti-military and favored other parts of the program. 
The basic school construction provision has been left out for 
military schools across the Nation, and that is something that 
we wanted to be able to address and deal with.
    With privatized housing development going on, you'll see 
there's an awful lot going on with military houses, and there 
wasn't anybody around to look at the programs that were being 
affected by privatization, but the Military Impacted Schools 
Association went about trying to deal with what were some of 
the concerns, the unintended consequences of privatization. 
When you go to privatized military housing, all of a sudden the 
family, because of how the money is being handled through their 
pay stub, they're not eligible for all the income-driven 
programs for which they were eligible before. So now we're 
going back and we're changing those laws, with your help, and I 
think we really do appreciate that very much. We are getting a 
lot of those corners turned, and hopefully by Christmastime, 
we'll have a lot of those put to bed.
    The DOD Supplement to Impact Aid is another program that 
you are particularly responsible for in your committee. That 
program has been extremely helpful. I can tell you as a 
superintendent of schools, I couldn't run the kind of school 
district I run for military children without that DOD 
Supplement to Impact Aid. It is critical. We have set the goal 
for some time to be at $50 million, and I know you try very 
hard to get to that number. I took Otto out today and drove 
around the community and showed him in schools where we have 
made the changes and the things we did to fix windows or lights 
or roofs and things like that to take care of our schools on 
the base.
    All of the DOD money, I can tell you, does not go just 
toward taking care of things that nobody knows about. It really 
takes care of military children and the places they work and 
they go to school.
    Also, the last thing I wanted to touch on was a little bit 
about military families on the move. I have a packet of 
materials that you'll see over there on the side that contain 
all the information relative to the issues that I just talked 
about. We have some books in there that talk about: How do you 
solve problems for a military family on the move, a military 
family that might move four times during a child's high school 
career, like our new commander coming to this base on the 1st 
of November? How do you deal with the seniors? We have a way of 
dealing with that in the State, and it takes an initiative and 
an attitude to make that different, because there are 50 
different States that have State-run systems, and so for you to 
solve it out of Washington makes it really tough. There has to 
be a program for working with States to help them understand 
the importance of that, and people step forward and say, we're 
going to take care of that issue, and that's what we try to do 
in Bellevue.
    This complex that you see is really a product of what the 
Federal Government has been able to help Bellevue with as well. 
This life-long learning center, as it was put together, we went 
after donations, grants, every kind of contribution, in-kind, 
donating land. In the end, it was about $5 million of out-of-
town resources that were put into here, plus another $8.3 
million to put this complex together. You can see the great 
amount of help and support that has come to Offutt Air Force 
Base from anybody that's been a partner in this program. We're 
looking forward, later in the day, to hear from you at our 
dedication this afternoon, because we planned that dedication 
right at the tail of this hearing, and hopefully that will go 
well.
    One of the things that we've been able to do is put 
together a short video which shows you a little bit about the 
Impact Aid program and captures the essence of what we're 
trying to talk about. So at this time, if we could, I would 
like to dim the lights and show a very short, about a 6-minute 
video.
    [The information referred to follows:]

                           [Impact Aid Video]

    April 1, 2001, a Navy surveillance plane is forced out of 
international airspace--into harm's way. Its crew is detained on 
Chinese soil.
    While the Nation watched, the schools were educating their kids . . 
. and thousands of other military children enrolled all across the 
globe . . . that's our job.
    Sound Bite: ``Oh, excellent . . . Good job.'' ``It's important for 
them to get off to a really good start.''
    ``Vanta, did you find another rule. . .'' ``For their parents to 
feel comfortable in leaving them here at school. . .''
    The schools get a little help making the grade from the Federal 
Government.
    Sound Bite: ``Even though we are looking at a story, are we 
learning something, Trevor?''
    Every year $396 million in the form of Impact Aid is put into our 
classrooms. This guarantees the sons and daughters of Air Force, Army, 
Navy, Marine Corps, and Coast Guard parents a quality education no 
matter where their country sends them.
    Sound Bite: ``I can't think of anything more important to our folks 
. . . particularly when they deploy or go away from home than to have 
the feeling that their children are taken care of. One of the most 
important things in that regard when you're the parents of school-aged 
children is that your kids' future is watched out for . . . that 
someone is there to take care of their education. When you are not 
there, you want to know that schools are funded properly and provided 
what they need.''
    That's where Impact Aid comes in. Here's how Impact Aid works:
    The schools take a head count of military children enrolled in 
their district. That number goes straight to the top. From there, the 
Government is supposed to cut a check in place of property taxes owed 
the schools for educating military children. . .
    Sound Bite: ``It's critical to school districts like this one.''
    It's really pretty simple. . .
    But can the schools count on the money being there when they need 
it the most? One look at history, and you know the answer. Impact Aid 
can never be taken for granted.
    Sound Bite: ``We had to take an unscheduled break in the spring 
because we didn't have the money to meet payroll, pay the utilities. . 
.''
    It was 1970 . . . bell-bottoms and the Bee Gees were all the rage. 
. . Some school districts were learning a lesson in economics they 
hadn't planned.
    Sound Bite: ``It was a huge shock to everyone. We all assumed that 
students had to be educated, so somehow the problem would be resolved. 
We never dreamt that we would come to the point where we had to close 
school.''
    But it did . . . seven school districts serving military children 
had to lock the doors--shut down learning for weeks. There was no 
reading, writing, and arithmetic because there was no commitment--no 
cash from the Federal Government.
    The stories didn't end there. Twelve years later . . . school 
districts serving Fort Bragg, Camp LeJeune, Langley Air Force Base, and 
Norfolk Naval Base had to choose between paying teachers and paying the 
electric bill. The Impact Aid checks weren't stuck in the mail. They 
weren't even on the way.
    Sound Bite: ``I've been in this district a lot of years, and we've 
had some real critical times where we had to go back in and make some 
major reductions in personnel and other things because of reduced 
funding. That's not pleasant.''
    That's not exactly what fathers and mothers who make the military a 
career want to hear.
    Sound Bite: ``We do this because we like to do it.''
    Sound Bite: ``How your family is taken care of when you deploy is 
tantamount to how well you will perform once you're deployed. We can't 
have an individual that thinks things aren't taken care of on the home 
front.''
    In fact one of the first things that Army Colonel Houston checks 
out before settling into a new post is the schools. . .
    Sound Bite: ``The well-being of my family is the most important 
thing.''
    . . .and the service the schools provide.
    Sound bite: ``So I'm always concerned with the level of support 
that comes in because I know that money makes things happen.''
    The money that it takes to put Colonel Houston's kids and military 
kids like them through school is roughly $6,400 per year.
    Now figure this. The district only gets $2,200 a year in Impact Aid 
to educate a military child . . . and that's if the child lives on 
base. Off base, the Federal Government's check drops to $400. That's 
about $2 a day. Hardly enough to buy books and supplies--not enough to 
buy a big mac and a coke.
    Sound Bite: ``I think without Impact Aid in some places, we would 
not be able to educate our kids to the standards we expect.''
    Sound Bite: ``Although Impact Aid improved--I need to give our 
Congress credit--the coalition in both the House and Senate have been 
wonderful--there has been a commitment--so I do need to give credit for 
that. But it is still not to those levels that the original intent when 
Congress started this in 1950--we're not to the percentage that they 
felt local school districts should receive for this impact, and we 
would like to get there.''
    Right now school districts get 60 percent of Impact Aid promised by 
law. That's why they are always asking for more.
    Sound Bite: ``We're not just up there begging. This is for children 
and that's really the bottom line of Impact Aid. We often get 
distracted with legislation, authorization, appropriations, and the 
bottom line is the youngsters living in a school district that is 
impacted by Federal Government activity deserve at least a quality 
education as their peers at other places. That's our argument. Let's 
don't penalize people that are sacrificing for our country. Let's at 
least give them an education comparable with other districts.''
    You won't see Impact Aid when you walk into classrooms around the 
country. Schools everyday quietly go about the business of educating 
our children. But know this--without Impact Aid something has to go. Do 
you want it to be your school's computers? What about a teacher?
    Sound Bite: ``Very good . . . that's where the period goes . . . so 
let's put the period up there. . .''
    As you can see, the price is too great to pay.

    Dr. Deegan. We were hoping that that video, in a synopsis 
way, presents the message and the story about Impact Aid and 
the need for those dollars.
    The program has been coming back and doing better as a 
result of recent years of increases in funding, but it just 
continues to be critical to anything we talk about here. If we 
talk about families moving around, if you start off with making 
sure that the school districts and the people that are 
responsible for providing those services have the adequate 
resources, we think we can get the job done. We thank you very 
much.
    I would like to note, Senator, that this last summer the 
Military Impacted Schools group had a meeting down in Kings 
Bay, Georgia, and we had an opportunity to tour the military 
base there and walk all the grounds and see the place. We went 
over and visited Camden County School District and we visited 
with all the people. The Board at Liberty County came down and 
met with us, and so we had a great amount of time in Georgia, 
and we loved the experience and what had happened there. I know 
they look to your support and your leadership greatly, and they 
are also members of our organization and do appreciate very 
much what you do.
    So with that, I'll say there's plenty of information here 
to give you a good support, but I think we're talking to people 
that know the right story anyway.
    Senator Chambliss. Thank you.
    Mr. Thomas, we look forward to hearing from you.

     STATEMENT OF OTTO J. THOMAS, DIRECTOR OF EDUCATIONAL 
  OPPORTUNITIES, OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR 
                    PERSONNEL AND READINESS

    Mr. Thomas. Thank you. Chairman Chambliss, Senator Nelson, 
thank you very much for the opportunity to discuss with you 
issues related to the elementary and secondary public school 
education of children of military personnel. I very much 
welcome this opportunity to share with you news about the 
education of children whose parents serve in our armed 
services.
    I want also to offer thanks to the Bellevue Public Schools 
and the entire Bellevue community for both hosting this hearing 
and for so generously supporting members of our Armed Forces 
and their families.
    In the interest of time, my oral statement will be brief, 
and I refer you to my written statement for greater detail.
    Sixty percent of military service members now have 
families. Our members, therefore, have many of the same 
concerns about the schools that their children attend that we 
all do. However, they have additional concerns because they are 
regularly reassigned to new locations and their children must 
so often have to adapt to new schools, new communities, and new 
friends.
    If we are to keep dedicated men and women whom we have 
trained so well, we must ensure that when we relocate our 
personnel to new duty stations, they can expect that their 
children will attend good schools. Also, that the personnel in 
these schools will have an awareness and an appreciation of the 
unique challenges that face our school-aged children: 
Challenges that arise because our children are asked to 
relocate so often to schools in different States that have 
requirements and practices that vary so much from one another. 
For the Department, addressing issues related to school quality 
and frequent relocations is an important part of ensuring that 
families are provided with an appealing quality of life.
    Because information about schools and local practices is so 
important to families who must relocate so often, we have 
established an Internet Web site that enables students and 
their parents to find out about the schools in the vicinity of 
their new assignments. The Web site, newly brought up just a 
few weeks ago, at www.militarystudent.org, does that and much 
more.
    Students can enter chat rooms to talk with other students 
at schools to which they are likely to move. Students and their 
parents can find important information about such subjects as 
social and emotional needs, special education needs and 
services, incompatible graduation requirements, redundant/
missed entrance and exit examinations, transfer of records, and 
extracurricular activities.
    Our objective is to reach 1\1/2\ million school-aged 
children, and the families of 1\1/2\ million school-aged 
children of active duty, Reserve, and National Guard families 
who attend public schools not operated by the Department of 
Defense. About 110,000 do attend schools operated by the 
Department of Defense, mostly overseas, but also in some States 
of the union. We are especially interested in making moves 
easier for the 600,000 children who must relocate when their 
active duty parents are reassigned. We are convinced that we 
can help. In my written testimony, I have identified some of 
the things that we have done and that we are doing.
    I would like to describe our role related to the Impact Aid 
program. I must point out that the Federal Impact Aid program 
is not the program we manage. That, of course, is managed by 
the Department of Education and is funded currently at a little 
over a billion dollars. However, since 1990, we have been 
provided with a small amount of financial aid that we can 
provide to a small number of school districts that are most 
affected by the presence of a military installation.
    Since 1990, the Department of Defense has been authorized 
to provide financial assistance to those school districts that 
are heavily impacted by the enrollment of large numbers of, 
specifically, military-dependent students. Currently, heavily 
impacted is described or defined as 20 percent. That is, for a 
school district to be eligible to receive DOD funds to 
supplement the Federal Impact Aid payments, the number of 
military-dependent students enrolled must be at least 20 
percent of the number of students enrolled in that school 
district. For fiscal year 2003, $30 million appropriated for 
this program was distributed to 118 eligible school districts 
in 34 States.
    Most recently for the past 2 years, the Department has also 
been provided funds to distribute to school districts to assist 
them with paying for the costs of services provided to 
military-dependent students with severe disabilities. For 
fiscal year 2002, we distributed $3.5 million to 47 eligible 
school districts, and for the current fiscal year, 2003, $3 
million was distributed to 49 districts.
    We are committed to doing whatever we can to help satisfy 
the desire that military families have to ensure that their 
children receive a good education. After health and safety, 
perhaps no concern related to their children's development is 
as great as a parent's desire that their children attend good 
schools and receive a high-quality education that will open 
doors to collegiate studies and to success in a chosen 
profession, or satisfaction in the world of work.
    Our service members have high aspirations and strong family 
values. They desire a fulfilling life for themselves and their 
families. To continue to recruit the best and the brightest, we 
must provide an inviting environment. This environment must 
include a wholesome and challenging learning experience for 
their children. It must include schools in which no military-
dependent student or, for that matter, any child will be left 
behind.
    Thank you, again, for the opportunity to testify before you 
today. I very much appreciate your continued interest in and 
support of the educational opportunities provided to the 
children of our military personnel.
    [The prepared statement of Mr. Thomas follows:]

                  Prepared Statement by Otto J. Thomas

    Chairman Chambliss, Senator Nelson, and members of the 
subcommittee, thank you for the opportunity to discuss with you issues 
related to the elementary and secondary public school education of 
children of military personnel. I welcome this opportunity to share 
good news with you; news about the education of children whose parents 
serve in our armed services.
    Those who volunteer to serve our country in uniform expect to make 
sacrifices. However, since 60 percent of military members now have 
families, they must, as we would expect, give due consideration to the 
well-being of their spouses and children. If we are to keep dedicated 
men and women whom we have trained so well, we must ensure that when we 
relocate our personnel to new duty stations, they can expect that their 
children will be able to attend good schools. Also, that the personnel 
in these schools will have an awareness and appreciation of the unique 
challenges that face our school-aged children: challenges that arise 
because our children are asked to relocate so often and because schools 
in different States have requirements and practices that vary so much 
from one another. For the Department, addressing issues related to 
school quality and frequent relocations of military families is an 
important part of ensuring that families are provided with an appealing 
quality of life.
    The Department's new social compact includes objectives to address 
school transition issues of our highly mobile military dependent 
children. Many of these new initiatives leverage the power of public-
private partnerships and technology to deliver services. As part of the 
Department's presentation before this joint committee in Washington in 
July, the Deputy Under Secretary of Defense for Military Community and 
Family Policy, John Molino, identified a contractual partnership 
through which we are testing a program to provide information and 
referral services to marines and their families. From anywhere in the 
world, an active duty or Reserve marine or family member using toll-
free telephone, e-mail or Internet can communicate with a professional 
counselor regarding myriad topics, including parenting and child care; 
educational services; elder care; relocation; health and wellness; and 
financial and legal information. Parents and students are receiving 
information about schools and related activities as part of this 
information service. Communication is confidential and services 
provided include a comprehensive array of pre-paid educational 
materials, such as books, CDs, and videos. Simultaneous translation in 
140 languages is available, as is assistive technology for low-vision 
users. Reports about this program continue to be positive and we expect 
eventually to make these services available to all military families.
    Because information about schools and local practices is so 
important to families who must relocate, we have established an 
Internet Web site that enables students and their parents to find out 
about the schools in the vicinity of their new assignments. The Web 
site, www.militarystudent.org, does that and much more. It is designed 
so that various categories of users, such as kids, teens, parents, 
special needs families, military leaders, and school educators can go 
directly to the information most pertinent to them. They can access 
information about important issues, by subject. These issues include 
social and emotional needs, special education needs and services, 
incompatible graduation requirements, redundant/missed entrance and 
exit testing, transfer of records, and exclusion from extracurricular 
activities.
    Our objective is to reach the families of 1\1/2\ million school-
aged children of active duty, Reserve, or National Guard families who 
attend public and other schools not operated by the Department of 
Defense. About 600,000 of these children come from active duty families 
and attend public schools. It is not uncommon for these students to 
attend 6 different schools before high school graduation; some have 
reported attending 10 or 11. As they move from school to school, 
students and their families encounter difficulties with credit 
transfers, exit exams, athletic eligibility, and unique graduation 
requirements such as formal study of State history.
    We are convinced that we can reduce the degree to which these 
factors represent problems for our military dependent children and 
their families. We've held meetings with school leaders, parents, 
students and military commanders; and have found some ``best 
practices'' to be shared with other schools and communities. Last year, 
we published a booklet titled ``Promising Practices'' and have sent 
copies to school districts that enroll our students. The demand for 
additional copies has exceeded our supply. The booklet is now available 
on our Web site and we are adding newly found ``best practices'' 
regularly.
    We are working with the Military Family Research Institute of 
Purdue University to study the impact that frequent moves or 
deployments of one or both parents have on the social, emotional, and 
educational success of children from military families. Our study will 
encompass a cross-section of children from elementary school through 
high school and from all four Services. The results of the study will 
enable us to work with schools to develop additional support programs 
and teacher training.
    Educators, counselors, and mental health workers associated with 
public schools are generally not aware of the unique issues and 
challenges that confront military dependent students. To be effective, 
they must become aware of military child issues and appropriate 
interventions.
    We have initiated several partnerships to help us address these 
issues with educators. We have expanded our partnership with the 
Department of Education's Office for Safe and Drug Free Schools to 
include work with the National Child Traumatic Stress Network 
(sponsored by UCLA, Duke University, and the Department of Health and 
Human Services). Together we developed the following information 
booklets: Educator's Guide to the Military Child During Deployment; 
Educator's Guide to the Military Child During Post Deployment: 
Challenges of Family Reunion; and Parent's Guide to the Military Child 
in Deployment. The first deployment guide is currently featured on the 
Department of Education's Web site. The first and third are available 
on the DOD Web site www.militarystudent.com. The remaining one will be 
added in the near future. We are considering publication of the 
booklets to ensure that the information is seen and used by educators 
and parents.
    The Department chooses to be a good partner to local schools and is 
seeking ways in which we can help promote excellence in public schools, 
especially in those schools that educate the dependent children of 
military personnel.
    Since 1990, the Department has been authorized to provide financial 
assistance to those local education agencies (LEAs) that are heavily 
impacted by the enrollment of large numbers of military dependent 
students. Currently, ``heavily impacted'' is defined as 20 percent. 
That is, for a LEA to be eligible to receive DOD funds to supplement 
Federal Impact Aid payments, the number of military dependent students 
enrolled must be at least 20 percent of the total number of students 
enrolled in the schools of that LEA. For fiscal year 2003, $30 million 
appropriated for this program was distributed to 118 eligible LEAs in 
34 States.
    For the past 2 years, the Department has also been provided funds 
to distribute to LEAs to assist them with paying for the costs of 
services provided to military dependent students with severe 
disabilities. For fiscal year 2002, we distributed $3.5 million to 47 
eligible LEAs, and for fiscal year 2003, $3.0 million was distributed 
to 49 LEAs.
    We are committed to doing whatever we can to help satisfy the 
desire that military families have to ensure that their children 
receive a good education. After health and safety, perhaps no concern 
related to their children's development is as great as a parent's 
desire that their children attend good schools and receive a high 
quality education that will open the doors to collegiate studies and 
success in chosen professions, or satisfaction in the world of work.
    More generally, we are committed to meeting the quality of life 
needs of our service members and their families. Our service members 
have high aspirations and strong family values. They desire a 
fulfilling life for themselves and their families. To recruit the best 
and brightest, we must provide an inviting environment. This 
environment must include a wholesome and challenging learning 
experience for children from military families. It must include schools 
in which no military dependent student or any child will be left 
behind.
    Thank you Chairman Chambliss, Senator Nelson, and members of the 
subcommittee for the opportunity to testify before you today. I very 
much appreciate your continued interest in and support of educational 
opportunities provided to the children of our military personnel.

    Senator Chambliss. Thank you, Mr. Thomas, and, again, to 
both of you gentlemen. We will take your full written statement 
for the record.
    Dr. Deegan, let me start with you. You mentioned that the 
State of Nebraska does some particular things for your 
children, and this is something that is really unique to all 50 
States, and I don't know that we will ever have the same types 
of benefits granted by all 50 States to our military children.
    In Georgia, for example, we have instituted a new program 
with our legislature to allow any military child who graduates 
from a State high school to be treated as an in-State resident 
for as long as those students remain at any State university, 
even though the parents are likely to move within a period of 
time. It's proved to be very beneficial and provides a lot of 
stability and some help.
    So what has Nebraska done to help our military children in 
a similar situation?
    Dr. Deegan. We have been so focused on K-12 that I haven't 
focused on what we're doing after high school. I did see a 
recent news article regarding in-State tuition, and I've heard 
of other States that are doing that. I think it is our 
obligation to work with State legislators to see if we can find 
a resolution to that matter.
    It seems to me, even though we're 50 different States, 
there are some common principles that States may pick up on, so 
I think it would be important working with our delegation and 
others in leadership to propose that idea to the State of 
Nebraska. I think it's a great idea and I think that would be 
something we should be doing.
    Senator Chambliss. Do you have any particular programs in 
the Bellevue system that are geared towards the unique problems 
that military children have, particularly with the recent 
deployment in Iraq, as Senator Ben Nelson alluded to, the fact 
that it's not unusual for children now to see embedded 
reporters on TV every night with their moms and dads fighting 
in combat.
    Dr. Deegan. That's true. As we look across the country, 
there are many school districts that are doing this kind of 
activity where they're actually providing additional counseling 
assistance, working with families, trying to provide support 
systems to young children.
    In Bellevue, a lot of our work here was because of the 
reconnaissance mission at Offutt Air Force Base and STRATCOM; a 
lot of our deployments took place before the first shot was 
ever fired. So a lot of our people were displaced and mobile 
all over the country, all over the world, before the first shot 
was fired.
    Many of the units now are involved in combat. I know Fort 
Stewart, in particular, has lost 23 men as a result of action 
over in Iraq and that's happening now. That's happening, and so 
the real problem is now.
    Some of the issues that we try to deal with in our 
particular district are up-front, trying to get kids to talk 
about it, but try to create a normal situation for children 
because that's one of the things that you don't want to do is 
overplay the situation and overplay it for a child. You want 
them to have as normal of life as possible, but you want every 
possible accommodation made for that child. We do a number of 
things with that. We have a full counseling program in our 
elementary schools, and we have principals that are really 
tuned into that.
    Across the country, you will find that each district, 
depending upon its mission or its activity at the time, will 
approach that differently. I do believe people are really 
trying very hard to do those kind of things.
    One thing is that it takes money, too. Some of those 
resources, not only the attitude about what you're going to do, 
but if you want some people, like a crisis team or any 
counseling, that does take money. So that's one of the reasons 
that we've approached Congress saying, maybe there ought to be 
some of that $87 billion, maybe $20 million, given the heavily-
impacted districts, for dealing with some of those emotional 
crisis kinds of situations. That's what we're trying to do.
    I would tell you that even in our particular district, I 
refer to security and safety and all of those issues, but I 
would tell you that the DOD Supplement to Impact Aid goes to 
the kind of things you are talking about because districts get 
this money, and then they are able to spend that money on 
whatever they think is necessary in their district. That money 
allows you to be able to flex and do different things, so you 
might hire counselors, you might put a team of people in place. 
So I think there are things being done.
    We have some resources to do it, but we could use some 
additional resources in that area. I think it's essential that 
we do a great job in that area. Creating normalcy is one of the 
most important things we could do.
    Senator Chambliss. Mr. Thomas, you mentioned the fact that 
there are some 600,000 military children who are in the 
education system and how critically important this is to those 
active duty personnel.
    Over the last several years, we have been calling on our 
Guard and Reserve more than ever before, and this has presented 
a very unique problem to us as legislators in how we deal with 
the benefits that are given to our Guard and Reserve members. 
The children, oftentimes, can get lost in this. The spouses can 
get lost in this process. What is the Department of Defense 
doing with respect to looking after these children of Guard and 
Reserve members who have been called to active duty to ensure 
that they receive the same kind of treatment as our active duty 
personnel families?
    Mr. Thomas. About 2\1/2\ years ago when the Educational 
Opportunities Directorate was established, the focus was 
primarily on the needs that we've talked about in terms of the 
active duty family members' children moving from place to 
place. Because of the timing, with the war coming about, 
clearly a need for what was happening to the children of 
deployed personnel became very paramount in our minds. We have 
done a number of things.
    We've contacted and worked with people in the Department of 
Education that work with trauma and stress. We have written a 
booklet that we are distributing to schools and communities 
that have a lot of our children. That booklet, which 
essentially addresses the needs, the special and unique needs 
of children of deployed parents, is located on the Web site 
that I mentioned to you, so it's freely accessible. That work 
was done with a lady named Marlene Wong, who is associated with 
the University of California at Los Angeles, and is part of a 
national stress trauma group. She has worked in the President's 
commission dealing with the stresses created by the tragedy at 
Columbine High School in Colorado, for example, and at Santee 
in California.
    Another activity that we've become involved in is that the 
Under Secretary of Defense, Dr. Chu, has become very interested 
in dealing with what happens to the children of deployed 
personnel. The Deputy Under Secretary, John Molino, made a 
presentation to the presidents and the wives of the presidents 
co-meeting in New Orleans a year-and-a-half ago, specifically 
asking these colleges, college presidents, and their wives to 
become actively involved in seeking out family members of 
deployed personnel to offer assistance in finances, for 
example, assistance in counseling if it were necessary, 
assistance with the educational planning for their children.
    Senator Chambliss. Thank you.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Dr. Deegan, because of the significant interest in Impact 
Aid in so many school districts across the country, have these 
districts come together to share the best-ideas-under-the-best-
practices arrangement? Bellevue shares a lot of its wealth of 
educational programs and special-needs treatment with other 
schools, but are they sharing theirs in return?
    Dr. Deegan. I would say that if you look in the left side 
of your packet that I have provided to you, in the large 
folder, there are three documents in that packet. One is a 
sheet that describes what are the different things that we can 
do by building a partnership between school districts. Also, 
there is a booklet that talks about Promising Practices, or 
best practices, that actually highlights a number of best 
practices across the country in the various school districts 
that we have been able to collect.
    Also, we have the Partnership for a Smooth Transition of 
Military Families. We have developed a booklet that describes 
for military families how to go about making that move and 
making it work real smoothly.
    What we've done is taken this booklet and a lot of this 
material is on our militaryimpactedschoolsassociation.org Web 
site. So we do have a number of materials that are available. 
As well as the video that I showed you earlier, there's a 
series of videos in there.
    So we're trying to take what we believe are the best 
practices in Bellevue and share those with many other people. I 
think that's how you go about solving your State problems is 
people don't just huddle around and say, ``This is what we 
think is the best,'' but we take the very best and try to 
spread it out. Then what is your idea, what might work in your 
State, we put your idea in there, too. So we're trying to build 
a repository warehouse of best practices that we can share with 
people through our Web site and through these materials.
    Senator Ben Nelson. Mr. Thomas, in some respects, it's 
easier to deal with the special needs of active duty personnel 
children than it is sometimes with the Guard and Reserve 
because they're not all located in one particular school 
district. They're not in one particular area. They're all 
across a State. You mentioned that you are, in fact, interested 
in doing some things to make sure that those children are 
receiving the similar kind of care. I'm sure that's a daunting 
task, given the fact that every school district in Nebraska 
might have one or more of those children.
    Is there a way to deal with this in a cost-effective way, 
to share with teachers and school districts recognizing that it 
will be the exception rather than the rule within their 
district?
    Mr. Thomas. I'd say it is a daunting task, as you've 
indicated. First off, we don't have a clear means of 
identifying exactly where all of these children are. We are 
offering financial assistance through a program that has been 
funded in recent years, that I mentioned to you, and even that 
program requires that the school district send in an 
application to us.
    We sent letters to 366 school districts in the country that 
were indicated to us by the Department of Education as having 
children from military families that have special needs. Of 
those 366 school districts to which we sent letters, we 
received responses from only 49, and the money that we are 
distributing, we are distributing to those school districts 
that made the request.
    In the case of Georgia, we sent 15 letters; none responded. 
In the case of Nebraska, we sent letters to five school 
districts; none of which responded.
    Now, it's possible that they don't meet the criteria, which 
is very complicated for the program, and it may well be, as you 
suggest, that because we have the families of military 
reservists and national guardsmen so spread out throughout the 
country, no single school district may have enough of those 
children to qualify.
    Senator Ben Nelson. After the hearing, we'll find out the 
identity of those school districts and we'll do some follow up. 
[Laughter.]
    Mr. Thomas. They're in my books here.
    Dr. Deegan. I'd offer on that that the Bellevue School 
District received one of those letters, and we didn't qualify 
either for the special education dollars. That special 
education program; actually, I was the one that wrote that 
program. They wrote it so very tight and so very strict that we 
wanted to see what the numbers would be when we started. They 
only problem with that program is I didn't write in a floor to 
the program. It should have been at least 20 percent impacted 
and then put a floor in before it got going. Then, I think, it 
would have been more productive. Also, you had to have two 
children that were three times the State average in your 
district or five times the national average if it was outside 
your district services, so the criteria is very strict and very 
tight. We had one child that was expensive, upwards to $50,000 
to $60,000, but we didn't have two. We have about 15 percent of 
our heavily-impacted children in special education when most 
other people have 10 or 11 percent. I think that new special 
education program has missed its mark in serving the military 
children's needs.
    Senator Ben Nelson. If nothing else comes from the hearing, 
that might be a worthy point right there to take a look at.
    Dr. Deegan. Yes. I think, also, the question about serving 
the Reserve and Guard, I think that's a huge issue that needs 
to be dealt with. I would like to be able to help in any way 
through the Military Impacted Schools Association and through 
Otto, if you have ideas, too, or come up with ideas for working 
with Guard and Reserve because sometimes the problems we are 
talking about don't occur between Liberty County and Bellevue 
or between Camden and Bellevue. They occur between Thedford, 
Nebraska, or Wahoo, Nebraska, and some other little town that 
nobody ever thought of or heard of. The kids are so few in 
number that nobody ever gets around to noticing them on the 
radar screen, so that family may be sitting there crying and 
carrying on, and nobody is there to help them. So how do you 
reach out and touch that child? How do you get resources to 
that parent? How do you let them know?
    I think it's up to the Guard and Reserve leadership to work 
stronger on publicizing the Web site he's talking about or 
publicizing our Web site. If we can't get the Guard and Reserve 
leadership to direct those people toward us, it's hard for us 
to find them.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Senator Chambliss. Mr. Thomas, just sitting here thinking 
while you were talking about the Guard and Reserve issue, that 
I don't know whether any study has ever been done, but it sure 
would be interesting to know what has happened to the children 
of military families versus the general public with respect to 
test scores, with respect to post-secondary education; that 
would be an interesting issue there. I'm absolutely certain we 
would find that military families certainly have a greater 
degree of discipline, probably, than the average, normal 
civilian family. There are any number of issues relative to 
movement that would tend to at least have the opportunity to 
affect those children in future years. It sure would be 
interesting to know what, maybe, some of those statistics might 
reveal.
    All right. If there's nothing further, gentlemen, we thank 
you very much for being here today.
    Senator Nelson is right. Dr. Deegan, if nothing else comes 
out of this, that's an issue we need to look at and maybe 
review again because we've just gone through the 
reappropriating of that Supplemental Aid package, and we may 
need to take a look at it before next year.
    Dr. Deegan. We'll stand by if there are any questions 
throughout the rest of the hearing today.
    Senator Chambliss. Great, thank you.
    Dr. Deegan. Thank you very much.
    Senator Chambliss. I now would like to welcome our next 
panel. With us today, we have Ms. Sheila Murphy, whom I have 
already referred to. We have Petty Officer First Class Maria 
Lemasters, Ms. Kirk Bruno, Ms. Marion Bruce, and Senior Master 
Sergeant Thomas Simon and Mrs. Simon.
    We thank you for your willingness to come today, and if 
each of you will come forward to sit in front of your nameplate 
there. What we'll do, we'll start, Master Sergeant Simon, with 
you and Mrs. Simon, and we'll move this way, and I don't know 
if whether both of you want to make an opening statement or 
just one of you, but when you make your comments, if you will 
for the record and so that Senator Nelson and I will be aware, 
also, tell us the ages of your children and what school they 
are currently attending, if you will. So we welcome you.
    Sergeant Simon.

    STATEMENT OF SENIOR MASTER SERGEANT THOMAS SIMON, USAF; 
               ACCOMPANIED BY MRS. MICHELE SIMON

    Sergeant Simon. Thank you, Gentlemen.
    First off, I would like to say thank you for the 
opportunity to come forward and talk to you a little bit about 
of some of the issues we have. Michele and I don't have a 
significant amount of issues. We've been through the military 
system for almost 24 years and have grown to know and 
understand a lot of the workings of the military system. We 
want to thank you all for the opportunity to come forward. We 
also thank the Bellevue Public Schools for inviting us.
    I've been in the Service for 24 years. My dad was in the 
Service, so I am one of those military-dependent kids. I grew 
up in the school systems both in the Department of Defense 
Dependent Schools (DODDS), systems working as a student at 
Ramstein, Germany, and also in a community throughout my high 
school career.
    We have three boys. Two of them are students at Bellevue 
East High School. They are 17 and 16. We have another, almost 
8-year-old, a second grader at Leonard Lawrence in local 
Bellevue schools.
    We're open and ready for questions you have. Thank you.
    Senator Chambliss. Thank you both for being here.
    Ms. Bruno, welcome.

                    STATEMENT OF MARIE BRUNO

    Mrs. Bruno. Hi. Thanks for having me.
    My husband and I have been traveling for the past 19 years. 
My husband is in the Marine Corps. We've moved more times than 
I could even express: I guess 17 houses in 19 years, probably 
14 duty stations. We've moved around quite a bit.
    My oldest child is in college attending Cal State San 
Marcos in California. She attended seven different school 
districts over the course of her 12 years. We were lucky that 
she only attended two different high schools: One was DOD, one 
was out in California.
    My second child, another daughter, she's 15 and attending 
Papio-La Vista South High School. She's attended six school 
districts and, hopefully, she'll finish here in Nebraska.
    I bring a lot of experience with both my kids being in all 
the different schools that they've been in. I'm also attending 
college here at the University of Nebraska at Omaha (UNO), so 
I've done a little of the transfer process myself, so I can 
give you some input on that as well.
    Senator Chambliss. Great. Thank you very much.
    Ms. Lemasters.

        STATEMENT OF NAVY PETTY OFFICER MARIA LEMASTERS

    Petty Officer Lemasters. Good afternoon, Senators. I thank 
you for the opportunity to be here today and thank you to your 
staff and to the Bellevue School District for hosting this.
    I have been in the Navy for 12 years now. I'm married and 
have a 6-year-old daughter who is currently enrolled at 
Belleaire Elementary. This is her second school. She also 
attended school in Cascade, Maryland, prior to us transferring 
here. I look forward to your questions today.
    Senator Chambliss. Great.
    Ms. Bruce.

                   STATEMENT OF MARION BRUCE

    Ms. Bruce. Thank you for allowing me to be here today. I 
have been an Army wife for 22 years. We have four daughters who 
are now 12, 14, 18, and 20. The youngest goes to Logan 
Fontenelle Middle School here. The next one goes to Bellevue 
West. The 18-year-old is a freshman at Texas A&M on an Army 
ROTC Scholarship. The oldest is a junior at West Point this 
year.
    We have moved six times during their school years. They've 
attended schools in California, Kansas, Nebraska, and Maryland. 
Some twice in each State. I do have a longer statement that 
I've submitted for the record, and I'm welcoming your 
questions.
    [The prepared statement of Ms. Bruce follows:]

                   Prepared Statement by Marion Bruce

    My name is Marion Bruce. I have been an Army wife for 22 years. I 
have four children who have experienced six moves since the oldest 
began school. We have found an extreme variability in the quality of 
schools on or near military posts and bases.
    We only experienced 3 weeks in Department of Defense Dependents 
Schools in Germany so I cannot comment on them. Stateside, my children 
have attended schools in California, Kansas, California, Nebraska, 
Maryland, and Nebraska, in that order. I have no handicapped or special 
needs children according to most State definitions. However, three of 
my four children have been identified as talented and gifted. I will 
address their experiences in this area.
    From kindergarten through high school, I have found that the 
material covered in each grade level is vastly different in the midwest 
compared to the coasts. Kindergarten in California is not mandatory and 
therefore seems to have no required curriculum. My children experienced 
everything from play kindergarten to serious reading instruction at 
Fort Irwin, depending entirely on which teacher they happened to get. 
California had a policy that a child cannot be made to repeat a grade 
unless a parent gives permission. Many parents do not agree and even 
the better teachers are forced to teach to the middle of the class so 
quality slips more each year. There was no talented and gifted program 
at Fort Irwin.
    When we moved to Fort Leavenworth, Kansas, I had to borrow a fourth 
grade math book for my fifth grader because her class in Fort Irwin had 
only gotten halfway through the book. We studied fractions, geography, 
etc. every weekend for 2 months until she was caught up. At enrollment, 
my third grader was given the option of participating in the talented 
and gifted program, based on her standardized test scores from the 
previous year. Kansas has a law deeming talented and gifted students as 
exceptional students with special needs. They require an Individualized 
Education Program (IEP) agreed upon by the teacher, parents, 
administration, and the facilitator. There is a gifted facilitator in 
every school who runs a challenging program, pulling children out of 
class two to four times a week for enriching education. Although my 
oldest daughter's kindergarten and first grade scores would have 
qualified her for this program, the years of below grade level 
instruction in California had taken their toll. However, after 2 years 
in Fort Leavenworth's excellent classes, she also tested as talented 
and gifted. My third daughter enjoyed a kindergarten focused on 
reading, writing, and arithmetic. She participated in the talented and 
gifted program in first grade. Life was good.
    After 3 years, we were sent back to California. My sixth grader 
came home from the first day of school and announced that she had the 
same math book. I said ``Oh, you mean the same series. That's good. 
Then we know you haven't missed anything.'' She said ``No mom, this is 
the same math book I had in fourth grade in Kansas.'' The K-8 Lockwood 
School near Fort Hunter Liggett had bought textbooks with all grade 
level references left off so that parents and students would not 
realize they were a year behind in all subjects except math, in which 
they were 2 full years behind. My eighth grader had had pre-algebra in 
seventh grade in Kansas. Algebra was not available here. This school 
did not have enough textbooks to go around. The students had to share 
and were not given homework because the books could not leave the 
classroom. Needless to say, there was no talented and gifted program. I 
probably don't have to tell you that when intelligent children get 
bored they can think of all kinds of things to amuse themselves, 
eventually leading to them getting in trouble. Therefore, I arranged 
for them to ride the high school bus 30 miles to the next town so they 
could walk to a middle school with higher levels of instruction which 
just that year began offering algebra to eighth graders for the first 
time. An added bonus was that they were able to be in band again and 
stayed after school 1 day a week for a small gifted program. I picked 
them up every day.
    My kindergartener was in a class where she was taught less than she 
had been in 3-year-old preschool but liked being with her friends. The 
second grader was in a combination second and third grade class doing 
all third grade work. Then California offered more money to school 
districts that had less than 20 pupils in first through third grade 
classrooms. Her class was split up and she was left in second grade 
where the teacher assured me she would work with her at her level. A 
couple of weeks later we were told that the third grade teachers did 
not want this to happen. I explained we were moving again in the summer 
and this would not inconvenience the third grade teachers. My daughter 
was then given subtraction to do instead of multiplication and told to 
start printing again instead of writing cursive. I researched 
California laws and eventually took my kindergartener and second grader 
out of the public school to home school them so they would not be so 
far behind when we moved. In making this decision, I joined many other 
military families who home school their children for consistency in 
curriculum.
    Our next move brought us here to Bellevue. I cannot say enough 
about this school system. The grade level and course material is 
exactly what they should be learning. My children thrive on the high 
expectations, structure and discipline, advanced and advanced placement 
classes, talented and gifted program, as well as the many sports, 
clubs, music, and JROTC opportunities. My third daughter was allowed to 
skip sixth grade and finally felt as if she fit in academically and 
socially. My husband was able to extend for a year letting our oldest 
daughter attend all 4 years of high school here. She graduated in 2001 
and is now a junior at the United States Military Academy, West Point, 
NY.
    When we got orders to the Washington, DC, area, we accepted housing 
at Fort Meade where my second daughter began her junior year in high 
school. We had looked at the school Web site, spoken to them on the 
telephone, and believed things would go smoothly. We immediately ran 
into trouble getting credits accepted. In Bellevue, JROTC is a physical 
education substitute with one quarter of health included in freshman 
year. My daughter had 2 years of JROTC in lieu of PE. The State of 
Maryland requires 2 years of PE plus one semester of health, no 
substitutes. JROTC was an elective only. While we tried to figure a way 
to add these requirements to her college prep schedule, we were told 
that there were only six periods a day instead of seven as we expected. 
Then we were informed that all the pre-calculus classes were full so 
she couldn't take math this year but that was alright because it was 
not a graduation requirement. We finally enrolled her in what she would 
have taken in Bellevue except no math and only advanced English instead 
of AP. We tabled the PE issue until her credits could be reviewed by 
the PE and health instructors. We expected her English class to be 
American Literature instead it was speech and debate. Her third year of 
science in Bellevue would have been chemistry with higher level math 
required to do the associated complicated equations and formulas. 
Chemistry at Fort Meade turned out to be a freshman class about basic 
chemical processes that my daughter had been taught years ago. Then I 
attended curriculum night where the principal's topic was ``What is 
accreditation and why do we need it?'' This school was not accredited 
by their Regional Accrediting Association. 
    Meanwhile, the daughter who had skipped a grade was now in eighth 
grade. She was 12 and found her classmates to be not only 13 but 14, 
15, and 16 years old. Many had been held back several times. She felt 
quite ill at ease in this new setting. My fifth grader found the class 
work very easy. Private schools were too expensive so we sent for 
correspondence courses and began home-schooling once again. This was 
not the optimal solution. The course work was rigorous but the girls 
missed band, JROTC, clubs, sports, and social interaction with their 
peers.
    We all wanted the girls to be in a ``normal'' school again. We 
discussed moving to Virginia, starting over in yet another school 
district, but found incompatible graduation requirements that would 
make my ``A'' student have to be in high school 5 years. We therefore 
made the painful but necessary decision to split the family up. The 
three girls and I moved back here to Bellevue. This school district 
accepted the home school coursework. My second daughter lettered in 
Academics her senior year, graduated in 2003, and is now at Texas A&M 
University on an Army ROTC Scholarship in the Corps of Cadets.
    My children have been successful but they have had advantages that 
others may not. They are lucky to be intelligent, adaptable, and have 
educated parents, one of whom is available to drive to another school 
district or home school if necessary. The great discrepancies in State 
standards and curriculum are a burden for any child who moves. I 
believe national standards are necessary to ensure a quality education 
for all children no matter where they live.

    Senator Chambliss. Thank you.
    Ms. Murphy.

                 STATEMENT OF MS. SHEILA MURPHY

    Ms. Murphy. My name is Sheila Murphy. I don't have any 
children, so I don't have any experience from that point of 
view, but I grew up with the Army. My father was in the Army 
National Guard, and I knew the experience of never having a 
vacation. I didn't even know the meaning of that word because 
any time from the civilian job was spent going to JAG school or 
camp or something else. So I've always had a fondness for the 
National Guard.
    I had the opportunity to receive the contract to build and 
design and implement their family program for the Air National 
Guard here in Nebraska, and I took the job on just shortly 
before September 11, 2001. So I had a rare opportunity to 
really see the impact that is made in the lives of these 
civilian families when they suddenly have lengthy deployment in 
front of them, and they have to change their lifestyles so 
dramatically, and it is a completely different situation in 
many areas.
    I do have a few things to say about that. I don't know if 
you would like me to say that now or if you would rather 
continue with the families first.
    Senator Chambliss. If you want to, say it now, it may be 
that we don't ask the right questions. If you have some 
particular points you want to make, let's do it now.
    Ms. Murphy. The situation is so different in that the 
children are impacted by the departure from normalcy in their 
lives on several levels. The decision as to whether or not that 
is shared with the community, even to the extent that children 
share it with their classmates, their teachers, this is where 
we run into problems because it's very subjective.
    Some families feel very guarded and as they should be. It 
can depend on the mission; their security can be at issue. You 
do not want to implement programs that have families, wives, 
children announcing to the world: guess what, my father is out 
of town, and it's going to be that way for a few months, and 
this is where we live. You don't want to do that and you don't 
want children subjected to that who aren't used to it.
    With the active duty children, that's the framework of 
their lives; that's the context in which they live. You take a 
Reserve or a Guard child, suddenly they're going to be 
subjected to a whole different kind of interaction with the 
community, with their peers, with people that, God forbid, may 
mean them harm. So you do have to take into account different 
security ramifications when we talk about this.
    There are stresses on the Reserve or Guard child that are 
different on the active duty child in that this is suddenly 
something they may not be prepared for. That's something family 
programs are working on right now, to do more preparation. 
Family readiness means get the family ready. In the future, 
hopefully, the family readiness programs across the country 
will be able to reach out to the Guard and Reserve families and 
have them armed with the weapons that they need to cope if the 
separation or deployment should occur. If the child isn't 
ready, it can be very stressful, just the separation, the 
uncertainty.
    Another factor to be considered when dealing with these 
children is that often they don't have a definite return-home 
date that they can circle on a calendar and depend upon. This 
is tremendously impactful in the family dynamic. The 
uncertainty about the return home is one of the factors that we 
hear about more and more often that really causes problems for 
families, so we have to take that into consideration.
    So when you have a student that's a Reserve or Guard 
student in a classroom, there's probably not a financial 
emergency or crisis that is occurring, but there are impacts 
that are felt, especially by teenagers, I have found, the 
lifestyle changes. Sure, they can pay the bills and pay your 
utility bills and buy your groceries and these sort of things, 
but you may not be able to have those new tennis shoes that the 
other kids have. You may not be able to afford the field trips 
that the other kids have. We have to find a way to help with 
these things to make sure that this doesn't further add to the 
suffering of these kids.
    The teenagers often suffer in silence. When a military 
person leaves, a man or woman leaves and there's a baby or a 
toddler, everyone goes, ``Oh, isn't that heartbreaking. Look, 
they have to leave their little one.'' Frankly, the little ones 
are a lot less aware of what's going on than the teens, the 
adolescents and the teens, who really suffer. We have to 
consistently make sure that just because they seem to be adult 
and they seem to be mature and they seem to be coping, they're 
not overlooked. So that is something that we need to consider 
when we implement and design any programs.
    Right now, I am no longer with the Air Guard. I have 
started a nonprofit corporation called Project Home Front, and 
I've seen in the area of family programs that the community 
really wants to help. We have a great asset in the American 
public that really wants to support their troops, but I think 
we all are aware of how difficult it is for the community to 
actually share generosity with the military.
    I'm trying to facilitate a way for the community to give 
things to families, and hopefully, we're just getting started. 
Hopefully, we will be able to help with some of the issues that 
have been brought up before, like additional counseling 
programs, maybe some recreational activities that families 
need; it's not a necessity of life, but it sure would be nice.
    I think that as far as schools are concerned, what I would 
like to see happen is more organized interaction between family 
readiness programs and the teachers in the schools. We have an 
excellent family readiness program out of the Department of 
Defense, that they have just been building it and building it 
to be something that is really doing a great job. I have been 
very impressed with everything I've seen in my work with them. 
I noticed in my own program that there were no protocols in 
place when I came on board, who to talk to in the school: you 
have to figure out, who do I talk to.
    Well, I would like to see some kind of protocols 
established where, maybe the guidance counselor or principal or 
whomever it is, that there would be people that would be 
earmarked in the school districts. It would be the 
responsibility of the family program, I think, to reach out to 
them because, as you said, how are schools going to identify 
the students. If our family program leaders are trained to 
identify the students and know who to reach out to in the 
school, and if there is some training that's happening for 
those educators, it's going to make things a lot better.
    We need the educators to be aware of the changes in the 
dynamic of the student, and as I say, it's a personal decision. 
We may not want this student identified to the rest of the 
students, that Johnny's dad is going to be in Iraq for 3 
months. We may not want that to happen, but we need 
administrators and teachers to be aware, to watch for this 
child and to be aware that there are going to be extra 
obstacles for that child to overcome.
    When a Reserve or Guard parent is called away, family 
responsibilities can change dramatically. A child's household 
duties can really go up, and teachers don't know. The complaint 
I've heard is that the teachers don't know that or don't care 
about that. They don't seem to realize that this child has a 
lot less time for homework now because he's doing a lot of 
things that his father did or she's doing a lot of things that 
mommy did. So we need teachers to be aware of that, sensitive 
to that.
    We need them to be looking out for opportunities when there 
may be a financial stress or burden on the family, that they 
need to turn to some organization, or at least the educators 
need to alert the family readiness group, that this child may 
need some help; I don't think they can afford the new uniform; 
or all those little things in school that come up to make the 
experience all that it should be.
    We do not want the children of our military to not have the 
optimum experience, so we need to have better communication 
facilitated between our family readiness programs and the 
schools and both of them taking a share of the burden. It's 
just kind of an educational, informational event. I think we 
just need to set up a program and keep people in and get them 
going on it.
    We also need to caution our teachers that they should not 
bring their political views into the classroom. There have been 
some experiences where a teacher will be lecturing about how 
evil war is or how evil this war is, or something in 
particular, and start demeaning the troops. Well, that's 
somebody's mother or father. They're not only away from home 
and in danger, but now they're being demeaned as well. So we 
need to make sure consistently that that is not done.
    That's all.
    Senator Chambliss. Thanks very much to each of you. What I 
would like to do is start with the Simons and we'll go to each 
one of you, if you'll address this.
    First of all, what are some issues or situations that you 
know of that you've either experienced yourselves with respect 
to your children being children of military parents or that 
you've heard other folks talk to you about or mention to you 
that have been unique situations that are dictated by the fact 
that your children are military children?
    Senior Master Sergeant Simons, let's start with you all.
    Sergeant Simon. I think the first thing we think about is 
going from school to school. We moved here 3 years ago from 
Hampton, Virginia, Langley Air Force Base. My oldest son at 
that time was an eighth grader getting ready to go into ninth 
grade, so when we moved here, ninth grade was where he started. 
We volunteered for this assignment because that's a good 
transition for my son to go from starting a new school and not 
be the outsider. When going from eighth grade to ninth grade, 
no matter where you're in the local school district, in a lot 
of schools, that's the break between middle school and high 
school. That's why we wanted to volunteer and move there.
    The problem is I have another son that is 1 year behind him 
and he has to make the adjustment of he's now supposedly an 
eighth grader and one of the bigger guys in school and he gets 
picked on or noticed. Not necessarily picked on, but he gets 
noticed because he is the new kid on the block. He's tall in 
stature and so he gets noticed very easily. Folks can easily 
tell that he's the new kid on the block and easily pick on him 
for whatever, not knowing the local policies, or whatever, that 
are going on in the school.
    Some other things that we noticed that we were concerned 
about when wanting to make sure that our kids were in a stable 
community, which is the reason we volunteered for Offutt. There 
is a big, large weather organization here in the Offutt 
community; it can be a stable career move coming here. A lot of 
folks can be here for 5 or 6 years. My concern was, I wanted my 
boys who are going to high school to be in a stable environment 
for their high school because there's a lot of things that we 
had concerns about such as sports. Around the community, around 
the Nation, if you're not born and raised in the area and 
you're subject to moving, there's no way you're going to make 
some varsity sports.
    Things like grades and the possibility of honors, whether 
or not valedictorian and salutatorian. My kid has great grades, 
but if he moves from another school district, who knows whether 
or not the classes that he's taken are going to make the grade 
in another school district, and so our concerns were we need to 
keep our guys as stable as possible as much as we can.
    That's just the biggest things that we were concerned 
about. Our sons are great and they will adjust to just about 
anything that goes on, but a lot of the things that she was 
talking about with the Reserves are similar for the active 
duty. I am on deployment-capable status. If something happens 
and they call for a weather guy with my career field, with my 
grade, whatever, I'll be going to wherever.
    We've talked about that in my family. My boys ask me every 
couple of weeks: Dad, what's the chances of your going? Not 
just that, but also the possibility of a PCS because I've been 
here in the Omaha area for 3 years now. The Air Force policy is 
that if you're over 3 years in a certain station, chances are 
you're going to move, because unless there is absolutely no 
need for your career field, after 3 years on station, they try 
to give you a little bit of stability, and then they move you. 
I know the Marine Corps and the Army are even worse as far as 
stability. We have friends that seem to move every year.
    It's just things that the military understands and knows, 
that kids growing up in that know. Those are the biggest 
concerns that we had was the possibility of sports, their 
grades.
    They also have friends, as Dr. Deegan and Mr. Thomas talked 
about. My kids have been in eight different schools in their 
high school grades, at least the senior one has. The second 
grader is going to continue, hopefully, in the next 5, 6 years, 
once I hit 30 years, I'll have to retire, and he'll have his 
high school years pretty much stable.
    As far as finding new friends, finding a new community, 
when we moved here in the Bellevue area, we started living in 
base housing, started school in Bellevue East High School. Then 
a year later we moved to off-base housing. We live right in the 
middle of Bellevue West School District, but my kids decided 
they wanted to stay with Bellevue East because even if they 
couldn't drive, it was incumbent on Michele and I to get them 
to school, especially when they were younger, but even if they 
can't drive, they still wanted to continue with their friends.
    They thought it was more important to have their school 
friends than to be away from their friends in the local area 
when they are off and out of school. Their school friends are 
the most important things in their lives, and they wanted to 
have some kind of stability that way. No telling whether or not 
Mom and Dad would move again, but they wanted to stay with 
their friends as much as they can.
    Another thing that has been mentioned is whether or not the 
kids want to be noticed. The kids do not want to be noticed, 
that they are military kids and that they're different from 
anybody else out there. My sons do everything they can to fit 
in: Wear the same grungy clothes, baggy pants, everything that 
they can to fit in. [Laughter.]
    But they don't want the parents to come up to them in their 
school with a uniform on because it shows that they are 
different from everybody else. They want us to stay away, and I 
can respect that. They want to be noticed as students, not as 
military students or not as somebody else that has a potential 
for moving 3 years from now and then their friends back away 
from them because I don't need to get to know you because 
you're leaving in a year, or something like that.
    Senator Chambliss. I'm curious. You, being the son of 
military parents, do you have any recollection of going through 
this same process as a youngster?
    Sergeant Simon. It was a family decision, but the main 
reason I thought about us moving here to Omaha was because of 
the stability. When I was halfway through my junior year, my 
dad moved from Germany to a farm in North Dakota 2 years before 
he retired. I swore to myself I would never do that to my kids 
because, first off, I go from a school that's 1,500 students in 
my class, just in my grade alone, down to a school where I had 
six. That's a big difference. [Laughter.]
    There's a lot of differences in the possibility of 
scholarships, whether it's athletic or academic, a lot of 
different career possibilities all of a sudden get pushed down 
to almost nil because nobody notices you. You're out there on a 
farm, farmland doing all kinds of different things; whereas, 2 
years before, I was in a large town being able to be part of a 
large community. Things were happening for me, and then we 
moved out to this farm where I thought I was at the end of the 
world. So that's the biggest thing that I remember about 
growing up in high school.
    I also went through eight different schools. What I always 
thought was neat, especially up until I got to junior high 
school, we were able to live in Alabama, North Dakota, Germany 
twice, we lived all over the place. I thought the opportunities 
to move around and see things were great, but by the time I got 
into high school, I wanted to stay in high school and be with 
my friends because traveling wasn't cool anymore. The coolest 
thing in the world was to be with my friends and notice what 
kinds of other things were going on in life besides my 
following my dad around.
    Senator Chambliss. Ms. Bruno.
    Mrs. Bruno. He hit the nail right on the head. My kids have 
moved quite a bit as well, and at one time they liked to travel 
with us and go all the different places that we went, but as 
they got older, they didn't want to go out with us. They don't 
want to go out to the zoo with Mom and Dad. They want to go 
hang out with their friends. Stability has always been really 
important to my husband and I as far as the high school years, 
we knew that this was going to happen.
    Fortunately for us, for the oldest child, we were able to 
keep it to two high schools. The last 2 years were at the same 
high school. It would have been nice to have 3 years at the 
same high school for the oldest, but 2 years was good. I think 
we're going to be lucky and get the second child through 3 
years here.
    One of the reasons we came to Offutt instead of going to 
the Pentagon was we knew we would be here for 3 years. My 
husband could have gone to school and he opted out of the 
school so we could stay in one place for my daughter, so 
education has always been the focus for us.
    Whenever we move to a different area, we research the 
schools. We look to see what's the best school district for our 
children, and that's how we decide where we're going to live, 
whether we'll live on base or live off base.
    Unfortunately with both kids, we've had some problems with 
transferring credits in high school because each school 
district has a different criteria for graduating. The oldest 
child, she was lucky. She gained 3 credit hours. The younger 
child lost three, so she has to go to summer school somewhere 
down the line. She's not looking forward to that. So some of 
those issues have been covered already that you know that those 
are the problems.
    The biggest hurdle I came across last year was that my 
husband was in Kuwait due for orders this year. My daughter was 
starting to apply at colleges, and we didn't know where to 
apply; we didn't know where we were moving. So that was a huge 
problem because you want in-State tuition and that was 
difficult.
    I established residency in California, so she applied to 
California schools. She applied for Virginia schools, Nebraska 
schools, schools around Florida just so that she could be in 
and around us if that's what she chose to do, but $250 worth of 
application fees was expensive, and we didn't know where our 
residency was going to be. So I'm glad to hear that Georgia is 
going to allow kids to have an in-State tuition status.
    I'm not sure if I understand that correctly. Does that 
apply to anybody in the military, or is it just people that are 
stationed in Georgia?
    Senator Chambliss. No. It applies to anybody that graduates 
from a State high school while their parents are in the 
military stationed in Georgia.
    Mrs. Bruno. Yeah. It's difficult, though, because we didn't 
know where we were moving next and we would have liked her to 
stay in the same State as us.
    Now, she chose to stay in California, maybe because it was 
the most familiar thing that she had just encountered. She 
stayed right in the same area where she went to high school. 
Luckily for me, I established residency in California so that 
she was able to stay and get in-State tuition. But it would 
have been nice for her to be able to apply anywhere and just 
know that she would get in-State tuition whether we moved there 
or not.
    I think that would be a great service to the military, to 
allow at least for public schools. I know the private 
universities might not have that same option, but to allow the 
military to apply to any college and have in-State tuition, I 
would think that there would be some kind of rule where you can 
transfer your residency to that State so that they felt at 
least they were getting some kind of money for education. But I 
think that's a huge problem. We just didn't know where we were 
going to move next, so I'm glad she stayed where she did.
    Luckily for me, I've been taking college classes since high 
school, over 22 years of college classes along the way, and the 
military has addressed those kinds of things. The University of 
Maryland had taken all of my credits from Rutgers University 
and University of Nebraska at Omaha and just transferred 
everything that I had as far as through the military, all the 
schools that I've attended, using the military education 
system. So that's been wonderful, so I'm really pleased with 
that.
    The other thing I was really pleased to hear was back in 
January, I don't know if you've heard of One Source. It's a 
pilot program with the Marine Corps and it has been very 
helpful for relocating and finding different schools in 
different areas. I know a lot of the other Services are 
familiar with the One Source because I think it started with 
the Reserve program, if I remember correctly, and it's used 
with the Marine Corps currently. I'm really hoping that it 
spreads to all the other Services because it's a wonderful 
program and resource for the military.
    That was all I had to say.
    Senator Chambliss. Okay. Petty Officer Lemasters.
    Petty Officer Lemasters. Thank you, gentlemen. A number of 
people have mentioned different support groups and advocacy 
groups out there, and one of the sailors that I spoke with 
mentioned a group called Military Coalition that's out in San 
Diego, and they were working aggressively trying to get the 
high school credit hours to transfer and things along that 
nature, so that may be a benefit for coordination with as well.
    My daughter is only in the first grade right now, but one 
thing that I found for the younger children that's been helpful 
for us is to have a good before and after school care program 
available at the school for families where both spouses work. 
That's been an enormous benefit for us, and luckily, Bellevue 
School District has a wonderful before and after school 
program.
    Bellevue's reputation preceded it before we even got here. 
Numerous people that we talked to before moving here, as well 
as after we've been here, had nothing but positive things to 
say about the Bellevue School District and we also have the 
same feelings with that.
    One concern that one of the sailors that I had talked to 
mentioned was regarding the sports programs at Nebraska. The 
Nebraska Schools Athletic Association apparently has a 180-day 
waiting period for students that transfer either interstate or 
intercity transfer before they can participate in that 
particular school district's sports programs.
    With the military student, that becomes exceedingly 
difficult and is somewhat unfair to the student if they're 
coming from out of State due to a transfer and then they can't 
participate for the first half of the school year that they're 
there or even until the next school year if they transfer 
during the middle of the school year to be able to participate 
in the sporting programs. So if that's something that could be 
looked into, that might be of interest for the panel.
    That's all I have. Thank you, gentlemen.
    Senator Chambliss. Before you leave that, I wonder if that 
is something unique to Nebraska. Is there a chance anybody 
mentioned that that had happened in any other State?
    Petty Officer Lemasters. Not that I'm aware of, sir. It's 
possible, but Nebraska was the State that was cited to me on 
that.
    Senator Ben Nelson. Dr. Deegan is shaking his head. He 
might have some enlightenment.
    Dr. Deegan. I'm not sure of the exact situation.
    Senator Chambliss. Dr. Deegan, would you stand up?
    Dr. Deegan. Excuse me. I'm not sure of the exact situation, 
but I believe that any military family that comes in, the day 
they get here, they can begin to participate and take part in 
sports. The issue becomes whether you can transfer from one 
school to another and I think that's the waiting period that 
people get into. But actually, a military family moving into 
the area can begin sports that very day, but I think it's the 
transfer issue. It has to be an agreement between the two 
districts before they can play. Sometimes the district doesn't 
want to lose their best players so they'll say, no, we're not 
going to agree to that, so it's a competition between 
districts. Actually, for new military coming in, they can play 
the first day they're here.
    Senator Chambliss. Okay. Ms. Bruce.
    Ms. Bruce. The biggest problem that we have run into over 
the years is moving from the middle of the country to either 
coast. We found that the schools in Kansas and Nebraska are 
quite a ways ahead, curriculum content, for each grade than 
California or Maryland where we were stationed. The most 
glaring example is when we moved from Fort Leavenworth, Kansas, 
to Fort Hunter Liggett, California. My sixth grader came home 
the first day of school and said, Mom, I have the same math 
book. I said, ``You mean the same series, that means you 
haven't missed anything; that's good.'' She said, ``No, Mom, 
this was my fourth grade math book in Kansas.'' They were 2 
years behind in math and a full year behind in all the other 
subjects. They had textbooks with no grade references on them 
so the people that lived there didn't know, but military moving 
in and out did know. They also didn't have enough textbooks to 
go around. The kids had to share, so there was no assigned 
homework. Numerous other problems.
    I ended up home schooling two of my kids that year and put 
the two middle schoolers on the high school bus so they could 
go 30 miles to the next town and attend a middle school that 
had algebra for the eighth grader, a decent curriculum, a small 
talented and gifted program, band. None of which was available 
in the other school.
    Lots of problems trying to transfer one of my daughters 
during high school. It's a little bit easier when they're 
younger, but still if they're 1 or 2 years ahead or behind, 
when they get to a new school district, kids end up skipping 
grades or repeating grades. My oldest was lucky enough to be 
here 4 years in high school. She's the one that got into West 
Point.
    Two years ago we moved to the Washington, DC, area. We took 
housing at Fort Meade. I had tried to call, look at the Web 
site. Administrators don't tell you that their school is not a 
good fit for your child or it's not as good as where you came 
from. We arrive and certain credits aren't accepted, other 
things have to be substituted. You do the best you can and 
enroll them and then you find out even the class content is 
different. Chemistry, there's a junior class which requires a 
higher level math to do all the formulas and equations. The 
chemistry there was a freshman class, basic chemical process. 
English was speech and debate there, and here it is American 
literature; completely different content.
    Once again, we home schooled for a year. We didn't like 
that. The kids miss all the activities. They don't get 
leadership positions. They don't get the sports and activities 
that you put on a college application.
    I managed to get the correspondence courses for my high 
schooler from the University of Nebraska at Lincoln, high 
school correspondence, and worked with that, so when we decided 
to split up the family, leave my husband in Washington, DC, 
bring the other three kids back here to a decent school system, 
they accepted those credits. She was able to have a great 
senior year, lettered in academics here and did get into a good 
college. It's been an effort every time we moved, whether to 
home school, whether to drive them to a different school, what 
programs were like.
    They're lucky. They're smart. Three of them have been 
identified as talented and gifted. They have parents that are 
educated. They have a mom who can stay home, do home school. A 
lot of other kids don't have those advantages. They're stuck 
with whatever is outside the gate when they move.
    I would love to have national standards. I've talked to 
many families that say that in the military. I don't know if 
that's reasonable. I think a lot of the perception is we don't 
want the Federal Government telling us what to do in our local 
school district, but anybody that moves, not just the military, 
has to deal with widely different curriculum. The perception 
is, there's a perfectly good public school outside so we don't 
need a DOD school here on our post as well. But we all know 
that there's no such thing as perfect. Anything good is not 
realistic in some places.
    Mrs. Bruno. I've seen a lot of home school children more so 
recently.
    Ms. Bruce. They're not home schooling because of religion. 
They're home schooling because of consistency in curriculum.
    Mrs. Bruno. Exactly.
    Ms. Bruce. They want their kids to go through and know that 
they're not missing anything or repeating anything.
    Mrs. Bruno. We've also had the experience of the same book 
2 years in a row two different course titles, same book, so 
that's hard and it can be very difficult.
    Ms. Bruce. Very difficult.
    Mrs. Bruno. You can't get around it.
    Ms. Bruce. My husband comes from Texas, and he's never 
changed his residency for 27 years, and we still had to fill 
out a 5-page questionnaire on when he entered Texas, does he 
still have his driver's license there, does he vote there, et 
cetera, and have it notarized in order for my daughter to get 
in-State tuition down there. So that's another concern people 
have brought up to me.
    I know at least five other families that have split up for 
their kid's senior year of high school, sent their kid to 
boarding school, sent a child home from Germany to Kansas to 
live with the ex-husband because the school didn't mesh. There 
was no consistency.
    Mrs. Bruno. I think high school, by far, was the hardest 
time.
    Ms. Bruce. Yes.
    Mrs. Bruno. When they were younger, it was easier; they 
adjusted. We supplemented at home. As soon as we hit high 
school, for both of them, it was a totally different ball game 
on different issues, a lot of different curriculums.
    Senator Chambliss. Ms. Bruno, Senator Nelson and I are 
familiar with One Source, and I hadn't thought about this 
aspect of it, but does One Source attempt to address this 
problem, because this is a common problem that I'm sure all of 
you, if you hadn't experienced it, you're going to experience 
it the older your kids get. Does One Source attempt to address 
that?
    Mrs. Bruno. They have counseling for kids; the kids can 
call themselves.
    Senator Chambliss. If you're going from Marine Corps 
Logistics Base (MCLB) in Albany, Georgia, to Offutt, is there 
anything on that computer system, on the web page that will 
tell you what curriculum is used?
    Mrs. Bruno. Not only do they have a Web site, you can call 
up on the phone and speak to a person. You don't get a 
recording. They will do all the research for you as far as the 
school districts, give you all the statistics for grades, give 
you the demographics if you're interested in that. It's a 
wonderful source, and if people use it, I think it will be 
wonderful for the military.
    I know friends that were moving to a new area, and they had 
preschoolers, and I don't know if you've experienced preschool 
waiting lists but they can be very lengthy, if you want to get 
your child into a good preschool. I referred a friend with a 
key volunteer network and readiness group last year, and I 
referred several people over to this One Source, and they would 
actually do the legwork and find out where the preschools were 
and what it entailed, how to get on the list, what's the 
cutoff, or how much it costs. They'll do all of that research 
for you so you don't have to sit there on the phone for hours. 
They'll do it all for you and call you back. They'll call you 
back or they'll e-mail you. So it's a great program and I 
really hope it's utilized and it spreads throughout the Service 
because I think it's going to help a lot.
    Senator Chambliss. Another question, and I'll just throw 
this open to any of you who have had the experience and you 
might shed some light on it: DOD versus non-DOD schools. Do you 
find more consistency within DOD schools if you transfer? Is 
there less consistency? Is there a difference in the 
atmosphere? Are your children, because they're with military 
children day in and day out, do they seem to be better off, do 
better in school versus being in civilian school? Anybody care 
to comment on that particular issue?
    Mrs. Bruno. I've never had two DOD schools together. We've 
gone from Department of Defense school to a public. However, my 
children adjusted better in the military school system because 
all of those kids have the similar circumstances. They're all 
moving regularly. They tend to know what each other is thinking 
when they move.
    When you move into a public school system, it seems that 
the military kids kind of come together as well. The civilian 
kids just kind of push them away a little bit. It's really 
difficult for them to form friendships with the civilian kids 
because they just don't understand where they're coming from, 
so they tend to. I'm not saying my kids have never had civilian 
friends, but they tend to stick together with the military 
kids. I guess it's just because they have similar interests.
    Sergeant Simon. My son has never attended a DOD school that 
I can remember. I know when I did, eighth through tenth grade, 
I attended a school over in Ramstein, Germany, and I always 
thought the education that I received from the DOD school was 
at least equal to any of the education that I received anyplace 
else.
    I know at times DOD schools have been dinged and dinged 
hardest for the level of education they provide, but when I 
PCS'd back to North Dakota, I was at least at equal to if not 
above the education level that I had had, because some of the 
classes that I had were maybe not the same classes or even the 
same textbooks, but they were very comparable with the courses 
I had taken previously, and I was taking those as an eighth or 
ninth grader, sometimes, and they were being offered to me as a 
ninth or tenth grader.
    Mrs. Bruno. I guess my older daughter was in school in 
Rhode Island, and they have a pretty good curriculum in Rhode 
Island. When we moved to Yongsan, Korea, she had the same 
textbook for eighth grade and then she had the same textbook 
for ninth grade. So I don't know. I guess that can happen in 
any school district, so I don't necessarily say it's a 
Department of Defense problem. I think it's just there's 
different curriculums in different States.
    Senator Chambliss. Senator Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman.
    First, I want to thank all of you for sharing your personal 
experiences with us.
    Sergeant Simon, you came because of the schools, but I 
thought perhaps you came partly because of the weather as well. 
[Laughter.]
    Sergeant Simon. I would like to take credit for that, but I 
think it was more the chaplains than the weather guys. 
[Laughter.]
    Senator Ben Nelson. We thank the chaplain in that regard.
    Ms. Murphy, having had so much experience with the Guard 
and Reserve units, do you have any thoughts from your 
experience what the recent deployments, what affect those 
deployments might have on the children of Guard and Reserve 
members?
    Ms. Murphy. I think that as the deployments have gone on 
since September 11 and since our activity in Iraq, we have a 
different problem now. I'm seeing that a lot of kids, there's 
no distinction now between war time and peace time. There's no 
time that these kids feel that they can totally relax. They're 
starting to key into a climate of global terrorism and starting 
to feel that even if their parents are on peace keeping 
missions somewhere where there is not supposed to be combat, 
there is still danger. So what I've noticed is the stress is 
becoming more consistent and it's not peaking in a lot of the 
lives of these kids, but it's a consistent level of stress. I 
think we have to maybe look at our counseling programs from 
that point of view and see that for the older kids we address 
it that way. For the younger kids, they don't make any 
differentiations. They see military people in combat and 
instantly it's their families. I do think we need to step up 
some counseling.
    However, that said, I think that we always have to remember 
that when we approach all of these programs, we have to prepare 
for stress and prepare for problems in the lives of our 
families but never design things so that we invite it. I should 
have been worried about that. Now, I am. So we have to remember 
that. We always have to be very supportive in our tenor, in the 
words, in the ways that we choose to communicate with the 
families, to tell them that we're there if they come, if they 
need us, that we know that they're strong and capable people. 
That especially goes for the kids, too. Kids will reflect what 
you give them.
    Beyond that, I think the overriding thing that I believe we 
need is to keep expanding and developing our family readiness 
programs and linking them more to the schools because in my own 
program, as I built it and set it up and was soliciting 
information from the families and information from the military 
members in trying to assess their needs and build programs to 
face them, the school had so many people in so many different 
areas, that dealing with the schools is really a daunting task 
for Guard and Reserves. They're going to need some help, and 
they're going to need some protocols and a lot of cooperation 
on that, but I think that is right now because of the gap that 
I see.
    Senator Ben Nelson. I want to congratulate you for your 
work already as Director of the Family Readiness Network for 
the 155th Air Refueling Wing.
    Ms. Murphy. Thank you.
    Senator Ben Nelson. It received the National Guard's 2002 
Outstanding Family Program award and if you can continue your 
work in readiness to reflect that kind of outstanding output 
and have the excellence associated with it, I think our Guard 
and Reserve units will be better served. It certainly helps us 
to understand what we can do to help in that regard.
    Ms. Murphy. Thank you very much, Senator.
    Senator Ben Nelson. Thank you.
    Sergeant Simon. Sir, one thing I would like to mention, 
also, is Dr. Deegan mentioned that there was a Web site. Mr. 
Thomas also mentioned a Web site. In this information age, 
there are tons of different information that are available. I 
would like to push, if we could, the Family Support Center. 
Most military bases, whether it's Army or Navy, have a Family 
Support Center that should be able to provide a lot of that 
information.
    I've been over to our Family Support Center and some of the 
things are out there as you travel from base to base, and a lot 
of the same programs are there, but it depends on how active or 
creative the director of the Family Support Center is on 
whether or not some of the information is out there.
    I'd just suggest to Dr. Deegan to continue to work with the 
Family Support Center in Offutt and just get a lot of the 
information out there, because a lot of us are going to 
continue to move on to different assignments. We're going to 
continue to have stress in our lives. If we can find one place 
to go to, instead of having to go through a network of 15 
different friends, because it depends on which friend you're 
talking to on whether or not you're going to get the right 
information, if we could get the Family Support Center to be 
that one center for each base, post, Army installation and we 
can maybe get the information and be a little bit less 
stressful, because it's the parents that are going to have to 
go out and get that information.
    The kids may have a lot of stress in their lives, but 
they're not going to tell anybody about it. They're not going 
to go surfing the web to find information about what the 
schools are for the next place. They're not going to try to 
find the information about what the community is like, what 
activities there are to do in another community. It's the 
parents who have to go look, and if we can keep the Family 
Support Center focused in the process, we need to do that.
    Mrs. Bruno. I think one of the things that the One Source 
Web site or community was trying to do is do just that, to link 
each base's family readiness program to their Web site. I found 
it a wonderful program, and if it goes, I would be really happy 
for the military. I think it would be a great program for all 
of the Services, because they were providing links for us. If 
we called them or if we went to the Web site, it would provide 
us links to the family readiness organizations. So it is one 
place that I think would be a great start. I don't know if it 
will continue, but I really hope it does.
    Senator Chambliss. It is a program that Senator Nelson and 
I have keen interest in and has been developed through a 
hearing that we had in Washington, DC, with all of the 
Services, and it's a program that seems to be working.
    The one thing that we have been concentrating on, 
particularly in this session of Congress because of the Iraqi 
situation, that's given it even an higher profile, and that is 
trying to make sure that we do a better job of allowing you to 
do a better job of dealing with these kinds of issues.
    Master Sergeant Simon, it may have been of concern to you. 
I know it was of concern to your parents and you coming along, 
but times were different then, and kids were different. We all 
know that our children are much brighter than we were coming 
along. They have different interests and different assets that 
they're able to use. Thank goodness a computer works the same 
way in Korea as it does in Omaha, Nebraska, but that doesn't 
account, it doesn't make up for the difference in textbooks and 
other day-to-day things that, gee-whiz, you have to put up 
with.
    My dad was a minister and we moved five times. I went to 
five different schools, so I share some of those same problems. 
But you folks know that as long as you're in the military, 
these are going to be continuing problems.
    I think Senator Nelson will agree with me. I can't tell you 
how much we appreciate you all coming in and baring your soul 
with us today. I assure you, we're going to take this 
information back to Washington and try to incorporate your 
thoughts and your ideas into some overall programs, along with 
what we've heard in other parts of the country.
    We're working very closely with Senator Lamar Alexander of 
Tennessee and Senator Chris Dodd of Connecticut, who are the 
chairman and ranking member on the Education Subcommittee 
within the Health, Education, Labor, and Pensions Committee, to 
try to develop some programs that will allow a smoother 
transition for our military children because we don't want 
there to be that difference. We never want your kids to have to 
think about them being in a little different situation from the 
civilian kids when they're in a civilian school.
    We just appreciate very much your being here today and 
sharing these ideas with us.
    Master Sergeant and Mrs. Simon, I need to tell you all, it 
sounds like you have a couple of young men coming along that 
are great athletes, and we have Robins Air Force Base. 
[Laughter.]
    Great school systems and we'd love to have them, so we may 
find a weather station that needs your talent. [Laughter.]
    Senator Ben Nelson. I think we'll get your tour of duty 
extended here. [Laughter.]
    I might mention one thing. About the equalizing the tuition 
for in-State purposes for someone who begins their college in 
Nebraska while finishing high school here, we have two State 
senators here. I never want to pass the ball off if I can run 
with it, but in this case, I think I have to pass it off. We 
have State Senator Nancy Thompson here and State Senator Paul 
Hartnett was here earlier.
    This area is in their district, and I think it would be an 
excellent topic for them to take back to the Nebraska 
Legislature to take a look at what Georgia is doing and see 
what some other States are doing because it can--switching from 
University of Nebraska at Omaha to University of Nebraska at 
Kearnly to University of Nebraska at Lincoln or to one of the 
State colleges in Nebraska could present a challenge that is 
not currently being handled in a way that it is being handled 
elsewhere. I haven't thought about it until it came up as a 
result of this get-together. So I appreciate that opportunity 
and always want to hand the ball if I can't run with it, and 
this is a local issue, primarily.
    Senator Chambliss. Yes, it is, and you're absolutely right. 
There are a lot of other things like this and some thoughts 
that you all have come up with today, and you stimulate some 
ideas in my mind and I know in Senator Nelson's that we're 
going to be able to take back. From a practical aspect, this 
was not a difficult thing to do, for the Georgia Legislature to 
do.
    It was not difficult for Senator Nelson and I to agree that 
our Guard and Reserve folks ought to have use of the commissary 
and exchanges. I mean, when we're calling on folks, we just 
need to do those kinds of things to attract you, to retain your 
families, because even though it's your spouse, we know that 
this is a military family situation.
    So we're going to continue to work to make life better for 
you, and again, I appreciate very much your testimony here.
    To Mr. Thomas and Dr. Deegan, we thank you very much for 
being here to give us your thoughts and your ideas on the 
issues that we have discussed.
    With that, this hearing will be adjourned.
    [Whereupon, at 3:00 p.m., the subcommittee adjourned.]


   ISSUES AFFECTING FAMILIES OF RESERVE AND NATIONAL GUARD SOLDIERS, 
                      SAILORS, AIRMEN, AND MARINES

                              ----------                              


                      THURSDAY, DECEMBER 11, 2003

          U.S. Senate, Joint Hearing of the
                       Committee on Armed Services,
                                 Subcommittee on Personnel,
                                    and    
            Committee on Health, Education,
                               Labor, and Pensions,
                     Subcommittee on Children and Families,
                                                   Chattanooga, TN.
    The subcommittees met, pursuant to notice, at 10:08 a.m. in 
the Drill Hall of the National Guard Armory, 1801 Holtzclaw 
Avenue, Chattanooga, Tennessee, Senator Saxby Chambliss 
(chairman of the Subcommittee on Personnel, Committee on Armed 
Services) and Senator Lamar Alexander (chairman of the 
Subcommittee on Children and Families, Committee on Health, 
Education, Labor, and Pensions) presiding.
    Armed Services Committee member present: Senator Chambliss.
    Health, Education, Labor, and Pensions Committee member 
present: Senator Alexander.
    Armed Services Committee majority staff member present: 
Richard F. Walsh, counsel.
    Armed Services Committee minority staff member present: 
Gerald J. Leeling, minority counsel.
    Armed Services Committee staff assistant present: Michael 
N. Berger.
    Armed Services Committee members' assistant present: Clyde 
A. Taylor IV, assistant to Senator Chambliss.

     OPENING STATEMENT OF SENATOR SAXBY CHAMBLISS, CHAIRMAN

    Senator Chambliss. Good morning. This joint hearing of the 
Subcommittee on Personnel of the Senate Committee on Armed 
Services and the Subcommittee on Children and Families of the 
Senate Committee on Health, Education, Labor, and Pensions will 
come to order.
    It is a pleasure to be here in the National Guard Armory 
Drill Hall with my long-time good friend and now my colleague, 
Senator Lamar Alexander, of the great State of Tennessee. I 
can't be here without telling the people of Tennessee what a 
great job you did in sending both Senator Bill Frist as well as 
Senator Alexander to us in Washington. Senator Alexander and I 
are classmates together. It is one of the more experienced 
classes of freshmen in the United States Senate, and he is 
certainly at the top of that class. He has been my good friend 
for many years. It is a privilege to have the opportunity to 
serve with him and a privilege to be able to get around the 
country, as well as hold hearings in Washington, to work on an 
issue that we have a common interest in, not just from a 
legislative standpoint, but also from a very personal 
standpoint. We are both extremely interested in what we are 
going to be talking about.
    Our previous joint hearing took place in Washington, DC, on 
June 24 and it gave us the opportunity to gain important 
insights into the Department of Defense programs and the 
service that is being provided to military families. It is 
always beneficial, however, to travel to great communities like 
Chattanooga and visit military personnel where they live and 
work and hear directly from them about the challenges they 
face.
    In addition to that joint hearing, the Subcommittee on 
Personnel of the Armed Services Committee, which I chair, 
previously conducted two field hearings. The first on June 2 in 
Warner Robins, Georgia at Robins Air Force Base. It focused on 
issues affecting families of active duty military personnel and 
included testimony from a panel composed of spouses of Army, 
Navy, and Air Force personnel deployed in support of Operation 
Iraqi Freedom.
    Our second subcommittee field hearing was conducted on 
August 7 in Omaha, Nebraska at Offutt Air Force Base. The 
principal focus of that hearing was on education, impact aid, 
and the challenges that civilian communities and civilian 
school systems face in serving military families with school 
age children. In Omaha, we heard from a panel consisting of 
parents, including a Navy first class petty officer, an Air 
Force chief master sergeant and his wife, and the spouses of 
active duty Army and Marine Corps officers whose children had 
attended many different schools, both civilian and military 
schools within the Department of Defense system. These parents 
gave us a better understanding of the difficulties they and 
their children had faced in moving from school system to school 
system during the course of their careers.
    Today our focus is on families of the National Guard and 
Reserve personnel. We understand that while striving each day 
to be superb soldiers, sailors, airmen, and marines, many 
guardsmen and reservists strive with equal commitment and 
dedication to be superb spouses, parents, and providers to 
their children. The programs and problems that we consider 
today directly impact the ability of our guardsmen and 
reservists to successfully fulfill these all important roles.
    Families of mobilized National Guard and Reserve members 
have been placed under tremendous stress in recent years. Even 
before September 11, 2001, and the global war on terrorism, the 
high tempo of operations affecting both active duty and Reserve 
military personnel was a source of concern. Since September 11 
our active duty, Reserve, and National Guard personnel have 
performed magnificently in every mission they have been 
assigned. However, the sacrifices they have made, the long and 
continuing separations they have endured, and the problems in 
their personal lives resulting from these realities of military 
duty must be understood and carefully evaluated. We in the 
Senate must make every effort, working closely with the 
Department of Defense, the Department of Education, employers 
in the private sector, and advocates for families in all walks 
of life to respond in helpful ways.
    My expectation today is that we will continue to gain 
insight into the programs and initiatives of the Services, into 
the formulation of policies at the headquarters level, and also 
into work that remains to be done on behalf of individual 
members and their families.
    I am delighted that Senator Alexander, Chairman of the 
Subcommittee on Children and Families, joins me today as co-
chair. I am pleased to be back in the great State of Tennessee, 
having graduated from the University of Tennessee 1 or 2 years 
ago. [Laughter.]
    It is a real pleasure for me to have the opportunity to be 
back here, but a special pleasure to be here in the presence of 
my good friend, Senator Lamar Alexander. At this time I will 
turn the microphone over to him for any opening remarks he 
might have.

 STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman.
    It is a pleasure for me also to serve with Senator 
Chambliss. As he said, we have been friends. We have a common 
border between Georgia and Tennessee, particularly in southeast 
Tennessee. All the way down to Atlanta we have a lot of common 
interests and common opportunities to work on.
    I am especially glad to be here with Senator Chambliss 
because he has been a leader from day one on the issue of 
military families raising children. He has been a tireless 
advocate on their behalf. He is Chairman of the Personnel 
Subcommittee of the Armed Services Committee in the United 
States Senate, which has been a very active subcommittee this 
year under his chairmanship. He was recently awarded the 
Military Coalition's 2003 Award of Merit for his work in 
strengthening the TRICARE system to support the healthcare 
needs of our troops and their families.
    No time of the year reminds us more of our loved ones than 
this time of the holiday season. It is an emotional time. So it 
is appropriate that we spend some time in December talking 
about military families, because many of them are separated 
this holiday season. Their loved ones are away defending us.
    This hearing, as Senator Chambliss said, is part of a 
series of hearings that Senator Chambliss and I, Senator Dodd, 
and Senator Ben Nelson have held in different parts of our 
country to focus on the broader issue of military parents 
raising children. Today we want to especially focus on families 
of National Guard men and women and members of the Reserve.
    The hearings have already had an impact. Here are just a 
few. We learned about the Defense Department's exemplary 
programs on child care and also some ways that child care could 
be improved. In responding to the needs for troops to visit 
their families, Congress and the President have provided 
funding this year, so troops on a 2-week leave through the 
revived R&R, rest and recreation programs, can have travel 
expenses covered when they fly home. That is in the process of 
being implemented now.
    We addressed combat pay by increasing the families' 
separation allowance. Families have additional needs during 
times of deployment which costs a little bit of extra money. 
This $250 a month makes a difference, and Congress has funded 
that this year.
    We in Congress have also addressed health care concerns of 
soldiers and their families. Senator Chambliss especially has 
been in the leadership on this issue. The Department of Defense 
authorization bill included $400 million for this year so that 
when reservists are called to active duty they become eligible 
for TRICARE coverage. Additionally, when reservists return from 
active duty, instead of having TRICARE coverage for only 60 
days reservists will be covered for up to 6 months.
    Finally, during our earlier series of hearings the issue 
was raised of soldiers and families losing certain benefits 
such as Headstart when they begin receiving extra combat pay. 
It wasn't really the intention of Congress to penalize members 
of the armed services by giving them extra money, but that was 
the effect of it. The Headstart legislation recently passed by 
the Senate HELP Committee included a provision pertaining to 
this Headstart eligibility problem. As our soldiers are away 
fighting to defend our freedom, it is our responsibility to 
make sure we help in taking care of their children. The fact 
that they are receiving combat pay because they are working in 
dangerous situations should not adversely affect their 
children. Therefore, I proposed language to the Headstart 
reauthorization bill ensuring that a military family otherwise 
eligible for Headstart would not lose its eligibility because a 
member of that family is receiving combat pay.
    Today we are shifting our focus slightly. As I mentioned 
earlier, up to this point we have focused mainly on families of 
active duty troops. Today we are talking more about families of 
Reserve and National Guard. The American troops serving in 
Operation Noble Eagle, Operation Enduring Freedom, and 
Operation Iraqi Freedom, more than 300,000 are from the Reserve 
and National Guard. This is mostly since September 11, and this 
includes those men and women who have gone to Iraq, who have 
gone to Afghanistan, and the large number of Reserve and Guard 
men and women who have been called to staff the bases while the 
active duty people have gone overseas. In Tennessee since 
September 11, more than 6,200 troops from the Reserve and Guard 
have been mobilized, including 644 troops from here in the 
Chattanooga area at last count. So it is important that we 
consider their needs.
    Some of the needs of Reserve and Guard men and women are 
different. When a reservist is deployed on a full-time military 
duty he or she is not only away from their family, but also 
from his or her regular job, a job which would normally provide 
income to the family, as well as important benefits like health 
care coverage. Because the families of reservists do not tend 
to live in military communities such as those that live on or 
near Fort Campbell, Reserve families do not have access to the 
same support network for needs like child care, counseling, or 
even just getting news about their loved ones. So we have a lot 
to learn today and two great panels of witnesses to help us do 
that.
    Since 1997 we have had what we like to call a fully 
integrated armed services. We think of our active duty and our 
Guard men and women and our Reserve men and women as all part 
of the same unit more than we did before. That means if we are 
going to expect more, we are going to have to give more. One 
example would be in terms of the numbers of troops going 
overseas, I heard one report that pointed out that over the 
next few months there would be about 100,000 service members 
coming back from Iraq and about 100,000 going over. About 25 
percent of those serving in Iraq and Afghanistan today are 
Reserve and National Guard and the number who will be serving 
with this 100,000 or more going over will be higher than that.
    I look forward, Senator Chambliss, to learning today, and I 
look forward to the questions. Chattanooga is especially an 
interesting place for us to talk about reservists and 
guardsmen. One of the most impressive stories coming out of 
Chattanooga has been the seven fathers and sons who are a 
member of the same Army National Guard artillery unit. The last 
time I checked, they were all at Fort Campbell. Seven fathers 
and their sons all serving together in the same unit. Some of 
them were preparing to go to Iraq. I imagine they have by now. 
That is just one indication of the tremendous patriotism and 
volunteer spirit that exists in the Chattanooga area, which is 
something we are very proud of with our National Guard and 
Reserves.
    Senator Chambliss. You are right, it is fitting that we be 
here. You and I have a very good friend in the Mayor of 
Chattanooga, Bob Corker, who has done such a great job here. We 
appreciate Chattanooga hosting this, particularly Colonel 
Robert Harris, the brigade commander here at the armory. We 
appreciate you and all of your staff for the great work you 
have done in making this armory available to us today.
    While he could not be here today, I also want to recognize 
my ranking member, Senator Ben Nelson, who is from the great 
State of Nebraska. Senator Nelson and I, just like Senator 
Alexander and Senator Dodd on his subcommittee, have just a 
great working relationship. These committees are bipartisan 
committees because we are not here talking about Republican 
issues or Democratic issues. We are talking about quality of 
life issues for our military men and women and their families. 
Senator Nelson has just been such a strong advocate as the 
ranking member of the Personnel Subcommittee on Armed Services 
for families, as well as for the active duty members. I regret 
he could not be here, but he is certainly here in spirit.
    We have two panels of witnesses who will testify this 
morning. First, we will hear from Dr. John Winkler, the Deputy 
Assistant Secretary of Defense for Reserve Affairs (Manpower 
and Personnel); and Colonel James Scott of the Army National 
Guard who serves as Director of Individual and Family Policy 
within the Office of the Secretary of Defense for Reserve 
Affairs. We will also receive testimony from Bob Hollingsworth, 
the Executive Director of the National Committee for Employer 
Support of the Guard and Reserve. He will testify about vital 
work he does working with private sector employees and 
employers.
    Our second panel will consist of an Army reservist who has 
served in southwest Asia; the spouse of a guardsman who was 
mobilized earlier this year; the family programs coordinator 
from the Tennessee Guard; and an employee of the Chattanooga 
Police Department. Senator Alexander will introduce these 
witnesses upon conclusion of our first panel.
    I welcome the members of our first panel. Your written 
testimony has been entered into the record, but we would be 
pleased to hear from you now with respect to any comments you 
wish to make summarizing those written statements. So Dr. 
Winkler, why don't we start with you.

STATEMENT OF JOHN P. WINKLER, Ph.D., DEPUTY ASSISTANT SECRETARY 
    OF DEFENSE FOR RESERVE AFFAIRS (MANPOWER AND PERSONNEL)

    Dr. Winkler. Good morning, Senator Alexander and Senator 
Chambliss. Thank you for inviting us here to Tennessee to share 
some of our thoughts with you.
    I want to start by acknowledging the support that your 
committees in Congress have given to our National Guard and 
Reserve members and their families. Your support has 
contributed to the increasing effectiveness of family readiness 
and quality of life programs for our military personnel.
    As Deputy Assistant Secretary of Defense for Manpower and 
Personnel, I am responsible for the full range of manpower and 
personnel issues within the Office of the Assistant Secretary 
of Defense for Reserve Affairs. This includes, along with 
Colonel Scott, our Directorate of Individual and Family Support 
Policy that's in our office. In that capacity, I am keenly 
aware of the importance of family readiness and also how much 
our families contribute to supporting the total force mission 
of our Armed Forces.
    In my prepared testimony, I shared some of our points on 
what the Department sees in terms of Reserve family readiness 
and quality of life issues, as well as some of the critical 
challenges facing National Guard and Reserve component military 
parents. I describe policies, programs, and partnerships we 
have established in the Department to assist families in 
preparing for the absence of their military family member and 
sustaining them for the duration of that absence, as well as 
the return, reunion, and reintegration resources to reunite 
families and reestablish Guard and Reserve members in their 
civilian jobs and in their dual civilian/military careers.
    As you both mentioned, we have recently seen reservists 
called to active duty under the partial mobilization authority 
as a result of the terrorist attacks on the World Trade Center, 
the Pentagon, and western Pennsylvania, as well as continuing 
their contributions to Presidential Reserve Call-ups in Bosnia, 
Kosovo, and Southwest Asia. Since September 11, according to 
our latest accounting, nearly 325,000 Guard and Reserve members 
and their families have supported the global war on terrorism. 
This includes about 6,300 citizen soldiers from the State of 
Tennessee.
    World events and our Nation's response have presented many 
challenges to the men and women who serve in our Reserve 
components. Contingency operations challenge our service 
members and their families and demonstrate that mission 
readiness and family readiness are extremely intertwined. We 
can't continue to rely on the reservists who now comprise about 
half our total force if their families are not ready for the 
stresses and strains of separations and deployments. We are 
closely monitoring the impact of increased use of our Guard and 
Reserve members, on them, their families, and their employers 
while taking a proactive approach to identifying established 
new programs and modify existing ones.
    The mission of the individual family and support policy 
directorate in my office is to ensure total force family 
readiness. Our goal is to support mission readiness through the 
Reserve component family readiness programs. Colonel Scott, to 
my right, is the director of that office. Now he will share 
some of the specific programs we have implemented to support 
our total force members.
    Thank you.
    Senator Chambliss. Thank you, Dr. Winkler.
    Colonel Scott.

STATEMENT OF COL. JAMES L. SCOTT II, ARNG DIRECTOR, INDIVIDUAL 
AND FAMILY POLICY, OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE 
                      FOR RESERVE AFFAIRS

    Colonel Scott. Yes, sir. Good morning, Senators.
    Today, I would like to share with you some of the critical 
challenges facing National Guard and Reserve component military 
members and their families and explain some of the policies, 
programs, and partnerships we have established in the 
Department to assist them in preparing for the absence of their 
military family member and sustaining them for the duration of 
that absence as well as the return, reunion, and integration 
resources to reunite them with their family and to reestablish 
them in their civilian jobs and their dual military civilian 
careers.
    The good news is we have received positive feedback on how 
joint and cross component initiatives can improve the overall 
ability to deliver services to members and their families. One 
example has been the Military One Source, a confidential 
service that is available 24 hours a day, 7 days a week. This 
is an employee assistance type program that is available to the 
Services as a total force program for all members and their 
families. Another example is the partnership that our office 
has formed with the Secretary of Defense's Office of Family 
Policy in order to approach family readiness issues from a 
holistic perspective.
    Guard and Reserve families are widely dispersed 
geographically and live and work in over 4,000 communities 
across the Nation. Often these families do not live near 
military installations where family support readiness services 
are most readily available and they may not know what services 
are available. Even when military families are aware of 
available services, they often encounter difficulties in 
accessing them. They are in their civilian communities with 
their children in public and private schools where there may be 
little experience or knowledge of the impacts of mobilization 
and deployments on parents and children.
    The Office of Educational Opportunity has worked with our 
office and in collaboration with the Department of Education to 
provide information and materials that appear on both the 
Department of Defense and Department of Education Web sites, 
that enables administrators, faculty, counselors, and staff in 
school districts throughout the United States as well as 
parents, to begin to understand and address the needs of 
children of deployed Guard and Reserve members. These products 
include an educator's guide to the military child during 
deployment and a parent's guide to the military child during 
deployment and reunion.
    The Secretary of Defense and the Secretary of Labor last 
July signed a memorandum of understanding which provides the 
framework for a broad range of continuing and new partnership 
efforts between the two departments to ease reentry into the 
civilian workforce and ensure military skills are translated 
into civilian employment. This agreement will also strengthen 
the Department of Labor's efforts to support returning 
reservist job searches, expand employment infrastructure to 
support military spouse employment, and encourage corporate 
America to hire returning reservists and military spouses.
    Significant results of our partnership are the publication 
of the first Guard and Reserve Family Readiness Strategic Plan, 
2000 through 2005; Publication of a Fifth Edition of a Guide to 
Reserve Family Member Benefits in May 2003. This guide provides 
family members with information about military benefits and 
entitlements including medical and dental care, commissary and 
exchange privileges, military pay and allowances, and 
reemployment rights. I have provided copies for your staff this 
morning for each of you.
    We also publish the Joint Service Total Force Guard and 
Reserve Family Readiness Programs Toolkit, a comprehensive 
guide on pre-deployment, deployment, and post-deployment 
information for commanders, service members, family members, 
and family program managers. The toolkit is based on best 
practices from the field as identified by active and Reserve 
components. As with other informational products, the toolkit 
can be accessed on the Reserve Affairs Web site at 
www.defenselink.mil/ra.
    Veteran services organizations have come forward with 
initiatives to support active and Reserve families. The 
Department is also partnering with the Department of Veterans' 
Affairs and other agencies to ensure that demobilizing Reserve 
component members have access to their post-mobilization and 
transition counseling, and we recently conducted a child care 
summit to determine the significance of child care requirements 
for Guard and Reserve families when the military member is 
training at home station and also the additional requirements 
when the military member is mobilized and/or deployed. These 
efforts and cooperation have allowed us to keep Reserve 
component families in the mainstream of current initiatives to 
support all military families.
    Another concept that has been emphasized by both the 
Department and the Services is expanded outreach. Outreach 
means delivering services into the communities and increasing 
awareness of existing programs to those families that live far 
from military installations. The National Guard has been a huge 
player in expanding this outreach. National Guard family 
programs are almost everywhere and are supported by a State 
family program coordinator in each State and territory. 
Additionally, the National Guard has established over 400 
family assistance centers in communities all over the Nation. 
The Tennessee Guard is a strong player in this effort, and I 
think you will hear from Major Ward a few more details about 
that program here.
    Over the past few months, they have opened 17 family 
assistance centers with 20 full-time contracted workers. 
Typically the centers cooperate and coordinate with existing 
units' family readiness groups to assist their families by 
providing answers and serve as a resource for solving problems 
at the lowest possible level. The family assistance centers are 
a very valuable resource, and they are able to provide a more 
comprehensive approach to family support, which results in 
enhanced family satisfaction and readiness.
    The family support offered by the Guard is available to all 
military families, regardless of component or Service. We have 
received feedback that indicates that this expanded outreach 
has contributed to more families being better prepared for the 
challenges they face. Often when we do not hear complaints, we 
know that family readiness programs are working quite well.
    The Department advocates a 100-percent contact goal for all 
families. We realize that this goal is worthy but it is also a 
moving target. Constant attentiveness must be maintained to 
connect all families with the family readiness network.
    We also launched another Web site, 
deploymentconnections.org, emphasizing joint readiness for 
service members, families, parents, spouses, and children. One 
of the lessons of Operation Iraqi Freedom and other recent wars 
is that effectiveness in combat depends heavily on jointness, 
how well the different branches of the military communicate and 
coordinate their efforts on and off the battlefield. It is 
eminently clear to us that achieving jointness in war time 
requires building that jointness in peace time.
    Providing the necessary resources for our mobilized Guard 
and Reserve members and their families is a top priority for 
the Department. While we can draw on our experience from past 
call-ups, we continue to examine our policies and programs to 
ensure that our mobilized reservists do not feel 
disenfranchised and that we have the family support systems in 
place that they require.
    Your committee and Congress have been very supportive of 
our Guard and Reserve members and families and on their behalf, 
I want to publicly thank you for all your help in strengthening 
our Reserve component. Our military personnel and their family 
members are very grateful.
    Senators, this concludes my prepared remarks. Thanks to you 
and your fellow Members of Congress for having us here to talk 
with you today. We certainly appreciate it.
    [The joint prepared statement of Dr. Winkler and Colonel 
Scott follows:]

 Joint Prepared Statement by Dr. John D. Winkler and Colonel James L. 
                                Scott II

    Good morning Senator Alexander and Senator Chambliss. Thank you for 
inviting us here to Tennessee to share some of our thoughts with you. 
As the Deputy Assistant Secretary of Defense for Reserve Affairs 
(Manpower and Personnel), and with Colonel Scott as the Director of 
Individual and Family Support Policy in our office, I am keenly aware 
of the importance of family readiness and also how much our families 
contribute to supporting the total force mission of our Armed Forces. I 
also want to acknowledge the support your committee and Congress have 
given to our National Guard and Reserve members and their families. 
Your support has contributed to the increasing effectiveness of family 
readiness and quality of life programs for our military personnel.
    The Office of the Assistant Secretary of Defense for Reserve 
Affairs has a supervisory role in the Department of Defense for 
National Guard and Reserve issues and has been an advocate for all 
seven Reserve components. Noting that we have about 160,000 Reserve 
component members currently mobilized in support of Operations Iraqi 
Freedom, Enduring Freedom, and other contingencies, this is a very 
important role. I am responsible for manpower and personnel issues 
within the Reserve Affairs, serving as the principal staff assistant 
and advisor to the Assistant Secretary of Defense for Reserve Affairs 
for all manpower, personnel, compensation, and medical matters.
    Today, I will share some points on what the Department sees in 
terms of Reserve family readiness and quality of life issues as well as 
some of the critical challenges facing National Guard and Reserve 
component military parents. In addition, I will also explain the 
policies, programs, and partnerships we have established in the 
Department to assist families in preparing for the absence of their 
military family member and sustaining them for the duration of that 
absence, as well as the return, reunion, and reintegration resources to 
reunite families and to reestablish Guard and Reserve members in their 
civilian jobs and dual civilian-military careers.
    We have recently seen reservists called to active duty under the 
partial mobilization authority as a result of the terrorist attacks on 
the World Trade Center, the Pentagon, and western Pennsylvania, as well 
as continuing their participation and commitment to Presidential 
Reserve Call-Ups in Bosnia, Kosovo, and Southwest Asia. Since September 
11, 2001, nearly 310,000 Guard and Reserve members and their families 
have supported the global war on terrorism. Approximately 4,400 
citizen-soldiers from the Tennessee National Guard have been called to 
support this global war. Currently, Tennessee is providing nearly 3,000 
Guard and Reserve members from communities all across the State 
including Alcoa, Boliver, Camden, Chattanooga, Columbia, Dickson, 
Dresden, Elizabeth, Jackson, Johnson City, Kingsport, Knoxville, 
Lebanon, Lexington, LobelviIle, Millington, Murfreesboro, Nashville, 
Oak Ridge, Ripley, Smyrna, and Tullahoma. Each of these members and 
their families are a vital part of their communities, and are making 
critical contributions to preserving the peace and freedom of our 
country and the world.
    World events and our Nation's response have presented many 
challenges to the men and women who serve in our Reserve components. 
Contingency operations challenge our service members and their 
families, and demonstrate that mission readiness and family readiness 
are inextricably intertwined. We cannot continue to rely on our 
reservists, who now comprise approximately half our total force, if 
their families are not ready for the stresses and strains of 
separations and long deployments.
    When mobilized, reservists and their families face unique 
challenges and barriers. Guard and Reserve families are widely 
dispersed geographically and live and work in over 4,000 communities 
across the Nation. Often, these families do not live near military 
installations where family support readiness services are most readily 
available and they may not know what services are available. Even when 
military families are aware of available services, they often encounter 
difficulties in accessing them. More often they are in civilian 
communities with their children in public and private schools where 
there may be little experience or knowledge of the impacts of 
mobilization and deployment on parents and children.
    We are closely monitoring the impact of the increased use on our 
Guard and Reserve members, their families, and their employers while 
taking a proactive approach to identify and establish new programs, 
modify and adapt existing programs and resources, and expand 
partnerships in and out of the Department to enhance our military 
members' and their families' ability to cope with the challenges of 
military service in defense of our Nation and our communities.
    The mission of the Individual and Family Support Policy Directorate 
in my office is to ensure total force family readiness; and our goal is 
to support mission readiness through Reserve component family 
readiness. The military of the 21st century is a total force military, 
and the Department realizes this fact. Our total force is easy to 
recognize when we look at the mix of active and Reserve members that 
make up the joint forces that are serving across the globe on any given 
day. We are making a push to broaden the total force mindset to the 
benefit of the overall force. We are obviously better than we were 20, 
or even 10 years ago, but we are still working towards closer 
integration in quality of life and family readiness programs and their 
impact on mission readiness.
    The good news is that we have received positive feedback on how 
joint and cross-component initiatives can improve the overall ability 
to deliver service to members and their families. One example has been 
the ``Military One Source,'' a confidential service that is available 
24 hours a day; 7 days a week. This is an Employee Assistance Program 
that is available to the Services as a total force program for all 
members and families. Also, the Secretaries of Defense and Labor just 
last July signed a Memorandum of Understanding, which provides the 
framework for a broad range of continuing and new partnership, efforts 
between the two departments to ease re-entry into the civilian 
workforce and ensure military skills are translated into civilian 
employment. This agreement will also strengthen the Department of 
Labor's efforts to support returning reservists' job searches, expand 
employment infrastructure to support military spouse employment, and 
encourage corporate America to hire returning reservists and military 
spouses.
    Another example is the partnership my office has formed with the 
Office of Family Policy in order to approach family readiness issues 
from a holistic perspective. Colonel Scott, my Director of Individual 
and Family Support Policy, and Meg Falk, the Director of the Office of 
Family Policy, are the co-chairs of the Joint Family Readiness Group 
that meets quarterly to discuss high-level policy issues with the 
family program managers of all the Services and their respective 
Reserve components. These offices illustrate examples of teamwork in 
preparing policies and programs because we know it is beneficial to 
begin with a total force perspective.
    Another significant result of this partnership was the publication 
of the first Guard and Reserve Family Readiness Strategic Plan 2000-
2005. It provides a blueprint for offering greater support to National 
Guard and Reserve families and assisting them in coping with the 
stresses of separations and long deployments. The plan sets out 
specific goals and milestones and we have already accomplished a number 
of those goals. Also, it established a link between family readiness 
and unit mission readiness. This plan and the products established as a 
result of its implementation area direct result of partnership efforts 
within the OSD staff to include the Office of Military Community and 
Family Policy and their Quality of Life, Family Policy, Children and 
Youth, Community Support and Continuing Education offices. Their 
efforts and cooperation have allowed us to keep Reserve component 
families in the mainstream of current initiatives to support all 
military families.
    Another concept that has been emphasized both by the Department and 
the Services is expanded outreach. Outreach is one cornerstone of the 
Department's new ``Social Compact,'' in that future programs take aim 
at the two-thirds of the military population that resides off base, as 
well as National Guard and Reserve members and families. Outreach means 
delivering services into the communities and increasing awareness of 
existing programs to those families that live far from military 
installations. The National Guard has been a huge player in expanding 
outreach. National Guard family programs are almost everywhere and are 
supported by a State Family Program Coordinator in each State and 
territory. Additionally, the National Guard has established over 400 
family assistance centers in communities all over the Nation. The 
Tennessee Guard is a strong player in this effort. Tennessee has opened 
17 Family Assistance Centers with 20 full-time contracted workers. 
Typically, the Family Assistance Center workers cooperate and 
coordinate with the existing units' Family Readiness Groups to assist 
families by providing answers and as a resource of solving problems at 
the lowest level possible. The Family Assistance Centers are a very 
valuable resource. They are able to provide a more comprehensive 
approach to family support, which results in enhanced family 
satisfaction.
    The family support offered by the Guard is available to all 
military families, regardless of component or Service. We have received 
feedback that indicates this expanded outreach has contributed to more 
families being better prepared for the challenges they face. Often when 
we don't hear complaints, we know that family readiness programs are 
working well.
    However, we are aware that not all families are being reached. The 
foundation for support of family members lies in the preparation and 
education of professionals and family members alike, well before a 
reservist is called to active duty or actually deployed. The ability of 
Reserve component members to focus on their assigned military duties, 
rather than worrying about family matters, is directly affected by the 
confidence a member has that his family can readily access family 
support services. This is why the Department advocates a 100-percent 
contact goal for all families. We also realize that while this goal is 
worthy, it is also a moving target. Constant attentiveness must be 
maintained to connect all families with a family readiness network. 
Most of this work is conducted at the battalion/squadron level and 
below, and it is often volunteers that do the work. They do a 
tremendous job! There are isolated families who are not reached, but 
there are also dedicated people working on reaching them. It also helps 
us to be able to come to a forum such as this and tell the story. In 
addition to family program managers, the unit commander, the service 
member, and the spouse all have a responsibility in making family 
readiness a reality. Family readiness is not something that just 
happens. It takes multiple parties at all levels to build a robust 
network. Support for unit-level programs is the key to building a 
network based upon personal contact. The Department is a strong 
supporter of the family programs managed by each Service and their 
Reserve components. Furthermore, we seek to implement policy that will 
support efforts being made at the unit-level.
    Moreover, many of the Veterans Service Organizations have come 
forward with initiatives to support active and Reserve families left 
behind. One example is the Veterans of Foreign Wars, which provides 
coordinators in each State to ensure that volunteer efforts and 
donations are channeled to families who have the greatest need for 
assistance. The Department is also partnering with the Veterans 
Administration and other agencies to ensure that demobilizing Reserve 
component members have access to their post-mobilization and transition 
counseling benefits through the Federal Occupational Health Services 
and the Veterans Rehabilitation Counseling Centers across the Nation.. 
The Office of Educational Opportunity has worked with our office, and 
in collaboration with the Department of Education, to provide 
information and materials that appears on both the Department of 
Defense and Department of Education Web sites that enables 
administrators, faculty, counselors, and staff in school districts 
throughout the United States, as well as parents, begin to understand 
and address the needs of children of deployed Reserve members. These 
include an Educator's Guide to the Military Child During Deployment and 
a Parent's Guide to the Military Child During Deployment and Reunion.
    We also recently conducted a Childcare Summit to determine the 
significance of childcare requirements for Guard and Reserve families 
when the military member is training at home station, and also the 
additional requirements when the military member is mobilized and/or 
deployed. The summit determined that childcare requirements for Reserve 
families vary dramatically between the Services and are largely 
determined by the families' ability to provide childcare from internal 
resources. Each of the Services has addressed these varying 
requirements by conducting pilot programs to assist and expand child 
care services and resources for Reserve component families when and 
where needed. These programs have been largely successful and will 
likely be embedded in future planning and programming.
    We also published the 5th Edition of ``A Guide to Reserve Family 
Member Benefits'' in May 2003. This guide provides family members with 
information about military benefits and entitlements, including medical 
and dental care, commissary and exchange privileges, military pay and 
allowances, and reemployment rights. I have copies available for each 
of you today. The Department funded the printing of 696,000 copies of 
this booklet to allow every family of a deployed or potentially 
deployed Guard or Reserve member to have their own personal copy. From 
our surveys of spouses of deployed Reserve component members, we know 
that information and communication are essential to Reserve families. 
In addition to information concerning their deployed spouse, family 
members request information on available benefits, services, and 
programs, to include locations of commissaries, exchanges, healthcare, 
and other facilities. Communication through an established unit or 
organizational point of contact is also key. We use a constant stream 
of updated information on benefits and entitlements disseminated 
through informal e-mailing lists, news releases, and personal speeches 
to ensure that Reserve component members and their families have the 
most current and accurate information possible.
    The Department's path is one of continuous improvement in family 
readiness and quality of life policy and programs. We need strong 
family readiness and complementary quality of life programs that are 
built for the long term. The global war on terror will not end tomorrow 
and neither will America's global responsibilities. Deployment and 
mobilization are realities in the current strategic environment. 
Therefore, it is critical that we set realistic expectations for our 
families and build a foundation of readiness that they will maintain 
throughout a military career. This is accomplished by making 
information available to and through the chain of command, facilitating 
open communication, and supporting families throughout all phases of 
the deployment cycle.
    We have also launched another Web site, 
``deploymentconnections.org'' emphasizing ``Joint Readiness for Service 
Members, Families, Parents, Spouses, and Children.''
    One of the lessons of this, and other recent wars, is that 
effectiveness in combat depends heavily on jointness--how well the 
different branches of the military communicate and coordinate their 
efforts on and off the battlefield. It is eminently clear that 
achieving jointness in wartime requires building that jointness in 
peacetime. That includes jointness in mission readiness, family 
readiness, and all quality of life areas of concern. We recently 
published a Joint Service/Total Force Guard and Reserve Family 
Readiness Programs Toolkit. It is a comprehensive guide on pre-
deployment, deployment and post-deployment information for commanders, 
service members, family members, and family program manager. It 
contains checklists, pamphlets, and other information, such as benefits 
and services available that inform family members how to prepare for 
deployment. The Toolkit is based on ``best practices'' from the field 
as identified by the active and Reserve components. As with other 
informational products, the family readiness tool kit can be accessed 
on the Reserve Affairs Web site at http://www.defenselink.mil/ra.
    DOD guidance on Reserve Family Readiness is provided in DOD 
Instruction 1342.23, which encourages commanders at all levels to 
support Total Force Joint-Service family readiness efforts in 
maximizing regional cooperation, planning, and information sharing. The 
Department encourages participation in InterService Family Assistance 
Committees at the State and regional level rather than reliance on 
single Service or component programs to meet the needs of a divergent 
and geographically dispersed force.
    Providing necessary resources for our mobilized Guard and Reserve 
members and their families is a top priority for the Department. While 
we can draw on our experience from past call-ups, we continue to 
examine our policies and programs to ensure that our mobilized 
reservists do not feel disenfranchised and that we have the family 
support systems in place.

                               CONCLUSION

    Your committee and Congress have been very supportive of our 
National Guard and Reserve members and families, and on their behalf, I 
want to publicly thank you for your help in strengthening our Reserve 
components. Our military personnel and their family members are 
grateful.
    Senators, this concludes my prepared remarks. Thanks to you and 
your fellow Members of Congress for having me here to talk with you 
today. Once again, thank you for all you do for the men and women of 
our total force military and their families.

    Senator Chambliss. Thank you, Colonel.
    Mr. Hollingsworth.

 STATEMENT OF BOB HOLLINGSWORTH, EXECUTIVE DIRECTOR, NATIONAL 
    COMMITTEE FOR EMPLOYER SUPPORT OF THE GUARD AND RESERVE

    Mr. Hollingsworth. This is just an absolutely exciting time 
in America today, and the fact is that you all have been so 
kind and generous to bring us out here so we can have another 
opportunity to tell America about the wonderful things that are 
going on as we prosecute the war on terror. It certainly is a 
privilege today to have the honor to come and give you all some 
information about what we at the Employer Support of the Guard 
and Reserve (ESGR) perceive to be really a good news story in 
today's employer support across America.
    In my prepared statement, it was pointed out that our vital 
mission in ESGR is the sustainment process of the global war on 
terror. ESGR focuses on the employers of America's Guard and 
Reserve to ensure that they clearly understand their 
obligations under the Uniformed Services Employment and 
Reemployment Rights Act, which we commonly call USERRA.
    The global war on terror will require our deep and enduring 
commitment. Indeed, 46 percent of the manpower of the total 
force is shared manpower, shared with America's employers, 
large and small, public and private. This inextricably links 
America's employers to our national defense.
    ESGR and its 4,200 volunteers across the Nation continually 
focus on our employer outreach mission. We act as the 
Department's early warning relative to employee support. We are 
a vital communications link, directly relating to retention.
    We look at it in terms of a three-legged stool. The 
priorities in an individual guardsman and reservist's life. 
There's the family, his obligations to his employer, and his 
obligations to his country. Oftentimes, we reverse those 
priorities and we put the call for the Nation to be number one 
and sometimes the family slips because they go off to do the 
things that their country calls them to do. In the middle of 
this, the employer is a key part of this three-legged stool, 
and we understand that we have a vital part in ensuring that 
that third leg of that stool remains intact.
    Through our symposium initiatives, we bring employers 
together with senior Department officials to discuss and help 
resolve issues. Communication is a vital link in our success. 
So far, the most significant issue expressed is expectations. 
When will the guardsmen and reservists go, how long will they 
be gone, and when can we expect them to return?
    Many employers across this great Nation continue to provide 
beyond the requirements of USERRA. They provide pay 
differential, they provide extension of insurance benefits, and 
they form family support organizations within their own 
corporations.
    ESGR's award program recognizes employers. Their 
significant contributions were just recognized by President 
Bush at our Secretary of Defense Freedom Award banquet that we 
held in Washington in relationship with our strategic partner, 
the Chamber of Commerce. Simultaneously, as the President 
signed a proclamation indicating that the following week would 
be dedicated to America's employers, we did that throughout all 
States in the union, throughout all 50 States on 1 day. It was 
an historic event in our Nation recognizing the vital role that 
these employers play in our national defense.
    ESGR continues to be the key problem solver. We want to be 
known as the go-to organization as these issues arise. We 
aggressively pursue programs that educate, that continue to 
allow them to understand their vital link in our national 
security.
    Some of our corporations have just been magnificent. Just 
to name a few: Home Depot, Sears, Verizon, General Motors, 
Boeing, hundreds of municipalities that employ guardsmen and 
reservists as policemen, firemen, and EMS folks throughout our 
country.
    Just to give you one little example of a company called 
Merritt Medical, their CEO personally put up a huge amount of 
money for the guardsmen and reservists in his organization that 
says if there are any problems, you can draw on this particular 
money to help you through your financial crisis. The same 
situation occurred from the Board of Directors. They also sent 
out a letter to all their suppliers and said if you want to be 
a supplier for our organization, your human resource policies 
will be exactly the same as ours. For the folks that are their 
vendors that can't afford, because of the size of the company 
or whatever the situation might be, to provide that pay 
differential for those guardsmen and reservists, to extend 
those medical benefits, his parent corporation Merritt Medical, 
provides them the financial resources in order to do that. 
Those are the really neat stories that are occurring throughout 
our country today to show the support of our Guard and Reserve.
    ESGR will continue to aggressively work to ensure that this 
global war on terror is supported by America's employers.
    In conjunction with our strategic partner, the Department 
of Labor, which also really works with us in the enforcement 
part of the USERRA, I think we have seen some real successes 
during this last couple of years of mobilization and 
demobilization.
    Thank you so much for your continued support of our 
organization and its mission because it does remain a critical 
aspect of retention of our guardsmen and reservists. We have a 
Web site that is esgr.com, that employers, family members, or 
any other interested people throughout America can go to to see 
what some of the issues are. In addition, if you want to 
contact us with any particular issues, you can call our toll 
free number at 1-800-336-4590.
    Thank you again for the opportunity to be here today. It is 
an exciting time in America.
    [The prepared statement of Mr. Hollingsworth follows:]

               Prepared Statement by Bob G. Hollingsworth

    It is indeed an honor and privilege to address this esteemed body 
of Senators regarding the critical role of the National Committee for 
Employer Support of the Guard and Reserve (ESGR). The events of 
September 11 fundamentally changed our way of life. ESGR has never been 
faced with a more challenging and critical mission.
    Our Reserve components are serving a Nation at war. This war 
requires that all elements of our national power be applied in a broad, 
unyielding and relentless campaign. This campaign will take time and 
will require our deep enduring commitment.
    The success of the Nation's defense depends on the availability of 
highly-trained members of the ``total force.'' Currently 46 percent of 
that total force is shared with our Nation's employers.
    Under the auspices of the Assistant Secretary of Defense for 
Reserve Affairs, ESGR has the very important mission of gaining and 
maintaining active support from all public and private employers for 
the men and women in the National Guard and Reserve as defined by 
demonstrated employer commitment to employee military service.
    ESGR is a nationwide network of volunteers operating from the 
Office of the Secretary of Defense. ESGR ensures employers understand 
their vital role in national defense and informs employers and their 
Guard and Reserve employees alike of their rights and responsibilities 
under the Uniformed Services Employment and Reemployment Rights Act. 
This act is commonly known by the acronym ``USERRA.''
    The military draft ended in 1972 and a presidential proclamation 
formed ESGR that same year. ESGR was originally composed of a small 
number of volunteers from the business and military community led by 
James Roche, Chairman of General Motors.
    The Department of Defense realized that with an all-volunteer 
force, support from employers and communities would be instrumental in 
maintaining Reserve component recruitment and retention. ESGR was 
created to obtain this much-needed support and to promote the role of 
our Guard and Reserve Forces.
    Today, ESGR's national headquarters is located in Arlington, 
Virginia. A joint staff of uniformed service professionals administers 
ESGR services and programs in support of the 55 State committees 
consisting of more than 4,000 volunteers located throughout each State, 
the District of Columbia, Guam, Puerto Rico, the Virgin Islands, and 
Europe.
    Now, more than ever, ESGR's services and programs are educating 
employers and community leaders about the important role they have in 
our Nation's security. Indeed, without employer support of the Guard 
and Reserve, nearly half our uniformed service members would not be 
available to conduct the global war on terror. America's employers are 
inextricably linked to our national security.
    We have a number of innovative initiatives to facilitate the 
accomplishment of our mission. ESGR ombudsmen mediate misunderstandings 
between employers and Guard and Reserve members. We have over 540 
fully-trained ombudsmen throughout the Nation. They are doing an 
absolutely superb job providing information and counsel related to 
compliance with USERRA.
    To modernize our capability to handle the increased volume of calls 
coming into our headquarters, a call center operation was developed to 
efficiently handle employer and employee queries related to USERRA. 
This center was established in conjunction with the USN Call Center in 
Millington, TN.
    This single entry point for all calls allows the center to collect 
the necessary data to track and categorize cases from beginning to end. 
ESGR ombudsmen respond to nearly 2,000 inquiries per month, both by 
phone and email. Associated software allows management of cases to 
focus other ESGR efforts to specific markets. Seventy percent of all 
calls are handled by providing information to address the caller's 
issues. Approximately 25 percent requires informal mediation. Less than 
5 percent of our total calls result in referrals to the Department of 
Labor for action. Despite the fact that there have been more guardsmen 
and reservists called to duty in the war on terrorism than during 
Operations Desert Storm and Desert Shield, there have been far fewer 
complaints during this current deployment. This is particularly 
significant because the guardsmen and reservists called up for the war 
on terrorism have been serving much longer than the forces called up 
during Operations Desert Storm/Desert Shield.
    Employers recognize their importance in our national defense after 
being educated by ESGR. They are then motivated to publicly sign ESGR 
statements of support. The statement of support is a meaningful and 
symbolic way for an employer to recognize the sacrifices made by 
employees who are guardsmen and reservists. Employers across the Nation 
show their appreciation for the sacrifices their guardsmen and 
reservists employees make by offering such benefits as salary 
differential pay, extension of medical coverage, and establishing 
family support networks within their companies.
    To date, thousands of employers and more than 1,200 chambers of 
commerce have signed statements of support. The President of the United 
States and governors from all 50 States also signed statements of 
support or proclamations as well. On November 14, 2003, ESGR 
coordinated a simultaneous signing of governor and presidential 
proclamations.
    Another helpful program is entitled, ``Patriot Award.'' Guard and 
Reserve members can recognize employer commitment by recommending them 
for a Patriot Award. The award then becomes the basis for consideration 
in selecting individuals and companies for higher-level awards.
    The Secretary of Defense employer support freedom award and the 
home front awards are the pinnacle awards in ESGR's employer 
recognition program. These awards recognize the Nation's top employers 
who have provided outstanding support to their National Guard and 
Reserve employees. Employers are judged based on corporate actions, 
which go above and beyond the requirements of the law in support of 
Guard and Reserve employees.
    President Bush underscored the vital role of our Nation's employers 
by saying, ``When employers support our Guard and Reserve members, they 
are helping to advance freedom and democracy around the world.''
    Employers are also encouraged to attend ``Boss Lifts.'' Boss Lifts 
are essentially field trips enabling employers to see firsthand the 
leadership, performance, technical training, team building, and 
organizational skills in tactical demonstrations. Boss Lifts inevitably 
lead to a sense of pride and urgency for employers to ensure company 
personnel policies are conducive to employing and retaining members of 
the Guard and Reserve. In all these services and programs ESGR promotes 
and fosters a spirit of patriotism that fulfills and exceeds the 
requirements of the law. Boss Lifts are also a great source of 
obtaining volunteer support for ESGR committees.
    Guardsmen and reservists have rights and responsibilities just as 
employers. Our efforts are primarily stateside but we have deployed an 
ESGR team to Central Command's area of operations to further awareness 
of ESGR services and programs among deployed troops. The team conducts 
briefings at key sites informing incoming and outgoing Guard and 
Reserve members about their USERRA rights and responsibilities.
    DOD recognizes the sacrifices that all our citizen soldiers, their 
families, communities, and employers continue to make in support of the 
global war on terror.
    Our men and women are performing magnificently around the world. 
Are there employer problems? Yes! ESGR is the DOD agency that provides 
solutions. Let me share a couple of letters with you.
Most Calls Require Information Only Or Informal Mediation:
    ESGR ombudsmen intervened recently in a company's alleged 
``termination'' of an employee while he was on duty in Southwest Asia. 
Once involved in the mediation it was determined that the company was 
applying the term, ``termination'' when in fact they were treating the 
individual as if he were on furlough. The company immediately changed 
their policy and will now place all military members in a `military 
leave of absence' status during their full term of military service. As 
a side note--it was discovered during our discussions that the company 
was already exceeding their requirements under USERRA by offering 
differential pay and other benefits for a 6-month period. Further 
discussions with our ombudsmen have resulted in the company extending 
these benefits through the duration of an employee's military 
mobilization.
    Unfortunately a small fraction of our inquiries must be referred to 
the Department of Labor for resolution. One such example came to us 
from a large city's comptroller office.
    The service member was in a management position with approximately 
56 employees reporting directly to him. The service member was 
mobilized and upon demobilization, he was not placed in a comparable 
position (the law requires placement in a position of like-seniority, 
status, and pay). He was placed in a cubicle, with no telephone and no 
employees reporting directly to him. His supervisor has made derogatory 
comments in the past concerning his military duty. Our ombudsman spoke 
with the comptroller as well as the city attorney, and their position 
remained the same. They refused to place this service member in a `same 
status' position. The service member had documentation showing the 
supervisor counseled him about being ``gone too much'' for military 
duty. Once it was absolutely clear that the employer was not open to 
the informal mediation services that ESGR could provide, we recommended 
that the service member contact the Department of Labor Veteran's 
Employment Training Service representative in their area. They have the 
authority under USERRA to receive complaints, investigate, seek 
voluntary compliance and, upon the request of the complainant, refer 
cases to the Department of Justice or the Office of Special Counsel for 
possible litigation.
We Frequently Enjoy Victories and Occasionally We Receive Thanks and 
        Praise:
    A service member writes, ``Gentlemen, this email is to express my 
gratitude to a woman in your employ. Had it not been for the swift 
actions of Barbara Leonard, I would most likely be jobless at this 
point in time. In my opinion, Barbara is nothing short of a guardian 
angel. She has protected me; she has advocated on my behalf, and for 
that I will never forget her or your office. I do not have the words to 
express how I feel. I can only hope that you will convey to her 
personally and in front of her peers my family's elation. I hope she 
has the same smile with her all day that I carried when she won my job 
back for me. I know it doesn't seem like much but for a dad who has two 
growing girls who depend on him, who has recently been deployed two 
times in 1 year, and has a wife who suffers from serious health issues 
this victory is like winning the lottery. The past 3 months have been 
filled with much worry for all of us here in my house. Although I know 
the battle with my employer is not over . . . it's very nice to have a 
friend in your corner for once. Thank you all so much for what you do 
for us up there. You are truly the unsung heroes. We will never forget 
what you have done for us.''
    Our strategic partner, the Department of Labor, Veterans Employment 
Training Service, continues to provide education and counseling for 
both employers and Guard and Reserve members and is quick to act when 
our mediation efforts fail. ESGR's focus is to ensure employers 
understand the law so our Reserve component members can focus on their 
mission.
    When I ask employers what we can do to sustain their patriotic 
support, they state to ``just give us an expectation of when they will 
depart, how long they will be gone, and the date they will return to 
the workplace.'' Senior DOD leadership realizes that if you lose the 
employer, you lose the guardsmen and reservist. If you lose the 
guardsmen and reservist, you lose the force. If you lose the force, you 
lose the war. ESGR is providing a critical service to ensure that 
America will win this war and rise to any new threat that our guardsmen 
and reservist are called to meet.
    Increased reliance on the Guard and Reserve will continue to stress 
employers. ESGR efforts to reach the over 600,000 employers of Guard 
and Reserves take on a greater significance. Currently less than $7 a 
year per guardsman and reservist is budgeted to ensure employers 
support remains high. Your continued fiscal support is appreciated.
    Esteemed members of the committee, I thank you for your future 
support.

    Senator Chambliss. Bob, thank you very much for your always 
great work on behalf of our employers and our Guard and 
Reserve.
    The CEO of Home Depot, Bob Nardelli, was in Washington to 
receive the Employer Support Freedom Award that you just 
alluded to at the White House. I happened to be with him that 
night and there was no more excited man in the United States of 
America than Bob Nardelli that day. He is proud of the work 
that Home Depot does with respect to encouraging his employees 
to be active Guard and Reserve personnel when called upon. It 
is a great program, we appreciate your encouragement and 
support.
    Colonel Scott and Dr. Winkler, there is a lot of anxiety 
out there today among our guardsmen and reservists and in 
particular their families about the repetitive call-ups that we 
have seen over the last several years. There is particularly 
some anxiety about the fact that there may be a one in six 
call-up. I know you two gentlemen are not primarily responsible 
for making the decision on who is called up and when, but I do 
know that you are participants in the ongoing discussion about 
that issue.
    Could you all enlighten us and maybe alleviate some of the 
concerns that are present among guardsmen and reservists and 
their families relative to what is ongoing relative to this 
issue?
    Dr. Winkler. Yes, Senator, thank you for bringing up the 
issue.
    I think I want to start by stating that from the 
perspective of the Office of the Secretary of Defense, we are 
also concerned about the degree to which Reserve component 
members may be called up too often. I believe, the Secretary of 
Defense, Secretary Rumsfeld, has expressed similar concerns 
that he thinks perhaps we have some balances and some 
rebalancing needs to be accomplished and perhaps shifting some 
of the workload and demand away from heavily taxed Reserve 
component capabilities.
    The one in six rule that you have alluded to is a planning 
construct that the Secretary asked the Services to use in 
reviewing their overall force structure and capabilities with 
the idea of using it as, if you will, a force sizing construct. 
In other words, if you can foresee a demand on certain Reserve 
component capabilities that would exceed the need to call up a 
given individual more often than one in every 6 years, that is 
an area of your force structure that needs to be reviewed and 
examined in terms of whether there are alternatives other than 
relying on Reserve capabilities for that. That does not mean 
there is a plan to use people 1 year out of every 6, it is just 
sort of a mark, that you can use to review your force structure 
allocations of capabilities and then see where you may have 
excess demands that need to be addressed.
    Overall, we think our policy is reflected well in our 
mobilization personnel policy which really emphasizes judicious 
use as a guiding construct for utilization of Reserve component 
capabilities. Reserve component members should be called up 
only when absolutely necessary for the shortest period required 
and be allowed to return to their homes and families as soon as 
possible. That principle should guide the Services as they 
employ their various respective forces.
    Senator Chambliss. Colonel Scott, do you want to add 
anything to that?
    Colonel Scott. No, sir. I think Dr. Winkler addressed that 
very well based on the Secretary's guidance and the Services' 
transformation policies as they look to the future programming 
for troop requirements.
    Senator Chambliss. Dr. Winkler, Colonel Scott, you are 
responsible for the formulation of family support policy for 
OSD and the Services and clearly you monitor performance. 
However, the execution of family programs, including providing 
necessary employees and resources, remains in the hands of 
installation commanders.
    What measures do you use in monitoring the implementation 
of personal readiness, community liaison, and family support, 
and what means do you have to ensure that necessary community 
support resources flow to National Guard units, and just as 
importantly, the quality of services being provided is 
sufficient?
    Dr. Winkler. Let me begin, but I think that Colonel Scott 
can provide a great deal of additional information on that.
    I think from the perspective of the Department, Senator, we 
are responsible for overall policy, setting guidance, 
oversight, assuring resources. In that regard, I would say part 
of our charge is to be aware of and to identify problems as 
they arise and then effect solutions to those problems. Now, 
the tools that we use at the Department level, obviously we try 
to maintain a very active network of communication throughout 
the components, throughout the family support arena, so that we 
are aware of what is going on, and if issues are beginning to 
bubble up we try to become aware of it as soon as possible.
    We will use whatever other tools we can. Studies and 
analyses, for example, in order to try to keep our finger on 
the pulse. We recently completed a survey of Reserve component 
spouses, the results of which are shown on our Web site, for 
example, which for our purposes tends to highlight emerging 
problems or areas of concern that we would then in turn try to 
work with.
    Colonel Scott. Other programs have been put into effect to 
help us monitor, in addition to the surveys, that communication 
network that Dr. Winkler referred to. I spend a great deal of 
time in the field, as you do, and work with individual families 
to attempt to identify systemic issues. Our oversight policy 
responsibility is to advise, assist, and through partnerships 
and associations, make sure that the correct policies are in 
place.
    It is the parent Services and the parent Reserve components 
that actually provide those products and services. We have 
assisted them, as I mentioned, with several tools and 
additional programs, the most significant of which is the 
partnership program that we have established most recently with 
the Department of Labor and the Department of Education. That 
has actually been effected through that partnership with the 
Secretary of Defense's Office of Family Policy. We established 
that partnership in 1999 and they are the ones that assisted us 
in putting the strategic family plan together for Reserve 
family readiness. It is through those associations and networks 
and partnerships that we do most of our work. We do publish 
formal guidance. We have regular meetings. Immediately after 
September 11 and the closure of the Pentagon Family Assistance 
Center, we called all of the Services and Reserve component 
family program managers together and established what we call 
the Joint Family Readiness Program Working Group. Through that 
working group, we find out what their program requirements are 
and try to identify resources to assist them in implementing 
those programs. That is where the Military One Source program 
came from, the employee assistance program that is available 24 
hours, 7 days a week. That is currently being implemented. It 
was piloted through the Marine Corps, currently being 
implemented in the Army, and we are working with the Air Force 
and the Navy to get their programs in place.
    Senator Chambliss. Programs that OSD and Services have 
initiated to support active duty families are impressive. But 
what about community support for National Guard and Reserve 
personnel? Chattanooga, Tennessee, is not Hinesville, Georgia. 
Hinesville has a great community support program for Fort 
Stewart, but here we have an armory where men and women from 
all over southeast Tennessee as well as north Georgia come to 
serve in this unit, and many of these individuals do live far 
from the bases where family support centers are located.
    What initiatives have OSD and Services taken to open up new 
lines of communication and support to the spouses and children 
of deployed guardsmen and reservists, and how much of this 
mission is supported by the Reserve components themselves, and 
what kind of collaboration do you think is needed between your 
office and the service Reserve chiefs?
    Colonel Scott. Just as I mentioned, Senator, we put that 
Joint Service Family Readiness Program Working Group together 
and they are the ones that are emphasizing the community 
outreach program. There have been a number of programs 
implemented. We have always had the 1-800 telephone numbers, 
but we put more emphasis on marketing and communicating that 
information to the individual families out in the communities. 
This is just as true for the active component as it is for the 
Reserve component. Now 60 percent of active component families 
live out in the communities, they do not live on the bases any 
more. That is an extreme hardship for young families that 
cannot afford two cars and the military member has to use one 
to go to work and sometimes the spouse has to work. It just 
creates real challenges for them. So we are trying to put 
emphasis on that community outreach and many of the Services 
are actually requiring their full-time active component civil 
servants that work on an installation to establish community 
outreach store fronts, actually get out into the communities so 
that they do not have to go onto the base to access the 
services.
    We have used other programs in many creative ways. Some of 
the contracted funds that were provided for supplemental 
support the families because of the contingency forces that 
were being deployed. One of the Service's Reserve component 
family program hired three contractors and the only thing that 
these three contractors did for the first 3 months was make 
sure that they had either personal or telephonic contact with 
every member that either had been deployed or was currently 
deployed.
    In addition, there is a very large electronic network 
through e-mail systems. I participate in this myself, and every 
time I go out in the field and visit with folks either in the 
family program business or just family members, I pass my card 
out and ask them if they want to get the most current news, let 
me know via e-mail. I put them on what I call my family issues 
mailing list and when information from Congress, information 
from Capitol Hill, information from ESGR comes out that might 
be important to those folks, I send those messages out 
electronically immediately when they hit my desk. I can tell 
you quite honestly that in spite of all of the other programs 
that we have implemented, we get more positive feedback on that 
information and communication hot line, if you will, than we do 
on any of the other programs. People really appreciate being 
communicated with and having current important information 
available to them rather than having to wait for it to filter 
down through the paperwork process, which is extremely slow. 
The electronic capability has really made the most difference. 
That deploymentconnections.org Web site is a collaborative 
effort between the Department of the Navy, OSD, our office, and 
the other Services, and that was actually designed and 
implemented by members of that Joint Family Readiness Program 
Working Group that I talked about. We spent about 3 months 
designing it, another 2 months implementing it, and it has been 
up and in operation with everything from news banners to 
interactive networks for the ability of what we will call chat 
rooms and live communications from the Reserve component 
chiefs, the Reserve component program managers. Their senior 
enlisted advisors have town hall meetings. It is really quite 
an impressive operation.
    Senator Chambliss. Mr. Hollingsworth, I am impressed with 
what you have been able to accomplish on what by any standard 
would have to be said to be a shoestring budget. I am 
interested in how you allocate your resources and how you would 
spend any additional money or allocate any additional funding 
if you had that funding.
    Mr. Hollingsworth. Yes, sir. As we did our strategic 
planning and we looked at just that very issue, how do we 
allocate our resources, we realized that there are some 
external factors that we can't control that we have to 
continually react to. We figured we had to have some type of 
contingency that allowed us to do that. We have a certain 
amount of contingency money that we set aside so that if there 
are some special issues that come up, we have to really develop 
some other methodology of doing something we have not done 
before. We have that little contingency set aside to do that.
    Primarily we resource about 75 percent of our dollars to 
employer outreach programs, and those things are where we reach 
out in the community and touch those employers. The reason we 
have been so successful in taking the money that we do get from 
Congress and make it as effective as it is is because our 
program is basically volunteers. We have about 4,200 volunteers 
throughout the Nation and territories and Washington, DC, and 
then of course the committee that was formed last year in 
Europe because we realized that there were some employer needs 
over there.
    But those are the vital links to making our mission 
successful, those volunteers. That is why we are so efficient, 
because these people, these men and women across America, are 
so dedicated. It just amazes me every single day when I see how 
much time and effort these volunteers put towards coordinating 
those employer issues out in the community.
    Our ombudsman program is an important part of this. We are 
currently developing some ways as the early warning system 
within the Department of Defense, that we can predict trends as 
to what is happening in the employer community. We have never 
really had an electronic capability to track those things, so 
we have committed some of our resources to developing an 
information technology capability so that we can track these 
issues that do come up from employers and guardsmen and 
reservists from cradle to grave.
    Our goal in those things is if a guardsman or reservist 
calls up with an issue or an employer calls up with an issue to 
our ombudsman, we want to have that completely put together in 
3 days, and in 10 days if there are some extenuating 
circumstances where it requires a lot of coordination. We find 
this is the case, because there are always two sides to any 
story. That is where our ombudsman and our volunteers really 
find out that they have to spend a lot of time, because if an 
employer calls up with an issue, we go to the Guard and 
Reserve, and we look at those folks there. We look at the 
command. We get the command involved in what the situation is 
and how it may have developed based on what has happened in the 
local Guard and Reserve unit, and we go back and forth as a 
mediator to try to resolve these issues.
    I can tell you that I was just over at the Department of 
Labor the other day with Secretary Chao, and she presented us 
with a nice certificate of appreciation for the things that we 
have done to coordinate their efforts with our efforts, because 
the more successful we are at the ESGR, the less work they have 
to do. If we can mediate all these caseloads that come up, that 
means we do not have to refer them to the Department of Labor. 
She pointed out from looking at the statistics in Operations 
Desert Shield, Desert Storm, and the numbers of guardsmen and 
reservists that were mobilized there and the number of issues 
that had to be dealt with by the Department of Labor that 
litigation is down significantly from what it was then. It was 
something like about a 26 or 27 percent decline in their 
caseloads, and they attributed that directly to what our 
volunteers in ESGR are doing.
    Another way we allocate some of the resources is to try to 
get the employers out to the Guard and Reserve units so that 
they clearly understand what a valuable asset they have to 
their particular organization, because now that they can see 
that this young man or young woman brings to them leadership 
and additional technical skills. They have a worldwide vision 
because of their requirements to be informed about things in 
the military. They are disciplined. They are physically fit. 
They are just a different breed. They suddenly realize as they 
get out and look at their guardsman and reservist taking those 
leadership roles at a very young age, they have a new 
appreciation for that. So that has been a very successful 
program for us.
    We also go out throughout the communities and take some of 
those resources to put on symposiums. That is where we get with 
the community leaders, with the local employers in the 
community, and we find out and pulse them as to what their 
issues are with the use of the Guard and Reserve. That is where 
we find out exactly where we need to focus our other efforts, 
and then we provide the information back to the Department so 
that they clearly understand what it is causing in the employer 
community.
    So those are some of the really vital things that we do 
that as we go out into the community and in our employer 
outreach program. We examine HR policies for the companies. If 
their HR policies are not compatible to supporting the 
guardsmen and reservists, then we provide them with some of the 
good things like Home Depot has and they say ``gosh, I never 
thought about this.'' We find it is a communications thing. So 
it is about spending our money and our resources to do the 
outreach and to get eyeball to eyeball, develop those 
relationships within the community.
    Senator Chambliss. Great, thank you.
    Senator Alexander.
    Senator Alexander. Thank you, Senator Chambliss. I have 
enjoyed the discussion.
    I wanted to compare some of the information that we learned 
in our earlier hearings discussing active duty personnel with 
the different status of Reserve and Guard families. For 
example, in active duty families for families with children, 
there is a plan on file for what happens to the children if the 
parent, who might be the only parent, or in a few cases, both 
parents, are deployed. Does the same sort of plan exist for 
Reserve families with children?
    Colonel Scott. Yes, sir, it does. Our Department of Defense 
instruction and the Services regulations mirror that 
requirement in the Reserve components and the Guard as well as 
the active component. That is a result of the partnership with 
the Office of Family Policy. One of the things that we try to 
do in every case where we possibly can, we make the regulations 
and requirements parallel for the Reserve components with 
consideration of course that the Reserve components are unique 
because they are community-based as opposed to being active 
duty installation based.
    That requirement is just exactly as you described it for 
the Reserve components for single parents and for dual military 
parents. We have different varieties of dual military parents 
in the Reserve components. We find we have one active-duty 
spouse and one Reserve component spouse who also has a civilian 
job. Sometimes we find that a Navy reservist is married to a 
National Guard member, but the requirement is exactly the same.
    Senator Alexander. Now we found in the hearing that I held 
at Fort Campbell that worked pretty well for most families, but 
there were some problems because some active-duty members of 
the Armed Services had not taken that requirement as seriously 
as they should have, and then when they were suddenly ordered 
to go to Iraq, there was really no plan for the child.
    I would expect that might be a larger problem with Reserve 
or Guard families because the expectation of being called up is 
less. Or am I wrong about that? I'm just guessing. My question 
is has there been a bigger challenge with Guard and Reserve 
families because unquestionably not many families in Guard and 
Reserve expected they would be called up for training for 6 
months and to go to Iraq for 12.
    Colonel Scott. I believe that may have been true prior to 
Operations Desert Shield/Desert Storm but since Operations 
Desert Shield/Desert Storm, we find very few instances in the 
Guard and Reserve components where the family care plan is not 
properly managed. That family care plan is actually a command 
requirement, and the commander or his representative is 
required to review and test that family care plan on an annual 
basis and make sure that it is updated and it is part of the 
mobilization processing as well.
    Senator Alexander. Thank you. One of the most impressive 
benefits that we found, both at Fort Campbell, Senator Dodd of 
Connecticut and I went to Groton to the naval base there, and 
we found that the Services have made exemplary process in child 
care. Some of the child care facilities on base are among the 
best in the country. Anyone would be happy, feel fortunate to 
have a child there.
    We found in a number of cases that the Services were doing 
an increasing amount of child care off the base or in the homes 
of, say, a spouse of a service person, who might care for two 
or three or four or five children, and that provided a source 
of income for the family and good reliable care for the 
children. Still, there were some areas in which child care 
could be improved on active duty.
    Now what about child care for Reserve and National Guard 
families? In a way, child care would be an even bigger 
challenge for a family who might not have been as prepared to 
be called up and who might be away from a post or a base.
    Colonel Scott. Sir, I am glad to report that I have good 
news, and I have better news.
    We most recently conducted our child care summit that I 
mentioned in my testimony, and what we found out is that Guard 
and Reserve child care requirements run the spectrum from no 
child care requirements to, as you suggested, very complicated 
where we have dual spouse employment and a military member who 
used to be called the shadow child care for emergency 
situations, the spouses would back each other up. The Air Force 
was the first to include the Air Guard and the Air Force 
Reserve in a pilot program where they provided additional funds 
to offset additional child care requirements for Guard and 
Reserve members. What they found out was that most Guard and 
Reserve family members actually do a pretty good job, and it is 
only in those extreme situational requirements where they run 
into emergency requirements that they had not anticipated and 
they have to rely on those additional resources.
    The thing we have to understand about Guard and Reserve 
families is that they are basically community-based. They are 
civilians, and they know how to live their lives, and they know 
how to take care of their families. I will use what I commonly 
refer to as the snug rule. Normally, everything goes quite 
well. We are there to provide resources and programs for Guard 
and Reserve that we call the emergency net, and it is for those 
situation where they had not anticipated requirements or had 
not anticipated problems or challenges, that we try to put the 
bulk of our resources. Our objective is to make and to allow 
and to assist Guard and Reserve families to be self-sustaining, 
get them ready in advance, and then when they have a problem, 
have the resources in place that they can call upon to assist 
them.
    The better news, and this is an active duty story, I was 
with Secretary Molino last week and we visited Norfolk Naval 
Air Station and Navy Base and they have constructed right next 
door to their child development center a secondary facility 
that is based on a home living environment that operates 24 
hours, 7 days a week to address some of those problems that you 
heard in your earlier field hearings where a child care center 
might only be open from 6:00 in the morning until 6:00 in the 
evening and for the military members that work second or third 
shift or 12 hour operations or in some cases 24 hour 
operations, it just did not meet the requirement. So the 
Department has piloted this program, and I can tell you that it 
sent chills up and down my spine when I walked in because I 
thought I was in an expanded home. It is just beautiful. They 
have a capacity of 54 children on a 24-hour basis. They 
currently had 41 children registered, because it has only been 
open for about 3 weeks and they are expanding that capability 
by three children a week for those that need it.
    Senator Alexander. Thank you. I have two other questions 
and then I think we will get on with the next panel, if that is 
all right, Saxby.
    I am just curious, there are 530 guardsmen or reservists 
currently activated from the Chattanooga region, I am told. I 
am wondering, is this a typical number? Compared with other 
areas of the country, is this a larger number compared to the 
population? If there are areas of the country that are more 
heavily impacted than others, have you done any thinking about 
how to help the families or the communities in a regional way?
    I guess I am trying to focus specifically on are there some 
areas more impacted than others, and if so, are you doing 
anything special for those areas, and is Chattanooga one of 
them?
    Dr. Winkler. I do not know on a percentage basis whether 
Chattanooga or the State of Tennessee, for example, where it 
compares to the others.
    My general impression is that the demands on Reserve 
component capabilities and people being mobilized is spread 
across the country, really basically rooted in where the units 
are. In that regard, as we go forward and as Army National 
Guard enhanced brigades are going to be assuming duties in 
Iraq, those States, like North Carolina, that field the 
enhanced brigades are likely to see a greater impact. We will 
definitely pay close attention to these instances and see if 
problems emerge, and be proactive.
    Colonel Scott. Actually we already have paid attention to 
that. One of my conversations with the National Guard family 
program director had to deal with that very issue. The 400 
family assistance centers that I mentioned that the National 
Guard have established are allocated based upon troop demand, 
and they are very flexible. Because they are operated by 
contractors and managed by each of the State family program 
coordinators and those coordinators are managed by the National 
Guard family program office, they monitor and look out to the 
future to see where the troop requirements are going to be 
pulled from. They allocate those resources for those family 
assistance centers based upon densities of families that will 
be left after their military member departs.
    I mentioned that Tennessee has had 17 family assistance 
centers. We have some States that have had as many as 20. 
States such as New York, North Carolina, Texas, and California, 
where we certainly have drawn on more troops to meet the 
requirements, we allocate more resources.
    Senator Alexander. My last question would be for any of the 
witnesses. One of the privileges I had as Governor was being 
commander in chief of our Guard. We felt that it was the best 
in the country, and there is a tremendous spirit among 
Tennessee guardsmen and women. They knew why they were there, 
and they were ready to go if they were called.
    One hears in the news reports of stories of guardsmen or 
reservists being called up for 6 months of training, and being 
sent for a year's duty in Iraq, and my question is has the 
increased deployment of guardsmen and of reservists in our 
armed services affected reenlistment? Can you tell anything 
about that at this stage?
    Dr. Winkler. Yes, I can address that because that is 
something we watch very closely. To this point in time, we have 
not seen problems emerging with respect to attrition exceeding 
expectations. Generally all Reserve components have met their 
end strength goals. We obviously have to continue to watch this 
very closely going forward and at the first indication of 
problems be prepared.
    I would just add, however, that as we look backward, our 
general experience has been that as members of the Guard and 
Reserve have become more and more incorporated into the total 
forces missions over the 1990s, we did not see a drop off in 
terms of people leaving the force. We believe that what is very 
important for Guard and Reserve members is that they have 
meaningful missions, that we manage the force well in the sense 
of setting realistic expectations and sticking to those 
expectations. Guard and Reserve members rise to the challenge, 
and in fact, it is good for morale and good for retention to be 
involved in meaningful missions.
    At the same time, there are limits. We are aware of that, 
but what I think we see today is a very high spirit among 
members of the Guard and Reserve who have been called to duty, 
and so far, it is reflected in the force sustaining itself.
    Senator Alexander. Thank you. Thank you very much. Senator 
Chambliss, do you have anything else to say to this panel 
before we bring up the next panel?
    Senator Chambliss. Dr. Winkler, with reference to your last 
answer to Senator Alexander's question, that is the key as I 
see it to where we need to go in the future and the things that 
we need to be thinking about. He struck right at the heart of 
the issue. You stated in your opening statement that we must 
relieve the stress on families.
    I know Lamar and I both have talked to active-duty members 
of the Guard and Reserve who have been called to active duty. 
They love what they are doing; that is what they signed up for, 
just hoping they would have a chance to go to an Iraq to carry 
out their duties. But it is those mothers and fathers who are 
left behind with those children that are feeling the stress. We 
do need to make sure that we are doing everything 
legislatively, and obviously that is a goal of these hearings.
    So we appreciate your professional testimony and the great 
work all of you do. Thank you very much.
    Colonel Scott. Thank you, sir.
    Dr. Winkler. Thank you.
    Senator Alexander. I would now like to ask the second panel 
to come forward, please.
    Thank you for being here. We will move right along. Our 
goal is to end our hearing by noon, so we have another 45 
minutes. The second panel gives us an opportunity for a more 
local focus on what is happening here in Chattanooga and this 
area as well as in our States of Tennessee and Georgia. I would 
like to introduce our four panelists and then we will ask each 
of them to say whatever they would like. I have the statements 
that you sent in before and Senator Chambliss and I have both 
read those. So you are free just to comment on those if you 
would like to. Then we can get into a back and forth on 
questions. Whatever you are most comfortable doing.
    Major Scott Hardin, United States Army Reserve, has a 
distinguished career, 17 years of commissioned service, many 
decorations, currently assigned as environmental engineer with 
the 416th Engineering Command, Detachment F, Facility Engineer 
Center Southeast. He served in Operation Desert Shield, 
Operation Desert Storm, and Operation Iraqi Freedom. He has 
just come home after 11 months and 15 days in Qatar. Welcome 
home. A native and resident of Chattanooga, graduated from the 
University of Tennessee at Chattanooga. In civilian life, he 
works for U.S. Express, Incorporated.
    Major Terry Ward, Tennessee Army National Guard, 16 years 
commissioned service, 30 years total military service, many 
medals. Assigned to the State Family Program Coordinator at 
Headquarters, State Area Command, Tennessee National Guard in 
Nashville, a graduate of Salisbury State College in Maryland. 
He resides in Nashville.
    Lieutenant Larry Schroyer, Chattanooga Police Department. 
During his military career, Lieutenant Schroyer has earned 
numerous Federal awards and decorations for leadership. He 
retired in August 2000 was placed in retired Reserve with 21 
years of active and Reserve service, retired with a Federal 
recognition as a field grade officer, in the rank of major. In 
his civilian life, he has effectively transferred his military 
law enforcement experience to the police department. He has 
attained many professional distinctions there. Welcome, 
Lieutenant, and thank you for being here.
    Ms. Denise Lindsay, thank you for coming. She serves as the 
Battalion Family Readiness Group Representative for 1st and 
181st Battalions. Since 1988, she has worked as a real estate 
agent and currently is with GMAC Realty Center. Her husband, 
Dennis, who has been in the military since 1986, was mobilized 
during Operations Desert Storm and Enduring Freedom. Ms. 
Lindsay resides in LaFayette in Georgia. How do you say it? Do 
you say LaFayette?
    Ms. Lindsay. It is LaFayette.
    Senator Alexander. We say things like that a different way 
in Tennessee. LaFayette, Georgia. Denise and Dennis have been 
married 30 years; they have two sons and four grandchildren.
    Thank you very much for being here, each of the four of 
you. Starting with Major Ward, why do we not just move right 
down the line, and Senator Chambliss and I look forward to 
hearing whatever you have to tell us about Reserve families and 
guardsmen and women and the impact of their service. What 
should we know?

    STATEMENT OF MAJOR TERRY WARD, TENNESSEE NATIONAL GUARD

    Major Ward. Yes, sir. Thank you, Senator Alexander and 
Senator Chambliss. It is an honor and a privilege for me to 
appear before your subcommittee to testify today on the 
importance of providing family assistance centers and other 
benefits to the spouses of deployed soldiers in our great 
State.
    Sir, first I would like to give you some totals of the 
Tennessee Guard, particularly those that have been affected by 
these recent mobilizations and that we have experienced in 
Operations Enduring Freedom, Noble Eagle, and Iraqi Freedom.
    Since September of last year, the Tennessee Guard, Army and 
Air, have deployed over 4,400 men and women. Currently, we have 
1,307 soldiers who are overseas and 380 on duty in our Nation. 
We also have an additional 385 men and women who are in alert 
status, and we anticipate additional requirements in the coming 
year.
    Senators, these numbers represent a substantial number of 
soldiers who, for the most part, were very accustomed to their 
former existence as a Guard soldier. That former existence 
being the required one weekend a month and a 2-week annual 
training. Now that these dedicated guardsmen and women are 
being challenged with a larger piece of our Nation's defense 
package we must also recognize that their families are now part 
of that deployed status as well. These deployments are putting 
a high degree of stress on the families that are left behind, 
but I am not sure that you are aware that this type of stress 
is unique to the Guard and has different features to its 
nature, especially in comparison to our active component 
counterparts.
    Our post covers, as you know from your prior service as our 
governor, 41,220 square miles. An active component post is 
typically measured by acres. Our soldiers and airmen come from 
every imaginable corner of our post, sir. Some of these 
soldiers have been in service with the Guard for over 30 years. 
I am sure you are aware of the number of years an active 
component soldier is typically assigned to a unit is about 3 
years before they are moved to another unit. These Guard 
soldiers have brothers and sisters, sometimes sons and 
daughters, that are in their unit with them, and are proud to 
be there. Their spouses do not even know that a commissary 
exists, nor would they want to drive the 6 hours to go to that 
commissary. That is an important thing, sir. The nature of our 
Guard is quite different in many ways, as you well know.
    Sir, since last spring, Congress took a substantial leap 
forward in recognizing some of the differences between the 
active component and the Guard and that was accomplished by the 
funding of our family assistance centers. As we have heard 
earlier, sir, we have 17 family assistance centers open across 
our State and over 20 workers. Their sole purpose is to provide 
services to families of soldiers and airmen and to provide a 
dedicated, committed worker who works with the concerns of just 
the families. We now have a person who is there to work those 
concerns from start to finish and someone who is knowledgeable 
about the military and knows how to fix things that are wrong 
and when to refer a problem to a higher person.
    Sir, my family assistance centers are taking on the role of 
being a one-stop shop for all concerns whenever they possibly 
can.
    I would also commend the Department of the Army, sir, for 
their forward approach in the deployment cycle support model 
that they have recently adopted that deals with joint 
deployment phases, as we heard Dr. Winkler comment about 
earlier. This initiative resulted in a new program that you 
have funded called ``Army One Source,'' and if you are not 
familiar with that, sir, somebody from Buck Snort, Tennessee, 
would be able to call One Source and within 20 seconds have 
someone answering the phone and talking to a real person 
without going through the press one sequence of phone calls, 
and be able to deal with real concerns. If this individual 
needed child care, then they would be able to have referral in 
that community for qualified child care. If they had a concern 
about their returning spouse who might be acting a little 
different than they expected, then this source will also be 
able to provide counseling for the Army component through a 
professional health care worker, mental health care worker. 
That is a great initiative to be able to offer that in 
conjunction with the TRICARE benefits that the returning 
soldiers would have as well. So that is a substantial leap 
forward, sir.
    Equally, this source will also be available on the 
internet, so that spouses can go in when they have the ability 
and be able to converse with someone in perhaps a chat room or 
with an individual that has a Masters in social work, a person 
with a Master's degree, and be able to communicate with those 
people on a one-to-one basis. So that is quite a substantial 
leap in the benefits that we do provide.
    This commitment to improve the quality of life for the 
active component and the Guard has the foundation to be an 
excellent resource for all families, sir.
    Sir, I also commend your efforts to provide health care to 
our traditional members to improve their quality of life. This 
initiative offers a great potential to our many self-employed 
soldiers who were finding health care costs beyond the point of 
affordability, and as was referred to earlier, that is a 
substantial benefit.
    The largest problem that I have experienced is the lack of 
communication between Guard soldiers who have been activated 
and fall under an active component commander and the Guard's 
traditional National Guard chain of command. This failure to 
communicate is evidenced in most National Guard families' 
ability to be able to tell what is happening with their 
soldiers and what the future may or may not hold.
    In today's cell phone-rich culture that we live in, the 
Guard is often looked at as not having any knowledge, sir, 
basically clueless as to what is happening with our soldiers 
who are deployed. Many spouses resent being told that their 
soldiers are part of the big Army now or the active component 
and that we have no control over anything that happens to them 
while they are gone. Although that is the truth, the spouses do 
not like to hear that and that most certainly undermines our 
credibility and creates animosity towards the Guard's role in 
the deployment picture.
    The second item is in our future role in our Nation's total 
defense package. It appears that we are just seeing the tip of 
the iceberg for the many future deployments with quite possibly 
a very minimal amount of time between a deployment, coming 
home, and then being redeployed. I do not believe that is the 
intent of the Guard for us to take on the part of the active 
component force.
    Other concerns many spouses are concerned with is the 
impact that that would have on their soldiers when they return, 
of course with their employment, and with their family life as 
well.
    Sir, subject to your questions, sir, this concludes my 
briefing and I thank you on behalf of the families and the 
soldiers of the National Guard for this opportunity.
    [The prepared statement of Major Ward follows:]

               Prepared Statement by Major Terry S. Ward

    Thank you, Mr. Chairman. It is an honor and a privilege for me to 
appear before your committee to testify today on the importance of 
providing Family Assistance Centers and other benefits to the spouses 
of deployed soldiers in our great State.
    Sir, first I would like to give you some totals of the number of 
Tennessee Guard soldiers that have been affected by the recent 
mobilizations we have experienced in support of Operations Enduring 
Freedom and Noble Eagle.
    Since September of last year, the Tennessee Army and Air National 
Guard have deployed over 4,400 men and women. Currently we have 1,307 
soldiers who are overseas and 380 on duty in our Nation. We also have 
an additional 385 men and women on an alerted status and we anticipate 
additional requirements into the coming year.
    Senator, these numbers represent a substantial number of soldiers 
who, for the most part, were very accustomed to our former existence as 
Guard soldiers. That former existence required one weekend a month and 
a 2-week annual training. Now that these dedicated guardsmen and women 
are being challenged with a larger piece of our Nation's Defense 
Package, we must also recognize that their families are now part of 
that deployed status as well.
    These deployments are putting a very high amount of stress on the 
families that have been left behind. But I am not sure that you are 
aware that this type of stress is unique to the Guard, and has 
different features to its nature, in comparison to our active component 
counterparts. Our post covers 41,220 square miles of our great State, 
where most active component posts are separate communities within 
themselves that are typically measured in the number of acres they 
cover. Our soldiers and airmen come from every type of imaginable 
corner of our post. Some of these soldiers have been in the same unit 
for over 30 years. I am sure you are aware of the number of years an 
active component (AC) soldier is typically assigned to a unit. This 
Guard soldier has brothers who are members in his unit, and their sons 
and daughters are too. Their spouses do not even know what a commissary 
is, nor would they want to invest a 6-hour drive to use it, if they 
could. The nature of our Guard is quite different in many ways from 
that of our active component brethren.
    Last spring, our Congress took a substantial leap forward in 
recognizing some of the differences that exist between the AC and the 
Guard and Reserve. That was accomplished in the funding of Family 
Assistance Centers for our deployed units.
    Currently we have 17 Family Assistance Centers open across the 
State, and we employ 22 workers. Their sole purpose is to provide 
services to the families of soldiers and airmen and to provide a 
dedicated commitment to working the concerns of our families. We now 
have a person who is there to work concerns, from start to finish, and 
someone who is knowledgeable about the military and knows how to fix 
things that are wrong, or when to refer the problem to another 
professional. Sir, my FACs are taking on the role of being a one-stop 
shop for all concerns, whenever they possibly can.
    Sir, I would also commend the Department of the Army for its 
forward approach on the Deployment Cycle Support model they have 
adopted that deals with the Joint Deployment Process Phases. This 
initiative has resulted in the new program you have funded that is 
titled ``Army One Source (AOS).'' AOS offers the opportunity for any 
soldier, AC, Guard, Reserve, any where in the world, to call or contact 
them on the Internet, and have a professional counselor help them with 
anything they have a concern with. This will be very beneficial to all 
of my families that have a deployed soldier and offers another tool of 
assistance to my FAC workers, in helping their families. This 
commitment to an improved quality of life for the AC and the Guard and 
Reserve has the foundation to be an excellent resource for our 
families.
    Sir, I also commend your efforts to provide health care to our 
traditional members, to improve their quality of life. This initiative 
offers great potential to our many self-employed soldiers that are 
finding health care costs almost beyond the point of affordability.

                             CURRENT ISSUES

    Sir, the largest problem I believe we are experiencing is in the 
lack of communication between our Guard soldiers who have been 
activated and fall under an AC command and the Guard soldier's 
traditional National Guard chain of command. This failure to 
communicate is evidence the most the National Guard ability to tell the 
families what is happening with their soldiers and what the future may 
or may not hold. In today's cell phone rich culture, we (the Guard) 
often look like complete idiots who are clueless as to what is 
happening to our soldiers while they are deployed. Many spouses resent 
being told that their soldiers are part of the AC now, and we have no 
control over anything that happens to them while they are gone. This 
most certainly undermines our credibility and creates animosity towards 
the Guard's role in the deployment picture.
    A second item is in our future role in our Nation's total defense 
package. It appears that we are just seeing the tip of the iceberg of 
many future deployments, with quite possibly, a very minimal amount of 
time at home between deployments. Sir, I do not believe the original 
intent of Guard was to make it an Active Force. Equally, this seems to 
be a fear that many spouses are concerned with, considering the impact 
it will have on the soldier's employment requirements and his or her 
family life too.
    Sir, subject to any further questions, this concludes my briefing. 
I thank you on behalf of the families and soldiers of the Tennessee 
National Guard for your dedication and commitment to improve their 
quality of life.

    Senator Alexander. Thanks, Major Ward, that is very helpful 
and candid and very useful. We look forward to the questions 
too.
    Ms. Lindsay.

  STATEMENT OF DENISE LINDSAY, 1ST AND 181ST BATTALION FAMILY 
                 READINESS GROUP REPRESENTATIVE

    Ms. Lindsay. Thank you, Senators, for the privilege to 
appear before you today to speak on behalf of the importance of 
the family readiness and support program. My intention is to 
provide an overview based on my years of experience as the 
spouse of a soldier who has been mobilized twice; once to serve 
in Iraq and Saudi Arabia during Operation Desert Storm and 
recently for Operation Enduring Freedom. I am also his 
battalion volunteer leader here in Chattanooga for the 1st and 
the 181st.
    National Guard and Reserve families are special. When a 
spouse, parent, or child joins the Guard, the family members 
will also be impacted, regardless of whether their soldier is 
deployed or at home. Our family readiness groups exist in 
peacetime to provide a framework for self-help and support that 
becomes critical to the unit's success upon mobilization.
    Our active-duty counterparts also have family readiness 
groups for this very same reason. However, as you well know, 
the challenges we face in the Guard and Reserve are unique. 
While active duty soldiers' families live on or near their 
assigned bases and are immersed day in and day out with 
military life, our Guard and Reserve often have little or 
sometimes no experience with the military. While the active 
duty family's focus is entirely upon being ready should their 
soldier be called up for active duty for a long period of time, 
the reservist family's focus is on jobs and family activities, 
while living their civilian life. Our families do not live 
close necessarily to the place where our soldiers train. In 
fact, we are spread out over several States.
    It is important for family readiness group volunteers to be 
active and to get to know one another during peacetime, to 
maintain the framework of support that families will need 
during a mobilization and a deployment. Good groups with active 
volunteers during peacetime become a strong, cohesive group 
upon mobilization. Units that are created from scratch during a 
deployment are often the dysfunctional ones, because they have 
not had time to get to know and trust each other and to work 
out conflicts.
    I serve as a volunteer leader, because I have seen the 
importance of this group first-hand and have taken part in 
helping families with their emotional and physical needs. We 
are there to help with the business end also of when we welcome 
a new member into our group. We have had our fusses and our 
fights just like any family, and unfortunately that is what is 
remembered sometimes. It is the day-to-day stuff of life that 
does not make the news that makes our job fulfilling.
    We provide assistance and support to relieve the burdens of 
deployed commanders, first sergeants, and the soldiers 
themselves, because our goal is for us to help each other take 
care of matters at home, so our soldiers can focus on their 
jobs. We do not want them worrying about who their wife is 
going to call if the car breaks down or if there is enough food 
in the house.
    When my husband was mobilized this past March, my neighbor 
and good friend volunteered to come and help make yellow 
ribbons and make phone calls, and she said something that I 
think is very relevant. She said she could volunteer to work to 
do whatever needed to be done but she could never really be a 
part of our group because she was not living it. She was not 
living every day knowing her husband was about to leave to put 
himself in harm's way. We are a special family and we share 
unique, special circumstances.
    In closing, let me just stress the importance of the family 
readiness group by saying that we consider ourselves a vital 
part of our Nation's Guard and Reserve units and we consider 
the Guard and Reserve components a vital part of our Nation's 
military. I just want to thank you for allowing me to express 
my opinions to you today.
    Senator Alexander. Thank you, Ms. Lindsay.
    Major Hardin.

  STATEMENT OF MAJOR SCOTT HARDIN, UNITED STATES ARMY RESERVE

    Major Hardin. Yes, sir. Good morning, Senator Alexander and 
Senator Chambliss and distinguished members of the 
subcommittee. Thank you for coming to Chattanooga this morning 
with your busy schedules and giving me the opportunity to 
discuss my role over the past 2 years as an Army Reserve 
officer. I would also like to thank the Reserves for allowing 
me the opportunity to tell my experiences during my deployment 
during Operation Enduring Freedom.
    First, I would like to thank my wife, who is in the 
audience today, Susan, and my son, Eli, and the rest of my 
family for the support and sacrifices they have made while I 
was deployed to the Middle East, and continue to make at the 
times I am away from them to perform my duties as an engineer 
officer in the Army Reserve. Without their outstanding love and 
support, I would not be able to perform this important service 
to our country, which is one of the main reasons why I stay in.
    As a member of the Army Reserve, it is a special honor for 
me to spend some time today representing my fellow soldiers 
presently deployed within the United States and the ones that 
are deployed in harm's way during the holiday season. They are 
fighting the global war on terrorism and the quest for freedom 
in the countries of Iraq, Afghanistan, and elsewhere. Their 
presence is a testimony to our military's will to stay the 
course and accomplish this important mission. To these brave 
men and women who are about their duties, my prayers, my 
family's prayers, and the prayers of a grateful Nation hope for 
a quick and safe return to their families.
    As events of September 11 and the aftermath unfolded, we in 
the military knew it was just a matter of time before the call 
would come. It was not a matter of if, but when, we would get 
the call. Just as emergency workers responded to the Twin 
Towers, my unit was also prepared to perform its mission. The 
facility engineer group is headquartered in Chicago, and I am 
assigned to a detachment in Southeast Center in Decatur, 
Georgia. Our peacetime mission is facility management, 
maintenance, and environmental compliance issues. Our wartime 
mission includes this with the addition of developing forward 
bases within an area of operation, developing a master plan, 
and overseeing its construction.
    My detachment was alerted on 1 March 2002 and activated on 
March 15. We deployed to Fort Stewart and deployed to Kuwait on 
April 6, and we were prepared to go to Afghanistan. To our 
team's surprise, we were routed to the country of Qatar, Camp 
Obsolea in a little known site that was to become Central 
Command (CENTCOM) Forward.
    We set up the first Directorate of Public Works in the camp 
and prepared for CENTCOM's deployment in October. Our team 
oversaw $25 million in construction in a 10-month period. We 
designed and built dining facilities, recreation facilities, 
lodging, and life support systems on the camp. We built the 
headquarters for CENTCOM and the coalition headquarters. We 
even built General Frank's office and the media center for 
General Brooks to give the now famous daily briefings you saw 
every day during Operation Iraqi Freedom.
    On January 17, 2003, our unit was replaced, and we returned 
to Fort Stewart, returned home on 1 March 2003, 15 days short 
of being on active duty for 1 year.
    I look forward to answering your questions and providing 
one small voice representing the soldiers in the Army Reserve.
    Senator Alexander. Thank you, Major Hardin.
    Lieutenant Schroyer, it is interesting to me you are from 
the police department. My impression after going to Fort 
Campbell was I was not sure Fort Campbell could operate if it 
were not for the Chattanooga Police Department, there were so 
many people up there. I hope some time in this discussion we 
can talk a little bit about how the police department copes 
with that, with so many people being called up. So thank you 
for being here.

 STATEMENT OF LT. LARRY SCHROYER, CHATTANOOGA POLICE DEPARTMENT

    Lieutenant Schroyer. Thank you, sir. As a member of the 
Tennessee Guard, I would like to thank you and your committees 
for the opportunity to speak on behalf of the city of 
Chattanooga, and also the Chattanooga Police Department, to 
discuss some programs that we have implemented and also some 
concerns that we have.
    The Chattanooga Police Department currently has 36 
employees who serve in the active Reserves and the National 
Guard. We currently have four sergeants and seven patrol 
officers who are serving on active duty. The city of 
Chattanooga and the Chattanooga Police Department are very 
proactive in their support of the employees and their 
respective families serving in defense of the United States.
    This administration currently ensures the employees and 
families are retained under our insurance plan while on active 
duty, provides supplemental pay to offset any cut in pay an 
employee may sustain when ordered to active duty, ensures that 
families of military personnel are kept abreast of any changes 
in pay or benefits, allows activated personnel to draw on 
accrued personal leave time any time, and supplements the pay 
and benefits of military personnel with 15 days paid military 
leave.
    Mobilization of military personnel employed by the 
Chattanooga Police Department does have the potential to 
drastically impact services we provide, if all were mobilized 
at one time. To date our department has been able to 
successfully manage to shift personnel to fill vacated 
positions by activating employees and has done so without any 
loss of the excellent services we provide to our community. Our 
department does have concern and interest in obtaining Federal 
funding to offset city expenditures if available, and would 
also request that the military be able to provide more advance 
notice on orders of employees who are about to be mobilized.
    I would also like to thank Mayor Bob Corker, who is not 
present, and also the personnel director with the city of 
Chattanooga, for all the support that they have given members 
of the military, because I can tell you that in the past, 15 to 
20 years ago, it was not always that way. But they 
unequivocally support all of our military personnel and their 
families.
    This concludes my brief, and I will answer any questions 
you might have, sir.
    Senator Alexander. Thank you very much.
    In the active-duty Army, a lot of attention is paid to 
helping families with reintegration, when a military man or 
woman comes home after a long time away, we have learned over 
time that re-entry into the family is a little more complicated 
than it looks. Is there being attention paid to the same issues 
for guardsmen and women and reservists?
    Major Ward. Yes, sir. As soldiers return they go through a 
briefing, a demobilization briefing. There are chaplains that 
are provided that do a one-on-one briefing, also counseling 
with those individuals. Obviously, there's going to be a 
limited amount of time that is available based on the number of 
soldiers that are going through that briefing. But if anything 
is identified, then they go back and they will spend more time. 
We are also told that when they come back that we are to watch 
them and to advise the spouses that if anything unusual is 
occurring that they can go back and have resources made 
available to them for that special counseling as well. I would 
say with the TRICARE benefits, that with your extension now to 
6 months of benefits, that would be an additional service that 
we could provide to them in the event that their lives were 
just not back in control.
    Senator Alexander. Major Hardin, you have just returned 
after a long time away. What is your report about morale of our 
reservists and national guardsmen and women especially, and 
about their reenlistment prospects?
    Major Hardin. I think overall the morale of the troops is 
very good. I know being away from family members is not a very 
good thing, but overall, I think the morale is very high. As a 
former commander of units before and being deployed for 
Operations Desert Storm and Desert Shield and coming back with 
the unit, I do not see retention is that big a problem right 
now, because most people who are in the Reserves or National 
Guard, a lot of them get in for the educational benefits, to go 
to school. Most of them are in it for the love of the country. 
In my unit it was a smaller unit, 15 men and only 7 got 
activated and went over. No problem at all. In fact, in most of 
our units that are deployed now, I do not see anybody coming 
back and getting out of the Service or the Reserves.
    Senator Alexander. Ms. Lindsay or Major Ward, do either of 
you have any comment to make on morale or reenlistment? You 
both see it from a little different vantage point.
    Major Ward. I will defer to you first.
    Ms. Lindsay. It is an adjustment and it is not only an 
adjustment for the families and the soldiers, but almost even 
for the community as well. We were so excited when Dennis came 
home from Operation Desert Storm that, of course, we were 
planning this big party, and everybody wanted to see him, and 
we never thought that might not be the best thing for him until 
I went through this class that was sponsored by the Family 
Readiness Program that said do not do that. Give them time to 
adjust to being back with family. Then the adjustments we went 
through, taking care of everything while they are gone, and to 
be sensitive to turn back over the duties that they had before 
in the family to them and how that whole process works. So I 
think that even during Operation Desert Storm, the Guard was 
doing a really good job of letting us know what to expect. I 
think it is even better now, because they are even more aware, 
more sensitive to the needs of the entire family.
    Major Ward. Sir, I would share with you that I have had 
some concerns voiced by some spouses, perhaps more 
disappointment in the lack of communication that is not coming 
from the theater, coming back through the chain of command 
about events that are going on with their families. Recently 
you have become aware that a few of our units were extended for 
an additional 6 months and just the timeliness and all, the way 
those orders were generated and that information came down 
created some disappointment on the side of families. I hear 
from the spouses, and we realize that spouses vent well. Some 
of them have told me, and I do not want to speak for the whole 
Guard, but their intent is to try to persuade their husband 
that he does not need to be quite so actively involved in the 
future. Now I just share that with you. I do not have any 
statistical data for that. But I am hearing that there is 
intent to end their service.
    Senator Alexander. Before I go to Senator Chambliss, let me 
ask each of you a question. I will start with Lieutenant 
Schroyer in a minute. A question that I asked at Fort Campbell 
when we were talking about active-duty families and their 
children. If you could wave a magic wand and do one thing that 
would make it easier for the families of reservists or national 
guardsmen and women, what would that one thing be?
    Lieutenant Schroyer, may we start with you?
    Lieutenant Schroyer. Yes, sir. I really cannot think of 
anything that could be done that has not already been 
implemented through our personnel director, Donna Kelly. As I 
stated before, things are so much better, the cooperation, the 
benefits, the information that is provided. I would consider 
our personnel director and her office to be the civilian 
equivalent to an employer support group for the officers that 
are on active duty now, sir.
    Senator Alexander. Thank you.
    Major Hardin.
    Major Hardin. I would think that the Army, the Reserves, 
and the National Guard, it has come a long way with the family 
support group that they sponsor. Maybe a little bit more 
programs. Basically the family support group, it all depends on 
what the unit puts together. It is what you can have all these 
neat programs and stuff, but basically it is the wives and the 
spouses that get together and form a bond and that is what 
really pulls the soldier through his deployment. So I think it 
is very important to have a real strong family support group.
    Senator Alexander. Ms. Lindsay.
    Ms. Lindsay. I agree with Terry Ward wholeheartedly. It is 
communication. We must communicate better. There is confusion. 
Our husbands leave here as a member of the 181st under the 
196th, and then they are under a different brigade, and we do 
not understand that exactly. Then we do not know who we get our 
information from, so we wear him out. We just need more 
communication. We want to know what is going on. We want to 
know where they are and how they are doing, and we want to know 
how to reach them if we need to. I know there are emergencies 
and that kind of thing. But I do believe that communication is 
our biggest need.
    Senator Alexander. So when they are not on active duty, 
then it is Major Ward and others who are with him who have the 
information about where they are and what they are doing and 
what is expected and that is where the answers come from?
    Ms. Lindsay. Right.
    Senator Alexander. When they are activated, they are turned 
over to other commands and that is confusing to the families 
who are accustomed to calling Major Ward and getting an answer, 
and they do not know who the other major is to call, I guess.
    Ms. Lindsay. It is an entirely different chain of command, 
and we do not know. We want accurate information and timely 
information. That is really what we want more than anything. I 
think having timely and accurate information and communication 
would stop some of the rumors, and it would stop some of the 
disagreements and the frustrations. It is when you are 
frustrated that you become angry, when you do not know what is 
happening.
    Senator Alexander. Yes.
    Ms. Lindsay. As long as we know what is going on we can 
deal with it.
    Senator Alexander. Major Ward, if you had a magic wand, 
what would you do?
    Major Ward. You provided it, sir, in the Army One Source 
that I referred to, the telephone number and the internet.
    Senator Alexander. Oh, yes.
    Major Ward. That in a way was a magic wand to connect 
families with each other and with the military and to provide 
services to them. I am very pleased obviously with what you 
have done there through funding that program, sir.
    Senator Alexander. That is helping you with calls from 
spouses who cannot get an answer? You tell them to call Army 
One Source?
    Major Ward. No, sir. What I tend to do is just communicate 
that that it is there and allow them to decide when they want 
to call. They need to know that that option is available for 
them and that it is a resource for them to be able, in a 
confidential way, to seek out something as simple as child 
care, or if they are thinking of suicide, or if the soldier 
comes home and is acting weird, and they think suicide is a 
solution, that there will be a professional person that can 
help them immediately and not go through a series of interviews 
and go through all this stigma that is attached with admitting 
that you are having some problems and thinking through 
problems.
    Senator Alexander. How quickly does someone actually get a 
real person when they call Army One Source? Do you go through a 
lot of buttons and recorded calls?
    Major Ward. No, sir. They are saying that within 20 seconds 
you should speak to an actual voice, a person who is going to 
interact with you.
    Senator Alexander. Thank you.
    Senator Chambliss. Thank you. Very interesting testimony 
from all four of you. Thank you for your enlightenment to us.
    Pressing on a little bit with One Source, of course the 
Marine Corps is where we initiated that program, and we had 
some testimony out at Offutt relative to One Source and what 
they are doing there, and it is really a tremendous asset. I am 
certainly pleased to see the Army moving forward. I know with 
the Navy and the Air Force we are going to take that on in 
short order.
    Do you have a Web site for One Source yet in the Army?
    Major Ward. Yes, we do.
    Senator Chambliss. The reason I asked that, I will just 
give you a quick anecdote. I remember one lady told me that she 
was being transferred to another base, and she pulled up the 
One Source Web site for the Marine Corps and, she was able to 
decide where they wanted to find off-base housing, because she 
knew because of that Web site what school delivered the type of 
education that she wanted her children to have. It was neat 
that she could pull all of that up, in addition to the location 
of hospitals and recreational activities, as well as shopping. 
I think that is a huge asset. It really brings it home to all 
of our service men and women as to what they can expect when 
they come to a new location.
    Ms. Lindsay, you have heard the testimony of both this 
panel as well as the previous panel, relative to information 
that is available to you. I am sure there are things that you 
thought of because you have been there. Your neighbor was 
exactly right. None of us can appreciate the role that you 
serve in. We do emphasize from the standpoint of teamwork that 
it is family teamwork and you are a part of that team.
    Could you give us some information maybe relative to things 
that you know from a practical experience standpoint that we do 
not provide that maybe we ought to be providing, or are there 
things that we do provide that are of particular benefit to you 
that we ought to do a better job of promoting and educating our 
men and women about?
    Ms. Lindsay. I am sure I will think of something on my way 
home. But the family assistance center I think has been 
invaluable, because it provides a consistency that we did not 
have before, because our groups are all volunteer leaders. 
Their husbands get transferred, they go out. They retire, we 
get new ones in, and they have to be retrained. We did not have 
that consistency, that one place or that one source that kept 
an eye on the whole picture. So the family assistance center, I 
think, really does that. It is one place with a consistency and 
a source of information that we can go through no matter the 
transfers and no matter the retirements. So I really think that 
has been a big deal and it is very timely.
    Senator Chambliss. How old were your children when your 
husband was deployed to Operation Desert Storm?
    Ms. Lindsay. They were teenagers during Operation Desert 
Storm.
    It was more difficult having children at home than during 
this last mobilization when they were gone, because it is just 
more difficult having children at home and you are doing it by 
yourself, as well. I believe the younger the children and the 
more children you have, the more difficult it is to try to do 
it by yourself.
    Senator Chambliss. Yes. One issue that has come to the 
forefront relative to military children, particularly in this 
last conflict, this is the first time we have seen embedded 
reporters on site in Iraq.
    Major Hardin, I might address this to you. How old is your 
son, Eli?
    Major Hardin. He will be nine in a couple of weeks.
    Senator Chambliss. Okay. You were in the midst of the 
conflict, and Eli was looking at the news, I assume every 
night, and seeing some pretty tough stuff on television. How 
did he fare, and were there any services provided by the Army 
that were available to your wife relative to the needs that Eli 
might have as a result of what he saw or what he heard in 
school or how he was treated by his friends?
    Major Hardin. Actually, Senator, I was fortunate that I 
came home January before the conflict started, so I was gone 
the year before. With an 8-year-old in the house, we watched 
the news. I had friends over there during the conflict, and are 
still over there now, and we watched, and we explained stuff. 
He had questions. All children are going to have questions like 
those. I think he had a better understanding of what was going 
on, because I was home and understood I had already done my 
time, and somebody else was over there doing it.
    As far as the services that the Reserves have, there's 
something that was sent out about 2 weeks ago that I received 
at my house. It was an interactive CD that the Reserves had 
sent out. We heard a lot about what the National Guard is doing 
for their soldiers, but this is something that the Reserves 
sent out. General Helmly was concerned about the reservists 
being deployed. His initiative was we will not be deployed 
maybe once in every 5 years and trying to get the force 
structure to change so there are not so many skilled sets out 
of the Reserves needed on active duty. My wife, I, and Eli sat 
down and watched it. It was interactive, and it had a thing for 
the kids to go on and draw and they could send e-mail to their 
parents, Christmas cards and things like this. So the Reserves 
are very proactive in what they are trying to do with family 
support and helping the deployed soldiers these days.
    Senator Chambliss. Mr. Schroyer, you have been on both 
sides of this. You were active in the Reserve military for 21 
years, I believe, before going with the Chattanooga Police 
Department, and now you are looking at it from an employer's 
standpoint. What assets from both sides of the picture that you 
are able to see have we done a good job with, and where do you 
see deficiencies relative to the current system of activating 
our men and women in the Guard and Reserves?
    Lieutenant Schroyer. Hopefully I can answer your question 
adequately. Based on what I have heard today, as I have said 
before, the work that you and the other Senators and the 
committees are performing to support members in the Guard and 
Reserve is just totally overwhelming. I cannot tell you how 
much that is appreciated, not only by me looking at it as a 
prior service member, but also representing the police 
department. I hope I am answering your question.
    Also, as to what I have heard are the concerns that not 
only our department but any other business, but especially a 
police department or fire department would have in regard to 
future mobilizations, I am sure there will be more of them 
coming up next year. The more people that we have that we lose 
that are mobilized, it affects the quality of services that a 
police department or a fire department can provide to the 
community that they represent. That also takes into effect the 
terrorist activities that may be anticipated in the future. But 
at the same time, we gain from knowledge that these individuals 
bring back from the units that they served with.
    As I stated previously, we have not been impacted so badly 
yet that it has affected our service to the community. If all 
of our members were all activated and mobilized at the same 
time, we do have some contingency plans that are going to be 
put in effect, such as recalling retirees to come back to work, 
volunteers, and other civilian volunteers to come and assist 
us, so that we can shift and allocate our personnel where they 
will be necessary.
    I do not know if that totally answers your question but 
hopefully it will, sir.
    Senator Chambliss. Let me just say to each of you how much 
we appreciate your being here today.
    It has been very important to provide enlightening 
testimony to us. On behalf of the President and every member of 
the United States Senate, the Vice President who is the 
President of the Senate, how much we appreciate the 
contribution that each one of you, as well as your colleagues, 
have made to winning this war on terrorism.
    Without your contributions, both on the civilian side and 
the military side, we would not be winning this war, but thanks 
to you we are. We appreciate you very, very much.
    To my good friend, Senator Alexander, thank you for hosting 
us here in Chattanooga. It has been a pleasure, as always, to 
be with you and be a part of this hearing. Thank you.
    Senator Alexander. Thank you, Senator Chambliss. It is a 
practice we ought to continue. There are a lot of mutual 
interests between Georgia and Tennessee in this direction, and 
Chattanooga is doing so well right now. It is a joy to work 
with the leadership in the community here.
    I want to echo what Saxby said about your service, Ms. 
Lindsay, and that of your husband and to the families who 
support you. We are all proud of you, and we are grateful for 
it. We are proud of our Tennessee National Guard, of our 
reservists in Tennessee, the rate at which they volunteered. 
For most of them it is an unexpected responsibility. Most of 
the guardsmen I know would not have expected to serve this 
long, this often, and this quickly. But most of the guardsmen 
and reservists I know are prepared to do it and proud to do it.
    Senator Chambliss and I will continue our work to try to 
identify those areas where we can be more supportive. We have 
heard today about child care; we have heard about clearer 
communications; we have heard about setting expectations, so 
families can make plans; we have heard about the family 
readiness centers and how helpful they have been; and we have 
heard about the challenges that are presented when a police 
department or a sheriff's office which has within it exactly 
the kind of men and women who we might be glad to have 
activated, suddenly finds more people activated than they can 
handle and the question whether there is a Federal 
responsibility there to make it easier for the Chattanooga 
Police Department, for example, to be able to continue to do 
its work at home while some of its members are doing work 
overseas. That would be true here, true in Bradley County, and 
wherever that concern might arise.
    It has been a very useful hearing. Thank you for your time. 
I want to especially thank the University of Tennessee at 
Chattanooga for the use of their sound system and the technical 
help we have received.
    Senator Chambliss, do you have anything else?
    Senator Chambliss. I do not think so.
    Senator Alexander. If not, the hearing is adjourned.
    [Whereupon, at 12 noon, the subcommittees adjourned.]

                                 <all>

</pre></body></html>
